                                                                                                                                                                                               sigar
        SIGAR
        Special Inspector General                                                                                                                                                                               Special Inspector General for    Apr 30




                                                                                                                     SIGAR | Quarterly Report to the United States Congress | April 30, 2014
        for Afghanistan Reconstruction
                                                                                                                                                                                                                Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                                Quarterly Report to the United States Congress
        By phone:
            Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone:
            phone: United States
        Toll-free:
        Toll       866-329-8893
             Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By fax:
           Fax: 703-601-4065
                703-601-4065
        By e-mail:
           E-mail: sigar.hotline@mail.mil
        By Web submission:
                 Submission: www.sigar.mil/investigations/hotline/report-fraud.aspx
                               www.sigar.mil/investigations/hotline/




                                                                                                                     2
                                                                                      sigar
                                                                                      Report Fraud, Waste or Abuse




FINAL_Apr2014_Cover.indd 1                                                                                                                                                                                                                          4/16/2014 11:41:16 AM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).

                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,                                                     Afghan National Army officers at a base in Laghman Province hold up blue-inked fingers that
                             or other funding mechanism entered into by any department or agency of the                                                    show they voted in the April 5 presidential and provincial-council election. (U.S. Army photo)
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                                                                                                                                        Quarterly Report Staff

                                                                                                                                        Michael Bindell, Economic and Social Development Subject Matter Expert     Emmett Schneider, Senior Data Analyst/Senior Auditor
                                                                                                                                        Victoria Butler, Director of Research and Analysis Directorate/Editor      Deborah Scroggins, Senior Writer/Editor
                                                                                                                                        Clark Irwin, Deputy Director of Research and Analysis Directorate/Editor   Solange Toura Gaba, Research Assistant
                             Cover photo:                                                                                               Vong Lim, Visual Information Specialist                                    Daniel Weggeland, Governance Subject Matter Expert
                             Afghans check in at a Kabul polling place on April 5 to participate in nationwide voting to select a new
                                                                                                                                        Jennifer Manzullo, Program Manager                                         Genevieve Wilson, Senior Auditor
                             president and members of 34 provincial councils. (United Nations Assistance Mission in Afghanistan
                                                                                                                                        Olivia Paek, Visual Information Specialist                                 Joseph Windrem, Security Subject Matter Expert
                             photo by Fardin Waezi)




FINAL_Apr2014_Cover.indd 2                                                                                                                                                                                                                                                4/16/2014 11:41:17 AM
                                                    JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                                  BALKH                    TAKHAR


                                                                    SAMANGAN
                                        FARYAB                                     BAGHLAN
                                                    SAR-E PUL                          PANJSHIR
                              BADGHIS                                                       NURISTAN
                                                                            PARWAN   KAPISA      KUNAR
                                                                  BAMYAN                 LAGHMAN
                                                                                  KABUL
          HERAT
                                                                         WARDAK
                                                                                           NANGARHAR
  Still undergoing repairs              GHOR                                    LOGAR
after 2013 insurgent attack
                                                     DAYKUNDI                              PAKTIYA
                                                                        GHAZNI                 KHOWST

                                                  URUZGAN
            FARAH
                                                                                 PAKTIKA
                                                                ZABUL




           NIMROZ                                                                                           Current SIGAR offices
                              HELMAND
                                               KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                                            audit, inspection, and investigation work
                           SPECIAL INSPECTOR GENERAL             for

                           AFGHANISTAN RECONSTRUCTION



I am pleased to submit to Congress, and to the Secretaries of State and Defense, SIGAR’s
23rd quarterly report on the status of the U.S. reconstruction effort in Afghanistan.
   Afghanistan enjoyed a rare moment of optimism this quarter. On April 5, 2014, more than
seven million Afghans, 35% of them women, went to the polls to choose a new president
and provincial council members, according to the National Democratic Institute. Despite
Taliban threats and a string of murderous attacks on foreigners and Afghans in the weeks
leading up to the elections, the Afghan National Security Forces managed to keep 6,218
out of 6,423 polling stations open. Early indications reported by Afghanistan’s Independent
Election Commission suggest a runoff is likely between presidential candidates Abdullah
Abdullah and Mohammad Ashraf Ghani Ahmadzai. Both men have promised to sign a
bilateral security agreement which would keep some U.S. troops in Afghanistan to support
continued training of Afghanistan’s security forces and pave the way for continued recon-
struction support.
   Despite the prospect of a peaceful, democratic transition of power, grave dangers still
remain for U.S.-funded reconstruction. The World Bank has predicted for several years
that Afghanistan would suffer an economic contraction as Coalition troops draw down.
The country’s domestic revenues for the last Afghan fiscal year (December 21, 2012–
December 20, 2013) fell short of Ministry of Finance targets by 11.9%. At the same time,
the Afghan government’s expenses have increased, exacerbating an already significant gap
between revenue collection and budget expenditures. Afghan revenues in 2014 could cover
as little as a third of the country’s $7.5 billion budget. The revenue decline comes at a time
when dozens of reconstruction projects and their associated operation-and-maintenance
costs are being turned over to the Afghan government.
   Some of SIGAR’s work this quarter focused on this issue. Customs revenue has
accounted for between 44% and 48% of Afghanistan’s total domestic revenue for the past
three fiscal years. Yet a SIGAR performance audit published in April found that, despite the
U.S. allocation of $198 million to develop Afghan capacity to assess and collect customs
revenue, its potential as a stable source of government income remains uncertain. SIGAR’s
auditors found that the single biggest issue limiting collection of customs revenues is cor-
ruption. Moreover, U.S. advisors report that Afghan employees who try to properly collect
customs duties have been kidnapped and intimidated. Section 1 of this report discusses the
threat that corruption poses to the reconstruction effort as a whole.
   During my visit to Afghanistan this quarter, I toured the forward operating base at the
Torkham Gate Border Crossing on the border with Pakistan. About 80% of Afghanistan’s
customs revenues are reportedly collected at this crossing, the country’s busiest. I was told
that when U.S. mentors and observers are not present, revenue collection falls. This was
not encouraging, especially as the crossing will soon be outside the reach of U.S. personnel
because the U.S. military will no longer be able to provide escort to the area.
   I continue to have serious concerns about the ability of U.S. agencies to implement and
monitor reconstruction programs as U.S. forces withdraw. In February, SIGAR, together
with the United States Institute for Peace, convened a symposium to discuss the oversight
challenges and identify best practices for remote management and monitoring in insecure



                          2530 Crystal Drive Arlington, Virginia 22202
environments. We will soon issue a report on the symposium that will outline the options
for oversight post-2014.
   The 20 audits, inspections, and other reports SIGAR issued this quarter examined
programs and projects worth approximately $31 billion. They identified failures of plan-
ning, construction, and oversight. They also raised concerns about International Security
Assistance Force plans to sustain their capability-assessment efforts of the Afghan security
forces, USAID’s strategy for Afghanistan’s water sector, and the rising cost of install-
ing an additional power-generating turbine at Kajaki Dam. SIGAR also completed two
financial audits which identified nearly $14.5 million in questioned costs for this quarter
out of almost $75.3 million to date. Section 2 of this report summarizes our findings and
recommendations.
   Since my last report to Congress, SIGAR has opened 60 new investigations and closed
40, bringing the total number of ongoing investigations to 338. The criminal fines, res-
titutions, forfeitures, and cost savings to the U.S. government from SIGAR’s ongoing
investigations in this reporting period amounted to approximately $6.7 million. SIGAR’s
suspension and debarment program referred 16 individuals and 15 companies for suspen-
sion or debarment based on allegations that they engaged in fraud and non-performance as
part of contracts valued at almost $61 million.
   This quarter, I reiterate my concerns about the policies of the U.S. Army’s suspension
and debarment program. As I have pointed out in the last four quarterly reports, the Army’s
refusal to suspend or debar supporters of the insurgency from receiving government con-
tracts because the information supporting these recommendations is classified is not only
legally wrong, but contrary to sound policy and national-security goals. I continue to urge
Congress to change this misguided policy and impose common sense on the Army’s suspen-
sion and debarment program.
   Since 2002, the Congress has appropriated nearly $103.2 billion to rebuild Afghanistan—
more than the United States has ever spent on reconstruction of any other nation. SIGAR
is concerned about the ability of the Afghan government to sustain the achievements of the
past 12 years in light of the increasing gap between its revenues and its obligations. The
United States and its allies have been providing budget assistance—either through multi-
national trust funds or as direct government-to-government aid—to help cover the Afghan
government’s budget shortfalls. We will continue to monitor and assess U.S. direct assis-
tance programs. We will also be taking a serious look at program design, implementation,
and sustainability in a series of sector-wide audits currently under way.
   As Afghanistan embarks on the first democratic transfer of power in its history, my staff
and I look forward to working together with Congress, implementing agencies, and other
oversight bodies to ensure that U.S. tax dollars are not subject to corruption or waste.

Respectfully,




John F. Sopko
Special Inspector General for Afghanistan Reconstruction



                         2530 Crystal Drive Arlington, Virginia 22202
                                         Executive Summary




This report provides a summary of SIGAR’s oversight work and an update on developments in
the three major sectors of Afghanistan’s reconstruction effort from January 1 to March 31,
2014.* It also includes a discussion of the threat corruption poses to the reconstruction effort.
During this reporting period, SIGAR published 20 audits, inspections, alert letters, and other
reports assessing the U.S. efforts to build the Afghan security forces, improve governance, and
facilitate economic and social development. These reports identified a number of problems,
including weaknesses of assessment and oversight, corruption, construction deficiencies, and
other threats to health and safety. The criminal fines, restitutions, forfeitures, and cost savings
to the U.S. government from SIGAR’s ongoing investigations in this reporting period amounted
to approximately $6.7 million. SIGAR investigations also resulted in an arrest, a criminal
information, two plea agreements, and six sentencings in the United States. In Afghanistan, two
subjects were convicted and sentenced and eight individuals were barred from having military
installation access.


SIGAR Overview
AUDITS
SIGAR produced three performance audits, two financial       supporting documentation, failure to adhere to procure-
audits, two inspections, and two inspection alert letters.   ment procedures, improper approvals for invoices and
The performance audits found:                                payment application requests, and failure to complete
•	 The International Security Assistance Force (ISAF)        a road construction project in accordance with award
   needs to improve its plans for sustaining capability-     requirements.
   assessment efforts of the Afghan National Security            The inspection alert letters informed the
   Forces (ANSF) after Coalition troops draw down.           Department of Defense (DOD) that SIGAR has opened
•	 Despite some successes in building the Afghan             a preliminary investigation into the construction of an
   government’s capacity to assess and collect               incinerator system at FOB Sharana in Paktika Province
   customs revenue, challenges will limit customs as a       and the State Department (State) of design and construc-
   sustainable source of revenue for Afghanistan.            tion defects at a prison in Baghlan Province.
•	 The United States Agency for International                    The inspection reports of U.S.-funded facilities dis-
   Development’s (USAID) strategy for Afghanistan’s          cussed the following issues:
   water sector needs to be updated to ensure effective       •	 Comments from U.S. Forces-Afghanistan (USFOR-A)
   oversight and accountability.                                 on SIGAR’s inspection of Salang Hospital
                                                              •	 Whether Camp Monitor in Jowzjan Province is being
   The financial audits identified nearly $14.5 mil-             used as intended
lion in questioned costs as a result of internal control
deficiencies and noncompliance issues. These deficien-
cies and noncompliance issues included, among other          NEW AUDITS AND INSPECTIONS
things, inadequate cash disbursement controls resulting      This quarter, SIGAR initiated six new performance
in theft of federal funds, missing timesheets, manage-       audits, 27 new financial audits, and five new inspections.
ment and administration costs charged to the wrong           The six new performance audits will assess:
Afghanistan reconstruction award, failure to conduct         •	 The status of all recommendations made to State,
vendor suspension and debarment checks, ineligible              USAID, and DOD in financial, inspection, or audit
entertainment expenses, poor record retention, lack of          reports




                                            iv                Special inspector general   I   Afghanistan reconstruction
                              Executive Summary




•	 U.S. assistance to develop rule-of-law programs in        Afghanistan, two subjects were convicted and sen-
   Afghanistan                                               tenced and eight individuals were barred from having
•	 Programs and initiatives undertaken by State and          military installation access. Criminal fines, restitutions,
   USAID to assist Afghan refugees and internally            and forfeitures amounted to nearly $4 million. SIGAR
   displaced persons                                         initiated 60 new investigations and closed 40, bringing
•	 The extent to which DOD’s Task Force for Business         the total number of ongoing investigations to 338. In
   and Stability Operations (TFBSO) and USAID                addition, SIGAR’s suspension and debarment program
   programs met their goals to develop Afghanistan’s         referred 16 individuals and 15 companies for suspen-
   extractives industry                                      sion or debarment based on evidence developed as part
                                                             of investigations conducted by SIGAR in Afghanistan
   The 27 new financial audits will examine DOD, State,      and the United States.
and USAID awards with combined incurred costs of                 Investigations highlights include:
more than $2.3 billion, bringing the total number of          •	 An investigation of a trucking company that saved
ongoing financial audits to 45 with nearly $4.1 billion in       the U.S. government $2.5 million
costs incurred.                                               •	 Two U.S. soldiers sentenced for bribery and
   The five new inspections will examine two indus-              conspiracy
trial parks, an ANA slaughterhouse, the ANA Camp              •	 Two Afghan truck drivers convicted of theft
Commando complex, and the Afghan Ministry of                  •	 Disruption of a human trafficking scheme at
Defense Headquarters.                                            Kandahar Airfield
                                                              •	 A U.S. couple convicted of conspiracy to commit fraud
                                                              •	 A U.S. Army sergeant convicted of conspiracy and theft
SPECIAL PROJECTS                                              •	 A State Department contractor sentenced for receipt
During this reporting period, the Office of Special              of an illegal gratuity
Projects issued a fact sheet on State’s assistance to
Afghanistan. In addition, the office issued inquiry let-
ters on:                                                     * 	 SIGAR may also report on products and events occuring
•	 An Mi-17 crash and demolition                                 after March 31, 2014, up to the publication date.
•	 Afghan National Police (ANP) ghost workers
•	 Document preservation from a review of a decision
   to build a 64,000-square-foot building
•	 Communications towers not being used for their
   intended purpose
•	 DOD contract data
•	 Cancelled USAID contracts
•	 An ANP mobile money pilot program
•	 A U.S. Department of Agriculture soybean program


INVESTIGATIONS
During the reporting period, SIGAR’s ongoing inves-
tigations saved the U.S. government approximately
$2.7 million. SIGAR investigations also resulted in
an arrest, a criminal information, two plea agree-
ments, and six sentencings in the United States. In




Report to the united states congress   I   April 30, 2014                v
Table of Contents




     Section 1
     	      1	Corruption Threatens Reconstruction
         	4	 U.S. Strategy Contributed to Corruption
         	5	 Too Much Money, Too Little Oversight
         	6	 No Clear Definition of Corruption
         	10	 Lack of Political Will to Combat Corruption
         	12	 Failure to Develop a Comprehensive Anticorruption Strategy
         	13	 Developing an Anticorruption Strategy Is Not Easy
         	15	 Safeguarding Future U.S. Reconstruction Funds




     Section 2
     	    17	SIGAR Oversight Activities
         	20	 In Memoriam: Joel Brinkley
         	21	 SIGAR Testifies on Oversight of the U.S. Agency
              for International Development
         	22	Audits
         	35	Inspections
         	40	 Special Projects
         	47	Investigations
         	55	 Other SIGAR Activities
         	60	 SIGAR Budget
         	60	 SIGAR Staff
         	61	 With Gratitude: Victoria Butler




     Section 3
     	    63	Reconstruction Update
         	65	Overview
         	68	 Funding for Afghanistan Reconstruction
         	71	 Status of Funds
         	85	Security
         	119	Governance
         	157	 Economic and Social Development
Table of Contents




      Section 4
      	   201	Other Agency Oversight
          	204	 Completed Oversight Activities
          	209	 Ongoing Oversight Activities




      Appendices & Endnotes
          	222	 Appendix A:	    Cross-Reference of Report
                 		             to Statutory Requirements
          	228	 Appendix B:	    U.S. Funds for Afghanistan Reconstruction
          	 230	 Appendix C:	   SIGAR Written Products
          	236	 Appendix D:	    SIGAR Investigations and Hotline
          	242	 Appendix E:	    Abbreviations and Acronyms
          	 248	Endnotes
     “An economy can only absorb a
     certain amount of inputs until it
 becomes saturated. Additional input
 goes somewhere else, usually capital
  flight, usually illicit. In Afghanistan,
 absorptive capacity [was] reached in
the first year of operations. That led to
        the corruption eruption.”
                                              — Senior USAID official




           Source: Interview for DOD Joint Staff report, Operationalizing Counter/Anti-Corruption Study, February 2014.
1
    Corruption
    Threatens
    Reconstruction




        1
                                              Corruption Threatens




                                              Contents Contents
                                              Corruption

                                              U.S. Strategy Contributed to Corruption	                       4
                                              Too Much Money, Too Little Oversight	                          5
                                              No Clear Definition of Corruption	                             6
                                              Lack of Political Will to Combat Corruption	 10
                                              Failure to Develop a Comprehensive
                                              Anticorruption Strategy	                                      12
                                              Developing an Anticorruption Strategy
                                              Is Not Easy	                                                  13
                                              Safeguarding Future U.S.
                                              Reconstruction Funds	                                         15




Photo on previous page
An aerial view of the Khyber Pass with Torkham Gate, an important border crossing
point in the Afghan customs system. This location will soon be inaccessible to
SIGAR staff due to security concerns. (SIGAR photo by Smythe Anderson)




                                                  2                   Special inspector general   I   Afghanistan reconstruction
                     Corruption Threatens




corruption threatens
reconstruction
“Corruption directly threatens the viability and legitimacy of the Afghan
state” was the dire warning of an important study issued this quarter by a
section of the Joint Staff of the U.S. Department of Defense (DOD). The
study, commissioned by General Joseph F. Dunford, Commander of U.S.
Forces-Afghanistan (USFOR-A), summarized the danger: “Corruption
alienates key elements of the population, discredits the government and
security forces, undermines international support, subverts state functions
and rule of law, robs the state of revenue, and creates barriers to economic
growth.”1 The Joint Staff report drew in part on SIGAR audits and echoed
observations made by academics and individuals involved in Coalition
efforts to stabilize and develop Afghanistan. Displaying a critical aware-
ness and candor often missing from official documents, the report laid out
some key findings:2
•	 The initial U.S. strategy in Afghanistan fostered a political climate
    conducive to corruption.
•	 Massive military and aid spending overwhelmed the Afghan
    government’s ability to absorb it. This, coupled with weak oversight,
    created opportunities for corruption.
•	 The lack of a common understanding of the nature of corruption
    stymied efforts to combat it.
•	 The lack of political will on the part of both the international
    community and the Afghan government to combat corruption resulted
    in a culture of impunity that frustrated anti-corruption efforts.
•	 The failure to develop a comprehensive U.S. anti-corruption strategy
    reduced the effectiveness of various anticorruption initiatives.

   Surveys, audits, legal proceedings, and observations from Afghans and
international observers have long identified corruption as one of the most
serious obstacles to the reconstruction effort. Transparency International
has Afghanistan tied for last place with Somalia and North Korea as the
country perceived as the most corrupt of 177 countries rated.3 Members of
Congress and U.S. officials have expressed growing concern.4 Even as U.S.




Report to the united states congress   I   April 30, 2014              3
Corruption Threatens




Poppy fields share land with legal crops in this view taken north of Kandahar.
(SIGAR photo by Elizabeth Faulkner)


Agency for International Development (USAID) official Donald L. Sampler
told a House subcommittee in early April about Afghanistan’s U.S.-funded
achievements, he observed that it is “the most corrupt place I’ve ever been
to.”5 The Joint Staff report makes clear that U.S. government efforts helped
create an environment in which corruption could flourish.


U.S. Strategy Contributed to Corruption
The U.S. military used a proxy force—composed largely of warlords
associated with Afghanistan’s Northern Alliance—to drive the Taliban and al-
Qaeda from power in 2001. However, as several civilian and military analysts
have pointed out, and as the military’s latest study reiterates, these warlords
often used U.S. support to operate with impunity to increase their political
power and improve their economic positions.6 Afghan political leaders have
built allegiances by cutting political deals that put powerful figures in key
government positions and allowed them to behave with impunity.
   Some of these figures have used their government positions to entrench
and expand their patronage networks. In some cases, these patronage
networks have morphed into criminal networks involved in everything
from extrajudicial land seizures and extortion, to narcotics trafficking and
money laundering.
   Rule-of-law and democracy scholar Sarah Chayes of the Carnegie
Endowment for International Peace argues that the military gave short
shrift to corruption, even as its presence aggravated the problem:




    4                   Special inspector general      I   Afghanistan reconstruction
                     Corruption Threatens




        At every echelon, short-term security imperatives repeat-
        edly trumped corruption concerns. Battalion commanders
        got cozy with police officials whose men were shaking down
        locals at every checkpoint, with a blow or an insulting sneer,
        or were imprisoning people for ransom, or demanding young
        sons for service as tea-boys—and other activities. Diplomats
        stood shoulder-to-shoulder with provincial governors who
        were key nodes in predatory government networks. The CIA
        insisted on secretly paying off key assets, including Afghan
        President Hamid Karzai … And Afghans were watching.
        “People think the Americans must want the corruption,” a
        former Kandahar neighbor remarked.7

   Into this environment, the United States poured billions of reconstruc-
tion dollars.


Too Much Money, Too Little Oversight
The Joint Staff report found “the deluge of military and aid money into
Afghanistan” overwhelmed the Afghan government’s ability to absorb these
funds. This, coupled with weak oversight by U.S. implementing agencies and
other international donors, “created ample opportunities for corruption.”8
    Afghan officials, including President Hamid Karzai, have accused
the international community of fueling corruption.9 Senior U.S. officials
have acknowledged that the Afghan president has a point. U.S. Army
Major General Herbert R. McMaster, who headed a task force set up in
part to combat corruption, told a university audience in Kabul in 2011,
“Corruption has been exacerbated by the vast sums of international
resources that have entered Afghanistan over the last ten years, often
without adequate oversight. . . .”10
    Reconstruction assistance alone has dwarfed the size of the Afghan
economy. For example, according to the World Bank, Afghanistan’s total
GDP amounted to about $15.9 billion in 2010. That year, Congress appro-
priated President Obama’s request for more than $16 billion to build
Afghanistan’s security forces, government, and economy. This did not
include the tens of billions of dollars spent that year on the U.S. military
operations in Afghanistan. Since 2010, Congress has provided nearly $64 bil-
lion for reconstruction programs. This is nearly 62% of the $103 billion
Congress has appropriated for Afghanistan’s reconstruction since 2002.
    In a speech to the Atlantic Council in March this year, Special Inspector
General John Sopko posed the question: “How was Afghanistan, with
its very poor economy, going to efficiently absorb this largesse, and why
would corrupt officials and others looking at floods of poorly supervised
cash and an uncertain future not take advantage of the opportunity to take
a cut for themselves?”11
    SIGAR and others have found that U.S. implementing agencies have not
always exercised sufficient oversight of their massive spending. SIGAR




Report to the united states congress   I   April 30, 2014                5
Corruption Threatens




audits and inspections have catalogued lack of planning, contract mis-
management, poor quality control, and weak accountability. Consequently,
Afghanistan has schools built so badly they are in danger of collapsing, clin-
ics with no doctors or medical supplies, police and army barracks that are
not fit to use, and roads that are disintegrating for lack of maintenance.
   There are many explanations for the inadequate management and over-
sight, including poor security, a high turnover of U.S. military and civilian
personnel, widespread failure to observe rules, lack of an integrated
interagency system to track reconstruction projects, and inadequate impo-
sition of accountability for incompetent or dishonest actions. The result of
these and other flaws has been to leave the door open—or open it wider—
to corruption.
   Coalition efforts to tackle corruption have also been stymied by impre-
cise descriptions of corruption.


No Clear Definition of Corruption
The Joint Staff report pointed out that the United States and its coalition
partners have not had a clear, shared definition of corruption, or a full
appreciation of how Afghans perceived corruption.12 A 2013 International
Security Assistance Force (ISAF) report on corruption made the same
observation, pointing out that “The concept is generally understood the
world over but cultural factors, variances in laws between nations, and
other factors blur the line between what is acceptable or not in a given
country; even the UN Convention Against Corruption does not define




Snow is removed from the Gardez Khowst road. Bribe seeking at highway checkpoints is
a common form of corruption in Afghanistan. (USAID/Afghanistan photo)




   6                   Special inspector general   I   Afghanistan reconstruction
                     Corruption Threatens




the term.”13 Afghanistan ratified the United Nations Convention against
Corruption in 2008. However, as the ISAF report notes, the UN list of terms
does not explicitly define “corruption,” but lists a number of “predicate
acts” like embezzlement and money laundering.
    The Afghan statute that established Afghanistan’s High Office of
Oversight and Anti-Corruption, (or “HOO,” which is also sometimes abbre-
viated as “HOOAC”) takes a broader official view of corruption, covering
conduct that many people would consider dereliction of duty or poor per-
formance rather than overt corruption: unauthorized destruction of official
records, exceeding legal scope of authority, “concealing the truth,” and
delaying execution of assigned duties.14 As the wording of the HOO statute
illustrates, formal definitions of corruption can vary in their expansiveness.
    The DOD Joint Staff, citing definitions that revolve around abuse of pub-
lic office and private gain, pointed out that “The words ‘abuse’ and ‘private’
were often not appropriate” for dealing with conditions in Afghanistan,
where gifts to officials and favors for ethnic or tribal patronage networks
are normal. ISAF eventually defined corruption as “the misuse of power for
personal gain,” but found applying even that loose standard challenging.15
Corruption in Afghanistan includes everything from petty bribery for rou-
tine services, nepotism, and tribal preference, to contract fraud, large-scale
theft of resources, and subversion of the justice system.

Petty Corruption on a Grand Scale
No one knows just how much Afghans pay each year in bribes, but the
estimates are substantial. The United Nations Office of Drugs and Crime
(UNODC) reported last year that in 2012, “half of Afghan citizens paid a
bribe while requesting a public service” and “bribes paid to public offi-
cials amounted to US $ 3.9 billion,” equivalent to 20% of the country’s
gross domestic product.16 The biannual National Corruption Survey by the
nongovernmental group Integrity Watch Afghanistan had a much lower
number. It estimated that Afghans paid about $1.25 billion in bribes in 2012
compared to $1.07 billion in 2010.17 This survey found that 18% of respon-
dents had paid a bribe to public officials, such as the police. The average
respondent had paid four bribes averaging about $190 each—a significant
cost for people in a country with a per capita gross domestic product of
only $687.18 Integrity Watch is currently reviewing the findings of a new
corruption survey which it plans to publish in the coming months. It told
SIGAR that its preliminary findings indicate that corruption has become
even more of a problem.
   These varying estimates—at minimum equivalent to more than half the
Afghan government’s domestic revenue—result from bribes paid to public
officials for services such as getting a government form stamped or pay-
ing a bribe to get through a police checkpoint. The UNODC has pointed
out that the scale and pervasiveness of corruption partly reflects Afghan




Report to the united states congress   I   April 30, 2014                7
Corruption Threatens




attitudes and practices. Afghans see corruption as a problem for their
country—but also accept some forms of it in ordinary life. The UNODC
says 68% of citizens interviewed in 2012 thought it acceptable for civil
servants to augment their low salaries with small bribes, while 67% consid-
ered it sometimes acceptable for family ties and friendship to determine
civil-service hiring.19 The HOO has also described some petty bribery as
simply a response to a “difficult, intolerable, time consuming and expen-
sive” process for getting permits, licenses, or document recording, adding
“All these processes involve and facilitate petty corruption.”20 While some
have argued that this “petty bribery” is the way Afghans have traditionally
operated, Sarah Chayes, who ran a business in Kandahar and served as an
advisor to ISAF for several years before joining the Carnegie Endowment
for International Peace, says the bribery occurs within “vertically inte-
grated” networks of corruption:
        Western analysts and decision-makers tend to discount what
        they call “petty corruption”—constant police shake-downs
        in the guise of traffic enforcement; demands for payment by
        school principals, doctors, or even the clerk in charge of fill-
        ing out death certificates . . . and systematic sale of judicial
        decisions. Many Westerners describe such abuses as merely
        the greasing of the wheels necessary to “get things done”
        in developing countries. In fact, such injustices and humili-
        ations are sources of daily outrage to citizens . . . And they
        are intimately linked to the rent-seeking at the top. For these
        corrupt networks are vertically integrated. In Afghanistan,
        the Kandahar bench pays a monthly cut of the bribes local
        judges extort to the chief justice of the Supreme Court,
        according to public prosecutors.21


   In other words, this petty bribery—or predatory corruption—is a signifi-
cant feature of the spider web of corruption that has ensnared the financial
and justice sectors, impeded revenue collection, tolerated land appropria-
tions, and fed criminal patronage networks.

Grand Corruption Undermines Public Trust
Systemic, large-scale corruption impedes Afghan revenue collection, jeopar-
dizes economic development, and thwarts efforts to establish the rule of law.
   The U.S. reconstruction strategy includes helping the Afghan govern-
ment collect more revenues to cover its budget shortfall and become less
dependent on the international community for its operating expenses. A
SIGAR audit of the Afghan customs system released this quarter found,
“Corruption is affecting all levels of the customs process and is the big-
gest issue affecting Afghan customs processes and revenues.” The audit
notes that the extent and impact of customs corruption is “difficult to
quantify,” but cites U.S. agencies’ estimates that tens of millions of dol-
lars are lost to smuggling each year and that reducing corruption “could




   8                 Special inspector general    I   Afghanistan reconstruction
                     Corruption Threatens




potentially double the customs revenues remitted to the central govern-
ment.” The audit also notes that the United States has spent at least $198
million since 2009 to improve the Afghan government’s ability to assess
and collect customs revenue.22
    Since 2012, Afghanistan has not been able to meet its revenue collection
targets. Between December 2012 and December 2013, it missed its $2.4 bil-
lion target by nearly 12%. U.S. and Afghan officials have told reporters that
it could miss its 2014 target of $2.5 billion by as much as 20%. This would
mean that the Afghan government will only be able to pay for about a third
of its $7.5 billion budget. It will depend on the international community to
cover the shortfall. See Section 3 of this report, page 159 for a full discus-
sion of the Afghan budget.
    The Afghan government and the international community are hoping
that Afghanistan can boost its economy and increase revenues by develop-
ing the private sector, particularly in mining. However, plans to develop
the country’s energy and mineral resources, described in Section 3 of this
report, could also expand the opportunities for grand corruption beyond
those currently available through the country’s world-leader status as an
opium producer if the government has not established and cannot enforce a        U.S. customs advisors work with Afghan
legal framework for mine development.                                            customs officials at the Weesh border
                                                                                 crossing point. (U.S. Army photo)
    At the same time, corruption seriously hampers efforts to develop a
responsible and tax-paying private sector. As the HOO put it, “Corruption
constrains private sector investment, increases transaction costs, exposes
entrepreneurs to threats of extortion and erodes business confidence via
the unpredictability of licensing, property ownership, intellectual and other
property rights/contracts.”23
    A World Bank analysis comparing the business climates of 185 countries
supports this view. Although the World Bank put Afghanistan in 28th place
for ease of starting a business, it ranked the country 164th for enforcing
contracts and 185th for protecting investors.24 Potential investors might
well wonder how great a role corruption plays in those rankings—and how
much it might cost them to ensure better treatment.
    The Kabul Bank saga, which SIGAR has reported on extensively in both
its quarterly report to Congress and its audits of the financial sector, exem-
plifies how the patronage system and the deliberate failure to prosecute
people guilty of gross fraud and abuse is undermining the Afghan economy
and putting future development efforts at grave risk. Before its near col-
lapse in 2010, the Kabul Bank was Afghanistan’s largest private bank.
Individuals and companies associated with the bank stole about $935 mil-
lion from the bank, largely through fraudulent loan activity. About 92% of
the funds went to 19 well-connected individuals. Afghanistan’s central bank
covered the losses, which were the equivalent of more than half the govern-
ment’s entire domestic revenue in 2010, and represented about 5% of the
country’s GDP at the time.




Report to the united states congress   I   April 30, 2014                9
Corruption Threatens




   Despite multiple investigations and international pressure to hold the
individuals involved in the theft accountable, the Afghan government has
recovered only about $174.5 million. The Afghan Attorney General’s Office
deliberately slow-walked the investigation and although a few people have
received light sentences, most of the key perpetrators, including mem-
bers of the country’s political elite, have not been brought to justice. (See
Section 3, page 167 for an update on the Kabul Bank.)
   The Kabul Bank crisis has had a profound impact on the entire finan-
cial sector. SIGAR recently issued an audit that found the banking system
remains extremely fragile. The central bank lacks capacity and is in des-
perate need of technical assistance. However, the Afghan government has
banned U.S. advisors from working at the central bank. SIGAR auditors
concluded that Afghanistan is at serious risk of another banking crisis.25
   Failure to reform and regulate the banking sector is putting the country’s
future development in jeopardy. For example, the International Monetary
Fund’s (IMF) Extended Credit Facility (ECF) provides medium-term assis-
tance to low-income countries at little or no interest. The loan agreement with
Afghanistan is contingent on the government’s making banking and financial
reforms that would increase transparency and accountability. These include
passing an internationally acceptable anti-money-laundering law—something
the Afghan government has refused to do—and facilitating information shar-
ing between the central bank and Afghan law enforcement agencies as well
as meeting macroeconomic targets. The IMF will not disburse any ECF funds
without a favorable board review. It has not disbursed any funds since 2012
because Afghanistan has not made enough progress on reform.
   This quarter, the Financial Action Task Force (FATF)—an international
body that sets standards to combat money laundering, terrorist financing,
and other threats to the integrity of the international financial system—
downgraded Afghanistan’s status because of its continued failure to
improve its money-laundering countermeasures. Experts have cautioned
that Afghanistan is at risk of being blacklisted. A blacklisting, which would
make it difficult for Afghan banks to have correspondent relationships
with international banks, could be devastating to the financial sector and
the overall economy. Afghanistan must have a reliable banking system that
observes and enforces internationally accepted rules to attract foreign
investment as well as keep international assistance flowing after 2014. For
more information on this issue, see Section 3 of this report.


Lack of Political Will to Combat Corruption
The Joint Staff report concluded that neither the international community
nor the Afghan government has been fully committed to combating corrup-
tion. The study pointed out that Coalition forces did not focus on corruption
at all until 2009 for a variety of reasons:




  10                 Special inspector general   I   Afghanistan reconstruction
                     Corruption Threatens




•	 ISAF did not have the ability to accurately assess the impact of
   corruption.
•	 The U.S. military has no programs to train and equip personnel to
   combat corruption.
•	 High turnover of staff made it difficult to institute anticorruption
   measures.

    At the same time, the Joint Staff report found, the U.S. military was
reluctant to address the problem of corruption unless there unless there
appeared to be countermeasures the military could take. Indeed, it said the
Afghan setting creates a problem for donor nations attempting to imple-
ment both anti- and counter-corruption measures. DOD’s JCOA report notes
that anticorruption measures like transparency requirements, account-
ability control, inspections, and audits limit opportunities for corruption
and influence individual behavior, but do not actually sanction wrongdoers.
Sanctioning occurs under countercorruption measures that entail both pun-
ishment and deterrence. Unfortunately, in Afghanistan, “Countercorruption
measures were strongly reliant upon an effective legal system, particularly
an independent judiciary.” Afghanistan has neither an independent judiciary
nor a legal system focused on rooting out corruption.26
    Developing indigenous institutions to combat systemic corruption is
extremely difficult. In a study of legitimacy in fragile states, the interna-
tional Organization for Economic Cooperation and Development (OECD)
observed that “A fundamental problem in many fragile states is that politi-
cal and economic elites may have very little interest in strengthening state
capacity or in constructive engagement with their own citizens, because
they do not depend on them for revenue.” Instead, the OECD explained that
elites in some poor countries enjoy “unprecedented opportunities for per-
sonal enrichment” through smuggling, export deals, and proceeds of trade
in illegal narcotics.27
    In an April 2014 speech, President Karzai argued that Afghanistan will
not successfully address corruption unless it makes progress on govern-
ment reforms that would provide civil servants with a living wage and
secure future. “In order to fight graft, we must reform our administrative
system and make sure we pay enough salary to our employees and make
sure their future is guaranteed,” he said, “So far, I don’t see signs of success
in fighting graft or making government reforms.”28
    The HOO has described corruption as a deep-rooted structural problem,
exacerbated by both internal and external factors. Among the internal fac-
tors, the HOO listed the following:
 •	 weak institutional capacity at national and provincial levels
 •	 weak legislative and regulatory framework
 •	 weak enforcement of laws and regulations
 •	 poor and/or non-merit based recruitment of public officials




Report to the united states congress   I   April 30, 2014                 11
Corruption Threatens




•	 low salaries and insufficient numbers of law enforcement officials
•	 lack of complaint mechanisms and systems for public scrutiny
•	 illegal profits from opium trade and cross-border smuggling29

   The HOO also suggests the international community has contributed to
corruption through its “unprecedented large inflows of international assis-
tance” in the form of development and humanitarian aid and contract funds
supporting international forces, security firms, and the Afghan National
Security Forces.30
   The HOO, however, is part of the problem. As USAID reported to SIGAR
this quarter, the HOO has done very little to combat corruption. USAID’s
program to build help the HOO build capacity ended in November 2013.
USAID has described the HOO as dysfunctional, ineffective, and politi-
cized.31 See Section 3 for a discussion of the HOO.
   DOD and State have also been very critical of the Afghan Attorney
General’s Office, the institution charged by the Afghan constitution with
investigating and prosecuting crimes in Afghanistan.32 SIGAR investiga-
tors, working in close cooperation with other federal law enforcement
agencies, have helped to identify some of the criminal networks and the
degree to which they operate in collusion with Afghan authorities. They
have first-hand experience of how difficult it is for Afghan law enforcement
to prosecute serious corruption cases. Afghanistan’s Attorney General has
deliberately avoided prosecuting either senior officials or individuals with
ties to senior officials.


Failure to Develop a Comprehensive
Anticorruption Strategy
Although U.S. civilian and military agencies have launched a variety of
programs to tackle corruption in Afghanistan, the United States has never
had a comprehensive strategy to guide U.S. anticorruption activities in
Afghanistan. It was not until the 2010 donor conference in London that the
international community specifically raised corruption as a serious concern.
That year, the donors and the Afghan government also established the Joint
Anti-Corruption Monitoring and Evaluation Committee (MEC) to address
international concerns about corruption. By 2012, at the Tokyo donors’
conference, the donors were far more explicit. They made assistance after
2014 contingent on the Afghan government’s meeting reform benchmarks
defined in the Tokyo Mutual Accountability Framework. These benchmarks,
however, tend to be vague and lack measurable outcomes.
   Meanwhile, the United States began establishing various task forces to
try to understand the pervasive and interlinked nature of corruption. In
2010, the Defense Department established Task Force 2010 to ensure that
U.S.-funded contracts did not support the insurgency. It also created Task




  12                Special inspector general   I   Afghanistan reconstruction
                     Corruption Threatens




Force Shafafiyat—which means “transparency”—to focus on the intersec-
tion of corruption with the narcotics trade and the insurgency. The U.S.
Embassy Kabul circulated a draft of a comprehensive anticorruption strat-
egy in 2010, but the Secretary of State never formally approved it.33
   SIGAR has repeatedly recommended that the United States develop
and implement a comprehensive anticorruption strategy to deal with what
General John Allen, the outgoing commander of U. S. Forces in Afghanistan
in 2013, described to President Obama as “the existential, strategic threat to
Afghanistan.”34
   While developing such a strategy may not be easy, it is an essential step
to tackling a problem that threatens to undermine the entire U.S. effort in
Afghanistan.


Developing an Anticorruption Strategy
Is Not Easy
International financial institutions and global think tanks have pointed out        The Chr. Michelsen Institute (CMI): is
that corruption cannot be solved easily or quickly. Norway’s internationally        an independent, internationally funded
funded Chr. Michelson Institute recently published an analysis of donor             development-research institute in Bergen,
responses to corruption in Afghanistan, Tanzania, and Zambia. It concluded          Norway. Founded in 1930, CMI is named
that available research suggests that development partners “have a limited          for former Norwegian Prime Minister
likelihood of influencing wider corruption trends.” The Norwegian report            Christian Michelsen (1857–1925), its
                                                                                    original benefactor. CMI hosts the Anti-
also suggested that “failed reform efforts can even be harmful by reinforc-
                                                                                    Corruption Resource Centre (“U4”) and
ing the feeling the majority has of being ‘trapped’ in a corrupt ‘game.’” The
                                                                                    conducts research on poverty, human
study posed an important question for policy-makers to consider: “Would it          rights, conflict, and development in low-
be a mistake to try and ‘take the bull by the horns’ in environments where          and middle-income countries. Funding
the bull has a million horns?”35                                                    comes from the Norwegian government,
   In Afghanistan and other developing countries, the United States and             the Research Council of Norway, and vari-
other international donors have called for, promoted, advised on, or finally        ous nongovernmental organizations. CMI
supported in-country monitoring agencies, democracy, rule of law, higher            clients include the United Nations, the
wages for public employees, independent courts, free press, growth of               World Bank, and the UK Department for
civil society, and other efforts to undercut corruption. Swedish univer-            International Development. Its website is
sity researchers examining the results of such efforts in Africa, however,          www.cmi.no.
concluded “Few successes have resulted from the investment.”36 The
researchers found that “Insofar as corruption is the expected behavior in
a particular society we should expect monitoring devices and punishment           Sources: CMI and the International Centre for
                                                                                  Tax and Development (http://www.ictd.ac/en/
regimes . . . to be largely ineffective since there will simply be no actors      cmi-chr-michelsen-institute.
willing to enforce them.”37
   People intent on illicit enrichment can and will change their behavior to
evade anticorruption measures. A research review by professors at MIT and
Harvard found “fairly robust evidence” for believing that “Corrupt officials
respond to monitoring and punishments as one would expect from basic
incentive theory,” but adds, “the ability of corrupt officials to substitute to
alternate forms of corruption and to otherwise adapt to policy changes,




Report to the united states congress   I   April 30, 2014                13
Corruption Threatens




The MEC expresses serious concerns over impunity in high-profile corruption cases,
detailed in the organization’s most recent six-month report. (UNAMA photo by
Fardin Waezi)


either in the short or long run, suggests that applications of these [anticor-
ruption] principles will be tricky in practice.”38
   Despite the enormous challenges of implementing an anticorruption
strategy, several developments in Afghanistan suggest that an emerging civil
society is increasingly focused on exposing and combating corruption. As
Special Inspector General John F. Sopko told the Atlantic Council in March
this year, “Afghanistan has a growing number of organizations and individu-
als dedicated to exposing corruption and fostering the rule of law. It has a
robust media that has highlighted and reflected Afghan dissatisfaction with
corruption.”39 The MEC, which has Afghan and international representation,
has proved to be an important body that has grappled with serious issues,
identified corrupt practices, and made recommendations to improve trans-
parency and accountability. It produced the single most important report
on the Kabul Bank scandal. It has also pointed out that the Afghan Attorney
General’s Office has not followed legal requirements in hiring prosecu-
tors and needs to raise prosecutors’ salaries “to reduce the incentive for
corruption.”40 Another MEC corruption-vulnerability assessment reported
that Afghanistan’s pension-administration system suffered from opportuni-
ties for bribery, fake documents, lack of information on beneficiaries, and
“unfair influence of high-ranking government officials.”41 Such courageous
work from civil society actors like the MEC needs continued multifaceted
support from the international community.




   14                   Special inspector general     I   Afghanistan reconstruction
                     Corruption Threatens




Safeguarding Future U.S. Reconstruction Funds
SIGAR has repeatedly called on the U.S. government to develop and imple-
ment a comprehensive civilian-military anticorruption strategy to protect the
U.S. investment in Afghanistan. To prevent the waste, fraud, and abuse of
reconstruction assistance, both the United States and whatever Afghan gov-
ernment emerges from the elections must make fighting corruption a high
priority. The United States and its Coalition partners must also encourage
the new government to comply with its international agreements and under-
take the reforms promised at previous international donor conferences.
   Special Inspector General Sopko has outlined areas where SIGAR
believes the United States can help Afghans counter corruption. He has
urged U.S. implementing agencies to take the following steps:
•	 Hold U.S. contractors and government employees accountable.
•	 Insist that the Afghans hold their contractors and government
   employees accountable.
•	 Continue to support U.S.-funded anticorruption efforts such as Task
   Force 2010 and the Afghan Threat Finance Cell.                                Special IG John F. Sopko speaks before
•	 Care less about the burn rate and more about how funds are being spent.       the Atlantic Council about corruption in
•	 Recognize that too much money, spent too quickly, with too few                Afghanistan. (Atlantic Council photo)
   safeguards, is a recipe for disaster.
•	 Insist that Afghan ministries develop and maintain good internal
   controls to receive U.S. funds.
•	 Provide support for Afghan civil society groups fighting corruption such as
   the MEC, Integrity Watch, and the nascent independent Afghan media.42

   Establishing and sustaining a long-term, coordinated, multi-front attack
on corruption is a vital task for stewardship of America’s human and finan-
cial stake in Afghanistan, and for the future of the country and its people.




Report to the united states congress   I   April 30, 2014               15
    “The costs in Afghanistan—both in
 lives lost and money spent—have been
 enormous. If we don't take advantage of
  this opportunity and get serious about
corruption right now, we are putting all of
the fragile gains that we have achieved in
this—our longest war—at risk of failure.”
        — Special Inspector General John F. Sopko




             Source: Speech at the Atlantic Council, March 20, 2014.
2   SIGAR Oversight
    Activities




        17
                                             SIGAR Oversight Activities




                                             Contents
                                             SIGAR Oversight Contents

                                             In Memoriam: Joel Brinkley	                                   20
                                             SIGAR Testifies on Oversight of the
                                             U.S. Agency for International Development	 21
                                             Audits	22
                                             Inspections	35
                                             Special Projects	                                             40
                                             Investigations	47
                                             Other SIGAR Activities	                                       56
                                             SIGAR Budget	                                                 59
                                             SIGAR Staff	                                                  60
                                             With Gratitude: Victoria Butler	                              61




Photo on previous page
SIGAR Chief of Staff Tim Nelson observes Shorandam Industrial Park
as he and SIGAR colleagues approach the complex via helicopter.
(SIGAR photo by Smythe Anderson)




                                                18                   Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities



                                                                                 Testimony Given
                                                                                 •	 Testimony 14-46-TY: Lessons Learned
                                                                                    from Oversight of USAID’s Efforts in
                                                                                    Afghanistan

                                                                                 COMPLETED Performance
                                                                                 AUDITS
                                                                                 •	 Audit 14-33-AR: ANSF Capability
                                                                                    Assessment Efforts
                                                                                 •	 Audit 14-47-AR: Afghan Customs

SIGAR OVERSIGHT activities                                                       •	 Audit 14-52-AR: Afghanistan’s Water
                                                                                    Sector

                                                                                 Completed Financial Audits
                                                                                 •	 Financial Audit 14-34-FA: Audit of Costs
This quarter SIGAR issued 20 audits, inspections, alert letters, and other          Incurred by Jhpiego Corporation
reports that looked at programs worth nearly $31 billion. SIGAR questioned       •	 Financial Audit 14-39-FA: Audit of Costs
                                                                                    Incurred by International Relief and
the sustainability of Afghanistan’s reconstruction in areas ranging from the        Development Inc.
Afghan government’s ability to collect customs revenue, to the International
Security Assistance Force (ISAF) plans to sustain their capability-              Completed inspections
assessment efforts of the Afghan National Security Forces (ANSF). It also        •	 Inspection 14-31a-IP: Salang Hospital:
                                                                                    Comments from USFOR-A
uncovered failures of planning, oversight, and construction.
                                                                                 •	 Inspection 14-41-IP: Camp Monitor
   One performance audit found that the ISAF needs to improve plans for             Construction
sustaining capability assessments of the ANSF. Another performance audit
reported that questionable customs data, the withdrawal of international         Inspection Alert Letters
troops, and corruption all limit the future of customs revenue as a stable       •	 Alert Letter 14-42-AL: FOB Sharana
                                                                                    Incinerators
source of income for the Afghan government. A third performance audit            •	 Alert Letter 14-45-AL: Baghlan Prison
determined that the United States Agency for International Development              Construction
(USAID) needs to update its strategy for Afghanistan’s water sector to
ensure appropriate oversight and accountability, and that four USAID water
                                                                                 Completed Special Project
projects implemented since fiscal year (FY) 2010 show mixed performance
                                                                                 Products
                                                                                 •	 Special Project 14-35-SP: Inquiry
results. An inspection warned that it was unclear if an Afghan National             Letter: Mi-17 Crash and Demolition
Army (ANA) facility in Jowzjan Province was being used as intended.              •	 Special Project 14-36-SP: Inquiry
SIGAR’s financial audits have identified nearly $75.3 million in questioned         Letter: ANP Ghost Worker and LOTFA
                                                                                    Financial Management
costs and $140,894 in unremitted interest on advanced federal funds.             •	 Special Project 14-37-SP: Inquiry
   SIGAR’s Office of Special Projects wrote to USAID about concerns that            Letter: Communications Towers
the estimated cost of an additional power generating turbine at the Kajaki       •	 Special Project 14-38-SP: Inquiry
Dam has more than tripled to $75 million. In addition to other inquiry let-         Letter: 64,000-Square-Foot Building
                                                                                    Review Document Preservation
ters, Special Projects also queried USAID about a list of 17 projects that       •	 Special Project 14-40-SP: Inquiry
USAID identified as terminated, and wrote to the Department of Defense              Letter: Kajaki Unit 2 Project
(DOD) to warn that key documents had apparently been withheld regarding          •	 Special Project 14-43-SP: Inquiry
                                                                                    Letter: DOD Contract Data Request
a SIGAR investigation of decisions that led to constructing a still-unoccu-
                                                                                 •	 Special Project 14-44-SP: Inquiry
pied 64,000-square-foot building at Camp Leatherneck.                               Letter: Cancelled USAID Contracts
   During the reporting period, the criminal fines, restitutions, forfeitures,   •	 Special Project 14-49-SP: Fact Sheet:
and cost savings to the U.S. government from SIGAR’s ongoing investiga-             Department of State Assistance to
                                                                                    Afghanistan
tions amounted to approximately $6.7 million. SIGAR investigations also          •	 Special Project 14-50-SP: Inquiry
resulted in an arrest, a criminal information, two plea agreements, and             Letter: ANP Mobile Money Pilot Program
six sentencings in the United States. In Afghanistan, two subjects were          •	 Special Project 14-51-SP: Inquiry
convicted and sentenced and eight individuals were barred from access to            Letter: USDA Soybean Program




Report to the united states congress   I   April 30, 2014               19
In Memoriam




Joel Brinkley
SIGAR mourns the loss of Strategic Advisor Joel Brinkley, 61, who passed
away unexpectedly on March 11, 2014, of complications due to undiagnosed
acute leukemia.
   Joel had taken up his position at SIGAR only three months earlier after
a distinguished career as a Pulitzer Prize-winning journalist and author.
Most recently, he spent seven years as a professor of journalism at Stanford
University. Before that he spent 23 years with The New York Times as a
reporter, editor, and foreign correspondent. While at Stanford, Joel wrote a
syndicated weekly op-ed column on foreign affairs that appeared in dozens
of newspapers and websites in the United States and around the world each
week. He wrote and blogged regularly for the World Affairs Journal and
was Politico’s foreign affairs writer.
   Joel was a native of Washington, D.C., and a graduate of the University
of North Carolina at Chapel Hill. He began his journalism career at the
Associated Press and over the following eight years worked for The
Richmond News Leader and The Courier-Journal, of Louisville, Kentucky.
He won the Pulitzer Prize in 1980 for his Journal reporting on the
Cambodian refugee crisis. After joining the Times in 1983, Joel served as
Washington correspondent, White House correspondent, and chief of the
Jerusalem bureau. He also spent more than 10 years in editing positions in
New York and Washington. He was serving once again as a foreign-affairs
correspondent when he left the Times in 2006. He was the author of five
books, including his most recent, Cambodia’s Curse: The Modern History
of a Troubled Land (Public Affairs Books, 2011).
   Joel is survived by his wife, Sabra Chartrand, and two daughters,
Charlotte, 15, and Veronica, 10.




  20                Special inspector general   I   Afghanistan reconstruction
             SIGAR Oversight Activities




military installations. SIGAR’s suspension and debarment program referred
16 individuals and 15 companies for suspension or debarment based on alle-
gations that they engaged in fraud and non-performance in contracts valued
at almost $61 million.


SIGAR Testifies on Oversight of the U.S. Agency
for International Development
Special Inspector General John F. Sopko testified on April 3, 2014, before
the House Subcommittee on National Security of the Committee on
Oversight and Government Reform on lessons learned from oversight of              Testimony Given
                                                                                  •	 Testimony 14-46-TY: Lessons Learned
USAID’s efforts in Afghanistan. Sopko said that since 2002, USAID has                from Oversight of USAID’s Efforts in
obligated over $18 billion to help rebuild Afghanistan. SIGAR has devel-             Afghanistan
oped a large body of work focused on USAID’s efforts. Taken as a whole,
these reports reveal broader lessons about what has worked and what has
not—lessons that can be used to inform future contingency operations
and, to the extent possible, to strengthen and improve the U.S. govern-
ment’s continued efforts in Afghanistan through the “Transformation
Decade” and beyond.
   The first lesson was that reconstruction programs must take into account
the recipient country’s ability to afford the costs of operating and sustaining
them. Sopko noted that a 2011 report on Afghanistan’s fiscal sustainability,
prepared for USAID by Chemonics International Inc., found that even under
conservative assumptions, the size of operations and maintenance expen-
ditures associated with all external development spending is almost equal
to Afghanistan’s current operating budget. SIGAR has found, however, that
USAID has not consistently translated this understanding into a realistic
approach for designing and implementing projects.
   The second lesson was that reconstruction of a conflict-ridden state is
inherently risky and that risk must be properly mitigated. USAID has made
substantial progress since the early days of its programs. Most notably,
USAID has strengthened its efforts to assess the capacity of a number of
Afghan ministries to manage U.S. direct assistance funds. Unfortunately,
USAID’s progress in assessing the risks has not been matched by an equally
robust strategy to ensure the Afghan government mitigates those risks.
   The third lesson is that oversight is a critical element of reconstruction.
SIGAR’s work has shown that USAID’s adoption of oversight techniques has
been impressive in some cases, but less so in others. In one of the broadest
looks at USAID’s oversight of its Afghanistan programs, the Government
Accountability Office (GAO) reported systematic weaknesses in USAID’s
oversight and monitoring of project and program performance.
   The fourth and final lesson is that a reconstruction effort must have
clearly articulated goals and a sound way to measure progress toward
those goals. The necessity of strategic planning is widely acknowledged,




Report to the united states congress   I   April 30, 2014                21
                                                   SIGAR Oversight Activities




                                                   but SIGAR has repeatedly found it has often been ignored throughout the
Performance audits: provide assurance              Afghanistan reconstruction effort.
or conclusions based on an evaluation of
sufficient, appropriate evidence measured
against stated criteria. Performance audits        Audits
provide objective analysis so that manage-         SIGAR conducts performance audits, inspections, and financial audits of
ment and those charged with governance can         programs and projects connected to the reconstruction in Afghanistan.
use the information to improve the program
                                                   Since its last report to Congress, SIGAR has issued three performance
performance and operations, reduce costs,
and facilitate decision-making by parties with     audits, two inspections, two financial audit reports, and two inspection
responsibility to oversee or initiate corrective   alert letters. This quarter SIGAR also began six new performance audits,
action for public accountability. Performance      bringing the total number of ongoing performance audits to 17. It also initi-
audits are conducted in accordance with            ated 27 financial audits and five inspections. The published performance
generally accepted government auditing             audit reports raised concerns about ISAF’s plans to sustain their capability-
standards (GAGAS) and the Council of the           assessment efforts of the ANSF, USAID’s strategy for Afghanistan’s water
Inspectors General on Integrity and Efficiency     sector and the mixed performance results of four USAID water-sector
(CIGIE) Quality Standards for Federal Offices
                                                   projects, and customs as a sustainable source of revenue for the Afghan
of Inspector General.
                                                   government. The performance audits made a total of seven recommenda-
Inspections: are systematic and independent        tions. The financial audits identified more than $14.5 million in questioned
assessments of the design, implementation,         costs as a result of internal control deficiencies and noncompliance issues.
and/or results of an agency’s operations,
programs, or policies. SIGAR conducts in-
spections, in accordance with CIGIE Quality        Performance Audit Reports Published
Standards for Inspection and Evaluation, to        This quarter, SIGAR completed three performance audit reports that
provide information to Congress and the pub-       reviewed Afghan National Security Forces’ plans for sustaining capability-
lic on the quality of construction of facilities   assessment efforts, USAID’s strategy for Afghanistan’s water sector, and
and infrastructure throughout Afghanistan;         Afghan customs revenue.
and generally, provides an assessment of the
extent to which the facilities were constructed
                                                   Audit 14-33-AR: Afghan National Security Forces
in accordance with the contract requirements,
                                                   Actions Needed To Improve Plans for Sustaining Capability Assessment Efforts
used as intended, and are being maintained.
                                                   Since 2005, Congress has appropriated almost $53 billion for the
Financial audits: provide an independent           Afghanistan Security Forces Fund—the single largest U.S. fund for the
assessment of and reasonable assurance
                                                   reconstruction of Afghanistan—to train, equip, and sustain the ANSF. The
about whether an entity’s reported condition,
                                                   process of transferring security responsibility to the Afghans is expected to
results, and use of resources are presented
in accordance with recognized criteria. SIGAR      be completed by the end of 2014, coinciding with completion of the draw-
performs financial audits in accordance            down of U.S. and Coalition forces. NATO’s Strategic Plan for Afghanistan
with GAGAS, which includes both require-           calls for the Afghan army and police to achieve a combined surge strength
ments contained in the American Institute of       of 352,000 personnel by the end of 2013, and to remain at that level through
Certified Public Accountants Statements on         at least 2015, to allow for continued progress toward a sustainable, secure
Auditing Standards and additional require-         environment in Afghanistan. SIGAR’s prior work and the work of oth-
ments provided in GAGAS. SIGAR also reviews
                                                   ers have expressed concern with the reliability and consistency of ANSF
financial audits conducted by independent
public accountants (IPA). When an IPA              assessments. Reliable measures of the ANSF’s progress toward becoming a
conducts a financial audit, SIGAR conducts         self-sustaining force that is capable of assuming full security responsibility
reasonable procedures to ensure compliance         for Afghanistan are critical as the ANSF assume increasing responsibility
with GAGAS, based on the intended use of           for their country’s security.
the IPA’s work and degree of responsibility
accepted by SIGAR with respect to that work.



                                                     22                 Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities




   The objectives of this audit were to assess the extent to which (1) ISAF’s
tool for evaluating the manning, training, and equipping capacity of the
ANSF—the Commander’s Unit Assessment Tool (CUAT)—was consistently                COMPLETED PERFORMANCE
applied to assess ANSF units, and (2) ISAF is taking steps to plan for the       AUDITS
                                                                                 •	 Audit 14-33-AR: Afghan National
continued collection, validation, analysis, and reporting of ANSF capacity          Security Forces: Actions Needed To
assessments during the military drawdown and the transition of security             Improve Plans for Sustaining Capability
responsibility to the Afghan government.                                            Assessment Effort
                                                                                 •	 Audit 14-47-AR: Afghan Customs: U.S.
   The National Defense Authorization Act for FY 2008 directs DOD to                Programs Have Had Some Successes,
report on its assessment of the operational readiness of ANSF units.                but Challenges Will Limit Customs
                                                                                    Revenue as a Sustainable Source of
Specifically, the Act requires DOD to report on the number of ANSF units            Income for Afghanistan
that are capable of conducting operations independently, units that are          •	 Audit 14-52-AR: Afghanistan’s Water
capable of conducting operations with U.S. and Coalition support, and units         Sector: USAID’s Strategy Needs to
                                                                                    Be Updated to Ensure Appropriate
that are not ready to conduct operations. To help meet this requirement,            Oversight and Accountability
from April 2010 through July 2013, the ISAF Joint Command (IJC) used the
CUAT as a key tool for assessing and reporting on the ANSF’s manning,
training, and equipping capacity.
   The CUAT was a two-part assessment of ANSF units. The first part con-
sisted of quantitative data, such as the total number of assigned personnel
and equipment on hand. IJC advisor teams then used this data to inform
their qualitative evaluations, the second portion of the CUAT, which con-
sisted of one overall assessment and an assessment of 14 component areas.
Based on their assessment findings, advisor teams assigned one of six color-
coded rating definition levels to the ANSF units in each area and provided
narrative comments to justify the assigned rating definition levels.
   From August 2011 to July 2013, these rating definition levels were
(1) independent with advisors, (2) effective with advisors, (3) effective with
partners, (4) developing with partners, (5) established, and (6) not assessed.
CUAT assessments, combined with battlefield reporting, commanders’
informal assessments, and other data, served as the basis for DOD’s and
ISAF’s overall assessment of the ANSF’s operational effectiveness and read-
iness during this time.
   CUAT rating definition levels for ANSF units assessed from January 2012
to July 2013 show that there has been some improvement in the ANSF’s
capacity to man, train, and equip its forces. For example, the number of
Afghan National Army (ANA) units rated as “independent with advisors”
increased from 20 to 93 between January 2012 and July 2013. However, the
number of ANA and ANP units not assessed also increased during this time
due to the drawdown of Coalition forces.
   Between April 2010 and August 2011, IJC changed the CUAT rating defi-
nition level titles four times. Despite these changes, SIGAR’s analysis of the
standards supporting each level shows that the standards for the overall
assessment generally remained consistent from change to change. However,
some thresholds in the standards for some component-assessment areas
changed. For example, under the September 2010 revision, an ANA unit




Report to the united states congress   I   April 30, 2014               23
SIGAR Oversight Activities




could achieve a rating definition level of “effective with advisors” for equip-
ment if its level of critical equipment was greater than 85% of its authorized
equipment level. Under the August 2011 revision, an ANA unit could achieve
that same rating definition with “greater than or equal to” 75% of its autho-
rized equipment level.
    The CUAT Standard Operating Procedure outlined requirements for advi-
sor teams completing the qualitative evaluation, and encouraged advisor
teams to use their judgment when assessing ANSF units to assign rating defi-
nition levels and provide comments within the assessment areas. However,
the CUAT Standard Operating Procedure did not provide clear guidance on
the level of detail necessary to support a team’s rating or what the team’s sub-
jective assessments should contain. This unclear guidance led to disparities
in the quantity and quality of information across CUAT assessments and to
inconsistent evaluations of ANSF capacity to man, train, and equip its units.
    In July 2013, IJC replaced the CUAT with the Regional ANSF Status
Report (RASR). IJC officials stated the command replaced the system
because ISAF senior leadership found the CUAT to be difficult to read,
inconsistently applied, and not useful. In addition, IJC officials expect that
the RASR will simplify, streamline, and improve assessments of the ANSF
by allowing the command to better track the extent to which ANSF units
are able to employ their manning, equipping, and training capacity to suc-
cessfully engage the enemy in combat.
    The RASR uses six color-coded rating definition levels—(1) fully capable,
(2) capable, (3) partially capable, (4) developing, (5) established, and (6) not
assessed—to evaluate ANSF units at the brigade and regional levels each
month. In addition, the RASR focuses on assessing specific components of
the units, such as infantry and communications, against one overall and five
targeted categories: combined arms, command and control, leadership, sus-
tainment, and training. These five targeted categories replace the one overall
assessment and 14 component areas previously used in the CUAT.
    As Coalition forces draw down and fewer advisor teams are assigned
to ANSF units, IJC officials stated they will have less insight into ANSF
capabilities and will rely more on the ANSF for assessment data. Officials
said this will decrease their overall confidence in ANSF assessments. IJC,
in coordination with the Afghan government, is taking steps to improve
the ANSF’s internal-assessment capabilities and is discussing ways to miti-
gate the risks of declining presence and reduced Coalition oversight of the
ANSF. For example, in July and August 2013, the Ministry of Interior (MOI)
selected nearly 100 ANP candidates to send to Turkey to learn assessment
methodology and develop a new police assessment tool that would stan-
dardize assessments across the ANP.
    Despite these efforts, ISAF has not developed a plan that details how it
will (1) ensure the continued collection, analysis, validation, and report-
ing of ANSF capability assessments as Coalition forces draw down; and




  24                 Special inspector general   I   Afghanistan reconstruction
             SIGAR Oversight Activities




(2) address the challenges of having fewer advisor teams available to con-
duct assessments and of relying on the ANSF’s processes for conducting
its own internal assessments. Without such a plan, ISAF may not be able to
obtain an accurate understanding of ANSF units’ capability—information
that feeds into broader assessment reports on the ANSF’s overall effective-
ness and readiness.
    SIGAR is making one recommendation. Specifically, SIGAR recommends
that the ISAF Commander develop and implement a plan for collecting, vali-
dating, analyzing, and reporting ANSF capability assessments that details
how ISAF will assess the ANSF’s capability with fewer advisors to conduct
the assessments and mitigate the challenges associated with the ANSF
reporting on its own assessment results.
    In providing comments on a draft of this report, U.S. Forces-Afghanistan
(USFOR-A) stated that it “concurs with the overall recommendations,” but
“non-concurs with some specific recommendations.” SIGAR deleted one
recommendation based on additional information provided by USFOR-A.

Audit 14-47-AR: Afghan Customs
U.S. Programs Have Had Some Successes, but Challenges Will Limit Customs Revenue
as a Sustainable Source of Income for Afghanistan
Since 2009, the United States has allocated at least $198 million toward
efforts to assist in developing the capacity of the Afghan government
to assess and collect customs revenue. USAID administered the Trade
Accession and Facilitation for Afghanistan (TAFA) I and TAFA II programs
from November 2009 through August 2013. These programs were followed
by the Afghanistan Trade and Revenue (ATAR) program acting as a follow-
on program beginning in November 2013. The Department of Homeland
Security’s Customs and Border Protection (CBP) has operated as the
administrator for the Border Management Task Force (BMTF) since its
inception in 2006. Through these programs, the United States has worked
to develop and reform Afghanistan’s laws, policies, and procedures for
customs processes operating at the Afghan Customs Department (ACD)
headquarters and customs locations throughout Afghanistan.
    This audit (1) assesses the extent to which these USAID and CBP pro-
grams achieved their intended outcomes, and (2) examines challenges to
creating a stable and lasting source of customs revenue for Afghanistan.
    Border control is essential for a nation to control the flow of licit and
illicit goods and to assess appropriate tariffs and customs duties. Customs
revenue is a major component of Afghanistan’s national budget, which is
currently funded through a combination of domestic revenue collections
and aid from international donors. For Afghanistan’s three most recent
fiscal years, customs revenue collections produced $698 million to $1.1 bil-
lion annually, accounting for 44–48% of total domestic revenue collection.
However, domestic revenues continue to fall short of expenditures, and




Report to the united states congress   I   April 30, 2014                  25
SIGAR Oversight Activities




Cargo truck passes through border crossing at Weesh-Chaman border crossing point.
(SIGAR photo by Martin Wilson)


international assistance is expected to decline in coming years. As a result,
increasing the Afghan government’s collection of domestic revenues is a
main objective of both the U.S. and Afghan governments.
   The U.S. government—through programs run by USAID and the
Department of Homeland Security’s CBP—has provided funding and
expertise to assist the Afghan government in developing and reforming its
customs assessment and collection capabilities. USAID has administered
multiple projects designed to improve the trade and customs environment,
including two TAFA programs—called TAFA I and TAFA II—between
November 2009 and August 2013, and their successor program, the ATAR,
which started in November 2013. The CBP has administered the BMTF,
a task force that mentors the ACD, Afghan Border Police, and Afghan
Customs Police agents at border control points and inland customs depots.
   Among its accomplishments, TAFA has assisted the Afghan government
in trade negotiations and significantly reduced the customs processing
times and the number of steps required to trade across Afghanistan’s
border. Specifically, it has been able to reduce the number of customs pro-
cess steps at the nine inland customs depots and the Kabul International
Airport—customs locations that account for 98% of Afghanistan’s customs
revenues—reportedly resulting in annual cost savings to importers and the
Afghan government of $39 million.
   CBP’s BMTF also appears to have had some successes. For example,
the BMTF cleaned and upgraded the Kabul Airport Customs Yard, which,
according to CBP officials, resulted in increased efficiency at the Customs




  26                  Special inspector general    I   Afghanistan reconstruction
            SIGAR Oversight Activities




Yard that reduced customs processing time from 10 days to two and created
a 37% increase in customs revenue at that location. BMTF reports show that
BMTF mentors held more than 7,000 training sessions between 2010 and
2013, and assisted the ACD in conducting more than 670 seizures during
that same period.
    Nevertheless, SIGAR found that BMTF mentors operate under contracts
and subcontracts that do not contain performance metrics. Specifically, the
contract documents for BMTF activities do not include a single metric that
defines specific, measurable goals for the BMTF mentors to achieve, or per-
formance metrics to measure the program’s success.
    Without concrete performance metrics, oversight of the day-to-day and
long-term activities of an individual mentor is difficult to achieve or mea-
sure in a meaningful way.
    According to USAID, CBP, and TAFA officials, corruption is affecting
all levels of the customs process and is the biggest issue affecting Afghan
customs processes and revenues. The scale and impact of corruption in
Afghanistan’s customs process is difficult to quantify. Nevertheless, USAID
officials hypothesize that eliminating or significantly reducing corruption in
the customs process could potentially double the customs revenues remit-
ted to the central government.
    The BMTF also noted that criminal networks use intimidation to smuggle
commodities, resulting in the estimated loss of approximately $25 million
annually for wheat and rice imports at a single customs location. In a sepa-
rate estimate, TAFA officials stated that approximately $60 million is lost
annually to commercial smuggling. Further complicating efforts to combat
criminal and patronage networks are reports from BMTF advisers that
Afghan employees are being kidnapped and intimidated because they are
listening to the BMTF advisers and properly collecting customs duties.
    To help reduce corruption, the Afghan and U.S. governments proposed
streamlining and automating customs processes. Two major innovations in
the automation of customs processes—a risk management system and an
electronic payment system—were started under TAFA. The risk manage-
ment system, created to facilitate the targeted inspection of cargo based
on the type of cargo being carried, broker behavior, and other intelligence
sources, is designed to optimize the use of limited security resources and
decrease transit times. While the ACD accepted the risk management
system in principle, it reportedly considered it too difficult to operate and
chose to adopt a scaled-down approach, spreading implementation of spe-
cific parts of the risk-management system over a period of years.
    Similarly, progress in implementing an electronic payment system for
customs duties has been slow. Currently, customs fees in Afghanistan are
processed in cash at the inland customs depots where the imported cargo
is inspected and assessed customs duties. This system can lead to cus-
toms brokers traveling long distances with large quantities of cash to pay




Report to the united states congress   I   April 30, 2014               27
SIGAR Oversight Activities




customs fees assessed on imported goods. The current cash-based pay-
ment system is inefficient, leaves customs brokers vulnerable to theft, and
increases the opportunities for corruption in the customs process.
    According to USAID and TAFA program officials, at the conclusion of
the TAFA programs in August 2013, the ACD had the equipment and techni-
cal knowledge needed to launch a pilot system. However, USAID officials
said the electronic payment system had not been implemented, and that
the implementation was delayed, in part, due to a proposal by an Afghan
official that would allow only one Afghan bank to process all the electronic
customs payments. This arrangement would have given the selected bank
a monopoly on this revenue stream and a significant, and improper, advan-
tage over its competitors. Although the risk-management system and the
electronic-payment system are highlighted in the TAFA and ATAR contract
documents as important anticorruption measures, SIGAR found that the
ATAR contract does not require the implementing partner to meet annual
targets for implementation of the systems.
   The future of customs revenues as a stable source of income for the
Afghan government remains unclear. The TAFA and BMTF programs
achieved some successes in reforming and developing Afghan customs law,
policies, and procedures, but larger issues surrounding questionable cus-
toms data, the withdrawal of international forces, and corruption remain.
   SIGAR recommends that the CBP Acting Commissioner instruct the
CBP attaché in Afghanistan to develop clear performance metrics for
BMTF mentor operations and submit such metrics to DOD/CENTCOM for
incorporation into any future BMTF contracts or task orders. SIGAR also
recommends that the USAID Administrator instruct the USAID Mission
Director for Afghanistan to (1) direct the ATAR implementing partner
to continue to work with Afghanistan’s Tariffs Statistics Unit to reduce
discrepancies in customs data and make the reduction in statistical discrep-
ancies a requirement of the contract for the ATAR program, and (2) ensure
that annual targets for implementation of anticorruption measures, such as
the electronic payment system, are included as performance requirements
in the ATAR program contract.

Audit 14-52-AR: Afghanistan’s Water Sector
USAID’s Strategy Needs to Be Updated to Ensure Appropriate Oversight and Accountability
Since March 2006, USAID has invested approximately $580 million in
Afghanistan’s water sector to support, among other things, urban and rural
water supply and sanitation and agricultural productivity.
   The 2010 U.S. Inter-Agency Water Strategy for Afghanistan lays out
efforts across U.S. agencies to achieve a consolidated approach to water
sector development. USAID plays a central role in guiding U.S. government
efforts and has funded nine water projects since FY 2010. SIGAR’s report
focuses on four of these projects.




   28                  Special inspector general     I   Afghanistan reconstruction
            SIGAR Oversight Activities




    Knowing whether USAID’s efforts are properly targeted, measured, and
achieving their goals and objectives is vital to supporting Afghanistan’s
water sector. The objectives of this audit were to determine the extent to
which (1) USAID met key objectives of the 2010 U.S. Inter-Agency Water
Strategy for Afghanistan and (2) four USAID water projects implemented
since 2010 are meeting their project goals and objectives.
    SIGAR found that USAID did not meet three key objectives in the 2010
U.S. Inter-Agency Water Strategy, which was developed by USAID, the
Department of State, USFOR-A, U.S. Army Corps of Engineers (USACE),
and others. For example, USAID did not meet the strategy’s objective
to implement an agency work plan that would, among other things,
link projects and activities to the goals cited in the strategy. The strat-
egy stated that each U.S. agency, including USAID, should develop and
implement an annual work plan detailing its activities for meeting the
strategy’s goals.                                                              Cement irrigation canals installed by
    Rather than develop an agency work plan, however, USAID intended to        USAID Afghanistan as part of an agriculture
use the work plan for a proposed water program—the $653 million Water          project. (USAID photo)
Resources Development Program—as the “agency work plan.” However,
this program was never implemented because USAID did not have the
funds to do so. As a result, no work plan was developed to meet the water
strategy’s provision. Without a work plan that links projects and activities
to goals, it is unclear the extent to which individual USAID water projects
contribute to the U.S. government’s broader efforts to develop Afghanistan’s
water sector, and USAID may have additional difficulty planning and imple-
menting ongoing water sector development efforts.
    USAID also did not meet the strategy’s objective to use key performance
indicators to measure and evaluate its performance toward meeting the
strategy’s goals. The strategy itself identified potential outputs and out-
comes, such as increasing agricultural productivity and improving soil and
water conservation, but USAID has not evaluated its projects’ performance
against these indicators. As a result, USAID cannot determine how its work
achieves the strategy’s goals. Another objective of the strategy called for
USAID to update the strategy to reflect changing needs in Afghanistan’s
water sector and make it a “living document.” However, this did not occur.
For example, since the strategy was completed in 2010, USAID has changed
its priorities away from large infrastructure projects—such as dams and
commercial water and sewer systems—toward building capacity at Afghan
ministries to manage these projects themselves. Despite these changes in
priorities, the strategy has not been updated, nor does it take into account
the political and security transition when most military forces are expected
to withdraw from Afghanistan. By failing to update the strategy to reflect
current priorities, USAID risks planning and implementing water projects
that are not aligned with its goals for the development of Afghanistan’s
water sector.




Report to the united states congress   I   April 30, 2014             29
                                            SIGAR Oversight Activities




                                               USAID officials stated that even though the agency did not meet the
                                            strategy’s objectives, some of the strategy’s goals have been realized
                                            through implementation of individual projects. However, the four key
                                            projects implemented since FY 2010 that SIGAR reviewed showed mixed
                                            performance results, making it difficult to affirm USAID’s assertion.
                                               For example, USAID spent approximately $43.3 million on its Sustainable
                                            Water Supply and Sanitation (SWSS) project to increase access to sustain-
                                            able sources of clean water for domestic use among Afghanistan’s rural
                                            population. However, the project did not meet some performance goals
                                            and could not measure other performance goals because of budget cuts,
                                            unrealistic performance targets, and higher-than-estimated costs. As a
                                            result, USAID’s investment in and SWSS’s overall impact on Afghanistan’s
                                            water supply and sanitation service is unclear. In another project, USAID
                                            spent about $3.5 million for 27 watershed assessments to identify poten-
                                            tial sites for small irrigation dams and micro-hydropower projects across
                                            Afghanistan. However, USAID did not use the assessments as intended and
                                            did not share them in a timely manner with other U.S. and Afghan agencies.
                                            As a result, the assessments could already be outdated and of limited value
                                            for developing water projects.
                                               SIGAR recommends that USAID (1) develop a new water sector strategy
                                            for Afghanistan with updated short-, medium-, and long-term goals and
                                            objectives that reflect USAID’s current water sector priorities; (2) develop
                                            and implement a performance measurement plan upon completion of the
                                            new strategy that can be used to evaluate USAID’s performance in meet-
                                            ing the new strategy’s goals and objectives; and (3) ensure this strategy
                                            includes clear lines of responsibility and accountability of who within
                                            USAID will implement the strategy. See page 39 for the status of SIGAR’s
                                            recommendations.

                                            New Audits Announced This Quarter
                                            This quarter SIGAR initiated audits of the status of audit recommenda-
                                            tions made by SIGAR to the State Department (State), USAID, and DOD.
New Performance AUDITS                      SIGAR also initiated audits reviewing U.S. assistance to Afghanistan’s rule
•	 Status of SIGAR’s Recommendations
   to the Department of Defense,            of law sector, to internally displaced persons and refugees, and to develop
   Department of State, and USAID           Afghanistan’s mining, oil, and gas (extractives) industry. The agency also
•	 U.S. Efforts to Develop Afghanistan’s    announced an expansion of the scope of its audit on the ANA’s National
   Rule of Law
                                            Engineer Brigade.
•	 U.S. Efforts to Assist Afghan Refugees
   and Internally Displaced Persons
•	 U.S. Efforts to Develop Afghanistan’s    Audit Recommendations to State, USAID, and DOD
   Extractives Industry                     The Office of Management and Budget Circular A-50 and the Inspector
                                            General Act of 1978, as amended, require that SIGAR prepare semiannual
                                            reports summarizing its activities for the preceding six-month period.
                                            The Act requires that the report include a description of recommenda-
                                            tions for corrective action made by SIGAR during the reporting period; an




                                              30                 Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities




identification of each significant recommendation identified during previous
reporting periods for which corrective action has not been completed; a
list of each audit, inspection, and evaluation report issued by SIGAR during
the reporting period; where applicable, the total dollar value of questioned
costs and the dollar value of recommendations that funds be put to better
use; and a description and explanation of the reasons for any significant
management decision with which SIGAR is in disagreement. Since its
inception, SIGAR has used its quarterly report to fulfill these reporting
requirements. However, SIGAR has determined that initiating these three
audits would allow for greater in-depth analysis and reporting to better
inform Congress on the status of its recommendations.
    These three audits will review the status of all recommendations
made to State, USAID, and DOD in financial, inspection, or audit reports.
Specifically, SIGAR plans to (1) identify the status of all recommendations
made and review actions taken or planned to address any open recom-
mendations, and (2) report these actions to Congress as required by Office
of Management and Budget Circular A-50 and the Inspector General Act of
1978, as amended.

U.S. Assistance for Rule of Law Programs in Afghanistan
In one of a series of sector-wide audits, SIGAR is initiating an audit of U.S.
government efforts to assist and improve the rule of law in Afghanistan.
This audit is a more broadly scoped follow-up to SIGAR’s January 2014
audit report (SIGAR 14-26-AR) that focused on the Department of State’s
justice sector training programs. Specifically, SIGAR plans to (1) iden-
tify U.S. government programs or initiatives to develop rule of law in
Afghanistan; (2) assess the progress that these programs or initiatives have
made achieving the objectives of the U.S. Government Rule of Law Strategy;
and (3) identify challenges, if any, that the U.S. government has encoun-
tered in achieving its rule of law objectives and the extent to which it has
addressed these challenges.

Assistance for Afghan Internally Displaced Persons
and Refugees
In May 2012, the House of Representatives Committee on Appropriations
expressed concerns with the dramatic rise in conflict-induced displace-
ment in Afghanistan. The Committee urged the Special Representative
for Afghanistan and Pakistan to ensure that U.S. government strategies to
address these issues, such as the Country Assistance Strategy, are incorpo-
rated into other existing regional and planned international development
strategies. This audit will examine U.S. agencies’ efforts to protect and
assist Afghan refugees and internally displaced persons (IDPs). Specifically,
SIGAR plans to (1) describe the programs and initiatives State and USAID
have implemented to assist Afghan refugees and IDPs, and determine the




Report to the united states congress   I   April 30, 2014               31
SIGAR Oversight Activities




extent to which these efforts have achieved U.S. goals and objectives;
(2) identify the methods and tools the agencies use to determine and verify
the total number of Afghan returnees, refugees still in neighboring coun-
tries, and IDPs; and (3) evaluate the agencies’ efforts to develop a long-term
reintegration strategy for Afghan refugees and IDPs.

Afghanistan’s Extractives Industry
This audit will focus on the extent to which the DOD’s Task Force for
Business and Stability Operations (TFBSO) and USAID programs met
their goals to develop Afghanistan’s extractives industry and the chal-
lenges, if any, to creating a stable and lasting source of extractives
revenue for Afghanistan. According to the TFBSO, the current estimated
value of Afghanistan’s mineral deposits is about $900 billion in addition to
sizable hydrocarbon reserves. These deposits could generate more than
$2 billion in annual royalty and tax revenues for the Afghan government.
This audit will review U.S. efforts to develop Afghanistan’s extractives
industry and strengthen the Afghan Ministry of Mines and Petroleum’s
ability to regulate and grow the extractives sector. Specifically, SIGAR
plans to determine (1) the extent to which TFBSO and USAID efforts to
develop the extractives industry in Afghanistan met their stated goals and
(2) the challenges, if any, to creating a stable and lasting extractives indus-
try as a source of revenue to Afghanistan.

The ANA’s National Engineer Brigade
(Expansion of Scope of Audit Announced Last Quarter)
On November 26, 2013, the Special Inspector General for Afghanistan
Reconstruction announced an audit of DOD efforts to train, equip, and
sustain the ANA’s National Engineer Brigade (NEB). During SIGAR’s initial
fieldwork, staff found that the NEB is a component of a broader program
to build ANA engineering capacity, including regional ANA Corps Engineer
Kandaks (CEK). The training, equipping, missions, and assessments of the
NEB and CEKs are similar and interdependent. Therefore, SIGAR finds
it necessary to review not only the NEB, but also the CEKs. The revised
objectives of this audit are to (1) assess the extent to which DOD efforts to
train, equip, and sustain the NEB and CEKs will build an independent and
capable engineering operations for the ANA; and (2) identify challenges, if
any, to building and sustaining the NEB and CEKs.

Financial Audits
SIGAR launched its financial audit program in 2012, after Congress and the
oversight community expressed concerns about oversight gaps and the
growing backlog of incurred-cost audits for contracts and grants awarded
in support of overseas contingency operations. SIGAR competitively selects
independent accounting firms to conduct the financial audits and ensures




  32                 Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities




that the audit work is performed in accordance with U.S. government audit-       Table 2.1
ing standards. Financial audits are coordinated with the federal inspector
general community to maximize financial-audit coverage and avoid duplica-          SIGAR’s Financial Audit
                                                                                   Coverage ($ Billions)
tion of effort.
                                                                                  22 Completed Audits                          $1.8
    This quarter, SIGAR completed two financial audits of U.S.-funded coop-
                                                                                  45 Ongoing Audits                              4.1
erative agreements to rebuild Afghanistan. SIGAR also announced 27 new
                                                                                  Total                                       $5.9
financial audits of DOD, State, and USAID awards with combined incurred
costs of more than $2.3 billion, bringing the total number of ongoing finan-     Notes: Numbers have been rounded. Coverage includes
                                                                                 auditable costs incurred by recipients of U.S.-funded
cial audits to 45 with nearly $4.1 billion in costs incurred, as shown in        Afghanistan reconstruction contracts, grants, and cooperative
                                                                                 agreements
Table 2.1.
                                                                                 Source: SIGAR Audits Directorate.
    SIGAR issues the financial-audit reports to the implementing agencies,
which are responsible for making the final determination on questioned
amounts. Since the program’s inception, SIGAR’s financial audits have iden-
                                                                                   Questioned amounts: the sum of
tified nearly $75.3 million in questioned costs and $141,894 in unremitted         potentially unallowable questioned costs
interest on advanced federal funds. When the implementing agency deter-            and unremitted interest on advanced
mines that a questioned amount is unallowable, the agency issues a bill for        federal funds.
collection. To date, funding agencies have issued bills for collection for 12
of the 22 completed audits to recover more than $5.1 million in questioned         Questioned costs: costs determined to
amounts. It takes time for implementing agencies to carefully consider audit       be potentially unallowable. The two types
findings, and final determinations remain to be made for several of SIGAR’s        of questioned costs are ineligible costs
issued financial audits.                                                           (violation of a law, regulation, contract,
    SIGAR’s financial audits have four specific objectives:                        grant, cooperative agreement, etc., or an
 •	 Express an opinion on whether the Fund Accountability Statement for            unnecessary or unreasonable expenditure
                                                                                   of funds) and unsupported costs (those not
    the award presents fairly, in all material respects, revenues received,
                                                                                   supported by adequate documentation or
    costs incurred, items directly procured by the U.S. government,
                                                                                   proper approvals at the time of an audit).
    and balance for the period audited in conformity with the terms of
    the award and generally accepted accounting principles or other                Bill for collection: a letter or form sent
    comprehensive basis of accounting.                                             to a debtor for the amount due, including
 •	 Evaluate and obtain a sufficient understanding of the audited entity’s         interest, administrative charges, and late
    internal control related to the award; assess control risk; and identify       penalties, if applicable.
    and report on significant deficiencies including material internal control
    weaknesses.                                                                    Fund Accountability Statement: a
 •	 Perform tests to determine whether the audited entity complied, in             special-purpose financial statement that
    all material respects, with the award requirements and applicable              includes all revenues received, costs
    laws and regulations; and identify and report on instances of material         incurred, and any remaining balance for a
                                                                                   given award during a given period.
    noncompliance with terms of the award and applicable laws and
    regulations.
 •	 Determine and report on whether the audited entity has taken adequate
    corrective action to address findings and recommendations from
    previous engagements.

  A list of completed, new, and ongoing financial audits can be found in
Appendix C of this quarterly report.




Report to the united states congress   I   April 30, 2014               33
                                              SIGAR Oversight Activities




                                              Financial Audits Published
                                              This quarter, SIGAR completed two financial audits of U.S.-funded coopera-
Completed Financial Audits                    tive agreements to rebuild Afghanistan. These financial audits identified
•	 Financial Audit 14-34-FA: USAID’s
   Health Service Support Project: Audit of   nearly $14.5 million in questioned costs as a result of internal-control
   Costs Incurred by Jhpiego Corporation      deficiencies and noncompliance issues. These deficiencies and noncompli-
•	 Financial Audit 14-39-FA: USAID’s          ance issues included, among other things, inadequate cash-disbursement
   Strategic Provincial Roads Program:
   Audit of Costs Incurred by International   controls resulting in theft of federal funds, missing timesheets, management
   Relief and Development Inc.                and administration costs charged to the wrong Afghanistan reconstruc-
                                              tion award, failure to conduct vendor suspension and debarment checks,
                                              ineligible entertainment expenses, poor record retention, lack of sup-
                                              porting documentation, failure to adhere to procurement procedures,
                                              improper approvals for invoices and payment-application requests, and
                                              failure to complete a road construction project in accordance with award
                                              requirements.

                                              Financial Audit 14-34-FA: USAID’s Health Service Support
                                              Project: Audit of Costs Incurred by Jhpiego Corporation
                                              USAID awarded Jhpiego Corporation (Jhpiego) a cooperative agreement
                                              to implement a Health Service Support Project (HSSP) in Afghanistan. The
                                              purpose of the project was to improve the quality of health-care services
                                              provided to Afghan women of reproductive age and children under the age
                                              of five. SIGAR’s audit covered the period July 1, 2006, through October 31,
                                              2012, and was performed by Williams Adley and Company-DC LLP
                                              (Williams Adley). It covered $60,449,801 in expenditures.
                                                 Williams Adley found that the Fund Accountability Statement presented
                                              fairly, in all material respects, revenues received and costs incurred under
                                              the cooperative agreement. Nevertheless, Williams Adley found that Jhpiego
                                              did not take adequate corrective action on four findings identified from
                                              prior audits or assessments. In addition, Williams Adley reported two inter-
                                              nal-control findings and three instances of noncompliance. These findings
                                              prompted the auditors to question $301,956 in costs—$46,025 in ineligible
                                              costs and $255,931 in unsupported costs. The audit also found that Jhpiego
                                              had not remitted an estimated $10,954 in interest income on funds drawn
                                              from its letter of credit in excess of its immediate cash needs.
                                                 Given the results of the audit, SIGAR recommended that the USAID
                                              Mission Director for Afghanistan:
                                              •	 Determine the allowability of and recover, as appropriate, $301,956
                                                  in questioned costs ($46,025 ineligible and $255,931 unsupported)
                                                  identified in the report.
                                              •	 Recover, as appropriate, the estimated $10,954 in interest income on
                                                  funds Jhpiego drew from its letter of credit in excess of its immediate
                                                  cash needs.
                                              •	 Advise Jhpiego to address the two internal-control findings identified in
                                                  the report.




                                                34                Special inspector general   I   Afghanistan reconstruction
             SIGAR Oversight Activities




•	 Advise Jhpiego to address the three compliance findings identified in
   the report.

Financial Audit 14-39-FA: USAID’s Strategic Provincial Roads
Program: Audit of Costs Incurred by International Relief and
Development Inc.
USAID awarded International Relief and Development Inc. (IRD) a coop-
erative agreement to provide support for the Strategic Provincial Roads
program. The objective of the program was to improve stability and secu-
rity in eastern and southern Afghanistan by rehabilitating or constructing
provincial roads and increasing institutional capacity to maintain the reha-
bilitated roads. The program also had an outreach component with a budget
of $32.4 million that included (1) arranging memoranda of understanding
with tribal leaders, (2) training and safety awareness programs, and (3) a
range of infrastructure development projects to enhance the vitality of the
roads. The audit, performed by Mayer Hoffman McCann P.C. (MHM), cov-
ered the period November 30, 2007, through December 31, 2012, and total
expenditures of $317,448,948.
    MHM issued a qualified opinion on the fair presentation of the Special
Purpose Financial Statement because of the identification of $14,179,351 of
questioned costs, which represents a material misstatement. MHM identi-
fied two prior audit findings pertinent to the SPR program and found that
IRD had not taken adequate corrective action to address one of them. The
prior finding related to controls over payments to subcontractors. MHM
noted a similar condition in a new finding and, as a result, concluded that
adequate corrective action had not been taken. MHM reported 12 internal-
control deficiencies and 10 instances of noncompliance, which prompted
the auditors to question $14,179,351 in costs. These questioned costs
included $2,580,239 in ineligible costs and $11,599,112 in unsupported costs.
    Given the results of the audit, SIGAR recommended that the USAID
Mission Director for Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, $14,179,351
    in questioned costs identified in the report.
 •	 Advise IRD to address the 12 internal control findings identified in the report.
 •	 Advise IRD to address the 10 compliance findings identified in the report.


Inspections
This quarter, SIGAR published two inspection reports. One report con-
cerned comments from USFOR-A on an inspection report published last
quarter of Salang Hospital in Parwan Province. Another inspection report
found that it was unclear whether Camp Monitor in Jowzjan Province is
being used as intended. SIGAR also issued two inspection alert letters and
initiated five new inspections.




Report to the united states congress    I   April 30, 2014                   35
                                              SIGAR Oversight Activities




                                              Inspection Reports Published
COMPLETED Inspections
•	 Inspection 14-31a-IP: Salang Hospital:     Inspection 14-31a-IP: Salang Hospital: Comments from USFOR-A
   Comments from USFOR-A                      Last quarter SIGAR reported on its inspection of the 20-bed Salang Hospital
•	 Inspection 14-41-IP: Camp Monitor:         in Parwan Province. The inspection found a lack of power and water that
   Most Construction Appears to Have Met
   Contract Standards, but It Is Unclear If   severely limited service at the hospital. Because USFOR-A’s official com-
   Facility Is Being Used as Intended         ments were not provided on a draft of SIGAR’s inspection report at the
                                              time of its publication last quarter, SIGAR issued the comments and its
                                              response separately this quarter. With regard to SIGAR’s first recommenda-
                                              tion, USFOR-A agreed to hold accountable those contracting officer(s) who
                                              may have failed to provide the required contract oversight. Specifically,
                                              USFOR-A will investigate why Salang Hospital was not built in accordance
                                              with contract specifications and, if necessary, take corrective actions
                                              against the contracting officer(s) responsible for oversight and management
                                              of the hospital construction project.
                                                 USFOR-A also agreed with SIGAR’s recommendation to perform a physi-
                                              cal inspection of the hospital and, if needed, determine corrective actions
                                              to be taken to ensure the building’s structural integrity. With regard to
                                              SIGAR’s recommendation to determine why required documents were not
                                              placed into the Combined Information Data Network Exchange (CIDNE)
                                              database and to identify and hold accountable the contracting officer(s)
                                              responsible for this problem, USFOR-A did not concur, citing U.S. Central
                                              Command’s Joint Theater Support Contracting Command’s (C-JTSCC)
                                              comment that contracting officers have no authority to enter documents
                                              into CIDNE and that the responsibility lies instead with the Commander’s
                                              Emergency Response Program project manager and/or purchasing officer.
                                              In SIGAR’s view, USFOR-A’s and C-JTSCC’s comments indicate agreement
                                              with the spirit of the recommendation and SIGAR has revised it accordingly
                                              to direct it to the correct officials. USFOR-A also indicated that the missing
                                              documents have been found and placed in the database. SIGAR will close
                                              the recommendation once it verifies that all missing documents have been
                                              placed in CIDNE.

                                              Inspection 14-41-IP: Camp Monitor: Most Construction
                                              Appears to Have Met Contract Standards, But It Is Unclear
                                              if Facility Is Being Used as Intended
                                              As of April 2013, DOD had obligated $9.2 billion from the Afghanistan
                                              Security Forces Fund for hundreds of ANA and ANP infrastructure projects.
                                              One of these ANA projects, Camp Monitor, was built in Jowzjan Province,
                                              in northern Afghanistan bordering Turkmenistan. On December 4, 2010, the
                                              Kabul Regional Contracting Center awarded the first of five contracts to
                                              construct Camp Monitor. The first contract, with a 120-day period of perfor-
                                              mance, was awarded to Fazlullah Construction and Engineering Company
                                              (FCEC)/UI Projects Joint Venture for $830,000 to construct three open-bay




                                                36                 Special inspector general   I   Afghanistan reconstruction
              SIGAR Oversight Activities




A SIGAR inspection of Camp Monitor found that the dining-facility construction was
limited to the concrete footings that appeared to be of poor quality, with uneven and
cracked concrete surfaces. (SIGAR photo)

barracks. Subsequently, Kabul Regional Contracting Center awarded
two additional contracts for three more barracks, latrines, an adminis-
tration building, and force-protection walls. The Regional Contracting
Command–North also awarded two contracts for guard towers; a firing
range; additional force-protection walls; a dining facility; a power plant; a
water well; a leach field; a 5,000-gallon fuel point; and for connecting water,
sewer, and electrical systems. The combined value of the five contracts was
$3.9 million.
    For this inspection, SIGAR assessed whether (1) construction had
been completed in accordance with contract requirements and applicable
construction standards, and (2) the facilities were being used as intended
and maintained.
    The agency conducted its Camp Monitor site inspection on March 2,
2013. The facilities SIGAR inspected at the time appeared to be well con-
structed, but the agency’s inspectors could not fully assess the camp’s
lighting, heating, water, sewer, and other mechanical systems because
the generators were not operational at the time of SIGAR’s inspection in
March 2013. The camp’s greatest shortcoming was the lack of a dining facil-
ity, which prevented the ANA from occupying and using the facility. The
Combined Security Transition Command-Afghanistan (CSTC-A) addressed
the problem by providing $1.2 million in direct assistance to the Afghan gov-
ernment to construct the dining facility, and Afghan personnel in January
2014 told U.S. officials that the dining facility was under construction and




Report to the united states congress       I   April 30, 2014                      37
                                           SIGAR Oversight Activities




                                           60% complete, with 700 ANA personnel using the base. However, SIGAR
                                           is concerned that CSTC-A officials could not provide SIGAR inspectors
                                           with any oversight information regarding the status of the dining facility’s
                                           construction or whether the ANA was currently occupying the camp. As a
                                           result, the U.S. government is relying solely on the Afghan government to
                                           report on the spending of U.S.-provided funding, the progress of construc-
                                           tion, and how the camp is being used.
                                              Camp Monitor is located in an area that can no longer be reached by U.S.
                                           civilian employees because it sits outside the so-called “oversight bubble.”
                                           The “oversight bubbles” are defined by the ability of the U.S. government
                                           to provide both adequate security and rapid emergency medical support to
                                           civilians traveling to the area. As a result, SIGAR inspectors can no longer
                                           access this area and cannot independently verify that the dining facility is
                                           being constructed in accordance with the contract requirements or whether
                                           the camp is being used as intended.
                                              In SIGAR’s view, oversight by CSTC-A or NATO Training Mission-
                                           Afghanistan (NTM-A) is needed to ensure funds are being spent properly,
                                           construction of the dining facility is completed in accordance with require-
                                           ments, and the camp is being used as intended.

                                           Inspection Alert Letters
                                           This quarter, SIGAR’s Audit and Inspection Directorate issued two
Inspection Alert Letters
•	 Alert Letter 14-42-AL: FOB Sharana      alert letters.
   Incinerators
•	 Alert Letter 14-45-AL: Baghlan Prison   Alert Letter 14-42-AL: FOB Sharana Incinerators
   Construction
                                           On March 18, 2014, SIGAR wrote to DOD to announce that it has opened
                                           a preliminary investigation into USACE’s decision to accept substandard
                                           work on the construction of an incinerator system at FOB Sharana in
                                           Paktika Province. SIGAR issued a report examining the construction of
                                           the incinerators in December 2013. The report found that the system was
                                           completed nearly three years behind schedule and that the incinerators had
                                           unaddressed construction deficiencies. As a result, they were never used
                                           and $5.4 million was wasted. USACE subsequently conducted an inquiry in
                                           which it found that the incinerator facility was constructed in accordance
                                           with the contract technical specifications and that none of the personnel
                                           assigned to perform oversight of the incinerator contract failed to appropri-
                                           ately perform their duties. Upon request, USACE submitted nine documents
                                           to SIGAR that, according to USACE, were used for its inquiry. However,
                                           SIGAR’s analysis of the nine documents continues to raise concerns about
                                           why the contractor was not held responsible for the construction deficien-
                                           cies and calls into question the thoroughness of USACE’s inquiry.




                                             38                 Special inspector general   I   Afghanistan reconstruction
             SIGAR Oversight Activities




Alert Letter 14-45-AL: Baghlan Prison Construction
On April 2, 2013, SIGAR wrote to State to inform the department of design
and construction defects at a prison in Baghlan Province built by a contrac-
tor hired by State’s Bureau of International Narcotics and Law Enforcement
(INL) in December 2013. SIGAR announced its inspection of Baghlan prison
in December 2013. Although SIGAR has been unable to conduct a physical
inspection of the prison because of security concerns, its review of the con-
tract files found serious structural damage. The structural damage resulted
in at least one of the prison’s housing units being demolished. The designs
indicate that this unit and other buildings at the site were built using unre-
inforced brick walls between concrete columns. Subsequent information
provided by INL confirms that the facilities were built using an inadequate      Soil settlement led to serious structural
amount of reinforcing steel. Although INL officials told SIGAR that any          damage to, and eventual demolition
rebuilt structure(s) will use the same construction materials and methods        of, building 17 at Baghlan Prison.
that were previously used, SIGAR believes that INL should, for security          (State Department photo)
and safety reasons, instead use sufficient steel-reinforced masonry, such as
concrete-masonry units with rebar.

New Inspections Announced This Quarter
This quarter, SIGAR initiated five new inspections. Each inspection will
                                                                                    New Inspections
assess whether (1) construction has been or is being completed in accor-            •	 Inspection of Ministry of Defense
dance with contract requirements and applicable construction standards;                Headquarters
and (2) the parts of the facility, if any, that are occupied are being used as      •	 Inspection of ANA Camp Commando
intended and properly maintained. These five inspections will assess:                  Complex
                                                                                    •	 Inspection of ANA Slaughterhouse
 •	 The Afghan Ministry of Defense Headquarters, a $142 million facility               Facility
    located in Kabul                                                                •	 Inspection of Gorimar Industrial Park
 •	 The ANA Camp Commando Complex near Kabul                                        •	 Inspection of Shorandam Industrial
 •	 The ANA Slaughterhouse Facility in Pol-i-Charki District in Kabul                  Park
 •	 The Gorimar Industrial Park in Balkh Province
 •	 The Shorandam Industrial Park in Kandahar Province

STATUS OF SIGAR RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires SIGAR to report
on the status of its recommendations. This quarter, SIGAR closed 46
recommendations contained in 14 audit and inspection reports. These
recommendations resulted in over $22 million of savings to the U.S. tax-
payer. Corrective actions taken for the closed audit recommendations this
period include:
•	 The de-obligation of over $22 million from expired USAID grants.
   (Audit 12-9);
•	 The recovery of nearly $332,000 in ineligible and/or unsupported
   contract costs paid by the U.S. Government. (Financial Audits 13-2,
   13-4, 13-5, 13-8, 14-9, 14-11, 14-14, and 14-29); and




Report to the united states congress   I   April 30, 2014                  39
                                            SIGAR Oversight Activities




                                            •	 The establishment of a review process to check the validity of Risk
                                               Management Company licenses prior to approving USAID contract
                                               awards for security advisory services.

                                               For one audit report, the remaining open recommendation was closed
                                            because the corrective action was overtaken by events when the Provincial
                                            Reconstruction Team (PRT) overseeing the planned use of electrical equip-
                                            ment was disbanded before a plan of action could be completed. (Audit 13-7)
                                               From 2009 through March 2014, SIGAR published 130 audits, alert letters,
                                            and inspection reports and made 410 recommendations to recover funds,
                                            improve agency oversight, and increase program effectiveness. SIGAR
                                            has closed 77% of these recommendations. Closing a recommendation
                                            generally indicates SIGAR’s assessment that the audited agency has either
                                            implemented the recommendation or otherwise appropriately addressed
                                            the issue. In some cases, a closed recommendation will be the subject of
                                            follow-up audit work.
                                               The Inspector General Act of 1978, as amended, also requires SIGAR to
                                            report on any significant recommendations from prior reports on which
                                            corrective action has not been completed. In this quarter, SIGAR continued
                                            to monitor agency actions on recommendations in 29 audit and inspec-
                                            tion reports. There was one audit with recommendations over 12 months
                                            old where the agency had not yet proposed a corrective action that SIGAR
COMPLETED SPECIAL PROJECT                   believes would resolve the identified problem. The audit report was titled
PRODUCTS                                    Afghan National Army: Controls Over Fuel for Vehicles, Generators, and
•	 Special Project 14-35-SP: Inquiry
   Letter: Mi-17 Crash and Demolition       Power Plants Need Strengthening to Prevent Fraud, Waste and Abuse
•	 Special Project 14-36-SP: Inquiry        (Audit 13-4). Released in January 2013, it questioned the process used to
   Letter: Afghan National Police Ghost     order, receive, and pay for petroleum, oil, and lubricants for ANA vehicles.
   Worker and Law and Order Trust Fund
   for Afghanistan Financial Management     Additionally, there are three audit and inspection reports over 12 months
•	 Special Project 14-37-SP: Inquiry        old where SIGAR is waiting for an agency to complete the agreed-upon cor-
   Letter: Communications Towers            rective action.
•	 Special Project 14-38-SP: Inquiry           SIGAR is currently performing audits of the agency resolution process at
   Letter: 64,000-Square-Foot Building
   Review Document Preservation             the Departments of Defense and State, and USAID. The audits are examin-
•	 Special Project 14-40-SP: Inquiry        ing the status the status and oversight process for reaching audit resolution
   Letter: Kajaki Unit 2 Project            at these agencies.
•	 Special Project 14-43-SP: Inquiry
   Letter: DOD Contract Data Request
•	 Special Project 14-44-SP: Inquiry
   Letter: Cancelled USAID Contracts        Special Projects
•	 Special Project 14-49-SP: Fact Sheet:    The Inspector General’s Special Projects team was created to examine
   Department of State Assistance to
   Afghanistan: $4 Billion Obligated        emerging issues and deliver prompt, actionable reports to federal agencies
   between 2002 and 2013                    and the Congress. The team conducts a variety of assessments, producing
•	 Special Project 14-50-SP: Inquiry        reports on all facets of Afghanistan reconstruction. The directorate is made
   Letter: ANP Mobile Money Pilot Program
                                            up of auditors, analysts, investigators, lawyers, subject-matter experts, and
•	 Special Project 14-51-SP: Inquiry
   Letter: USDA Soybean Program             other specialists who can quickly and jointly apply their expertise to emerg-
                                            ing problems and questions.




                                              40                 Special inspector general   I   Afghanistan reconstruction
             SIGAR Oversight Activities




   During this reporting period, SIGAR’s Office of Special Projects asked
DOD to take immediate action to retain and preserve all records related to
issues surrounding the planning and construction of a 64,000-square-foot
building at Camp Leatherneck in Helmand Province. Special Projects wrote
to CSTC-A to warn that the United States might be unwittingly helping to
pay the salaries of non-existent members of the ANP. It wrote to State and
DOD about communications towers built with reconstruction funds that
are not being and may never be used for their intended purpose, and it que-
ried USAID about 17 cancelled projects. The office also issued an inquiry
letter to USAID about concerns that the estimated cost to install an addi-
tional power generating turbine at Kajaki Dam has increased significantly.
Special Projects is planning to examine aspects of human-trafficking issues
to determine whether prime contractors and subcontractors employed by
the U.S. military are adequately conforming to federal laws and regulations
designed to protect the health and safety of thousands of foreign workers
laboring at bases in Afghanistan.

Inquiry Letter 14-35-SP: Mi-17 Crash and Demolition
On February 18, 2014, SIGAR wrote to Special Operations Joint Task
Force-Afghanistan to ask about the crash of an Mi-17 helicopter from
the Ministry of Interior’s Special Mission Wing in Nangahar Province on
November 25, 2013. SIGAR inquired about the Afghan government’s pro-
cess for investigating military aircraft incidents, whether an incident report
had been completed, and whether U.S. military advisors participated in
these investigations. SIGAR wrote that the issue merits review because
the Mi-17 aircraft were purchased for the Special Mission Wing with funds
provided by U.S. taxpayers for the support of Afghan security forces. It
also highlights the importance of helping the Afghans identify equipment
maintenance and repair priorities prior to providing them with additional
replacement aircraft.

Inquiry Letter 14-36-SP: Afghan National Police Ghost
Worker and Law and Order Trust Fund for Afghanistan
Financial Management
On February 19, 2014, SIGAR wrote to CSTC-A to express concern that the
United States might be unwittingly helping to pay the salaries of non-exis-
tent members of the ANP.
   The issue of “ghost workers” is not a new one for SIGAR. In 2011, a
SIGAR audit report raised questions about the United Nations Development
Program’s (UNDP) management of the Law and Order Trust Fund for
Afghanistan (LOTFA), which is used to pay ANP salaries. SIGAR auditors
found that neither the Afghan Ministry of Interior nor the UNDP could
verify payroll data. SIGAR concluded that there was “limited assurance that
only ANP personnel who worked received pay.”




Report to the united states congress   I   April 30, 2014                41
SIGAR Oversight Activities




   SIGAR noted that there is a very significant amount of U.S. taxpayer
money at stake in this program. Since 2002, the international community
has contributed $3.17 billion to LOTFA. The United States has provided 38%
of that amount—approximately $1.21 billion.
   In recent discussions with officials from the European Commission and
the European Anti-Fraud Office about oversight issues, SIGAR learned
that the European Union (EU) is withholding €100 million (half of its
€200 million contribution to LOTFA), due to concerns about how that
money is being used, including the possibility of payments to ghost work-
ers and other instances of financial mismanagement. SIGAR was told the
Commission does not intend to release this funding until proper controls
are in place to ensure that LOTFA funds are used as intended.
   Special Inspector General Sopko raised the issue of ghost workers and
the European Commission’s concerns with senior CSTC-A officials on his
November visit to Afghanistan. None of the officials were aware of any
investigations of ghost workers or of the EU’s decision to withhold funds
from LOTFA.
   SIGAR asked CSTC-A to provide any evidence it has of this problem
and to identify any efforts to coordinate with other donors to LOTFA in
order to share information on possible mismanagement of donor funds.
SIGAR is encouraged by recent information that CSTC-A is taking specific
actions to address these issues including strengthening CSTC-A’s indepen-
dent audit capabilities and performing assessments scrutinizing Afghan
financial processes.

Inquiry Letter 14-37-SP: Communications Towers
On February 25, 2014, SIGAR wrote to DOD and State to ask for informa-
tion about the construction of communications towers in Afghanistan that
are not being used and may never be used for their intended purpose.
   SIGAR staff learned that sometime during 2011–2012, State entered into
a contract with MNM Communications Inc. for the design and construction
of six communications towers that, when completed, would be three times
taller than any existing towers in their vicinity. The towers were to provide
cell phone support and be made available to Afghan telecommunications
providers for television and radio broadcasters, who it was anticipated
would want to access these towers to extend their area of broadcast cover-
age in southwestern Afghanistan.
   The tower project was proposed and implemented by State’s Political
Affairs Section (PAS), Office of Strategic Communications (STRATCOM) at
the U.S. Embassy Kabul. On June 20, 2011, STRATCOM issued a Task Order
Proposal Request for the design/build of six communications towers in south-
western Afghanistan at an estimated total cost of between $5 million and
$10 million. The contract to design and build the six towers was awarded to
MNM Communications Inc. for $7.2 million. Construction of all six towers was




  42                 Special inspector general   I   Afghanistan reconstruction
             SIGAR Oversight Activities




completed during 2012. Four of these towers are located in Helmand Province,
one is located in Kandahar Province, and one is located in Ghazni Province.
   According to information received by SIGAR, PAS/STRATCOM greatly
underestimated the cost of the contracts to operate, maintain, and market
the towers. PAS/STRATCOM had set a $2 million limit on contract costs,
but bids received were four to five times higher than the limit. As a result
of the high bids, the decision was made to not award these service con-
tracts. SIGAR was also told that DOD cancelled the Expeditionary Cellular
Communications project, and according to information received, the U.S.
government lost most of its potential use for the towers.
   Research by SIGAR found that this program may have been intended
to provide continuous uninterrupted cell phone coverage for forces in
Afghanistan operating in remote areas. Some of the towers may have been
designated by State as “excess property,” which allows them to be turned
over to DOD. On May 18, 2013, one tower at Camp Leatherneck was trans-
ferred to the DOD garrison for $150,000. SIGAR asked State and DOD for
more information on the decision to construct these six communications
towers, the reasons for their lack of utilization, their future use, subsequent
sale, or transfer. In a March 28 response, DOD acknowledged that one of
the towers was transferred to DOD and is not currently being utilized. DOD
reported that the five remaining towers are under State control. An exten-
sive response was received from State and is currently being evaluated.

Inquiry Letter 14-38-SP: 64,000-Square-Foot Building Review
Document Preservation
On February 27, 2014, SIGAR wrote to DOD to request that it take immedi-
ate action to retain and preserve all records relating to issues surrounding
the planning and construction of an unoccupied 64,000-square-foot building
at Camp Leatherneck. SIGAR had written in July and again in December
asking for information about why the building, originally intended to serve
as a command headquarters in support of the troop surge in Helmand
Province, which ended in September 2012, had been built. In the most
recent letter, Special Inspector General Sopko wrote that it had come to
his attention that his request for the preservation and retention of records
may not have been honored, which DOD acknowledged. DOD subsequently
issued a retention order, and the department is currently assembling the
requested documents for SIGAR’s review.

Inquiry Letter 14-40-SP: Kajaki Unit 2 Project
On March 11, 2014, SIGAR sent an inquiry letter to USAID regarding the
cost of the installation of an additional power generating turbine at the
Kajaki Dam.
  In December 2010, USAID awarded a contract to Black and Veatch
Special Projects Corporation (Black & Veatch) to complete the Kandahar




Report to the united states congress   I   April 30, 2014                43
SIGAR Oversight Activities




Helmand Power Program (KHPP). KHPP is one of USAID’s largest active
programs in Afghanistan, with a total estimated cost of about $266 million.
This project had six components, including the installation and commis-
sion of an additional turbine for the Kajaki Dam, known as the Kajaki Unit
2 Project. In January 2013, at the request of the Afghan government, USAID
removed the requirement for the installation of Kajaki Unit 2 from its KHPP
contract with Black & Veatch and transferred responsibility to the Afghan
government. However, USAID did not reduce the original total estimated
cost of $266 million for the program, but instead modified the contract to
fund technical assistance support to the Afghan government. USAID then
obligated an additional $75 million under an existing grant with the Afghan
government to fund the installation of the turbine unit.
   With the additional funding provided for the Kajaki Unit 2 project, the
cost for all six components of the original KHPP consequently increased to
$345 million. SIGAR is concerned that with this cost increase KHPP may no
longer be economically viable. According to a 2012 USAID economic analy-
sis of KHPP, the costs of the program would outweigh its benefits if actual
costs exceeded the original cost estimate of $266 million costs by more
than 16%. In other words, based on the original cost estimate of $270 million
for the KHPP, any cost increase exceeding $43 million (16%) would make
the KHPP economically unviable. SIGAR’s analysis showed that the cost
increase of $75 million for the turbine unit represents a discounted-value
increase of $59 million (22%) for the overall KHPP.
   USAID disagreed with SIGAR’s letter in a response dated March 28, 2014.
USAID stated that the $75 million estimate was aligned with USAID’s 2012
cost estimate. USAID also noted that the agency made a contract modifica-
tion that decreases KHPP’s ceiling by $38 million. USAID asked SIGAR to
consider the U.S. government’s broader policy and economic goals in imple-
menting the project. USAID stated that its investment is not simply based
on direct economic returns, but predicated on significant security and gov-
ernance objectives.
   In a follow-up letter, SIGAR stated it appreciates that USAID’s investment
is not based on cost alone and that a contract modification did take place.
However, SIGAR maintains that by USAID’s own analysis, KHPP has very
nearly reached the threshold of economic viability.

Inquiry Letter 14-43-SP: DOD Contract Data Request
On March 19, 2014, SIGAR wrote to DOD reiterating an earlier request for
detailed information for all contracts, cooperative agreements, and grants
for reconstruction in Afghanistan for the period from FY 2002 through
February 28, 2013. In April 2013 DOD provided the requested contract,
cooperative agreement, and grant data to SIGAR in response to the earlier
SIGAR request.




  44                Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities




   The data submitted in April 2013 totaled approximately $23 billion in
obligations. However, high-level fund data in the Defense Finance and
Accounting Services (DFAS) database indicated that, as of March 31, 2013,
obligations for the Afghanistan Security Force Fund alone totaled $44 bil-
lion. The significant difference between the total of DOD’s contract data
and that indicated in the DFAS database led SIGAR to conclude that it does
not have complete data or has not received information that would allow
the agency to reconcile the two. SIGAR personnel met with representa-
tives of the Office of the Secretary of Defense (OSD) (Policy) and OSD
(Comptroller). The OSD officials agreed that there were significant gaps in
the initial contract, cooperative agreement, and grant data submission and
agreed to re-examine what data is available and provide a narrative expla-
nation for the data that is not available.

Inquiry Letter 14-44-SP: Cancelled USAID Contracts
On March 25, 2014, SIGAR wrote to USAID requesting information on 17
projects in Afghanistan that USAID had identified as terminated since 2008.
SIGAR noted that it appeared that USAID cancelled multiple programs after
some $212 million had been disbursed. SIGAR’s letter also raised two gen-
eral questions: why did USAID not take action earlier to terminate or cancel
some of these contracts, and, given that multiple programs were cancelled
due to either the contractor “no longer meeting the needs” of the partner
entity, or lack of cooperation from the partner entity, to what extent are
these issues curtailing USAID reconstruction efforts in Afghanistan? USAID
has since provided extensive information on these cancelled contracts
which SIGAR is currently reviewing.

Fact Sheet 14-49-SP: Department of State Assistance to
Afghanistan: $4 Billion Obligated Between 2002 and 2013
To provide more effective oversight and to meet SIGAR’s reporting require-
ments to monitor contracts and reconstruction activities in Afghanistan,
SIGAR has requested information from U.S. government agencies con-
cerning how and where U.S. funds appropriated for the reconstruction of
Afghanistan are spent. This report provides an analysis of the information
obtained in State’s response.
   According to SIGAR analysis of State data, State obligated nearly $4 bil-
lion for reconstruction in Afghanistan between the beginning of FY 2002
and March 2013. State awarded reconstruction funding through contracts,
grants, and cooperative agreements. Recipients of State reconstruction
awards included for-profit entities, non-profit non-governmental organiza-
tions (NGOs), and individuals.
   State awarded 1,874 contracts, grants, and cooperative agreements to
771 organizations and individuals. Nearly 90% of awards by total award
amount were issued for the governance and rule of law project sector,




Report to the united states congress   I   April 30, 2014              45
SIGAR Oversight Activities




which includes peacekeeping initiatives and activities intended to develop
the ANP and the Afghan judiciary system. Other project sectors for State
funding included landmine removal, support to cultural activities and
civil society, education, humanitarian aid, human rights, and economic
development.
   Contracts accounted for the majority of State reconstruction funds by
total value, with $3.5 billion. Grants accounted for a total of $350.7 million.
Cooperative agreements accounted for a total of $108.8 million of total
State Department reconstruction funds for Afghanistan.
   The top recipient of State reconstruction funding by total awards was
DynCorp International Limited Liability Corporation (DynCorp). DynCorp
received approximately $2.8 billion in contracts, accounting for 69% of
total State Department reconstruction awards. The majority of DynCorp
contracts were for governance and rule-of-law activities such training and
equipping the ANP. DynCorp contracts included police trainers, construc-
tion of police infrastructure, and fielding police equipment and vehicles.
PAE Government Services Incorporated (PAE) received the second-largest
amount of total State reconstruction awards, receiving $598 million in con-
tracts. PAE contracts supported development of the rule of law, including
police training, counternarcotics advising, and justice sector development.
   Of the total reported awards between the beginning of FY 2002 and
March 2013, 98% of awards by total value were scheduled to be complete
by the end of calendar year 2013. On April 14, 2014, SIGAR released a fact
sheet summarizing data provided by the State Department on the agency’s
spending on reconstruction in Afghanistan. The report analyzed the data by
type of legal instrument, kind of project, and project completion status.

Inquiry Letter 14-50-SP: ANP Mobile Money Pilot Program
On April 16, 2014, SIGAR wrote U.S. military commanders in Afghanistan
to inquire about the current status of an MOI pilot program using mobile-
money technology to pay salaries to the ANP. These salary payments are
funded in part by U.S. taxpayers through direct-assistance funds to LOTFA.
Despite the promise of reducing corruption, the pilot has since produced
mixed results.
   Established in 2009, the pilot demonstrated early success in reduc-
ing administrative corruption. As late as March 2013, media reported
that Afghan police officers participating in the pilot thought they had
received a 30% salary increase because middlemen were no longer able to
skim cash from legitimate salary payments. However, SIGAR uncovered
information that Afghan police commanders began registering their own
phone numbers in lieu of those of their subordinates, and resumed their
past practice of claiming a portion of the salaries paid out to individual
police officers.




  46                 Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities




Inquiry Letter 14-51-SP: USDA Soybean Program
On April 17, 2014, SIGAR wrote to the Secretary of Agriculture
requesting information on a U.S. Department of Agriculture (USDA)-
sponsored program to promote soybean cultivation and consumption in
Afghanistan. Following a staff visit to a USDA-funded soybean process-
ing factory outside Mazar-e-Sharif, SIGAR became concerned that a key
component of the program faces significant sustainability challenges
due to a lack of raw materials for processing, ineffective technical assis-
tance, and a lack of local demand for soybean products in Afghanistan.            Criminal Information: a written accusa-
SIGAR requested justification and cooperative agreement documents as              tion made by a public prosecutor, without
well as any plans the USDA had implemented to address challenges to               the participation of a grand jury. The
the success of the program.                                                       function of an information is to inform
                                                                                  the defendant of the nature of the charge
                                                                                  made against him, and the act constituting
Investigations                                                                    such charge so that he can prepare for trial
During the reporting period, SIGAR’s ongoing investigations saved the U.S.        and to prevent him from being tried again
government approximately $2.7 million. SIGAR investigations also resulted         for the same offense.
in an arrest, a criminal information, two plea agreements, and six sentenc-
ings in the United States. In Afghanistan, two subjects were convicted and
sentenced and eight individuals were barred from having military installa-      Source: Black’s Law Dictionary.

tion access. Criminal fines, restitutions, and forfeitures amounted to nearly
$4 million. SIGAR initiated 60 new investigations and closed 40, bringing       Figure 2.1
the total number of ongoing investigations to 338, as shown in Figure 2.1. In
addition, SIGAR’s suspension and debarment program referred 16 individu-        SIGAR INVESTIGATIONS: NUMBER OF OPEN
als and 15 companies for suspension or debarment based on allegations           INVESTIGATIONS AS OF MARCH 31, 2014
that they engaged in fraud and non-performance as part of contracts valued
at almost $61 million.                                                                                    Total: 338

Investigation Results in $2.5 Million Savings to
U.S. Government                                                                                                   Public
                                                                                                                  Corruption
SIGAR initiated an investigation into allegations that the Afghan trucking                                        89
                                                                                              Procurement
company Kandahar Mahali Transit & Forwarding Limited (KMT) submit-                            and Contract             Other/
ted 51 false Transportation Movement Requests (TMRs) to the CENTCOM                           Fraud                    Miscellaneous
Joint Theater Support Contracting Command (C-JTSCC) at Camp Phoenix                           114                      68

in Kabul, Afghanistan. The investigation determined that 43 of the 51 TMRs
were fraudulent. During the course of the investigation, C-JTSCC identified
                                                                                             Theft                      Money
an additional 305 questionable TMRs submitted by KMT. Further investiga-                       29                       Laundering
tive efforts revealed that 262 of these were fraudulent as well.                                                        38
   On February 17, 2014, the contracting officer at the C-JTSCC/General
                                                                                Source: SIGAR Investigations Directorate, 4/9/2014.
Support Contracting Center (GSCC) provided SIGAR with a copy of the let-
ter of concern informing KTM of its three-week suspension. The total value
of the fraudulent TMRs withheld from payment amounted to over $2.5 mil-
lion, a significant savings to the U.S. government.




Report to the united states congress   I   April 30, 2014              47
SIGAR Oversight Activities




SIGAR and USAID OIG special agents, with the help of the ANP, arrest an Afghan employee
of a USAID contractor in Mazar-e-Sharif on embezzlement charges. (SIGAR photo)



Two Former U.S. Soldiers Sentenced for Bribery
and Conspiracy
On February 3, 2014, in the U.S. District Court of Colorado, Stephanie
Charboneau was sentenced to 87 months incarceration, three years super-
vised release, and restitution of $1,225,000. SIGAR initiated the investigation
when information was obtained that Charboneau, Sergeant Christopher
Weaver, and Jonathan Hightower, a former contractor, were alleged to have
conspired with Afghan nationals to help them steal fuel from the base in
exchange for cash.
   Agents from SIGAR, the Federal Bureau of Investigation (FBI), U.S.
Army Criminal Investigation Command (CID), and the Defense Criminal
Investigative Service (DCIS) executed search warrants at the homes of
Weaver and Charboneau in Colorado and Hightower in Texas. During the
course of these searches, Weaver, Charboneau, and Hightower all admit-
ted to conspiring with an Afghan representative of the company Afghan
American Army Services to facilitate the theft of fuel from FOB Fenty.
   Weaver and Hightower also implicated Staff Sergeant Bilah Abdullah
in the same scheme. When interviewed by SIGAR agents in June 2012,
Abdullah admitted to receiving $50,000 in bribes from Afghan contrac-
tors. A criminal information was eventually filed against Abdullah and on




   48                   Special inspector general     I   Afghanistan reconstruction
             SIGAR Oversight Activities




March 13, 2014, he was sentenced to 12 months plus one day incarceration,
two years supervised release, and restitution of $466,250.
   Weaver and Hightower have already been prosecuted for their role in
this conspiracy.

Two Convicted From FOB Ghazni Sting Operation
On March 4, 2014, Chief Prosecutor Rashid of the Afghan Attorney
General’s Office, Ghazni Province, informed SIGAR that on February 3,
2014, the Ghazni Public Security Division convicted two Afghan truck driv-
ers, Khairullah and Yar-Mohammad, of theft and sentenced them both to
two years in prison and a fine of $500.
   SIGAR’s investigation began on December 9, 2013. A U.S. soldier
assigned to download fuel at the base informed a SIGAR agent that an
Afghan driver representing Deans Logistic and Transportation Company
had offered to pay him cash in return for leaving fuel in his truck. SIGAR
immediately contacted the Ghazni prosecutor and proposed that a sting
operation be set into motion. The prosecutor and the soldier agreed to par-
ticipate in the operation that resulted in the arrest of the two truck drivers.

SIGAR Disrupts Human Trafficking at Kandahar Airfield
SIGAR disrupted a human-trafficking scheme this quarter at Kandahar
Airfield (KAF). The investigation began when a SIGAR special agent
attended a meeting in January 2014 at the office of RONCO, a company
hired to conduct entrance and exit interviews of all contractor employ-
ees at KAF. At this meeting, a Sri Lankan working at KAF for a Canadian
company specializing in passenger and cargo transport in Afghanistan told
RONCO that his supervisor solicited a $600 payment from him during his
job interview. The supervisor informed the Sri Lankan that the payment was
required to reimburse the company for his airfare to Afghanistan.
   On March 1, 2014, SIGAR interviewed the Sri Lankan employee, who
admitted to paying his supervisor $600. During the interview, he identi-
fied other Sri Lankans employed by the Canadian company who made
similar payments, as required by management. On March 20, 2014, SIGAR
conducted interviews of six other Sri Lankan men employed by the com-
pany and confirmed four of the six paid their supervisor out of their first
few paychecks.
   SIGAR Agents subsequently interviewed the supervisor, who admitted
to forcing his employees into paying him. SIGAR provided the informa-
tion to the company director, who advised he would promptly terminate
the employee and arrange for his departure home. Additionally the
company agreed to reimburse the employees what they had paid to the
supervisor. The supervisor was referred to the Army for debarment on
March 31, 2014.




Report to the united states congress   I   April 30, 2014                49
                                             SIGAR Oversight Activities




                                             Tennessee Couple Sentenced for Conspiracy to
                                             Commit Fraud
                                             On February 14, 2014, in the U.S. District Court for the Eastern District
                                             of Virginia, Keith and Angela Johnson were sentenced for conspiracy to
                                             commit wire fraud in a scheme to steer more than $10 million in military
                                             subcontracts through kickbacks and the use of assumed names. Keith
                                             Johnson received a sentence of 30 months in prison, a supervised release
                                             for two years, and a forfeiture of over $2 million to be paid in conjunction
                                             with his wife, whose sentence also included a prison term of six months
                                             and two years supervised release.
                                                SIGAR, DCIS, FBI, and Army CID opened the investigation after an Army
                                             CID report alleged that Keith Johnson, a program manager for a U.S. con-
During his March 2014 trip to Afghanistan,
Special IG Sopko presents retirement         tractor, and his family members were steering supply contracts and rigging
credentials to Special Agent Danny Min.      bids contracts to a company owned and operated by Angela Johnson and
(SIGAR photo by Elizabeth Faulkner)          another relative. Keith Johnson had his wife establish a separate company
                                             and then positioned her as the sales manager. Other close associates of the
                                             Johnson couple had established other companies to allow Keith Johnson to
                                             steer contracts to them. These associates then reportedly paid kickbacks to
                                             Keith Johnson through a shell company operated in the name of Johnson’s
                                             relative. The Tennessee couple used part of the proceeds for extravagant
                                             purchases, including luxury vehicles and jewelry.
                                                John Eisner and Jerry Kieffer, two co-conspirators involved in this
                                             scheme, pled guilty, and were sentenced in 2013.
                                                Keith Johnson, Angela Johnson, and two of their companies were pro-
                                             posed for debarment on January 8, 2014, and on February 24, 2014, all of
                                             them were debarred for a period of eight years. Kieffer was proposed for
                                             debarment on January 8, 2014, and on February 20, 2014, was debarred for
                                             a period of six years. Eisner and his company were proposed for debar-
                                             ment on January 8, 2014, and on March 6, 2014, were debarred for a period
                                             of six years.

                                             U.S. Army Sergeant Sentenced for Conspiracy and Theft
                                             On March 7, 2014, in the Eastern District of North Carolina, former Sergeant
                                             First Class Mauricio Espinoza, U.S. Army, was ordered to serve 51 months
                                             in a federal prison, followed by three years supervised probation, and to
                                             pay $114,034 in restitution. A federal bench warrant had been issued for
                                             Espinoza’s arrest because of his failure to appear in the Eastern District of
                                             North Carolina court for sentencing in January 2014.
                                                A SIGAR initiative to review and analyze postal money-order purchases
                                             by personnel deployed in Afghanistan had identified Espinoza and Staff
                                             Sergeant Philip Wooten as being involved in suspicious monetary transac-
                                             tions. Both men were assigned to the 7th Special Forces Group based at
                                             Fort Bragg, North Carolina, when they stole about $225,000 in U.S. funds
                                             earmarked for the reconstruction effort. Espinoza deployed to Afghanistan




                                               50                 Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities




as a paying agent, while Wooten was responsible for contracting with local
vendors. Between July 2009 and April 2010, the two conspired to steal
funds meant for Afghan contractors and falsified payment receipts to cover
up the scheme. In some instances, they submitted inflated civil work proj-
ect bids to the finance office for approval, then paid the vendor less than
the approved amount and pocketed the difference for themselves. They
converted the money into U.S. dollars and shipped some of it back to the
United States via postal money orders. Wooten was convicted and is cur-
rently serving his sentence.

U.S. Army Sergeant Pleads Guilty
On February 19, 2014, Sergeant Albert Kelly III of Fort Knox, Kentucky, pled
guilty to charges of theft of government property and aiding and abetting
in the theft of fuel at FOB Salerno. A criminal information was filed against
Kelly on November 11, 2013.
   From November 2011 until January 2012, Kelly permitted the diversion
of fuel-delivery trucks from FOB Salerno to other locations, where the
trucks were downloaded and the fuel stolen. To conceal the diversions,
Kelly falsely certified that the diverted fuel had in fact been delivered and
downloaded at FOB Salerno. In exchange for assisting in the fuel-theft mis-
sions and diverting approximately 25,000 gallons of fuel, Kelly received
approximately $57,000 from an Afghan trucking company. The total loss to
the government was approximately $100,000.

Investigation Saves the U.S. Government More Than $150,000
SIGAR initiated an investigation that saved the U.S. government $156,669
after a contracting officer at Camp Phoenix in Afghanistan noticed 45 TMRs
that appeared to be fraudulent. The C-JTSCC, CSCC referred the case to
SIGAR. A review of the TMRs determined they were all generated and sub-
mitted by Rahmat Siddiqi Transportation Company (RSTC) and that each
of the TMRs had been paid prior to the discovery. When informed of the
investigative findings, the CSCC issued a demand letter for overpayment
to RSTC. On January 14, 2014, DFAS confirmed that an offset of payment
had been issued on a RSTC contract in order to collect the debt of $156,669
owed by the company.

Investigation Uncovers False TMRs
SIGAR initiated an investigation after a contracting officer alleged that the
trucking firm Speedline Handling and Logistics (SHL) had submitted false
TMRs to the C-JSCC at Camp Phoenix in Kabul, Afghanistan. Investigative
efforts determined that five of the SHL TMRs were fraudulent. SIGAR
informed the contracting officer, who responded with a memo indicating he
withheld payment for all five TMRs. The investigation resulted in a cost sav-
ings of $30,887.




Report to the united states congress   I   April 30, 2014              51
SIGAR Oversight Activities




State Department Contractor Sentenced
On January 14, 2014, in the U.S. District Court of Delaware, Kenneth Brophy
received a sentence of one year unsupervised probation, a $3,000 fine, and
$30,000 forfeiture. In September 2013, the court accepted Brophy’s guilty
plea to count two of his indictment, receipt of an illegal gratuity by a pub-
lic official. On March 25, 2014, the State Department Office of Inspector
General’s (OIG) Office of Investigations provided SIGAR with a copy of a
State letter dated March 24, 2014, debarring Brophy from soliciting or per-
forming U.S. government contracts as either a contractor or sub-contractor
for a three-year period commencing January 27, 2014.
    SIGAR initiated this joint investigation of Brophy with the FBI and
State OIG after receiving allegations that Brophy, a State Department con-
tract employee for INL at the U.S. Embassy Kabul during 2009, accepted
bribes and had otherwise engaged in corruption in connection with his
employment. On April 2, 2013, Brophy was indicted in a three-count
indictment charging him with conspiracy, receipt of an illegal gratuity
by a public official, and willful receipt by an executive-branch employee
of an illegal payment in consideration of assistance in the prosecution
of a claim against USACE. At INL, Brophy had supervised construction
contracts of Afghan police facilities, including the renovation of the Pol-
i-Charkhi Prison by an Afghan contractor. The contractor paid Brophy
$30,000 in exchange for his lobbying USACE to reinstate the Afghan com-
pany’s contract previously terminated due to unsatisfactory performance.
Brophy assisted company officers in drafting documents for submission
to USACE, provided general advice regarding the Afghan company’s com-
munications with USACE, and personally lobbied a USACE official to
re-instate the contract.

Contractor Barred from U.S. Military Installations in Afghanistan
A SIGAR investigation found that James Ethridge, vice-president of
Fernridge Strategic Partners (FSP), accepted a $100,000 loan from his
subcontractor, Etihad Hamidi Group of Companies (Etihad). The subcon-
tractor provided the first $30,000 of the loan to Ethridge in cash. Etihad
deducted the remaining $70,000 due the company on its subcontract work
to FSP. Etihad later offered to forgive $40,000 of the loan FSP owed Etihad
in exchange for five third country national badges that would allow Etihad
employees access to KAF to develop work for Etihad outside the estab-
lished subcontract between FSP and Etihad. SIGAR briefed the KAF Deputy
Garrison Commander the case. He subsequently debarred Ethridge from
all U.S. installations in the Afghanistan Combined Joint Operations Area
because having individuals on the base with improper badges could have
endangered U.S. troops.




  52                 Special inspector general   I   Afghanistan reconstruction
            SIGAR Oversight Activities




Afghan Truck Drivers Barred from U.S. Military
Installations in Afghanistan
On February 5, 2014, the 831st Transportation Battalion notified SIGAR’s
office at Bagram Airfield (BAF) that four flatbed trucks from the truck-
ing company ATC Logistics were parked at the entry control point at BAF
awaiting access to the base. Soldiers at the entry control point had discov-
ered a discrepancy between the names on the manifest and the names of
the drivers of the four trucks.
   Subsequently, a SIGAR special agent interviewed the four drivers. Each
stated they were hired to replace the original truck driver because the origi-
nal driver had been blacklisted and was prohibited from entering the base.
Upon completion of the interviews, the special agent submitted a request
for the four drivers to be barred from every U.S. military installation in
Afghanistan. Captain Steven Brady, CJTF-10 Chief of Administrative Law,
granted the request.

Suspensions and Debarments
This quarter, SIGAR’s suspension and debarment program referred 16 indi-
viduals and 15 companies for suspension or debarment based on evidence
developed as part of investigations conducted by SIGAR in Afghanistan and
the United States. Of these 31 contractors, 14 individuals, and 15 companies
were referred for debarment based on allegations that they engaged in fraud
and non-performance as part of contracts valued at $60,512,177. These
referrals bring the total number of individuals and companies referred by
SIGAR since 2008 to 433–encompassing 230 individuals and 203 companies
to date, as shown in Figure 2.2 on the following page.
   As of the end of March 2014, the efforts of SIGAR to utilize suspen-
sion and debarment to address fraud, corruption, and poor performance
in Afghanistan have resulted in a total of 72 suspensions and 154 finalized
debarments of individuals and companies engaged in U.S.-funded recon-
struction projects. An additional seven individuals and companies have
entered into administrative compliance agreements with the U.S. govern-
ment in lieu of exclusion from contracting.
   Suspensions and debarments are an important tool for ensuring that
agencies award contracts only to responsible entities. SIGAR’s program
addresses three challenges posed by U.S. policy and the contingency con-
tracting environment in Afghanistan: the need to act quickly, the limited
U.S. jurisdiction over Afghan nationals and Afghan companies, and the
vetting challenges inherent in the use of multiple tiers of subcontractors.
SIGAR continues to look for ways to enhance the government’s responses
to these challenges through the innovative use of information resources and
investigative assets both in Afghanistan and the United States.
   SIGAR makes referrals for suspensions and debarments—actions taken
by U.S. agencies to exclude companies or individuals from receiving federal




Report to the united states congress   I   April 30, 2014               53
SIGAR Oversight Activities




Figure 2.2


SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q3 FY 2011–Q2 FY 2014

 420

 360

 300

 240

 180

 120

  60

    0
         Q2      Q3       Q4       Q1      Q2      Q3   Q4   Q1        Q2     Q3   Q4   Q1     Q2
              FY 2011                        FY 2012                    FY 2013          FY 2014

Source: SIGAR Investigations Directorate, 4/9/2014.




contracts or assistance because of misconduct—based on completed
investigations that SIGAR participates in. In most cases, SIGAR’s referrals
occur in the absence of acceptance of an allegation for criminal prosecu-
tion or remedial action by a contracting office and are therefore the primary
remedy to address contractor misconduct. In making referrals to agencies,
SIGAR provides the basis for a suspension or debarment decision by the
agency as well as all of the supporting documentation needed for an agency
to support that decision should it be challenged by the contractor at issue.
Based on the evolving nature of the contracting environment in Afghanistan
and the available evidence of contractor misconduct and/or poor per-
formance, at times SIGAR has found it necessary to refer individuals or
companies on multiple occasions for consideration by agency suspension
and debarment officials.
   SIGAR’s emphasis on suspension and debarment is exemplified by the
fact that of the 433 referrals for suspension and debarment that have been
made by the agency to date, 406 have been made since the second quar-
ter of 2011. During the 12 month period prior to April 2014, the efforts of
SIGAR’s suspension and debarment program resulted in actions by agency
suspension and debarment officials to exclude 125 individuals and compa-
nies from contracting with the U.S. government. SIGAR’s referrals over this
period represent allegations of theft, fraud, poor performance, financial sup-
port to insurgents, and mismanagement as part of reconstruction contracts
valued at $563,621,648.




   54                           Special inspector general         I   Afghanistan reconstruction
            SIGAR Oversight Activities




Debarment of Mesopotamia Group
During the previous quarter, the efforts of SIGAR’s suspension and
debarment program resulted in debarment of Mesopotamia Group, John
Dawkins, Candice Boulware, and Geoffrey Nordloh based upon false claims
of approximately $5,000,000 as part of a U.S. Army contract to provide
medical-equipment maintenance to ANA hospitals. SIGAR’s investigation
found that Mesopotamia Group had provided inadequately trained person-
nel, substandard repairs to equipment, and a complete lack of calibration
or record keeping, all in violation of the terms of the contract. This lack of
performance was illustrated by the inability of staff at the Dawood National
Military Hospital to use any of its ventilators to aid victims of an October
2007 suicide bomb attack on a Kabul bus that resulted in the deaths of 13
Afghans and second incident at Herat Provincial ANA Hospital where an
improperly attached regulator prevented hospital staff from using a breath-
ing incubator during surgery, contributing to the death of an Afghan soldier.
On repeated occasions, Mesopotamia Group allegedly refused to provide
its staff with the resources to address these problems while billing the
entire amount the contract allowed, regardless of whether the work was
actually completed according to the terms of the contract. Based upon the
allegations in SIGAR’s referral, the Army proposed Mesopotamia Group,
John Dawkins, Candice Boulware, and Geoffrey Nordloh for debarment on
May 7, 2013. Following the submission of information in response to this
proposal for debarment, the Army determined on February 20, 2014, that a
final debarment was in the best interests of the government. As a result, all
were excluded from contracting with the government for a period of three
years, ending on May 7, 2016.


Other SIGAR Activities
SIGAR Speaks Before Public Policy Group and
Professional Associations
In this reporting period, Special Inspector General Sopko spoke about
SIGAR’s work to the Atlantic Council, a bipartisan forum for the discus-
sion of challenges facing the United States and its European allies; the
Professional Services Council, the national trade association of the gov-
ernment professional and technical services industry; and the National
Sheriffs’ Association.
   Sopko told the Atlantic Council on March 20, 2014, that allowing cor-
ruption to continue unabated in Afghanistan will likely jeopardize all the
United States has accomplished in 12 years of reconstruction. The inspec-
tor general pointed out that SIGAR has been sounding the alarm for some
time on the need to address corruption. He noted that a U.S. military study
recently drew upon SIGAR audits to make three points. First, the initial




Report to the united states congress   I   April 30, 2014               55
SIGAR Oversight Activities




U.S. strategy in Afghanistan not only failed to recognize the significance
of corruption, but may have even fostered a political climate conducive to
corruption. Second, massive military and aid spending overwhelmed the
Afghan government’s ability to absorb the assistance. Third, the lack of a
comprehensive, coordinated anticorruption strategy reduced the effective-
ness of U.S. anticorruption efforts.
   Sopko went on to say that with a new government coming into
Afghanistan, the international community has a window of opportunity to
tackle corruption. If the United States and its allies get it right, they can
create a model for future contingencies and help the Afghan people build a
country that does not become another failed criminal state and a safe haven
for terrorists.
   Sopko spoke to the Professional Services Council Dialogue Lunch
Series on February 18, 2014. He told the group that after the contracting
community brought its concerns about the illegal taxation of U.S. contrac-
tors in Afghanistan to SIGAR, the agency produced an audit recommending
that the U.S. government develop a consistent position on appropriate tax-
ation of contractors supporting its efforts in Afghanistan. SIGAR also urged
Congress to seek reimbursement from the Afghan government for taxes
levied in violation of its agreements with U.S. agencies. Congress has since
passed legislation requiring DOD to withhold assistance for Afghanistan
in an amount equal to the total of all taxes assessed by the Afghan gov-
ernment on assistance provided by DOD. Sopko asked members of the
contracting community to let SIGAR know about their successes, in-
country challenges, impediments, and suggested improvements for future
reconstruction efforts.
   At the National Sheriffs’ Association on January 23, 2014, Sopko
described the work of SIGAR’s Investigations Directorate and called upon
the sheriffs to establish a partnership with SIGAR. He observed that many
local law enforcement officers are currently in the National Guard or
Reserve or were formerly in the military. Many have served in Afghanistan,
and have seen things or may have information that could help SIGAR fight
fraud, waste, and abuse of U.S. taxpayer funds. “My hope here today,”
Sopko said, “is that we can build on the relationships we’ve already forged,
and create new ones–especially with your brave colleagues who have
served their nation, and who can help fight crimes against the United States
and our reconstruction effort.”

SIGAR Addresses NATO Conference
On February 25–26, 2014, at the request of the North Atlantic Treaty
Organization (NATO), SIGAR attended the “Building Integrity Education
and Training Discipline Conference” at the Supreme Headquarters Allied
Powers Europe in Mons, Belgium. The conference, hosted by NATO’s
Political Affairs and Security Policy Division, aimed to further NATO




  56                Special inspector general   I   Afghanistan reconstruction
              SIGAR Oversight Activities




education and training requirements for strengthening transparency,
accountability, and integrity to reduce the risk of corruption in the defense
and security sector. Conference participants represented over 20 countries,
including NATO members’ civilian and military staff; representatives of
Georgia, Moldova, Serbia, Sweden, and Ukraine; NATO international staff
from the Integration, Partnerships, and Cooperation Directorate; interna-
tional organizations such as the United Nations Office on Drugs and Crime
(UNODC) and the Organization for Security and Co-Operation in Europe
(OSCE); and third-party organizations such as the Defense Academy of the
United Kingdom, the U.S. Naval Postgraduate School, and representatives
from Afghanistan’s and Colombia’s ministries of defense.
   Deputy Inspector General Gene Aloise presented to the conference on
the topic of “lessons learned” in the reconstruction of Afghanistan. NATO
and its members were particularly interested in SIGAR’s perspective as the
only organization participating in the Building Integrity working group with
a specific, unique mission to promote transparency and accountability of
NATO-supported contingency operations and reconstruction efforts within
Afghanistan. While SIGAR’s efforts are ongoing, Aloise made some broad
observations. First, he said more money does not necessarily lead to bet-
ter results. Many in the international donor community have told SIGAR




SIGAR attendees gather with conference participants from 20 countries at a February
NATO conference. (SIGAR photo)




Report to the united states congress     I   April 30, 2014                    57
SIGAR Oversight Activities




that too much foreign aid has been pumped in Afghanistan too quickly—in
fact, some experts have suggested that the massive infusion of international
donor funds in Afghanistan has fueled corruption. Second, oversight must
be a policy priority. Support from senior government officials is critical to
ensure that the international community maintains accountability and trans-
parency in reconstruction efforts from the onset, not just after the money
has been spent. Third, international donors need to better understand how
corruption and patronage networks operate within a host country, and
know how money flows in and out, so donors can identify theft and misuse
of foreign assistance funds.
   Aloise also described ways NATO member countries can improve con-
tract-management practices for future reconstruction efforts. He suggested
that contract managers and implementers should be given the flexibility
to adjust contract scope and requirements as security and logistical con-
ditions change on the ground. He proposed that contract managers and
administrators place more focus on recordkeeping and documentation, not
only to understand work being currently conducted, but also to provide
much needed institutional knowledge for meeting the challenges of fre-
quent staff turnover. He said that staff responsible for managing contracts
must have the requisite training and experience to do their jobs. Finally, he
urged that agencies funding contracts hold their contractors accountable
for poor performance.
   NATO intends to incorporate the information SIGAR provided into train-
ing requirements and education curricula to better prepare NATO staff
for financial management and oversight of future reconstruction activi-
ties. NATO hopes to also use SIGAR’s insights and perspectives to help
prepare a “best practice” guide that NATO civilian and military staff will
use in the field. SIGAR and NATO cooperation will not end with the con-
ference. SIGAR plans to maintain this successful relationship and share
insights with NATO from its one-of-a-kind mission to provide oversight of
Afghanistan reconstruction.

SIGAR Convenes Symposium on Third-Party Monitoring
in Insecure Environments
On February 12, 2014, SIGAR, in conjunction with the United States
Institute of Peace (USIP), convened an international symposium on
“Monitoring and Management in Insecure Environments: Applying Best
Practices to Afghanistan.” Special Inspector General Sopko conceived the
symposium as a means for U.S. government agencies, international donors,
think tanks, and others to discuss best practices, techniques, and technolo-
gies for conducting effective project management and oversight in insecure
environments. The symposium grew out of SIGAR’s concerns about the
rapidly shrinking oversight access to reconstruction sites in Afghanistan




  58                Special inspector general   I   Afghanistan reconstruction
             SIGAR Oversight Activities




Special IG John F. Sopko speaks at the SIGAR-USIP symposium on remote monitoring.
(SIGAR photo by Bruce Keo)

as Coalition troops are withdrawn. A report on the symposium will be pub-
lished shortly.

SIGAR Completes New Strategic Plan
This quarter SIGAR completed a new strategic plan to guide its pro-
grammatic and management decisions in 2014–2016. The U.S.-funded
reconstruction effort in Afghanistan, now in its 12th year, is designed to sup-
port Afghanistan as it transitions to controlling its own security, governance,
and development. The success of the entire reconstruction effort depends
in large measure on how this transition unfolds. SIGAR’s new strategic plan
will help the agency adapt its oversight work to the changing environment in
Afghanistan, ensuring that its efforts continue to help the executive branch
and congressional stakeholders protect U.S. taxpayers’ interests.

House Budget Committee Credits SIGAR
The House Budget Committee credited SIGAR in its FY 2015 Budget
Resolution with highlighting several examples of wasteful spending of
reconstruction funding, including multi-million-dollar infrastructure proj-
ects that have never been used, nor will be used for the intended purpose,
if at all. The committee said it will continue to closely monitor the use of
Overseas Contingency Operations/Global War On Terror (OCO/GWOT)
funds to ensure taxpayer dollars are spent effectively and efficiently in
achieving U.S. strategic goals overseas. It said continued reports of waste,
fraud, and abuse will be taken into consideration as OCO/GWOT funding
levels are determined.




Report to the united states congress    I   April 30, 2014                   59
                                            SIGAR Oversight Activities




                                            SIGAR Budget
                                            SIGAR received a budget of $49.65 million for FY 2014 in the Consolidated
                                            Appropriations Act from Congress. The budget supports SIGAR’s oversight
                                            activities and products by funding SIGAR’s five directorates: (1) Audits and
                                            Inspections, (2) Special Projects, (3) Investigations, (4) Management and
                                            Support, and (5) Research and Analysis.


                                            SIGAR Staff
                                            Since its last report to Congress, SIGAR increased its staff, bringing the
                                            FY 2014 total staffing number to 203 federal employees. At the end of the
                                            quarter, SIGAR had 37 authorized personnel at the U.S. Embassy Kabul and
                                            10 authorized at Afghan locations outside the U.S. Embassy. SIGAR staff
                                            members were stationed at five locations across the country, including
                                            Kandahar and Bagram Airfields, Mazar-e-Sharif, Camp Leatherneck (closed
                                            in March 2014, whereupon SIGAR agents moved to Kabul), and USFOR-A
                                            headquarters in Kabul. SIGAR employed a local Afghan in its Kabul office
                                            to support investigations and audits. In addition, SIGAR supports its work
                                            with staff assigned to short-term temporary duty in Afghanistan.
                                               This quarter, SIGAR had 14 personnel on temporary duty in Afghanistan
                                            for a total of 252 days.


BG John Michel, Commanding General of
the NATO Air Training Command-Afghanistan
with SIGAR auditors and other NATC-A
personnel at Kabul airport. (SIGAR photo)




                                              60                 Special inspector general   I   Afghanistan reconstruction
                                           With Gratitude




Victoria Butler
Victoria A. Butler, director of Research and Analysis since 2009, will step
down in May 2014 after managing more than 20 SIGAR Quarterly Reports
to Congress. Under Butler’s leadership, the Quarterly Report has become
the nation’s most authoritative source of information about the U.S.-
funded reconstruction of Afghanistan. Before joining SIGAR, Butler was
the lead author for the Special Inspector General for Iraq Reconstruction’s
principal lessons-learned report, Hard Lessons: The Iraq Reconstruction
Experience. Earlier she worked as a foreign correspondent in Asia and
Africa for Time, NBC News, Voice of America, and the Associated Press.
She is the author of Sudan: The Land and the People (Marquand Books,
2005). Butler also served as a spokesperson for the United Nations High
Commissioner for Refugees in Washington, D.C., and led a team for the
United Nations Transitional Authority in Cambodia to develop print, televi-
sion, and radio products to inform Cambodians about elections managed
by the United Nations. Upon leaving the Research and Analysis Directorate,
Butler will take a new post as Strategic Advisor to SIGAR.




Report to the united states congress   I   April 30, 2014            61
“Today there is reason for celebration
in Afghanistan. Millions turned out to
 vote, with Afghan National Security
 Forces looking out for the safety of
 Afghan people as they cast votes at
more than 6,000 polling sites. Clearly,
 this is an important step in the first
   democratic transfer of power in
         Afghanistan’s history.”
                —Joint Chiefs of Staff Chairman
                 Army General Martin Dempsey




          Source: American Foreign Press Service article, April 5, 2014.
3   Reconstruction
    Update




        63
                                                Reconstruction Update




                                                Reconstruction Update Contents
                                                Contents

                                                Overview	65
                                                Funding for Afghanistan Reconstruction	                           68
                                                Status of Funds	                                                  70
                                                Security	84
                                                Governance	118
                                                Economic and Social Development	                                156




Photo on previous page
Afghan women show voter cards and vote-confirming inked fingers after
casting ballots in the April 5 national elections. (UN Assistance Mission
in Afghanistan photo by Shamsuddin Hamedi)




                                                   64                       Special inspector general   I   Afghanistan reconstruction
                 Reconstruction Update




OVERVIEW
The following section summarizes the status of U.S. funding and devel-
opments SIGAR observed this quarter in the security, governance, and
economic sectors of the reconstruction effort in Afghanistan.
   The Consolidated Appropriations Act of 2014 provided an additional
$6.6 billion for Afghanistan relief and reconstruction for fiscal year
(FY) 2014, bringing the cumulative total appropriated to approximately
$103.2 billion. On March 4, 2014, the President submitted his budget
proposal for FY 2015. Amounts requested for several of the largest recon-
struction funds, such as the Afghanistan Security Forces Fund, remain to
be determined until a decision is made about the scope of the enduring U.S.
presence in Afghanistan.
   During this reporting period, Afghanistan succeeded in holding presi-
dential and provincial council elections despite ongoing concerns about
security as the United States and its Coalition partners proceeded with their
troop withdrawals. President Karzai declined to sign the bilateral security
agreement with the United States, putting future U.S. assistance in question.
However, the international community concluded that the Afghan govern-
ment had made some progress towards instituting the reforms needed to
ensure donor support after 2014. Meanwhile, Afghan revenues continued
to miss their targets, increasing the already substantial gap between budget
requirements and revenue collection.
   At least seven million Afghans (of whom 35% were females) voted in
the elections on April 5, 2014. The Independent Election Commission
Chairman, Yousaf Nuristani, announced on April 20 that partial results rep-
resenting 49.67% of polling stations showed presidential candidate Abdullah
Abdullah with 44.47% and Mohammad Ashraf Ghani Ahmadzai with 33.18%
of the vote. Under Afghan law, if no presidential candidate gains more than
50% of the vote, there will be a runoff between the top two candidates.
   Despite early reports to the contrary, the Electoral Complaints
Commission (ECC) announced on April 13 that there were more reports of
serious instances of fraud than during the 2009 election. The ECC said it was
too early to determine the seriousness of the allegations. If President Hamid
Karzai hands power this year to one of the candidates in the April 5 election,
it will be the first democratic transfer of power in Afghanistan’s history.
   The general security situation remained in flux. Afghan National Security
Forces (ANSF) provided security for the elections. Despite a violent lead-up
that included a number of attacks on foreigners in Kabul, the elections faced




Report to the united states congress   I   April 30, 2014               65
Reconstruction Update




fewer violent attacks than in 2009, and attacks were mostly concentrated in
the north, east, and west, rather than the south as in previous elections.
   Karzai refused to sign a bilateral security agreement negotiated with the
United States, causing U.S. officials to warn that the United States might
pull all of its troops out of the country after 2014 and drastically cut back its
aid. However, the two leading candidates for president both told The Wall
Street Journal that they would sign the agreement.
   In March, General Joseph F. Dunford, Commander of the International
Security Assistance Force and U.S. Forces–Afghanistan, told the Senate
Armed Services Committee that the Afghan security forces would dete-
riorate without continued assistance. Dunford also initiated a report on
corruption released in February. The report concluded that “Corruption
directly threatens the viability and legitimacy of the Afghan state.”
   In March, Afghanistan’s Minister of Interior held a meeting to discuss the
disbandment of the Afghan Public Protection Force (APPF). Established
in 2009, the APPF took over protecting people, facilities, infrastructure,
and construction sites from private security companies. Although the
Afghan National Police are expected to assume some of the APPF’s secu-
rity responsibilities, the plan raised questions about who will protect many
reconstruction projects in the future. Since the creation of the APPF in 2009
through FY 2012, the United States provided more than $51 million dollars
to build the force.
   The Joint Coordination and Monitoring Board—a high-level decision-
making body responsible for strategic coordination between Afghanistan
and the international community—met in January to measure Afghan
and donor progress on fulfilling Tokyo Mutual Accountability Framework
requirements agreed to at the Tokyo Conference in July 2012. In a state-
ment, the board concluded that both sides made “sound progress” while
acknowledging that much still needed to be done.
   At the same time, the Financial Action Task Force (FATF), an intergov-
ernmental body that sets standards and promotes measures to combat
money laundering and terrorist financing, downgraded Afghanistan to its
“dark-gray list.” The FATF said Afghanistan had failed to address its anti-
money-laundering deficiencies and pass legislation that would address those
deficiencies. If Afghanistan does not show satisfactory improvement, it
could be downgraded to the “black list” in June 2014, damaging its banking
relationships around the world and further weakening the banking sector.
   Afghanistan’s domestic revenues for the Afghan FY 1392 (December 21,
2012–December 20, 2013) missed Ministry of Finance budget targets by
11.9%. Domestic revenues paid for only 37% ($2 billion) of Afghanistan’s
total budget expenditures ($5.4 billion) in FY 1392; donor grants covered
the remainder.
    DOD reported that the Village Stability Operations, a bottom-up coun-
terinsurgency strategy aimed at connecting local governance to the Afghan




  66                  Special inspector general   I   Afghanistan reconstruction
                 Reconstruction Update




district and national government, has largely ended, with the exception of       Table 3.1
the Afghan Local Police component. According to DOD, only two Village
Stability Platforms and 16 District Stability Platforms (DSP) hosting U.S.        U.S. On-Budget Assistance to
                                                                                  Afghanistan, Since 2002 ($ millions)
special operations forces remain active. The DSPs are scheduled to com-
                                                                                  Government-To-Government
plete their mission by October 31, 2014.
                                                                                  DOD                                  $4,274
   The United States provides on-budget assistance to Afghanistan through
                                                                                  State                                      92
direct payments to Afghan government entities and through contributions
                                                                                  USAID                                  1,060
to multinational trust funds. Since 2002 the United States has provided
nearly $9 billion in on-budget assistance. This includes about $5.4 billion to    Multilateral Trust Funds
                                                                                  LOTFA                                $1,210
Afghan government ministries and institutions, and more than $3.6 billion to
                                                                                  ARTF                                   1,977
three multinational trust funds—the World Bank’s Afghan Reconstruction
                                                                                  AITF                                     412
Trust Fund (ARTF), the United Nations Development Plan’s Law and Order
Trust Fund for Afghanistan (LOTFA), and the Asian Development Bank’s             Sources: SIGAR, Audit Report 14-32-AR: Direct Assistance:
                                                                                 USAID Has Taken Positive Action to Assess Afghan Ministries’
Afghanistan Infrastructure Trust Fund (AITF). Table 3.1 shows U.S. on-bud-       Ability to Manage Donor Funds, but Weaknesses Remain,
                                                                                 1/2014; SIGAR, Special Project Report 14-12-SP:
get assistance to Afghan government entitities.                                  Comprehensive Risk Assessments of MOD and MOI Financial
                                                                                 Management Capacity Could Improve Oversight of Over $4
                                                                                 Billion in Direct Assistance Funding, 12/2013; World Bank,
                                                                                 “ARTF: Administrator’s Report on Financial Status as of
                                                                                 December 21, 2013 (end of 12th month of FY 1392),” p. 5;
                                                                                 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”
                                                                                 12/31/2013, pp. 80-81; SIGAR analysis of UNDP’s quarterly
                                                                                 and annual LOTFA reports, 1/22/2014; DOD, response to
                                                                                 SIGAR data call, 3/2014; USAID, response to SIGAR data call,
                                                                                 4/20/14.




Report to the united states congress   I   April 30, 2014               67
                                                  Reconstruction Update




                                                  Funding for Afghanistan Reconstruction
 DOD       ASFF: Afghanistan Security Forces      Since 2002, Congress has appropriated nearly $103.2 billion for Afghanistan
           Fund                                   relief and reconstruction. Of this amount, more than $87.9 billion (85%) was
           CERP: Commander’s Emergency
           Response Program                       appropriated to the seven major reconstruction funds, as shown in Table 3.2.
                                                     A significant amount of reconstruction funding remains to be spent in
           AIF: Afghanistan Infrastructure Fund
                                                  the years following the withdrawal of U.S. and NATO combat forces. As of
           TFBSO: Task Force for Business and
           Stability Operations                   March 31, 2014, approximately $17.9 billion of appropriated funds remained
                                                  for possible disbursement, as shown in Figure 3.1. These funds will be used
           DOD CN: DOD Drug Interdiction and
           Counter-Drug Activities                to complete on-going, large-scale infrastructure projects, such as those
                                                  funded by the AIF and ESF; train, equip, and sustain the ANSF; combat nar-
 USAID ESF: Economic Support Fund
                                                  cotics production and trafficking; and, advance the rule of law, strengthen
 State INCLE: International Narcotics
       Control and Law Enforcement                the justice sector, and promote human rights. Most of the funding in the
                                                  pipeline has yet to be obligated. Only $6.7 billion of the $17.9 billion remain-
                                                  ing has been obligated.
                                                  Table 3.2

                                                   Cumulative Amounts Appropriated, Obligated, and Disbursed
Figure 3.1
                                                   FY 2002–2014 ($ billions)
                                                                                                  Appropriated            Obligated          Disbursed         Remaining
CUMULATIVE AMOUNT REMAINING TO BE
DISBURSED ($ BILLIONS)                             ASFF                                                $57.33               $48.92             $46.65               $9.59
                                                   CERP                                                    3.67                 2.29               2.26               0.06
                  Total: $87.9                     AIF                                                     1.22                 0.89               0.23               0.92
                                                   TFBSO                                                   0.80                 0.73               0.55               0.22
 Expired                                           DOD CN                                                  2.93                 2.61               2.61               0.32
 $3.0
             Remaining                             ESF                                                   17.53                14.66              11.71                5.43
             $17.9
                                                   INCLE                                                   4.42                 3.55               2.95               1.38

                         Disbursed
                                                   Total 7 Major Funds                                $87.90               $73.64             $66.95             $17.91
                         $67.0                     Other Reconstruction Funds                              7.23
                                                   Civilian Operations                                     8.05
                                                   Total                                            $103.17
                                                  Notes: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major reconstruc-
                                                  tion funds after deducting approximately $3 billion that expired before being obligated. Obligated and disbursed DOD CN funds
                                                  reflect amounts transferred to the military services and defense agencies to be spent for Afghanistan.

                                                  Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State, and
                                                  USAID.



                                                     While reconstruction appropriations have been trending downward
                                                  since FY 2010, the FY 2015 budget request for the largest USAID and State
                                                  accounts is higher than the amount appropriated to those accounts for
                                                  FY 2014. The President requested $1.2 billion for the ESF and $325 million
                                                  for INCLE for Afghanistan for FY 2015. Combined, these amounts are 28%
                                                  lower than the FY 2014 request but 44% higher than the amount ultimately
                                                  appropriated for FY 2014 in P.L. 113-76.




                                                       68                           Special inspector general                  I   Afghanistan reconstruction
                            Reconstruction Update




   Congress appropriated nearly $8.1 billion to the seven major reconstruc-
tion funds for FY 2013. Of that amount, more than $5.6 billion remained
for possible disbursement, as of March 31, 2014, as shown in Table 3.3 and
Figure 3.2.
Table 3.3
                                                                                                                                Figure 3.2
 FY 2013 Amounts Appropriated, Obligated, and Disbursed
 ($ millions)

                                                Appropriated           Obligated          Disbursed         Remaining           FY 2013 AMOUNT REMAINING TO BE
                                                                                                                                DISBURSED ($ MILLIONS)
 ASFF                                                $4,946              $2,360             $1,890             $3,056
 CERP                                                    200                    43                 33                 10
                                                                                                                                                Total: $8,096
 AIF                                                     325                  261                      9            316
 TFBSO                                                   137                  135                  91                 47
 DOD CN                                                  295                  295                295                   0
 ESF                                                   1,623                      0                    0         1,623          FY 2013 AMOUNT    REMAINING TO BE
                                                                                                                                          Remaining
 INCLE                                                   569                    13                     9            560         DISBURSED $5,611
                                                                                                                                          ($ MILLIONS)

 Total 7 Major Funds                               $8,096               $3,108             $2,327            $5,611
                                                                                                                                                         Disbursed
Notes: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major reconstruc-                     Total: $8,096
                                                                                                                                                         $2,327
tion funds after deducting approximately $157 million that expired before being obligated. Obligated and disbursed DOD CN
funds reflect amounts transferred to the military services and defense agencies to be spent for Afghanistan.                       Expired
                                                                                                                                   $157
Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State,
and USAID.
                                                                                                                                              Remaining
   Congress appropriated nearly $6.5 billion to the seven major reconstruc-                                                     FY 2014 AMOUNT
                                                                                                                                          $5,611 REMAINING TO BE
tion funds for FY 2014. Of that amount, nearly $6.4 billion remained for                                                        DISBURSED ($ MILLIONS)
possible disbursement, as of March 31, 2014, as shown in Table 3.4 and                                                                                   Disbursed
                                                                                                                                                         $2,327
Figure 3.3.                                                                                                                                     Total: $6,466
                                                                                                                                   Expired
Table 3.4                                                                                                                          $157
                                                                                                                                Figure 3.3
 FY 2014 Amounts Appropriated, Obligated, and Disbursed
 ($ millions)

                                                Appropriated           Obligated          Disbursed         Remaining           FY 2014 AMOUNT
                                                                                                                                         RemainingREMAINING TO BE
                                                                                                                                DISBURSED$6,455
                                                                                                                                           ($ MILLIONS)
 ASFF                                                  $4,727                   $0               $0            $4,727                                                Disbursed
 CERP                                                        30                   1                0                  30                                             $11
                                                                                                                                                Total: $6,466
 AIF                                                       199                    0                0                199
 TFBSO                                                     112                  68               11                   10
 DOD CN                                                    321                    0                0                321
 ESF                                                       852                    0                0                852                      Remaining
 INCLE                                                     225                    0                0                225                      $6,455
                                                                                                                                                                     Disbursed
 Total 7 Major Funds                                 $6,466                  $69              $11             $6,455                                                 $11
Note: Numbers have been rounded. Amount remaining reflects the total disbursement potential of the seven major reconstruc-
tion funds. Obligated and disbursed DOD CN funds reflect amounts transferred to the military services and defense agencies to
be spent for Afghanistan.

Source: SIGAR analysis of appropriating legislation and quarterly obligation and disbursement data provided by DOD, State,
and USAID.




Report to the united states congress                        I   April 30, 2014                                     69
Status of Funds Contents

U.S. Reconstruction Funding
for Afghanistan	                       72
Afghanistan Security Forces Fund	      74
ASFF Budget Activities	                75
Commander’s Emergency
Response Program	                      76
Afghanistan Infrastructure Fund	       77
Task Force for Business and
Stability Operations	                  78
DOD Drug Interdiction and
Counter-Drug Activities	               79
Economic Support Fund	                 80
International Narcotics Control
and Law Enforcement 	                  81
International Reconstruction Funding
for Afghanistan	                       82




  70
                                                           Status of Funds




Status of Funds
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities
in Afghanistan. As of March 31, 2014, the United States had appropriated
approximately $103.17 billion for relief and reconstruction in Afghanistan
since FY 2002. This total has been allocated as follows:
 •	 $58.84 billion for security
 •	 $25.96 billion for governance and development
 •	 $7.55 billion for counternarcotics efforts
 •	 $2.78 billion for humanitarian aid
 •	 $8.05 billion for civilian operations
Figure 3.4 shows the major U.S. funds that contribute to these efforts.

Figure 3.4

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $103.17
                                                                                                                     ASFF: Afghanistan Security Forces Fund
                                                                                                                     CERP: Commander’s Emergency
       ASFF        CERP         AIF        TFBSO       DOD CN              ESF               INCLE       Other
                                                                                                                     Response Program
                                                                                                                     AIF: Afghanistan Infrastructure Fund
     $57.33       $3.67        $1.22       $0.80        $2.93            $17.53              $4.42      $15.27
                                                                                                                     TFBSO: Task Force for Business and
                                                       AGENCIES                                                      Stability Operations
                                                                                                                     DOD CN: DOD Drug Interdiction and
                                                                                       Department of   Distributed   Counter-Drug Activities
                  Department of Defense (DOD)                            USAID                         to Multiple
                                                                                       State (State)
                           $65.95                                        $17.53           $4.42         Agenciesa    ESF: Economic Support Fund
                                                                                                         $15.27      INCLE: International Narcotics Control and
                                                                                                                     Law Enforcement
Notes: Numbers have been rounded.                                                                                    Other: Other Funding
a   Multiple agencies include DOJ, State, DOD, USAID, Treasury, USDA, DEA, BBG, and SIGAR.
Sources: DOD, responses to SIGAR data call, 4,17/2014, 4/16/2014, 4/15/2014, 4/2/2014, 1/22/2014, 10/22/2012,
10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 4/15/2014, 4/11/2014, 4/9/2014, 6/27/2013,
10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 4/3/2014; OMB, responses to SIGAR data call,
7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call, 4/7/2014, 10/15/2010, 1/15/2010, and 10/9/2009;
DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS, response to SIGAR data
call, 1/8/2014; DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts March 2014," 4/16/2014; P.L.
113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212,
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




Report to the united states congress                       I   April 30, 2014                              71
                                                                    Status of Funds




                                                                    U.S. Reconstruction Funding for Afghanistan
  ASFF   CERP     AIF    TFBSO DODCN    ESF     INCLE               As of March 31, 2014, cumulative appropriations for relief and reconstruc-
                                                                    tion in Afghanistan totaled approximately $103.17 billion, as shown in
                                                                    Figure 3.5. This total can be divided into five major categories of recon-
                 DOD                   USAID State
                                                                    struction funding: security, governance and development, counternarcotics,
                                                                    humanitarian, and civilian operations. For complete information regarding
The amount provided to the seven major
                                                                    U.S. appropriations, see Appendix B.
U.S. funds represents nearly 85.2% (more
than $87.90 billion) of total reconstruction                           The Consolidated Appropriations Act, 2014, provided an additional
assistance since FY 2002. Of this amount,                           $6.62 billion for FY 2014, as shown in Figure 3.6. Of this amount, nearly
nearly
  ASFF 83.8% (nearly $73.64 billion) has                            $4.73 billion was appropriated to the Afghanistan Security Forces Fund
been obligated, and nearly 76.2% (more                              (ASFF), bringing cumulative funding for the ASFF to nearly $57.33 billion,
than $66.95 billion) has been disbursed.                            approximately 55.6% of all reconstruction funding.43
An estimated  $2.88 billion of the amount
            DOD
appropriated these for funds has expired.

Figure 3.5

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF MARCH 31, 2014 ($ BILLIONS)

$110
         CERP

                                                                                                                                                                                    $103.17
$100                                                                                                                                                         $96.56
                 DOD
 $90                                                                                                                                 $86.89

 $80
                                                                                                              $72.23
 $70                         DOD CN

 $60                                                                                  $56.37
                 DOD
 $50

                                                               $39.66
 $40

                                        $29.27
 $30                                   ESF
                 $23.08
 $20
                                       USAID
 $10


   $0
                2002–2007                2008                   2009                    2010                   2011                    2012                   2013                   2014
                        Security         Governance/Development
                                              INCLE                            Counternarcotics              Humanitarian             Civilian Operations                   Total
Notes: Numbers have been rounded. FY 2014 figures for State and USAID accounts reflect draft allocation amounts and are subject to final Congressional approval. DOD reprogrammed $1 billion from
FY 2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD reprogrammed $178 million from FY 2013 ASFF. DOD transferred $101
million from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
                                               State 4/16/2014, 4/15/2014, 4/2/2014, 1/22/2014, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call,
Sources: DOD, responses to SIGAR data call, 4,17/2014,
4/15/2014, 4/11/2014, 4/9/2014, 6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 4/3/2014; OMB, responses to SIGAR data call, 7/19/2013 and 1/4/2013;
USAID, responses to SIGAR data call, 4/7/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS,
response to SIGAR data call, 1/8/2014; DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts March 2014," 4/16/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L.
112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.

                 AIF

                                                                        72                             Special inspector general                  I   Afghanistan reconstruction
                 DOD
                                                              Status of Funds




   On March 4, 2014, the President submitted his budget proposal for                                                                 Table 3.5
FY 2015; however, the proposal contains a placeholder for DOD overseas                                                                FY 2013 APPROPRIATIONS AND
contingency operations funding until conditions permit a decision about the                                                           OBLIGATIONS, AS OF MARCH 31,
                                                                                                                                      2014 ($ MILLIONS)
scope of the enduring U.S. presence in Afghanistan.44 As reported in prior
                                                                                                                                                             Appropriated             Obligated
quarters, a significant amount of reconstruction funding appropriated in
                                                                                                                                       ASFF                       $4,946                 $2,360
the previous fiscal year remains to be obligated. Nearly $4.83 billion of the                                                          AIF                            325                    261
$7.46 billion appropriated to four of the largest U.S. reconstruction funds                                                            ESF                         1,623                        0
for FY 2013 remained available for obligation, as shown in Table 3.5.                                                                  INCLE                          569                     13
                                                                                                                                       TOTAL                     $7,463                $2,635

                                                                                                                                             To Be Obligated                $4,829
                                                                                                                                     Notes: Numbers have been rounded. DOD reprogrammed
                                                                                                                                     $178 million from FY 2013 ASFF.
                                                                                                                                     Sources: DOD, response to SIGAR data call, 4/15/2014; USAID,
                                                                                                                                     response to SIGAR data call, 4/7/2014; State, responses to
                                                                                                                                     SIGAR data call, 4/11/2014 and 6/27/2013; DFAS, “AR(M)
                                                                                                                                     1002 Appropriation Status by FY Program and Subaccounts
Figure 3.6                                                                                                                           March 2014,” 4/16/2014; P.L. 113-6, 3/26/2013.

APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND CATEGORY ($ BILLIONS)

$17                                                                                   $16.71
$16                                                                                                          $15.86

$15                                                                                                                                  $14.66
$14

$13

$12

$11
                                                              $10.39
               $10.04
$10                                                                                                                                                           $9.66

 $9

 $8

 $7                                                                                                                                                                                  $6.62
                                        $6.18
 $6

 $5

 $4

 $3

 $2

 $1

 $0
                2007                    2008                      2009                 2010                   2011                    2012                    2013                   2014
                      Security            Governance/Development                Counternarcotics              Humanitarian             Civilian Operations                   Total

Notes: Numbers have been rounded. FY 2014 figures for State and USAID accounts reflect draft allocation amounts and are subject to final Congressional approval. DOD reprogrammed $1 billion from FY
2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD reprogrammed $178 million from FY 2013 ASFF. DOD transferred $101 million
from FY 2011 AIF to FY 2011 ESF to fund an infrastructure project to be implemented by USAID.
Sources: DOD, responses to SIGAR data call, 4,17/2014, 4/16/2014, 4/15/2014, 4/2/2014, 1/22/2014, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call,
4/15/2014, 4/11/2014, 4/9/2014, 6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 4/3/2014; OMB, responses to SIGAR data call, 7/19/2013 and 1/4/2013;
USAID, responses to SIGAR data call, 4/7/2014, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; CRS,
response to SIGAR data call, 1/8/2014; DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts March 2014," 4/16/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L.
112-74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




Report to the united states congress                          I   April 30, 2014                                       73
                                                       Status of Funds
 ASFF    CERP   AIF    TFBSO DODCN    ESF    INCLE




                DOD                  USAID State




                                                       Afghanistan Security Forces Fund
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, training, and funding,
                                                       as well as facility and infrastructure repair, renovation, and construction.45
                DOD                                    The primary organization responsible for building the ANSF is the North
                                                       Atlantic Treaty Organization Training Mission-Afghanistan/Combined
ASFF funds terminology                                 Security Transition Command-Afghanistan.46 A financial and activity plan
DOD reported ASFF funds as appropriated,               must be approved by the Afghanistan Resources Oversight Council (AROC)
obligated, or disbursed                                before ASFF funds may be obligated.47
Appropriations:
      CERP      Total monies available for                The Consolidated Appropriations Act, 2014, appropriated nearly
commitments                                            $4.73 billion for the ASFF for FY 2014, increasing total cumulative funding
Obligations: Commitments to pay monies                 to nearly $57.33 billion.48 As of March 31, 2014, more than $48.92 billion of
                DOD                                    total ASFF funding had been obligated, of which nearly $46.65 billion had
Disbursements: Monies that have been
                                                       been disbursed.49  Figure 3.7 displays the amounts made available for the
expended
                                                       ASFF by fiscal year.
Source: DOD, response to SIGAR data call, 4/13/2010.
                                                          DOD reported that cumulative obligations increased by more than
                                                       $1.04 billion over the quarter, and cumulative disbursements increased
                          DOD CN
                                                       by nearly $1.27 billion.50 Figure 3.8 provides a cumulative comparison of
                                                       amounts made available, obligated, and disbursed for the ASFF.
                DOD
                                                       Figure 3.7                                                         Figure 3.8

                                                       ASFF APPROPRIATED FUNDS BY FISCAL YEAR ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                      ($ BILLIONS)


                                     ESF
                                                       $12.0                                                             $60.0
                                                                                                                                                Appropriated             Appropriated
                                     USAID                                                                                                      $57.50                   $57.33
                                                       $10.0                                                             $55.0



                                                        $8.0                                                             $50.0                                           Obligated
                                                                                                                                               Obligated                 $48.92
                                             INCLE                                                                                             $47.88                    Disbursed
                                                                                                                                               Disbursed                 $46.65
                                                        $6.0                                                             $45.0                 $45.38

                                             State
                                                        $4.0                                                             $40.0



                                                        $2.0                                                             $35.0
                AIF


                                                        $0.0                                                                 $0
                DOD                                             05 06 07 08 09 10 11a 12b 13c 14                                   As of Dec 31, 2013          As of Mar 31, 2014


                                                       Notes: Numbers have been rounded. Updated data resulted in a lower appropriation figure for FY 2013.
                                                       a DOD reprogrammed $1 billion of FY 2011 ASFF.
                                                       b DOD reprogrammed $1 billion of FY 2012 ASFF; another $1 billion was rescinded in P.L. 113-6.
                                                       c DOD reprogrammed $178 million of FY 2013 ASFF.
                      TFBSO
                                                       Sources: DOD, responses to SIGAR data call, 4/15/2014 and 1/23/2014; P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013.



                DOD
                                                           74                            Special inspector general                   I   Afghanistan reconstruction
                                                       Status of Funds




ASFF Budget Activities
DOD allocates funds to three budget activity groups within the ASFF:                                                Budget Activity Groups: categories
•	 Defense Forces (Afghan National Army, ANA)                                                                       within each appropriation or fund account
•	 Interior Forces (Afghan National Police, ANP)                                                                    that identify the purposes, projects, or
•	 Related Activities (primarily Detainee Operations)                                                               types of activities financed by the appro-
                                                                                                                    priation or fund
   Funds for each budget activity group are further allocated to four sub-
activity groups: Infrastructure, Equipment and Transportation, Training and                                         Sub-Activity Groups: accounting groups
Operations, and Sustainment.51 The AROC must approve the requirement                                                that break down the command’s disburse-
                                                                                                                    ments into functional areas
and acquisition plan for any service requirements in excess of $50 mil-
lion annually and any non-standard equipment requirement in excess of
$100 million.52
                                                                                                                  Sources: DOD, “Manual 7110.1-M Department of Defense
   As of March 31, 2014, DOD had disbursed nearly $46.65 billion for ANSF                                         Budget Guidance Manual,” accessed 9/28/2009; Department
                                                                                                                  of the Navy, “Medical Facility Manager Handbook,” p. 5,
initiatives. Of this amount, more than $30.90 billion was disbursed for the                                       accessed 10/2/2009.
ANA, and more than $15.39 billion was disbursed for the ANP; the remain-
ing nearly $353.76 million was directed to related activities.53
   As shown in Figure 3.9, the largest portion of the funds disbursed for the
ANA—more than $11.54 billion—supported ANA troop sustainment. Of the
funds disbursed for the ANP, the largest portion—nearly $5.70 billion—also
supported sustainment of ANP forces, as shown in Figure 3.10.54 

Figure 3.9                                                  Figure 3.10

ASFF DISBURSEMENTS FOR THE ANA                              ASFF DISBURSEMENTS FOR THE ANP
BY SUB-ACTIVITY GROUP,                                      BY SUB-ACTIVITY GROUP,
FY 2005–MAR 31, 2014 ($ BILLIONS)                           FY 2005–MAR 31, 2014 ($ BILLIONS)


                    Total: $30.90                                              Total: $15.39


Infrastructure                             Training and     Infrastructure                         Training and
                                                            $2.72                 Equipment and    Operations
$5.03                 Equipment and        Operations                             Transportation   $3.37
                      Transportation       $3.00                                  $3.61
                      $11.33



                 Sustainment                                                 Sustainment
                 $11.54                                                      $5.70



Note: Numbers have been rounded.
Source: DOD, response to SIGAR data call, 4/15/2014.




Report to the united states congress                   I   April 30, 2014                            75
                                                       Status of Funds
  ASFF



                DOD




                                                       Commander’s Emergency Response Program
         CERP                                          The Commander’s Emergency Response Program (CERP) enables U.S.
                                                       commanders in Afghanistan to respond to urgent humanitarian relief and
                                                       reconstruction requirements in their areas of responsibility by supporting
                DOD                                    programs that will immediately assist the local population. Funding under
                                                       this program is intended for small projects that are estimated to cost less
CERP funds terminology                                 than $500,000 each.55 Projects with cost estimates exceeding $1 million are
DOD reported CERP funds as appropriated,               permitted, but they require approval from the Commander of U.S. Central
obligated, or disbursed                                Command; projects over $5 million require approval from the AROC. CERP-
                         DOD CN
Appropriations: Total monies available for             funded projects may not exceed $20 million.56 
commitments                                               The Consolidated Appropriations Act, 2014, appropriated $30 million
                                                       for CERP, increasing total cumulative funding to nearly $3.67 billion.57 Of
Obligations:DOD
             Commitments to pay monies
                                                       this amount, DOD reported that nearly $2.29 billion had been obligated, of
Disbursements: Monies that have been                   which nearly $2.26 billion had been disbursed as of March 31, 2014.58 Figure
expended                                               3.11 shows CERP appropriations by fiscal year, and Figure 3.12 provides a
Source: DOD, response to SIGAR data call, 4/14/2010.   cumulative comparison of amounts appropriated, obligated, and disbursed
                                    ESF                for CERP projects.

                                                       Figure 3.11                                                  Figure 3.12
                                   USAID
                                                       CERP APPROPRIATIONS BY FISCAL YEAR                          CERP FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ BILLIONS)




                                           INCLE       $1,000                                                      $4.0
                                                                                                                                        Appropriated              Appropriated
                                                                                                                   $3.6                 $3.67                     $3.67

                                            State       $800                                                       $3.2

                                                                                                                   $2.8

                                                        $600                                                       $2.4                 Obligated                 Obligated
                AIF                                                                                                                     $2.29                     $2.29
                                                                                                                   $2.0                 Disbursed                 Disbursed
                                                                                                                                        $2.24                     $2.26
                                                        $400                                                       $1.6
                DOD
                                                                                                                   $1.2

                                                        $200                                                       $0.8

                      TFBSO                                                                                        $0.4

                                                           $0                                                      $0.0
                                                                04 05 06 07 08 09 10 11 12 13 14                          As of Dec 31, 2013           As of Mar 31, 2014
                DOD
                                                       Notes: Numbers have been rounded. Data may include inter-agency transfers.
                                                       Sources: DOD, responses to SIGAR data call, 4/17/2014 and 1/22/2014; OMB, response to SIGAR data call, 1/4/2013;
                                                       P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          76                           Special inspector general                  I   Afghanistan reconstruction
                                                                                                                                                               USAID

                                                              Status of Funds
                                                                                                                                                                       INCLE



                                                                                                                                                                       State



Afghanistan Infrastructure Fund
The Afghanistan Infrastructure Fund (AIF) was established in FY 2011 to                                                                    AIF
pay for high-priority, large-scale infrastructure projects that support the U.S.
civilian-military effort. Congress intended for projects funded by the AIF to be
jointly selected and managed by DOD and State. The AROC must approve all                                                                  DOD

AIF-funded projects and the execution plan.59 Thirty days before obligating or
expending funds on an AIF project, the Secretary of Defense and Secretary of                                                AIF funds terminology
State are required to notify the Congress with details of the proposed project,                                             DOD reported AIF funds as appropriated,
                                                                                                                                             TFBSO
                                                                                                                            obligated, or disbursed
including a plan for its sustainment and a description of how it supports the
counter-insurgency strategy in Afghanistan.60                                                                               Appropriations: Total monies available for
   The Consolidated Appropriations Act, 2014, appropriated $199 million for                                                 commitmentsDOD
the AIF, increasing total cumulative funding to more than $1.22 billion.61 This                                             Obligations: Commitments to pay monies
figure excludes $101 million of FY 2011 AIF funds transferred to the FY 2011
                                                                                                                            Disbursements: Monies that have been
Economic Support Fund for USAID’s AIF-funded infrastructure project. As of
                                                                                                                            expended
March 31, 2014, nearly $885.58 million of total AIF funding had been obligated,
of which more than $228.99 million had been disbursed.62 Figure 3.13 shows                                                  Source: DOD, response to SIGAR data call, 4/13/2012.

AIF appropriations by fiscal year, and Figure 3.14 provides a cumulative com-
parison of amounts appropriated, obligated, and disbursed for AIF projects.


Figure 3.13                                                   Figure 3.14

AIF APPROPRIATIONS BY FISCAL YEAR                             AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                  ($ MILLIONS)




$800                                                           $1,400

                                                                                     Appropriated            Appropriated
                                                              $1,200                 $1,223.00               $1,223.00

$600
                                                              $1,000
                                                                                     Obligated                Obligated
                                                                                     $902.26                  $885.58
                                                                  $800
$400
                                                                  $600


                                                                  $400
$200
                                                                                                              Disbursed
                                                                  $200                Disbursed               $228.99
                                                                                      $195.60

     $0                                                             $0
            2011a         2012          2013         2014                As of Dec 31, 2013         As of Mar 31, 2014

Notes: Numbers have been rounded. Updated data resulted in a lower obligation figure than reported last quarter.
a   FY 2011 figure excludes $101 million that was transferred to USAID to execute an AIF project.
Sources: DFAS, "AR(M) 1002 Appropriation Status by FY Program and Subaccounts March 2014," 4/16/2014; DFAS,
"AR(M) 1002 Appropriation Status by FY Program and Subaccounts December 2013," 1/18/2014; P.L. 113-76,
1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




Report to the united states congress                          I   April 30, 2014                                   77
                                           State

                                                       Status of Funds
               AIF



              DOD



                                                       Task Force for Business and Stability Operations
                     TFBSO                             In 2010, the Task Force for Business and Stability Operations (TFBSO)
                                                       began operations in Afghanistan aimed at stabilizing the country and coun-
                                                       tering economically motivated violence by decreasing unemployment and
              DOD                                      creating economic opportunities for Afghans. TFBSO projects include activ-
                                                       ities that facilitate private investment, industrial development, banking and
TFBSO funds terminology                                financial system development, agricultural diversification and revitalization,
DOD reported TFBSO funds as appropriated,              and energy development.63
obligated, or disbursed                                    TFBSO has two separate funding streams, the National Defense
Appropriations: Total monies available for             Authorization Act (NDAA) and the Operations and Maintenance, Army
commitments                                            (OMA), account.
Obligations: Commitments to pay monies                     Through March 31, 2014, the TFBSO has been appropriated more than
                                                       $112.24 million for FY 2014, increasing cumulative appropriations for
Disbursements: Monies that have been
                                                       the task force to more than $804.39 million.64 Of this amount, more than
expended
                                                       $726.01 million had been obligated and nearly $550.13 million had been
Source: DOD, response to SIGAR data call, 4/13/2010.
                                                       disbursed.65 Figure 3.15 displays the amounts appropriated for TFBSO proj-
                                                       ects by fiscal year, and Figure 3.16 provides a cumulative comparison of
                                                       amounts made available, obligated, and disbursed for TFBSO projects.


                                                       Figure 3.15                                             Figure 3.16

                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                     TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                            ($ MILLIONS)
 National Defense Authorization Act                                                                                                                          Appropriated
                                                       $200                                                    $800                 Appropriated
 (NDAA): Funds authorized for TFBSO in                                                                                              $783.39                  $804.39
 the NDAA are used for activities directly                            NDAA                                     $700
 related to reconstructing Afghanistan.                                                                                                                      Obligated
                                                       $160           OMA                                                           Obligated
                                                                                                                                    $693.56                  $726.01
                                                                                                               $600
 Operations and Maintenance, Army                                                                                                                            Disbursed
 (OMA): Funds TFBSO receives from                                                                                                   Disbursed                $550.13
                                                                                                               $500                 $517.68
 the OMA account are used to pay for                   $120
 sustainment of U.S. assets, civilian                                                                          $400
 employees, travel, security, and other
 operational costs.                                     $80
                                                                                                               $300

                                                                                                               $200
                                                        $40
                                                                                                               $100

                                                         $0                                                       $0
                                                              2009 2010 2011 2012 2013 2014                            As of Dec 31, 2013          As of Mar 31, 2014

                                                       Note: Numbers have been rounded.
                                                       Sources: DOD, responses to SIGAR data call, 4/4/2014, 1/2/2014, and 10/4/2011; P.L. 113-76, 1/17/2014; P.L.
                                                       113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          78                         Special inspector general                I   Afghanistan reconstruction
                                                                                                                                                  DOD




                                                               Status of Funds
                                                                                                                                           CERP



                                                                                                                                                  DOD




DOD Drug Interdiction and Counter-Drug Activities
DOD’s Drug Interdiction and Counter-Drug Activities fund (DOD CN) sup-                                                                                     DOD CN
ports efforts to stabilize Afghanistan by combating the drug trade and
related activities. DOD uses the DOD CN to provide assistance to the
counternarcotics effort by supporting military operations against drug traf-                                                                      DOD
fickers; expanding Afghan interdiction operations; and building the capacity
of Afghan law enforcement bodies—including the Afghan Border Police—                                                               DOD CN funds terminology
with specialized training, equipment, and facilities.66                                                                            DOD reported DOD CN funds as appropriated,
    DOD CN funds are appropriated by Congress to a single budget line for                                                          obligated, or disbursed
                                                                                                                                                                       ESF
all military services. DOD reprograms the funds from the Counter-narcotics                                                         Appropriations: Total monies available for
Central Transfer Account (CTA) to the military services and defense agen-                                                          commitments
cies, which track obligations of the transferred funds. DOD reported DOD                                                           Obligations: Commitments toUSAID
                                                                                                                                                               pay monies
CN accounts for Afghanistan as a single figure for each fiscal year.67
                                                                                                                                   Disbursements: Monies that have been
    DOD reported that DOD CN received nearly $320.79 million for
                                                                                                                                   expended
Afghanistan for FY 2014, bringing cumulative funding for DOD CN to nearly
$2.93 billion since FY 2004. Of this amount, nearly $2.61 billion had been                                                         Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                              INCLE
transferred to the military services and defense agencies for DOD CN proj-
ects, as of March 31, 2014.68 Figure 3.17 shows DOD CN appropriations by
fiscal year, and Figure 3.18 provides a cumulative comparison of amounts                                                                                                      State
appropriated and transferred from the DOD CN CTA.


Figure 3.17                                                       Figure 3.18
                                                                                                                                                  AIF
DOD CN APPROPRIATIONS BY FISCAL YEAR                               DOD CN FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                       ($ BILLIONS)

                                                                   $3.0                                                                           DOD
$450
                                                                                       Appropriated              Appropriated
                                                                                       $2.94                     $2.93
$400
                                                                   $2.8
$350                                                                                                                                                    TFBSO
                                                                                                                               a
$300                                                                                                             Transferred
                                                                   $2.6
                                                                                                                 $2.61
$250                                                                                   Transferreda                                               DOD
                                                                                       $2.48
                                                                   $2.4
$200

$150
                                                                   $2.2
$100

 $50                                                               $2.0

   $0                                                                $0
        04 05 06 07 08 09 10 11 12 13 14                                  As of Dec 31, 2013           As of Mar 31, 2014

Notes: Numbers have been rounded. Updated data resulted in a lower appopriation figure for FY 2013.
a DOD reprograms all funds to the military services and defense agencies for obligation and disbursement.

Sources: DOD, responses to SIGAR data call, 4/16/2014, 3/28/2014, 1/22/2014, and 12/30/2013.




Report to the united states congress                          I   April 30, 2014                                    79
              DOD



                                                         Status of Funds
                        DOD CN



              DOD




                                                         Economic Support Fund
                                    ESF                  Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                         countries meet short- and long-term political, economic, and security needs.
                                                         ESF programs support counter-terrorism; bolster national economies; and
                                   USAID                 assist in the development of effective, accessible, independent legal systems
                                                         for a more transparent and accountable government.69
ESF funds terminology                                       The ESF was appropriated $852 million for FY 2014, bringing cumulative
USAID reported ESF funds as appropriated,                funding for the ESF to more than $17.53 billion. Of this amount, more than
obligated, or disbursed         INCLE                    $14.66 billion had been obligated, of which nearly $11.71 billion had been
Appropriations: Total monies available                   disbursed.70 Figure 3.19 shows ESF appropriations by fiscal year.
for commitments                                             USAID reported that cumulative obligations as of March 31, 2014,
                                            State        decreased by approximately $3.1 million from the amount reported last
Obligations: Commitments to pay monies
                                                         quarter. Cumulative disbursements as of March 31, 2014, increased by
Disbursements: Monies that have been
                                                         nearly $538.83 million over cumulative disbursements as of December 31,
expended
                                                         2013.71 Figure 3.20 provides a cumulative comparison of the amounts appro-
               AIF
Source: USAID, response to SIGAR data call, 4/15/2010.
                                                         priated, obligated, and disbursed for ESF programs.

              DOD                                        Figure 3.19                                                       Figure 3.20

                                                         ESF APPROPRIATIONS BY FISCAL YEAR                                 ESF FUNDS, CUMULATIVE COMPARISON
                                                         ($ BILLIONS)                                                      ($ BILLIONS)


                     TFBSO
                                                         $3.5                                                              $18
                                                                                                                                                                             Appropriated
                                                                                                                                                                             $17.53
              DOD                                                                                                                               Appropriated
                                                         $3.0                                                              $16                  $16.69


                                                                                                                                                Obligated                    Obligated
                                                         $2.5
                                                                                                                                                $14.67                       $14.66
                                                                                                                           $14

                                                         $2.0
                                                                                                                           $12                                               Disbursed
                                                                                                                                                Disbursed
                                                                                                                                                                             $11.71
                                                         $1.5                                                                                   $11.50

                                                                                                                           $10
                                                         $1.0

                                                                                                                             $8
                                                         $0.5


                                                         $0.0                                                                $0
                                                                02 03 04 05 06 07 08 09 10 11 12 13 14                             As of Dec 31, 2013           As of Mar 31, 2014

                                                         Notes: Numbers have been rounded. FY 2014 figure reflects draft allocation amount for Afghanistan and is subject to final
                                                         Congressional approval. FY 2011 figure includes $101 million that was transferred to the ESF from the Afghanistan Infrastructure
                                                         Fund. Updated data resulted in a lower obligation figure than reported last quarter.
                                                         Sources: USAID, responses to SIGAR data call, 4/7/2014 and 1/7/2014; State, responses to SIGAR data call, 4/15/2014 and
                                                         6/27/2013.




                                                             80                             Special inspector general                     I   Afghanistan reconstruction
                                                                                                                                                   DOD



                                                               Status of Funds
                                                                                                                                                                         ESF



                                                                                                                                                                        USAID




International Narcotics Control
and Law Enforcement                                                                                                                                                             INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                                 State
ics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counternarcotics, and rule of law and justice.72                                                          INL funds terminology
   State reported that INCLE was appropriated $225 million for FY 2014,                                                             INL reported INCLE and other INL funds as
                                                                                                                                                AIF
bringing cumulative funding for INCLE to nearly $4.42 billion. Of this                                                              appropriated, obligated, or disbursed
amount, nearly $3.55 billion had been obligated, of which nearly $2.95 billion                                                      Appropriations: Total monies available
had been disbursed.73 Figure 3.21 shows INCLE appropriations by fiscal year.                                                        for commitments
                                                                                                                                               DOD
   State reported that cumulative obligations as of March 31, 2014,                                                                 Obligations: Commitments to pay monies
increased by more than $9.65 million compared to cumulative obligations
                                                                                                                                    Disbursements: Monies that have been
as of December 31, 2013. Cumulative disbursements as of March 31, 2014,
                                                                                                                                    expended
increased by nearly $103.45 million over cumulative disbursements as of                                                                                  TFBSO
December 31, 2013.74 Figure 3.22 provides a cumulative comparison of                                                                Source: State, response to SIGAR data call, 4/9/2010.

amounts appropriated, obligated, and disbursed for INCLE.
                                                                                                                                                  DOD


Figure 3.21                                                        Figure 3.22

INCLE APPROPRIATIONS BY FISCAL YEAR                                INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                       ($ BILLIONS)




$700                                                               $4.5                                              Appropriated
                                                                                                                     $4.42
                                                                                       Appropriated
$600                                                                                   $4.18
                                                                   $4.0

$500                                                                                                                 Obligated
                                                                                       Obligated
                                                                   $3.5                $3.54                         $3.55

$400
                                                                   $3.0                                             Disbursed
                                                                                       Disbursed                    $2.95
$300                                                                                   $2.85

                                                                   $2.5
$200


$100                                                               $2.0


   $0                                                                $0
        02 03 04 05 06 07 08 09 10 11 12 13 14                            As of Dec 31, 2013           As of Mar 31, 2014

Notes: Numbers have been rounded. FY 2014 figure reflects draft allocation amount for Afghanistan and is subject to final
Congressional approval. Data may include inter-agency transfers.
Sources: State, responses to SIGAR data call, 4/15/2014, 4/11/2014, and 1/13/2014.




Report to the united states congress                           I   April 30, 2014                                           81
Status of Funds




International Reconstruction Funding
for Afghanistan
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).75

Contributions to the Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan operational
and development budgets comes through the ARTF. From 2002 to March 20,
2014, the World Bank reported that 33 donors had pledged nearly $7.81 bil-
lion, of which nearly $7.03 billion had been paid in.76 According to the
World Bank, donors had pledged approximately $902.04 million to the
ARTF for Afghan fiscal year 1393, which runs from December 21, 2013, to
December 20, 2014.77 Figure 3.23 shows the 11 largest donors to the ARTF
for FY 1393.

Figure 3.23

ARTF CONTRIBUTIONS FOR FY 1393 BY DONOR, AS OF MARCH 20, 2014 ($ MILLIONS)

                                                   Total Commitments: $902             Total Paid In: $121
                                                                                                                       300
  United States               15
                                                                             140
United Kingdom        0
                                                                       128
     EC/EU                    16
                                                          83
    Germany           0
                                                    70
      Japan                                         70
                                         35
     Norway           0
                                    29
     Canada               11
                                    28
  Netherlands         0
                                    27
    Australia         0
                               18
    Denmark           0
                               18
     France           0
                                    27
     Others               9

                  0                           50               100           150             200             250     300
                                                         Commitments                               Paid In

Notes: Numbers have been rounded. FY 1393 = 12/21/2013–12/20/2014.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of March 20, 2014 (end of 3rd month of FY
1393)," p. 1.




    82                                   Special inspector general                 I   Afghanistan reconstruction
                                       Status of Funds




    As of March 20, 2014, the United States had pledged more than $2.26 bil-    Figure 3.24
lion and paid in nearly $1.98 billion since 2002.78 The United States and the
                                                                                ARTF CONTRIBUTIONS PAID IN BY DONORS
United Kingdom are the two biggest donors to the ARTF, together contribut-      SINCE 2002, AS OF MARCH 20, 2014
ing 46% of its total funding, as shown in Figure 3.24.                          (PERCENT)

    Contributions to the ARTF are divided into two funding channels—the
Recurrent Cost (RC) Window and the Investment Window.79 As of March 20,                         Total Paid In: $7.0 billion
2014, according to the World Bank, more than $2.97 billion of ARTF funds
had been disbursed to the Afghan government through the RC Window
to assist with recurrent costs such as salaries of civil servants.80 The RC                             United States
                                                                                                        28%
Window supports the operating costs of the Afghan government because
                                                                                                                     United
the government’s domestic revenues continue to be insufficient to support                                            Kingdom
its recurring costs. To ensure that the RC Window receives adequate fund-                         Others             18%
                                                                                                  38%
ing, donors to the ARTF may not “preference” (earmark) more than half of
                                                                                                                                Canada
their annual contributions for desired projects.81                                                                              9%
    The Investment Window supports the costs of development programs.
As of March 20, 2014, according to the World Bank, more than $3.26 billion                                          Germany
had been committed for projects funded through the Investment Window, of                                            7%
which nearly $2.34 billion had been disbursed. The World Bank reported 19
                                                                                Notes: Numbers have been rounded. "Others" includes 29
active projects with a combined commitment value of more than $2.03 bil-        donors.
lion, of which more than $1.11 billion had been disbursed.82                    Source: World Bank, "ARTF: Administrator's Report on
                                                                                Financial Status as of March 20, 2014 (end of 3rd month of
                                                                                FY 1393)," p. 4.

Contributions to the Law and Order Trust Fund for Afghanistan
The United Nations Development Programme (UNDP) administers the                 Figure 3.25

LOTFA to pay ANP salaries and build the capacity of the Ministry of             DONORS' CONTRIBUTIONS TO THE LOTFA
Interior.83 Since 2002, donors have pledged nearly $3.18 billion to the         SINCE 2002, AS OF SEPTEMBER 30, 2013
LOTFA, of which more than $3.17 billion had been paid in, according to the      (PERCENT)

most recent data available.84 The LOTFA’s sixth support phase started on
January 1, 2011. Phase VI was initially planned to end on March 31, 2013,                       Total Paid In: $3.1 billion
but after two extensions, the planned end date is currently December 31,
2014. In the 33 months since Phase VI began, the UNDP had transferred
more than $1.39 billion from the LOTFA to the Afghan government to cover
ANP and Central Prisons Directorate staff remunerations and an additional
$33.44 million for capacity development and other LOTFA initiatives.85 As                    United States         Japan
                                                                                             38%                   30%
of September 30, 2013, donors had committed nearly $1.65 billion to the
LOTFA for Phase VI. Of that amount, the United States had committed
                                                                                                  Others       EU
nearly $659.11 million, and Japan had committed more than $614.76 million.                        12%          14%
Their combined commitments make up more than 77% of LOTFA Phase
VI commitments. The United States had contributed nearly $1.21 billion to                                     Germany
the LOTFA since the fund’s inception.86 Figure 3.25 shows the four largest                                    6%
donors to the LOTFA since 2002, based on the latest data available.
                                                                                Notes: Numbers have been rounded. EC/EU = European
                                                                                Commission/European Union. "Others" includes 18 donors.
                                                                                Sources: UNDP, "LOTFA Phase VI Quarterly Progress Report
                                                                                Q3/2013," 12/31/2013, pp. 80-81; SIGAR analysis of
                                                                                UNDP's quarterly and annual LOTFA reports, 1/22/2014.




Report to the united states congress   I   April 30, 2014              83
Security




Security Contents
Contents

Key Issues and Events This Quarter	                    85
Security Environment	                                  89
U.S. Forces in Afghanistan	                            89
Compliance with Existing Contracting
Rules Still an Issue	                                  89
ANSF Strength	                                         90
Ministry of Defense and Ministry of
Interior Assessments	                                  94
Afghan Local Police	                                   95
Afghan Public Protection Force	                        96
Afghan National Army	                                  96
Afghan Air Force	                                    102
Afghan National Police	                              103
ANSF Medical/Health Care	                            107
Removing Unexploded Ordnance	                        108
Counternarcotics	109




  84             Special inspector general   I   Afghanistan reconstruction
                                                            Security




Security
As of March 31, 2014, the U.S. Congress had appropriated more than
$58.8 billion to support the Afghan National Security Forces (ANSF). Most
of these funds ($57.3 billion) were channeled through the Afghanistan
Security Forces Fund (ASFF) and provided to the Combined Security
Transition Command-Afghanistan (CSTC-A). Congress established the
ASFF to build, equip, train, and sustain the ANSF, which comprises the
Afghan National Army (ANA) and the Afghan National Police (ANP). Of
the $57.3 billion appropriated for the ASFF, approximately $48.9 billion had
been obligated and $46.6 billion disbursed as of March 31, 2014.87
   This section discusses assessments of the ANSF and the Ministries of
Defense and Interior; gives an overview of U.S. funds used to build, equip,
train, and sustain the ANSF; and provides an update on efforts to combat
the cultivation of and commerce in illicit narcotics in Afghanistan. This sec-
tion also discusses the challenges to transitioning to Afghan-led security by
the end of 2014.


Key Issues and Events This Quarter
Key issues and events this quarter include General Joseph F. Dunford’s
testimony before the House and Senate Armed Services Committees,
continuing U.S. concerns over the lack of a signed U.S.-Afghan Bilateral
Security Agreement, the Center for Naval Analysis’ release of its inde-
pendent assessment of the ANSF, the disbanding of the Afghan Public
Protection Force, and the release of focus group findings gauging the public
perception of the Afghan Local Police.                                              “If we leave at the end
General Dunford Warns Congress: ANSF Needs                                            of 2014, the Afghan
Continued U.S. Support                                                             security forces will begin
On March 12, General Joseph F. Dunford, Commander of the International                  to deteriorate.”
Security Assistance Force (ISAF) and U.S. Forces-Afghanistan (USFOR-A),                     —General Joseph F. Dunford
warned lawmakers that the ANSF will need ongoing support if they
are to succeed in their role of keeping Afghanistan secure. He told the
Senate Armed Services Committee, “If we leave at the end of 2014, the            Source: The Washington Post, “U.S. commander in Afghanistan
                                                                                 warns that full withdrawal will allow al-Qaeda to regroup,”
Afghan security forces will begin to deteriorate. The security environment       3/12/2014.




Report to the united states congress   I   April 30, 2014               85
Security




will begin to deteriorate, and I think the only debate is the pace of that
deterioration.”88
    General Dunford told the House Armed Services Committee on March 13
that the ANSF has made progress in countering the Taliban threat, but
identified areas where they will need ongoing assistance. He told lawmak-
ers, “After watching the Afghan forces respond to a variety of challenges
since they took the lead in June, I don’t believe the Taliban insurgency
represents an existential threat to them or the government of Afghanistan.”
He also said, “Although the Afghans require less support in conducting
security operations, they still need assistance in maturing the systems, the
processes and the institutions necessary to support a modern national army
and police force. They also need continued support in addressing capability
gaps in aviation, intelligence and special operations. To address these gaps
a ‘train, advise and assist’ mission will be necessary after this year to further
develop Afghan self-sustainability.”89

Bilateral Security Agreement
The Bilateral Security Agreement (BSA) between the United States and
Afghanistan to determine the legal status of U.S. forces in Afghanistan after
2014 remains unsigned. The final status of the BSA will have a profound
impact on the U.S. military footprint in Afghanistan after 2014, the willing-
ness of the United States and the international community to continue to
finance reconstruction programs, and on Afghanistan’s ability to maintain
progress in the security, governance, and economic sectors. Last quarter,
the U.S. and Afghan governments reached agreement on a draft text of the
BSA and a Loya Jirga (tribal assembly) approved the document. President
Hamid Karzai refused to sign it. However, the two leading candidates in
Afghanistan’s April 2014 presidential election have said they will sign the
BSA if elected, according to the The Wall Street Journal.90
   The BSA would allow U.S. military trainers and counterterrorism forces
to remain in Afghanistan after the end of this year.91 The size of the remain-
ing contingent of U.S. forces has yet to be determined. According to media
reports, ISAF commander General Joseph F. Dunford has recommended a
post-2014 force of 12,000 troops: 8,000 U.S. and 4,000 international. While
most of these troops would support, train, and advise the ANSF, approxi-
mately 2,000 would conduct counter-terrorism operations.92

Independent Assessment of the ANSF
This quarter, the Center for Naval Analysis (CNA), a non-profit research
organization, released its independent assessment of the ANSF. The
Department of Defense (DOD) selected CNA in response to a 2013 National
Defense Authorization Act requirement for “an independent assessment
of the strength, force structure, force posture, and capabilities required to
make the [ANSF] capable of providing security for their own country.”93




  86                  Special inspector general   I   Afghanistan reconstruction
                                                            Security




    The CNA study predicts that the insurgency in Afghanistan will be a
greater threat in 2015–2018 than it is now due to the reduction in U.S. and
NATO forces and continued presence of insurgent sanctuaries in Pakistan.94
The CNA report forecasts that the Taliban will keep pressure on the ANSF,
expand its influence in areas vacated by Coalition forces, encircle key cities,
and conduct high-profile attacks in Kabul and other cities. It also said that
the Taliban will conserve resources in the short term as it recovers from
years of Coalition operations before launching “a larger and more intense
military effort.”95
    The CNA assessment concluded that if the ANSF are successful through
2018, a negotiated political settlement is more likely in 2019–2023.96 To do
this, the ANSF needs a strength of 373,400 personnel, with some changes to
its existing force structure, through 2018.97 According to CNA, the ANSF’s
current force strength is 382,000.98 This figure differs from SIGAR’s current
total of 336,388 because it is based on authorized—rather than assigned—
force levels and includes Afghan Local Police (ALP), which are not included
in SIGAR’s total; ALP are counted separately in this report. In addition, CNA
concluded that the ANSF and the ministries that support the ANA and the
ANP will require international assistance and advisors “through at least
2018” with “similar authorities to the mission in Afghanistan today.”99 This
will also require the continued commitment of the international community.
According to CNA, “withdrawal of international community support is likely
to have consequences up to and including renewed civil war in Afghanistan
and increased instability in the region.”100

Afghan Public Protection Force to be Disbanded
According to DOD, President Karzai directed on February 17 that the state-
owned enterprise managing the Afghan Public Protection Force (APPF)
be dissolved and that APPF personnel and functions be incorporated into
the Ministry of Interior (MOI).101 On March 8, 2014, Afghanistan’s Minister                “Withdrawal of
of Interior held a meeting to discuss the disbandment of the Afghan Public
Protection Force (APPF) and alternatives for continuing to provide security
                                                                                     international community
for convoys and Coalition installations.102                                           support is likely to have
   According to DOD, four security areas will be impacted by the APPF                consequences up to and
transition: national projects, private sector, convoy and road security, and          including renewed civil
international projects.103
                                                                                      war in Afghanistan and
   Security of national projects will transition from APPF to the ANP. For
protection of private-sector sites, the Ministry of Finance is working out             increased instability in
legal details of a process for private customers to pay for security ser-                   the region.”
vices. Convoy and road security will shift from APPF to ANP with greater                       —Center for Naval Analysis
responsibility for provincial police and a new highway patrol unit. A
rapid-response force and MOI transportation brigade will also help ensure
adequate convoy security, according to DOD. For international projects, a         Source: Center for Naval Analysis, “Summary of Independent
                                                                                  Assessment of the Afghan National Security Forces,”
joint commission of international and MOI representatives is working to           1/24/2014, pp. 40–41.




Report to the united states congress   I   April 30, 2014                87
Security




develop a way forward, given procedures and legal restrictions vary among
countries and organizations.104
    According to DOD, details of the new APPF entity will be worked out
during a transition period of undetermined duration. After the transition,
MOI envisions that security for international installations will be provided
by “special ANP police” who work for a “special annex” of ANP. This
entity would have its own bank account at the Ministry of Finance and
its own payment scheme. The MOI said that while these ANP personnel
cannot be called “guards,” they may have only limited law enforcement
powers and will function as guards. Because highway security is already
an ANP function, the ANP cannot receive compensation for providing
convoy security. The MOI said there would be no fee for convoy security,
according to DOD.105
    Since the creation of the APPF in 2009 through FY 2012, the United
States provided more than $51 million to stand up the force.106 The state-
owned enterprise raises its own revenue by providing contract security
services to U.S. and international agencies.
    For more information on the APPF, see “Afghan Public Protection Force”
on page 96 in this section.

Public Perception of the Afghan Local Police
This quarter, the Special Operations Joint Task Force-Afghanistan
(SOJTF-A) released the findings of a focus group survey to gauge the pub-
lic’s perception of the ALP. During the survey, 28 focus groups consisting
of six to ten community members and village elders were asked a series
of questions about the ALP. While focus groups in the northern and south-
ern districts had the most negative perception of the ALP, all focus groups
agreed that the ALP improves community security. The ALP received
mixed marks for fighting local crime and were criticized for participating in
community dispute resolution in several districts. According to SOJTF-A,
several participants noted that since the ALP came under control of the
ANP, they have turned to corruption and criminality to offset salaries that
are not always paid on time.107
    The focus group survey identified both strengths and weaknesses in
the ALP. Among the ALP’s strengths are ALP members’ local knowledge,
their constant presence in villages, and opportunities they provide local
youth through recruitment. Weaknesses included insufficient training and
a lack of adequate equipment as well as “the predatory practices of some
ALP members on neighboring communities that lack their own ALP units.”
Respondents also noted factionalism and tribal discrimination in the ALP
recruitment process.108
    For an update on the ALP program, including force strength, see “Afghan
Local Police” on page 95.




  88                 Special inspector general   I   Afghanistan reconstruction
                                                             Security




Security Environment
According to the United Nations (UN) Secretary-General, the security
situation in Afghanistan remains volatile. In his March 7 report to the UN
Security Council, the Secretary-General said that 2013 had the second
highest level of violence since the fall of the Taliban; 2011 had the highest.
Armed clashes and improvised explosive device (IED) events accounted
for 75% of all security incidents. The number of armed clashes was up 51%
compared to the number in 2012. Afghan forces have proved capable of
defending territory, but they have also suffered significant casualties.109
Between November 16, 2013, and February 15, 2014, the number of secu-
rity incidents increased by 24% over the number recorded during the same
period in the prior year. As part of that increase, the UN recorded 35 suicide
attacks compared to 17 the previous year.110


U.S. Forces in Afghanistan
According to DOD, the number of U.S. forces serving in Afghanistan as of
February 1, 2014, is 33,200.111 Since operations began in 2001, a total of 2,178
U.S. military personnel have died in Afghanistan—83% of whom were killed
in action—and 19,523 were wounded as of April 4, 2014.112




USFOR-A stores ammunition in munitions storage areas such as this one in Shindand.
(SIGAR photo by Ron Riach)



Compliance with Existing Contracting
Rules Still an Issue
DOD contracting has been on the Government Accountability Office’s (GAO)
high-risk list since 1992—almost a quarter of a century.113 A January 2012
contracting shura in Kabul produced broad agreement among U.S. military
commands in Afghanistan that widespread noncompliance with existing
rules and guidance was a continuing problem. A June 2012 DOD report to
Congress mentioned the shura and 26 agreed-upon follow-up measures.114




Report to the united states congress    I   April 30, 2014                   89
Security




   In its April–September 2013 semiannual report to Congress, however, the
DOD Office of Inspector General (OIG) noted that “The Department con-
tinues to struggle to consistently provide effective oversight of its existing
contracting efforts.”115 In preparation for its October 2013, and later for its
January and April 2014 reports to Congress, SIGAR asked DOD to identify
steps taken to improve compliance with existing regulations. SIGAR also
asked if noncompliance continued, if any accountability measures had been
adopted to impose substantial individual consequences for noncompliance,
and if anyone had in fact faced consequences. To date, DOD has provided
no answer. More than two years after the shura consensus and after three
requests for information, SIGAR finds this pattern of nonresponse troubling.


ANSF Strength
This quarter, ANSF’s assigned force strength was 342,809, according to data
provided by CSTC-A.116 This is 97% of the ANSF’s end strength goal of
352,000 personnel. DOD’s goal to reach 352,000 ANSF by 2014 (187,000 ANA
by December 2012, 157,000 ANP by February 2013, and 8,000 Air Force by
December 2014) has mostly been met.117 The ANA and ANP are within 2% of
their target end strength and the Air Force (expected to reach its goal at the
end of the year) is within 15%, as shown in Table 3.6. However, as noted
below, ANA strength now includes civilian personnel.
Table 3.6


ANSF Assigned strength, March 2013
                                                                                         Difference Between Current
                                                                     Status as of            Strength and Target
 ANSF Component             Current Target                             3/2014                 End-Strength Goals
 Afghan National Army       187,000 personnel by 12/2012              182,777 (98%)                -4,223 (2%)
 Afghan National Police 157,000 personnel by 2/2013                   153,269 (98%)                -3,731 (2%)
 Afghan Air Force           8,000 personnel by 12/2014                   6,763 (85%)             -1,237 (15%)
 ANSF Total                 352,000                                342,809 (97%)                 -9,191 (3%)
Sources: DOD, “Report on Progress Toward Security and Stability in Afghanistan,” 12/2012, p. 56; CSTC-A, response to SIGAR
data call, 3/31/2014; DCOM MAG, response to SIGAR vetting, 4/10/2014.




ANA Civilians Still Count Toward ANSF Strength
SIGAR has long been concerned about the issue of civilians constituting
a part of Afghanistan’s Army. In July 2012, CSTC-A told SIGAR that civil-
ians were included in the assigned strength of the ANA.118 In October 2012,
CSTC-A said that civilians had been accounted for and removed from
the ANA’s “end strength number.”119 CSTC-A also said that civilians were
not included in the end strength of the ANA in January and April 2013.120
However, in July and October 2013, CSTC-A reported that the ANA’s “mili-
tary strength” again included civilians.121 In January 2014, CSTC-A told




    90                           Special inspector general                 I   Afghanistan reconstruction
                                                            Security




SIGAR that 9,336 civilians were being counted as part of the ANA and
Afghan Air Force.122 This quarter, CSTC-A reported 9,486 civilians in the
ANA and Air Force.123
                                                                                   SIGAR Audit
   According to CSTC-A, the 187,000 authorized positions in the ANA                An ongoing SIGAR audit is assessing
include civilians and that “civilians have to be reflected against ANA end         the reliability and usefulness of data
strength if the 352K goal [352,000] is to be the point of comparison.”124          for the number of ANSF personnel
   In February 2012, a DOD OIG report identified the issue of and risks            authorized, assigned, and trained.
associated with civilians being counted as part of the ANA. In that report,
DOD OIG found that ANA finance officers had “coded” civilian personnel
as military or armed forces personnel and included them for payment by
CSTC-A, despite an agreement between NTM-A/CSTC-A and the Ministry
of Defense (MOD) that only military personnel would be reimbursed. At
that time, CSTC-A finance personnel were unaware that civilians had been
included for military pay.125
   According to the CNA independent assessment released this quarter,
“uniformed ANSF positions in the MOD and MOI should be civilianized. If
civilians with the appropriate expertise cannot be recruited or trained for
these positions—or if active-duty ANSF personnel cannot be transitioned
to the civil service—then ANSF force structure will need to be increased to
accommodate them.”126

ANSF Assessment
Assessments of the ANA and ANP are indicators of the effectiveness of
U.S. and Coalition efforts to build, train, equip, and sustain the ANSF.
These assessments also provide both U.S. and Afghan stakeholders
with updates on the status of these forces as transition continues and
Afghanistan assumes responsibility for its own security. Since August 15,
2013, ISAF has used the Regional Command ANSF Assessment Report
(RASR) to rate the ANSF.127
   SIGAR has actively monitored ANSF assessment reporting and has
issued two audit reports on the systems and processes used to rate ANSF
capability—one in 2010 and another in February 2014. SIGAR’s February
2014 report found that the ISAF Joint Command (IJC) developed the RASR
because the old Commander’s Unit Assessment tool (CUAT) was too dif-
ficult to read, inconsistently applied, and not useful.128 The RASR is the third
different assessment tool used to rate the ANSF since 2005.129
   According to IJC, the RASR is a “holistic intelligence, operational, and
sustainment assessment and reporting mechanism” of the ANSF.130 The
RASR uses rating definition levels (RDLs), based upon ANSF capabilities,
to assess ANSF units at the brigade level.131 The RDLs use a simplified
assessment matrix that is tailored to the specific unit type (e.g. infantry,
intelligence, signals) and identifies the capabilities a unit must possess in
order to be assessed “Fully Capable.” According to IJC, “this simplified sys-
tem is easily observable, not as labor intensive or complex [as the previous




Report to the united states congress   I   April 30, 2014                 91
Security




system], and could form the basis of Afghan ‘self reporting’ as ISAF contin-
ues to draw down.”132
    SIGAR’s report found that as Coalition forces withdraw, the IJC will have
less insight into the ANSF’s capabilities and rely more on the ANSF for
assessment data. However, the report noted that “ISAF has not developed
a plan that details how it will (1) ensure the continued collection, analy-
sis, validation, and reporting of ANSF capability assessments as Coalition
forces draw down and (2) address the challenges associated with having
few advisor teams available to conduct assessments and relying on the
ANSF’s processes for conducting its own internal assessments.”133
    The RASR rates ANA brigades in six areas:134
 •	 Combined Arms (planning and conducting joint operations using
    multiple types of weapons)
 •	 Leadership
 •	 Command & Control
 •	 Sustainment
 •	 Training (conducting training)
 •	 Attrition

   For the ANA, the latest RASR report provides assessments of 24 brigades
(22 brigades within corps and two brigades of the 111th Capital Division).
Of those, 83% were “fully capable” or “capable” of planning and conduct-
ing joint and combined arms operations. This is a decrease from the 88%
assessed at those levels last quarter; however, this was due to one brigade
not being assessed this quarter. Last quarter, that brigade was assessed as
“capable.” In most assessment categories, the ANA’s capability either stayed
the same or showed some improvement.135 Most declines were due to one
brigade not being assessed this quarter, as shown in Table 3.7.
   According to the latest RASR report, the total number of “on hand” High-
Mobility Multipurpose Wheeled Vehicle (HMMWV) gun trucks decreased by
Table 3.7


ANA RASR Assessments, Quarterly Change
                                     Fully Capable        Capable          Partially Capable Developing             Not Assessed
                                      Q1    Q2   +   —   Q1   Q2   +   —    Q1       Q2   +   —   Q1   Q2   +   —   Q1   Q2   +   —
 Combined Arms Operations             9     8    -1      12   12             3       3            0    0             0    1   1
 Leadership                           16    15   -1      7    6     -1       1       2    1       0    0             0   1    1
 Command & Control                    11    9    -2      13   14    1        0       0            0    0             0    1   1
 Sustainment                          7     6    -1      13   11    -2       4       6    2       0    0             0    1   1
 Training                             6     6            13   13             4       3    -1      1    1             0    1   1
 Attrition                            0     1     1      7    9     2        0       0            17   14   -3       0    0

Note: Attrition assessment is based on the following monthly attrition rates: 0–1.99% = Fully Capable; 2–2.99% = Capable;
3%+ = Developing

Sources: IJC, December 2013 RASR, 12/30/2013; IJC, March 2014 RASR Status Report, Executive Summary, 4/9/2014.




    92                            Special inspector general                      I   Afghanistan reconstruction
                                                                                                   Security




400 vehicles. IJC noted that two brigades with significant reductions reported
the decrease was the result of “an effort to turn in damaged and excess
equipment.”136 In most categories, the ANA meets or exceeds the amount of
                                                                                                                                       SIGAR Audit
equipment it is authorized to have to fulfill its mission. However, not all of                                                         In an audit report released this quarter,
its equipment is “mission capable.” For example, in the case of HMMWV gun                                                              SIGAR found that ISAF Joint Command’s
trucks, the ANA has 158% of the trucks it needs; however, since not all of                                                             system for rating the capability of
those trucks are “mission capable,” its material readiness for those vehicles is                                                       the ANSF—the Commander’s Unit
101%—still above the rate needed to fulfill its mission.137 However, IJC noted                                                         Assessment tool (CUAT)—was too
that sustainment continues to be an impediment for progress for the ANA,                                                               difficult to read, inconsistently applied,
mainly as a result of delivery and resupply issues.138                                                                                 and not useful. As noted in this section,
    Attrition also continues to be a major challenge for the ANA as 61% of                                                             the CUAT has now been replaced by
brigades (not including the one brigade that was not assessed) are still con-                                                          the RASR. For more information, see
sidered “developing” which means that attrition in these brigades is 3% or                                                             Section 2, page 22.
more. However, this is a notable improvement from December 2013 when
71% were rated as “developing.” In other areas, most ANA brigades were
rated “fully capable” or “capable,” including leadership (91%), command
and control (100%), sustainment (74%), and training (83%).139
    The RASR rates ANP components in six areas:140
 •	 Law Enforcement Operations (making arrests and prosecuting those arrested)
 •	 Leadership
 •	 Command & Control
 •	 Sustainment
 •	 Training (conducting training)
 •	 Attrition

   For the ANP, the latest RASR report provides assessments of 18 of 21
regional ANP components—the Afghan Uniform Police (AUP), Afghan
Border Police (ABP), and the Afghan National Civil Order Police (ANCOP)—
in seven different zones.141 Of the 18 that were assessed, 83% were “fully
capable” or “capable” of carrying out law enforcement operations (making
arrests and prosecuting those arrested), as shown in Table 3.8.
Table 3.8


ANP RASR Assessments, Quarterly Change
                                     Fully Capable        Capable              Partially Capable Developing          Not Assessed
                                      Q1    Q2   +   —   Q1       Q2   +   —    Q1    Q2   +   —   Q1   Q2   +   —   Q1   Q2   +   —
 Law Enforcement Operations           8     5    -3      7    10       3         1    3    2       0    0             5    3   -2
 Leadership                           10    10           4        6    2         1    2    1       0    0             5    3   -2
 Command & Control                    4     5     1      11       9    -2        1    4    3       0    0             5    3   -2
 Sustainment                          5     4    -1      10   12       2         1    2    1       0    0             5    3   -2
 Training                             4     5     1      10       9    -1        1    3    2       1    1             5    3   -2
 Attrition                            7     7            3        4    1         0    0            10   9    -1       1    1

Note: Attrition assessment is based on the following monthly attrition rates: 0–1.99% = Fully Capable; 2–2.99% = Capable;
3%+ = Developing

Sources: IJC, December 2013 RASR, 12/30/2013; IJC, March 2014 RASR Status Report, Executive Summary, 4/9/2014.




Report to the united states congress                          I    April 30, 2014                                         93
                                            Security




                                               IJC noted that ANP material readiness (equipment levels) rates showed
                                            improvement in some areas and a decline in others. In addition, access to
                                            MOI-sponsored training for ANP personnel is low due to “disorganized MOI
                                            training events.”142 Attrition also continues to be a challenge for the ANP as
                                            50% of regional components are still considered “developing” which means
                                            that attrition in these units is 3% or more. In other areas, the ANP regional
                                            components are mostly “fully capable” or “capable”: leadership (89%), com-
                                            mand and control (78%), sustainment (89%), and training (78%).143


                                            Ministry of Defense and Ministry of
                                            Interior Assessments
                                            DOD reported that this quarter the MOD and the MOI continued to increase
                                            their capacity to perform critical functions. To rate the operational capabil-
SIGAR Special Project                       ity of these ministries, NTM-A uses the Capability Milestone (CM) rating
In a special project report released last   system. This system assesses staff sections (such as the offices headed by
quarter, SIGAR found that CSTC-A had        assistant or deputy ministers) and cross-functional areas (such as general
not conducted a comprehensive risk          staff offices) using four primary and two secondary ratings:144
assessment of the capabilities of the        •	 CM-1A: capable of autonomous operations
MOD and MOI to manage and account            •	 CM-1B: capable of executing functions with Coalition oversight
for U.S. direct assistance dollars, of       •	 CM-2A: capable of executing functions with minimal Coalition assistance
which $4.2 billion has been committed        •	 CM-2B: can accomplish its mission but requires some Coalition assistance
and nearly $3 billion disbursed.             •	 CM-3: cannot accomplish its mission without significant Coalition assistance
                                             •	 CM-4: exists but cannot accomplish its mission

                                                Like last quarter, SIGAR was provided the CM ratings for only 37 MOD
                                            staff sections and cross-functional areas, down from 46 in prior quarters.
                                            According to CENTCOM, there was no change in MOD capability since last
                                            quarter, as shown in Figure 3.26. This is the first time no quarterly changes
                                            in MOD capability were reported to SIGAR.145
                                                All 32 staff sections at the MOI were assessed; five progressed and none
                                            regressed since last quarter, according to CENTCOM. Those whose ratings
                                            increased this quarter were:146
                                             •	 Deputy Minister for Security–Force Readiness (CM-1A)
                                             •	 Chief of Staff Office of the Legal Affairs (CM-1B)
                                             •	 Deputy Minister for Administration–Training Management (CM-1B)
                                             •	 Deputy Minister for Counter Narcotics (CM-2A)
                                             •	 Deputy Minister for the Afghan Public Protection Force (CM-2B)

                                              Three MOI staff sections are now rated CM-1A (capable of autonomous
                                            operations): the Chief of Staff Public Affairs Office, the Deputy Minister for
                                            Security Office of the Afghan National Civil Order Police, and the Deputy
                                            Minister of Security for Force Readiness.147




                                              94                 Special inspector general   I   Afghanistan reconstruction
                                                                                         Security




Figure 3.26


CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY STATUS

                                                               MOD                                                                            MOl

CM-1A: capable of                              1                                                                                  2
autonomous operations          CM-1A                                                                         CM-1A
                                               1                                                                                          3
CM-1B: capable of                                                  6                                                                                              9
executing functions with       CM-1B                                                                         CM-1B
Coalition oversight only                                           6                                                                                                  10
CM-2A: capable of                                                           9                                                                             8
executing functions with       CM-2A                                                                         CM-2A
minimal Coalition assistance                                                9                                                                       7

CM-2B: can accomplish its                                                                              17                                                             10
mission but requires some      CM-2B                                                                         CM-2B
Coalition assistance                                                                                   17                                                             10
CM-3: cannot accomplish its                            4                                                                                  3
mission without significant    CM-3                                                                          CM-3
Coalition assistance                                   4                                                                          2

CM-4: exists but cannot                    0                                                                             0
accomplish its mission         CM-4                                                                          CM-4
                                           0                                                                             0

                                       0           3           6        9           12        15        18           0                3       6               9            12       15         18


                                           Q1 2014 MOD Staff Sections           Q2 2014 MOD Staff Sections                   Q1 2014 MOI Staff Sections               Q2 2014 MOI Staff Sections


Sources: CSTC-A, responses to SIGAR data call, 12/30/2013 and 3/31/2014.




Afghan Local Police
As of March 15, 2014, the ALP comprised 26,647 personnel, all but 887
of which were fully trained, according to the NATO Special Operations
Component Command-Afghanistan (NSOCC-A). The current goal is to have
30,000 personnel by the end of December 2014.148
   As of March 31, 2014, nearly $196 million of the ASFF had been obli-
gated and expended to support the ALP. According to NSOCC-A, the ALP
will cost $121 million per year to sustain once it reaches its target strength.
To date, 23,246 AK-47 rifles and 4,045 PKM machine guns—both Russian
designed—have been provided to the ALP.149
   According to NSOCC-A, between March 1, 2013, and February 28, 2014,
the ALP had a retention rate of 84.9%. During that period, 572 ALP per-
sonnel quit their job, 226 were fired, 1,165 were undefined administrative
losses, and 1,623 were other losses (also undefined). NSOCC-A reported
that 1,144—or about 4.8% of the force—were killed in action (KIA).150
   According to the CNA independent assessment released this quarter,
CNA “interviewees in theater told us that the Chief of the ANA General
Staff does not want [ANA Special Forces] to be formally associated with
the ALP program, in part due to the ALP’s past record of human rights




Report to the united states congress                       I   April 30, 2014                                95
                                            Security




                                            abuses.”151 CNA noted that “it does not appear that the government of
                                            Afghanistan intends for the [ANA Special Forces] to continuing raising ALP
                                            after 2014.”152


                                            Afghan Public Protection Force
SIGAR Area of Concern                       The Afghan Public Protection Force (APPF), a state-owned enterprise
                                            under the authority of the MOI, provides facility and convoy security ser-
In discussions with the Professional        vices in Afghanistan. Following President Karzai’s 2010 decree disbanding
Services Council—a national trade           private security companies (PSCs) and transferring protection responsibili-
association representing businesses         ties to the APPF, the Afghan government implemented a bridging strategy
that provide services to the federal        for a phased transition to the public security company.153
government—SIGAR has voiced its                As part of that strategy, security for military installations was scheduled
concern about the ability of the APPF to    to be transferred to the APPF in March 2013. In October 2012, however,
provide security services and how that      IJC told SIGAR that meeting the deadline was “extremely unlikely.”154 As
ability will affect the implementation of   of March 31, 2014, only five military forward operating bases (FOBs) were
reconstruction projects.                    secured by APPF personnel; 43 FOBs were still secured by PSCs. This
                                            quarter, the APPF comprised 22,727 personnel, according to CSTC-A. This
                                            quarter, the APPF had 480 active contracts for their services.155
SIGAR Audit                                    The United States has provided more than $51 million to support the
A SIGAR audit report released at the        APPF, of which $34 million was provided in FY 2012; no FY 2013 funds were
end of last quarter found that the          spent on the APPF. Of the $34 million provided in FY 2012, most funds were
transition to APPF-provided security        for APPF vehicles ($17 million). The rest was for APPF facility construc-
has had a minimal effect on projects,       tion, weapons, radios, training, and other equipment and services.156
but only because implementing                  According to CSTC-A, the most recent assessment of the APPF’s capa-
partners hired risk management              bility indicates that the APPF is capable of “planning, executing, and
companies to fill APPF capacity gaps        sustaining full spectrum security services with advisory support.”157
and perform critical functions. For more
information, see SIGAR Audit 13-15.
                                            Afghan National Army
                                            As of March 31, 2014, the United States had obligated $32.4 billion and dis-
                                            bursed $30.9 billion of ASFF funds to build, train, and sustain the ANA.158

                                            ANA Strength
                                            As of March 31, 2014, the overall end strength of the ANA was 189,540
                                            personnel (182,777 Army and 6,763 Air Force), according to CSTC-A.159
                                            However, as noted previously, these numbers include 9,236 ANA civilians
                                            and 250 Air Force civilians. The total is more than 97% of its combined end
                                            strength goal of 195,000 ANA personnel. While the numbers of assigned
                                            personnel in the ANA’s six combat corps, the 111th Capital Division, and
                                            the Special Operations Force declined, the number of personnel in training
                                            or awaiting assignment increased, as shown in Table 3.9. Personnel absent
                                            without leave (AWOL) fell by half, from 10,251 last quarter to 5,141.160




                                              96                 Special inspector general   I   Afghanistan reconstruction
                                                                                             Security




Table 3.9


ANA STRENGTH, QUARTERLY CHANGE
                                                Authorized                                        Assigned
                                                                 Quarterly                                       Quarterly
 ANA Component                    Q4 2013        Q1 2014          Change           Q4 2013            Q1 2014     Change
 201st Corps                        18,130         18,130           None             18,749             17,489      -1,260
 203rd Corps                        20,798         20,798           None             21,098             20,029      -1,069
 205th Corps                        19,097         19,097           None              18,963           17,891      -1,072
 207th Corps                       14,879          14,879           None            14,320   13,806                  -514
 209th Corps                       15,004          15,004           None            15,364   14,554                  -810
 215th Corps                       17,555          17,555           None            18,132   16,310                -1,822
 111th Capital Division             9,174           9,174           None             9,276    8,921                  -355
 Special Operations Force          11,013          12,149         +1,136            10,756   10,458                  -298
 Echelons Above Corpsa             36,002          34,866         -1,136            25,992   29,727                +3,735
 TTHSb                                  -               -               -           15,915c  24,356d               +8,441
 Civilians                              -               -               -            9,113    9,236                 +123
 ANA TOTAL                       161,652         161,652           NONE           178,816e 182,777                +3,961
 Afghan Air Force (AAF)             7,370           7,097            -273            6,529    6,513                   -16
 AAF Civilians                          -               -               -              223      250                   +27
 ANA + AAF TOTAL                 169,022         168,749            -273          185,386 189,540                 +4,154
Notes: Q4 2013 data is as of 12/30/2013; Q1 2014 data is as of 3/31/2014.
a	Includes MOD, General Staff, and Intermediate Commands
b	Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel
c	Includes 5,010 cadets
d	Includes 4,701 cadets
e	Q4 2013 assigned total includes 10,251 AWOL personnel


Sources: CSTC-A, responses to SIGAR data calls, 1/6/2014 and 3/31/2014.



   According to the CNA independent assessment released this quarter,
“Afghanistan has a significant need for special operations forces [SOF], but
the ANSF cannot support more SOF.”161 CNA also said “ANA SOF currently
depend on the U.S. and ISAF for logistics, intelligence, and air mobility.
Simply increasing the number of ANA SOF personnel without addressing
these support requirements would not increase the overall capability of
SOF to disrupt insurgent and terrorist networks.”162

ANA Attrition
Attrition continues to be a major challenge for the ANA. Between
February 2013 and February 2014, 43,887 ANA personnel were dropped
from ANA rolls. The ANA has also suffered serious losses from fighting.
Between March 2012 and February 2014, the ANA had 2,166 personnel KIA
and 11,804 wounded in action.163

ANA Sustainment
As of March 31, 2014, the United States had obligated $12 billion and dis-
bursed $11.5 billion of ASFF funds for ANA sustainment.164




Report to the united states congress                         I   April 30, 2014                                     97
Security




ANA Salaries, Food, and Incentives
As of March 31, 2014, CSTC-A reported that the United States had provided
$2.2 billion through the ASFF to pay for ANA salaries, food, and incen-
tives since FY 2008. CSTC-A also estimated the annual amount of funding
required for the base salaries, bonuses, and incentives of the ANA at
$693.9 million.165 This is an increase from the estimate provided last quarter
of $542 million per year.166 CSTC-A noted that funding is provided assuming
the ANA is staffed at 100% of its authorized strength.167

ANA Equipment, Transportation, and Sustainment
Determining the amount and cost of equipment provided to the ANA remains
a challenge. After a year of decreasing total costs for weapons procured for
the ANA, this quarter CSTC-A reported an increase. Between April 2013 and
December 2013, the total reported cost for weapons purchased for the ANA
decreased from $878 million to $439 million. However in March 2014,
CSTC-A reported total costs of $461 million.168 The trend in total ANA weap-
ons, vehicles, and communication equipment costs is shown in Table 3.10.
Table 3.10

  Cumulative U.S. Costs to procure ANA Weapons, Vehicles, and
  Communications equipment ($ millions)
                                    Weapons                  Vehicles            Communications               Total
 April 2013                          $878.0                 $5,556.5                $580.5                  $7,015.0
 July 2013                            622.8                   5,558.6                599.5                   6,780.9
 October 2013                         447.2                   3,955.0                609.3                   5,011.5
 January 2014                         439.2                   4,385.8                612.2                   5,437.2
 April 2014                           461.2                   4,385.7                670.3                   5,517.3
Notes: SIGAR has sought clarification as to why these cumulative totals have declined in some quarters. See text.

Sources: CSTC-A, responses to SIGAR data calls, 4/1/2013, 7/2/2013, 10/1/2013, and 3/31/2014.



   In the past, CSTC-A has provided several explanations for the decreas-
ing cost: a $153 million correction in the total cost of some equipment
and accounting for nearly $102 million in donated equipment that was not
U.S.-funded,169 an extensive internal audit that revealed double-counted
equipment,170 and discovery of incorrect pricing during an internal audit.171
Moreover, CSTC-A noted that although the cost for donated weapons was
not included, “the refurbishment and transportation cost of donated weap-
ons was included because [reconstruction] funds were used.”172
   The ongoing corrections to the cost of equipment procured—a cumula-
tive total that should rise rather than fall every quarter—raises questions
about the accountability of U.S. funds used to equip the ANA. SIGAR is cur-
rently conducting an audit of ANSF weapons accountability.
   Additionally, CSTC-A reported the cost of ANA equipment remaining
to be procured has decreased from $99 million last quarter to $89 million
this quarter.173




    98                            Special inspector general                  I   Afghanistan reconstruction
                                                                                Security




   As of March 31, 2014, the United States had obligated $11.4 billion and dis-
bursed $11.3 billion of the ASFF for ANA equipment and transportation.174 Of
these funds, $5.4 billion was used to procure vehicles, weapons and related
equipment, and communications equipment. Nearly 81% of that $5.4 billion
was for vehicles and transportation-related equipment, as shown in Table 3.11.
Table 3.11


COST of U.S.-Funded ANA Equipment by Category
 Type of Equipment                                        Procured              Remaining to be Procured
 Weapons                                                $439,229,147                $32,390,974
 Vehicles                                              4,385,763,395                  14,784,960
 Communications Equipment                                612,205,922                  51,610,799
 Total                                              $5,437,198,464                $98,786,733
Source: CSTC-A, response to SIGAR data call, 12/30/2013.



   The United States has also procured $1.3 billion in ammunition for the
ANA and $7 billion worth of other equipment and supplies to sustain the
ANA. According to CSTC-A, this latter amount was determined by sub-
tracting the cost of weapons, vehicles, communications equipment, and
ammunition from overall equipment and sustainment costs.175

ANA Infrastructure
As of March 31, 2014, the United States had obligated $6 billion and dis-
bursed $5 billion of the ASFF for ANA infrastructure.176 At that time,
the United States had completed 328 infrastructure projects (valued at
$4 billion), with another 71 projects ongoing ($1.5 billion) and 12 planned
($232 million), according to CSTC-A.177
    This quarter, the largest ongoing ANA infrastructure projects were
brigade garrisons for the 2nd Brigade/201st Corps in Kunar (at a cost of
$116 million), the 3rd Brigade/205th Corps in Kandahar ($91 million), and
the 1st Brigade/215th Corps in Helmand ($87 million).178 Last quarter, the
largest ongoing project was phase one construction of the MOD headquar-
                                                                                                           While in Afghanistan in March 2014,
ters in Kabul ($108 million).179 SIGAR has initiated an inspection of that
                                                                                                           Special IG Sopko visited the Afghan Ministry
project. In addition, 12 projects were completed this quarter at a cost of                                 of Defense’s headquarters building,
$176 million and two contracts worth $20 million were terminated.180                                       which is currently under construction.
    According to CSTC-A, the projected operations and maintenance (O&M),                                   (SIGAR photo by Smythe Anderson)
sustainment, restoration, and minor construction cost for ANA infrastruc-
ture for FY 2015 through FY 2019 is $953 million:181
 •	 FY 2015: $209 million
 •	 FY 2016: $186 million
 •	 FY 2017: $186 million
 •	 FY 2018: $186 million
 •	 FY 2019: $186 million




Report to the united states congress                       I   April 30, 2014                      99
                                        Security




                                           CSTC-A noted that any estimated post-transition costs are based on cur-
                                        rent capacity levels and do not take into account any future policy decisions
SIGAR Inspection                        which could impact future cost estimates.182
SIGAR has initiated an inspection of
the U.S.-funded construction of the     ANA and MOD Training and Operations
MOD headquarters to determine if        As of March 31, 2014, the United States had obligated and disbursed
construction is being completed in      $3 billion of the ASFF for ANA and MOD training and operations.183 This
accordance with contract requirements   quarter, NTM-A’s response to SIGAR’s request for information on ANA
and if any occupied portions of the     training raised some questions about the status of U.S.-funded training
headquarters are being properly main-   programs. According to NTM-A, the number of ANA students enrolled in
tained and used as intended. For more   training as of March 18 was 4,363.184 This is the third quarter in which the
information, see Section 2, page 39.    number of enrollees has fallen. Last quarter, 17,706 ANA personnel were
                                        enrolled in some type of training, which was down from 43,942 enrolled in
                                        September 2013.185 NTM-A did not provide an explanation for the quarterly
                                        changes in training enrollment. In a separate response to SIGAR, CSTC-A
                                        noted that there were 19,655 ANA personnel in training or awaiting assign-
                                        ment. An additional 4,701 personnel were ANA cadets.186

                                        ANA Literacy
                                        Despite its goal to have 100,000 ANSF personnel (both ANA and ANP)
                                        functionally literate by December 2014, NTM-A does not know how many
                                        trained personnel are still in the ANSF. While NTM-A tracks the number
                                        of ANSF personnel that have received training, it does not how many
                                        have been lost to attrition.187 NTM-A told SIGAR that ANSF are solely
                                        responsible for tracking their own personnel.188 NTM-A estimated that
                                        “due to attrition less than 20% of the ANSF will be functionally literate by
                                        December 2014.”189
                                            As of this quarter, 85,535 ANSF personnel—including 47,731 ANA per-
                                        sonnel—have completed level 3 literacy training. NTM-A expects to reach
                                        its goal of 100,000 functionally literate by December 2014. In response to a
                                        SIGAR question about the number of ANA personnel who have completed
                                        the level 3 training and are still in the ANA, NTM-A said that the answers
                                        were “unattainable due to insufficient ANA personnel tracking and skill/
                                        education tracking systems.”190
                                            Since 2009, NTM-A has viewed increasing literacy rates as critical to
                                        developing a capable, professional, and sustainable ANSF. An NTM-A com-
                                        mander estimated that the ANSF’s overall literacy rate in 2010 was 14%.191 At
                                        the time, NTM-A set a goal of having the ANSF achieve 100% proficiency for
                                        level 1 literacy and 50% proficiency at level 3 literacy by the end of 2014.192
                                            Level 1 literacy is the ability to read and write single words, count up
                                        to 1,000, and add and subtract whole numbers. At level 2, an individual
                                        can read and write sentences, carry out basic multiplication and divi-
                                        sion, and identify units of measurement. At level 3, an individual has
                                        achieved functional literacy and can “identify, understand, interpret, create,




                                         100                 Special inspector general   I   Afghanistan reconstruction
                                                            Security




communicate, compute, and use printed and written materials.”193 However,
in an audit report released last quarter, SIGAR found that U.S.-funded lit-
eracy contracts do “not require NTM-A/CSTC-A to independently verify
                                                                                  SIGAR Audit
students’ proficiency at the three literacy levels.”194                           In an audit report released last quarter,
    NTM-A’s goals were based on the ANSF’s 2009 authorized strength of            SIGAR found that NTM-A/CSTC-A’s goal
148,000 personnel rather than on the current authorized strength of 352,000.      for achieving literacy in the ANSF was
SIGAR’s audit also found that NTM-A’s ability to measure the effectiveness of     based on outdated ANSF personnel
the literacy program is limited because none of the contracts requires inde-      estimates and, therefore, may not
pendent verification of testing for proficiency or identifies recruits in a way   be attainable. In addition, CSTC-A’s
that permits accurate tracking as they move on to army and police units.195       ability to measure the effectiveness
    As of February 28, 2014, NTM-A reported that ANA personnel who have           of the literacy training program was
completed a literacy program include:196                                          limited. None of the three literacy
 •	 162,268 level 1 graduates                                                     training contracts require independent
 •	 48,988 level 2 graduates                                                      verification of testing for proficiency
 •	 47,731 level 3 graduates                                                      or identify and track recruits as they
                                                                                  move on to their units. Furthermore,
    Since 2010, the United States has funded three literacy contracts for the     the contracts do not adequately define
ANSF. Each has a base year and a five-year limit—one-year options may             what constitutes a literacy class. One
be exercised in August of each year—and a maximum cost of $200 mil-               contractor billed the government for
lion.197 According to NTM-A, these contractors were providing literacy            classes held for as little as two hours
trainers to both the ANA and the ANP. They have assigned 736 literacy             in a month.
trainers to the ANA:198
 •	 OT Training Solutions, a U.S. company, was providing 297 trainers.
 •	 Insight Group, an Afghan company, was providing 202 trainers.
 •	 The Higher Education Institute of Karwan, an Afghan company, was
    providing 237 trainers.
The estimated cost of these contracts—including contracts for ANP literacy
training—for 2014 is $25 million.199

Women in the ANA and Afghan Air Force
This quarter, the ANA reported to CSTC-A that 723 women serve in the
ANA—672 in the Army and 51 in the Air Force. Of those, 244 were officers,
260 were non-commissioned officers (NCOs), 46 were enlisted, and 173
were cadets. However, according to CSTC-A, Coalition advisors believe that
these numbers are overstated and include civilians. CSTC-A noted that, next
quarter, the MOD is expected to modify the way personnel are counted to
only reflect active duty military personnel and not civilians.200
   The current recruitment and retention goal, last published in September
2013, is for 10% of the ANA to be women. To achieve this goal, the ANA has
waived a requirement that the recruitment of women be balanced among
Afghanistan’s various ethnic groups. The latest female officer candidate
school class has 29 cadets: 18 Hazara, nine Tajik, and two Sadat. In addi-
tion, the ANA is using television advertisements to increase its recruitment
of women. U.S. advisors at the Afghan National Army Officer Academy




Report to the united states congress   I   April 30, 2014               101
                                                                  Security




                                                                  continue to champion the idea that “women in Afghanistan are a talent
                                                                  pool the ANA cannot afford to ignore.” The ANA’s 12-week Basic Warrior
                                                                  Training course includes a class on behavior and expectations of male sol-
                                                                  diers who work with ANA women.201
                                                                     Despite progress, the goal of 10% of the ANA to be women remains a
                                                                  distant milestone. Women make up less than 1% of the force. CSTC-A rec-
                                                                  ognized that “training alone is not sufficient to change deep-seated cultural
                                                                  and religion-based attitudes toward women in the ANA. This training is a
    SIGAR Audit                                                   critical first step, but behavior will almost certainly not change significantly
                                                                  until male ANA personnel have the experience of working alongside well-
    In an ongoing audit SIGAR is examining
                                                                  trained, capable females.”202
    U.S. support for the Afghan Air Force
                                                                     The National Defense Authorization Act for FY 2014, Public Law 113–66,
    to determine the Afghan Air Force’s
                                                                  provides $25 million to be used for the programs and activities to support
    capability to absorb additional
                                                                  the recruitment, integration, retention, training, and treatment of women in
    equipment.
                                                                  the ANSF.203

    SIGAR Inquiry
                                                                  Afghan Air Force
    In 2008, DOD initiated a program to
                                                                  This quarter, the NATO Air Training Command-Afghanistan (NATC-A)
    provide 20 G-222 Italian-built, twin
                                                                  reported that the Afghan Air Force has 88 aircraft, excluding aircraft “no
    propeller military transport aircraft to
                                                                  longer in service (crashed)” and nine Mi-17 helicopters that are on loan to
    the Afghan Air Force at a cost of more
                                                                  Afghanistan’s Special Mission Wing (SMW).204
    than $486 million. In January 2013,
                                                                      The United States has a considerable investment in the Afghan Air Force.
    the DOD Inspector General reported
                                                                  Between FY 2010 and FY 2012 alone, the United States provided more than
    that the G-222 project management
                                                                  $5 billion to support and develop the 6,513-person Afghan Air Force—includ-
    office and NTM-A/CSTC-A did not
                                                                  ing over $3 billion for equipment and aircraft. In addition, DOD requested an
    properly manage the effort to obtain
                                                                  additional $2.9 billion—including $1.24 billion for equipment and aircraft—in
    the spare parts needed to keep the
                                                                  FYs 2013 and 2014 for the Afghan Air Force, as shown in Table 3.12.
    aircraft flight worthy. SIGAR is reviewing
                                                                      According to CENTCOM, the Afghan Air Force inventory consisted of
    the G-222 contract to ensure that the
                                                                  97 aircraft:205
    U.S. government does not repeat the
                                                                   •	 58 Mi-17 transport helicopters (includes nine on loan to the SMW)
    mistakes made throughout this nearly
                                                                   •	 26 C-208 light transport planes
    half billion dollar program.
                                                                   •	 Six C-182 fixed wing training aircraft
                                                                   •	 Five MD-530F rotary-wing helicopters
                                                                   •	 Two C-130H medium transport aircraft
Table 3.12


U.S. Funding to support and develop the Afghan Air Force, 2010–2014                                                           ($ THOUSANDS)

 Funding Category                                    FY 2010                   FY 2011                    FY 2012               FY 2013 (request)                  FY 2014 (request)
 Equipment and Aircraft                             $461,877                  $778,604                 $1,805,343                    $169,779                          $1,068,329
 Training                                             62,438                   187,396                    130,555                     188,262                             192,354
 Sustainment                                         143,784                   537,650                    571,639                     473,946                             777,748
 Infrastructure                                       92,200                   179,600                    113,700                           0                                    0
 Total                                             $760,299                $1,683,250                 $2,621,237                   $831,987                          $2,038,431
Sources: DOD, Budget Fiscal Year (FY) 2012, Justification for FY 2012 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2011, pp. 8, 19, 30, and 44; DOD, Budget Fiscal Year
(FY) 2013, Justification for FY 2013 Overseas Contingency Operations Afghanistan Security Forces Fund, 2/2012, pp. 5, 13, 19, and 32; DOD, Budget Fiscal Year (FY) 2014, Justification for FY
2014 Overseas Contingency Operations Afghanistan Security Forces Fund, 5/2013, pp. 5, 11, 20, and 37.




                                                                     102                            Special inspector general                 I   Afghanistan reconstruction
                                                                    Security




NATO Air Training Command-Afghanistan personnel hold a ceremony to award newly
certified Afghan Air force maintainers in Herat, Afghanistan. (SIGAR photo by Martin Wilson)

   Since last quarter all the Mi-35 attack helicopters (totaling six, of which
five were operational) were removed from the Afghan Air Force inven-
tory.206 NATC-A did not provide a reason for the removal of those aircraft.
   A SIGAR audit initiated in November 2013 is examining U.S. support for
the Afghan Air Force.
   According to the CNA independent assessment released this quarter,
“Afghanistan has a significant need for air support, but the [Afghan Air
Force] cannot support more air power than is currently planned.” CNA also
noted that the Afghan Air Force is “struggling to find sufficient numbers of
qualified recruits to grow to its planned size” and “even if additional recruits
are found, only a small number could be fully trained by 2018.”207


Afghan National Police
As of March 31, 2014, the United States had obligated $16.2 billion and dis-
bursed $15.4 billion of ASFF funds to build, train, and sustain the ANP.208

ANP Strength
This quarter, the overall strength of the ANP totaled 153,269 personnel, includ-
ing 109,184 Afghan Uniform Police (AUP), 21,616 Afghan Border Police (ABP),
14,477 Afghan National Civil Order Police (ANCOP), 5,916 students in training,
and 2,076 “standby” personnel awaiting assignment. Of the 109,184 personnel
in the AUP, 22,562 were MOI headquarters staff or institutional support staff.
In addition, the Counter Narcotics Police of Afghanistan (CNPA) were also
rolled into the AUP which may, in part, account for the AUP’s 2,400 increase
since last quarter.209 Overall, the ANP’s strength increased 3,803 since last quar-
ter, as shown in Table 3.13 on the following page.
    According to CSTC-A, unlike the ANA, the MOI does not report ANP
personnel who are on leave, AWOL, sick, or on temporary assignment in its




Report to the united states congress         I   April 30, 2014                      103
Security




Table 3.13


ANP STRENGTH, QUARTERLY CHANGE
                                          Authorized                                      Assigned
                                                           Quarterly                                      Quarterly
 ANP Component               Q4 2013         Q1 2014        Change          Q4 2013         Q1 2014        Change
 AUPa                        110,369         115,527        +5,158           106,784         109,184b       +2,400
 ABP                          23,090           22,955         -135            20,902          21,616           +714
 ANCOP                        14,541           14,518           -23           13,597          14,477           +880
 NISTAc                         6,000           6,000         None             5,333            5,916          +583
 Standbye                             -               -       None                   -          2,076       +2,076
 ANP TOTAL                 154,000          159,000          5,000          146,616        153,269         +6,653
                                                      d            d                                 d              d
 CNPA                           2,243                                            2,850
 ANP+CNPA TOTAL            156,243          159,000          2,757          149,466         153,269        +3,803
Notes: Q4 2013 data is as of 11/2013; Q1 2014 data as of 2/2014; AUP = Afghan Uniform Police; ABP = Afghan Border
Police; ANCOP = Afghan National Civil Order Police; CNPA = Counter Narcotics Police of Afghanistan.
a	Includes MOI headquarters and institutional support personnel
b	Includes 22,562 MOI headquarters and institutional support personnel.
c	NISTA = Not In Service for Training
d	CNPA personnel included in AUP total in Q1 2014.
e	Personnel that are pending assignment.


Sources: CENTCOM, response to SIGAR vetting, 1/15/2014; CSTC-A, responses to SIGAR data calls, 3/31/2014; DCOM MAG,
response to SIGAR vetting, 4/10/2014 and 4/11/2014.


personnel reports. For this reason, the actual operational capability of the
ANP is not known.210

ANP Sustainment
As of March 31, 2014, the United States had obligated $5.9 billion and dis-
bursed $5.7 billion of ASFF funds for ANP sustainment.211 This includes the
nearly $1.27 billion that the United States has contributed to the Law and
Order Trust Fund for Afghanistan (LOTFA) to support the ANP.212

ANP Salaries
From 2008 through March 31, 2014, the U.S. government had provided
$1.09 billion of ASFF, paid through the LOTFA, to pay ANP salaries, food,
and incentives (extra pay for personnel engaged in combat or employed in
specialty fields), CSTC-A reported.213
   According to CSTC-A, when the ANP reaches its final strength of 157,000
personnel, it will require an estimated $510.7 million per year to fund sala-
ries ($268.4 million) and incentives ($242.3 million). This is a decrease from
the estimated $628.1 million reported last quarter—mainly because food
will no longer be covered by CSTC-A.214

ANP Equipment, Transportation, and Sustainment
As of March 31, 2014, the United States had obligated and disbursed
$3.6 billion of ASFF funds for ANP equipment and transportation.215 Most
of these funds were used to purchase weapons and related equipment,




  104                           Special inspector general               I   Afghanistan reconstruction
                                                                                Security




vehicles, and communications equipment.216 More than 83% of U.S. funding
in this category was for vehicles and vehicle-related equipment, as shown
in Table 3.14.
                                                                                                               SIGAR Special Project
Table 3.14
                                                                                                               This quarter, SIGAR sent a letter
                                                                                                               to CSTC-A and NTM-A expressing
COST of U.S.-Funded ANP Equipment                                                                              concern that the United States may
 Type of Equipment                                             Procured         Remaining to be Procured       be unwittingly helping to pay the
 Weapons                                                  $187,251,477                 $4,825,066              salaries of non-existent members—or
 Vehicles                                                 1,966,075,183                  3,744,582             “ghost workers”—of the ANP. For more
 Communications Equipment                                     211,062,672                 544,573              information, see Section 2, page 41.
 Total                                              $2,364,389,332                   $9,114,221
Source: CSTC-A, response to SIGAR data call, 3/31/2014.


   This quarter, CSTC-A reported no change in the total cost of the weapons,                               Table 3.15
vehicles, communications equipment, and ammunition procured for the ANP.
As with the ANA, determining the cost of equipment provided to the ANP                                       Cumulative cost to procure
                                                                                                             U.S.-funded ANP vehicles
remains a challenge. CSTC-A reporting in this area has been inconsistent,                                    declining
raising questions about visibility and accountability for U.S. funding used to                              Date                              Cumulative Cost
procure equipment for the ANP. For example, CSTC-A’s estimate of the total                                  July 2013                              $2,646.3
cost of U.S.-funded ANP weapons procured fell from $369 million in July 2013                                October 2013                             2,029.4
to $137 million in October 2013.217 At the time, CSTC-A said the decrease in                                January 2014                             1,966.1
total cost was due to actual, contracted equipment pricing being lower than                                 April 2014                               1,966.1
estimated pricing.218 Then CSTC-A said in December 2013, the increase was                                  Sources: CSTC-A, responses to SIGAR data call, 7/2/2013,
“caused by inclusion of weapons procured through alternate funding vehi-                                   10/1/2013, 12/30/2013, and 3/31/2014.

cles.”219 Although the cumulative cost of equipment—a figure which should
only go up or stay the same—has declined since July 2013, the total cost this
quarter did not change from last quarter, as shown in Table 3.15.
   CSTC-A’s estimate of the total cost of vehicles procured for the ANP has
been decreasing until this quarter. In July 2013, CSTC-A stated the total
cost of vehicles was $2.65 billion.220 In October 2013, CSTC-A stated the
actual cost of vehicles procured was $2.03 billion. According to CSTC-A, the
“decrease in the number procured from last quarter (July 2013) is a result of
an extensive internal audit that revealed some equipment had been double-
counted.”221 In December 2013, the total cost of ANP vehicles procured
again fell, this time to $1.97 billion. According to CSTC-A, the reason for the
decrease from the prior quarter was “due to actual obligated, contracted
equipment pricing being higher.”222 It is not clear why a higher price would
result in an overall decrease in the cost of vehicles procured to date. The
total cost this quarter did not change from last quarter.
   The United States has also procured $312 million in ammunition for
the ANP and $1.5 billion worth of other equipment and supplies to sustain
the ANP. According to CSTC-A, this latter amount was determined by sub-
tracting the cost of weapons, vehicles, communications equipment, and
ammunition from overall equipment and sustainment costs.223




Report to the united states congress                      I    April 30, 2014                     105
                                            Security




                                            ANP Infrastructure
                                            As of March 31, 2014, the United States had obligated $3.3 billion and dis-
                                            bursed $2.7 billion of ASFF funds for ANP infrastructure.224 At that time,
                                            the United States had completed 636 infrastructure projects (valued at
                                            $3 billion), with another 97 projects ongoing ($544 million) and 11 planned
                                            ($55 million), according to CSTC-A.225
                                               This quarter, 25 projects valued at $116 million were completed and four
                                            valued at $73 million were terminated. The largest ongoing ANP infrastruc-
                                            ture projects were administrative facilities ($59.5 million) and building and
                                            utilities ($34.3 million) at the MOI Headquarters and an ANCOP patrol sta-
                                            tion in Helmand ($28.5 million).226
                                               According to CSTC-A, the projected O&M, sustainment, restoration,
                                            and minor construction cost for ANP infrastructure for FY 2015 through
                                            FY 2019 is $485 million:227
                                            •	 FY 2015: $102 million
                                            •	 FY 2016: $98 million
                                            •	 FY 2017: $95 million
                                            •	 FY 2018: $95 million
                                            •	 FY 2019: $95 million
                                            CSTC-A noted that any estimated post-transition costs are based on current
                                            capacity levels and do not take into account any future policy decisions
                                            which could impact future cost estimates.228

                                            ANP Training and Operations
                                            As of March 31, 2014, the United States had obligated and disbursed $3.4 bil-
                                            lion of ASFF funds for ANP and MOI training and operations.229 This quarter,
                                            according to NTM-A, the United States is no longer funding any ANP training
                                            courses. Since the beginning of 2014, a previously U.S.-funded ANP training
                                            course that was being held in Turkey is now NATO-funded. NTM-A continues
                                            to provide advisor support to the ANP.230 Last quarter, 9,513 ANP personnel
                                            were enrolled in some type of U.S.-funded training, according to NTM-A.231

                                            ANP Literacy
                                            NTM-A’s literacy program for the ANP uses the same three contractors,
                                            follows the same curriculum, and uses the same standards as the ANA’s
SIGAR Audit                                 literacy program described earlier in this section.232 Like the ANA, NTM-A
                                            tracks the number of ANP personnel that have received training, but NTM-A
In an audit report released last quarter,
                                            does not know how many trained personnel are still in the ANP.233 NTM-A
SIGAR found that NTM-A/CSTC-A’s goal
                                            told SIGAR that the ANSF is solely responsible for tracking its personnel.234
for achieving literacy in the ANSF was
                                                As of February 28, 2014, ANP personnel who have completed a literacy
based on outdated ANSF personnel
                                            program include:235
estimates and, therefore, may not be
                                             •	 92,740 level 1 graduates
attainable.
                                             •	 57,395 level 2 graduates
                                             •	 37,804 level 3 graduates




                                             106                 Special inspector general   I   Afghanistan reconstruction
                                                            Security




However, in an audit report released last quarter, SIGAR found that U.S.-
funded literacy contracts do “not require NTM-A/CSTC-A to independently
verify students’ proficiency at the three literacy levels.”236
   According to NTM-A, the contractors were providing 454 literacy trainers
to the ANP:237
•	 OT Training Solutions, a U.S. company, was providing 263 trainers.
•	 Insight Group, an Afghan company, was providing 61 trainers.
•	 The Higher Education Institute of Karwan, an Afghan company, was
    providing 130 trainers.

Women in the ANP
As in prior quarters, the number of women in the ANP is increasing, but
progress has been slow toward reaching the goal to have 5,000 women in
the ANP by the end of 2014. This quarter, ANP personnel included 1,743
women—226 officers, 728 NCOs, and 789 enlisted personnel—according to
CSTC-A.238 This in an increase of 539 women since August 22, 2011.239
   CSTC-A said that “the ANP is currently focused more on finding secure
areas (i.e., positions with appropriate facilities for females) for recruits than
increasing recruiting to reach this target.”240 Despite an increase this quar-
ter, women make up only 1% of the force.
   However, according to CSTC-A, the Minister of Interior recently signed
off on a plan that would emphasize achieving the goal of 5,000 women in the
ANP by the end of solar year 1393 (March 20, 2015). CSTC-A supports the
MOI’s efforts by providing advisors on the recruitment and training of women.
This advising has focused on recruiting and enrolling women in “safe units in
order to prevent much of the abuse and harassment that has been reported
by international agencies.”241 In addition, Coalition advisors have created an
ANP training curriculum on human, gender, and child rights. As of this quarter,
25,059 ANP personnel have received that training. The course covers topics
such as eliminating violence against women, international criteria for human
rights, and self-defense for women in law enforcement.242
   The FY 2014 National Defense Authorization Act, Public Law 113–66,
provides $25 million to be used for the programs and activities to support
the recruitment, integration, retention, training, and treatment of women in
the ANSF.243


ANSF Medical/Health Care
As of March 31, 2014, the United States has funded construction of 176
ANSF medical facilities valued at $155 million with an additional 11 proj-
ects ongoing valued at $15 million. In addition, Coalition forces obligated
$11.7 million in contracts to provide the ANSF with medical training,
according to CSTC-A. Since 2006, Coalition forces have procured and
fielded $48 million in ANSF medical equipment.244




Report to the united states congress   I   April 30, 2014                 107
                                                                 Security




                                                                    This quarter, CSTC-A reported the ANSF health care system had 966
                                                                 physicians out of 1,203 authorized. Of these, 611 were assigned to the ANA
                                                                 and 355 were assigned to the ANP. The ANSF also had 1,889 nurses, phy-
                                                                 sicians’ assistants, and other medical personnel out of 2,234 authorized.
                                                                 In addition, the ANSF had trained 4,828 medics since 2010, but it was
                                                                 not clear if all of those trained medics were still in service. According to
                                                                 NTM-A, 5,022 medic positions are authorized. NTM-A also noted that 1,288
                                                                 trauma medics had been trained by DynCorp and were currently equipped
                                                                 and working in their field.245


                                                                 Removing Unexploded Ordnance
                                                                 Since FY 2002, the U.S. Department of State has provided more than
                                                                 $283 million in funding for weapons destruction and demining assistance to
                                                                 Afghanistan, according to its Bureau of Political-Military Affairs’ Office of
                                                                 Weapons Removal and Abatement (PM/WRA).246 Through its Conventional
                                                                 Weapons Destruction program, State funds five Afghan nongovernmental
                                                                 organizations (NGOs), five international NGOs, and a U.S. government con-
                                                                 tractor. These funds enable clearance of areas contaminated by explosive
                                                                 remnants of war and support removal and destruction of abandoned weap-
                                                                 ons that insurgents might use to construct IEDs.247
                                                                    From January 1 through December 31, 2013, State-funded implementing
                                                                 partners cleared nearly 24 million square meters (more than nine square
                                                                 miles) of minefields, according to the most recent data from the PM/WRA.248
                                                                 An estimated 518 million square meters (more than 200 square miles) of
                                                                 contaminated areas remain to be cleared, as shown in Table 3.16. The PM/
                                                                 WRA defines a “minefield” as an area contaminated by landmines, and a
                                                                 “contaminated area” as an area contaminated with both landmines and
                                                                 explosive remnants of war.249
                                                                    On April 9, The Washington Post reported that “dozens of children
                                                                 have been killed or wounded” after encountering unexploded ordnance—
                                                                 grenades, rockets, and mortar shells—the remnants of U.S. military

Table 3.16


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM Metrics, JANUARY 1–DECEMBER 31, 2013
                                                                                                         Fragments              Minefields            Estimated Contaminated Area
 Date Range                     AT/AP Destroyed         UXO Destroyed           SAA Destroyed             Cleared              Cleared (m2)                 Remaining (m2)
 1/1–3/31/2013                        1,984               100,648                 105,553                3,722,289                7,978,836                   552,000,000
 4/1–6/30/2013                        1,058                18,735                   49,465               1,079,807                5,586,198                   537,000,000
 7/1–9/30/2013                        1,243                21,192                   98,306               1,673,926                4,229,143                   521,000,000
 10/1–12/31/2014                      8,211                  2,460                  54,240               3,064,570                5,729,023                   518,000,000
 TOTAL                             12,496                143,035                 307,564                9,540,592              23,523,200                   518,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for
other objects until their nature is determined.

Source: DOS, PM/WRA, response to SIGAR data call, 3/31/2014.




                                                                    108                           Special inspector general                I   Afghanistan reconstruction
                                                            Security




munitions.250 According to the article, the military has left about 800 square
miles of land that once served as firing ranges. So far, the U.S. military has
only cleared about 3% of the contaminated land. The rest of the land could
take two to five years to clear at an expected cost of $250 million. However,
due to lack of planning, funding has not yet been approved.251


Counternarcotics
As of March 31, 2014, the United States has provided more than $7 billion
for counternarcotics efforts in Afghanistan since 2002. This amount
includes funding from multiple funds including ASFF, the State
Department’s International Narcotics Control and Law Enforcement
                                                                                 SIGAR Testimony
(INCLE) fund, the DOD Drug Interdiction and Counter-Drug Activities              In his January 15 testimony before
(DOD CN) fund, and the Economic Support Fund (ESF). [Note: This is an            the Senate Caucus on International
update that differs from the printed version of this report].252                 Narcotics Control, Special Inspector
   The United States’ drug control policy has shifted in recent years from       General John F. Sopko told lawmakers
eradication to interdiction and agricultural development assistance that         that the narcotics situation in
aims to provide farmers with alternative livelihoods.253 The Ministry of         Afghanistan “is dire with little prospect
Counter Narcotics (MCN) is the lead government agency for developing             for improvement in 2014 or beyond.”
counternarcotics policy, coordinating activities with other governmental and     He also said “the expanding cultivation
international agencies as well as implementing various drug interdiction and     and trafficking of drugs is one of the
reduction programs. The MCN is also working to insert counternarcotics           most significant factors putting the
into the activities of the entire government by “mainstreaming” counternar-      entire U.S. and donor investment in the
cotics efforts into other existing nation strategies and programs.254            reconstruction of Afghanistan at risk.”
   The Counter Narcotics Justice Center (CNJC), which includes the Counter       Noting that the United States has not
Narcotics Tribunal and the Criminal Justice Task Force (CJTF), investigates,     made counternarcotics efforts a priority,
prosecutes and tries major narcotics and narcotics-related corruption cases.     he outlined several steps that SIGAR
The CJTF is a vetted, self-contained unit comprised of investigators, prosecu-   is taking to augment counternarcotic
tors, and first instance and appellate court judges.255 The Counter Narcotics    efforts. For more information, see
Police of Afghanistan (CNPA) conducts interdiction operations with DOD and       SIGAR’s website www.sigar.mil.
ISAF elements providing training and support.256 USAID funds agriculture and
alternative livelihood programs, which are discussed in the Economic and         SIGAR Audit
Social Development section of this report on page 179.
   According to an April 2014 United Nations Office of Drugs and Crime           In an ongoing audit, SIGAR is
(UNODC) report on drug use, “Afghanistan is the world’s largest producer         assessing U.S. government efforts to
and cultivator of opium poppies,” accounting for nearly “three quarters of       develop and strengthen the capacity
the world’s illicit opium.”257 The latest UNODC Opium Survey estimates           and sustainability of the CNPA’s
that 209,000 hectares are under opium-poppy cultivation, an all-time high        provincial units.
and a 36% increase from 2012.258 This expansion occurred despite the goal
outlined in Afghanistan’s draft National Drug Control Strategy for 2012–
2016 of reducing the cultivation of poppy by 50% from its 2011 baseline of
131,000 hectares.259 Eighty-nine percent of the opium fields are located in
nine provinces in the country’s southern and western regions, as shown in
Figure 3.27 on the following page.260




Report to the united states congress   I   April 30, 2014               109
Security




Figure 3.27


OPIUM CULTIVATION IN AFGHANISTAN BY PROVINCE, IN HECTARES, 2013




                                               JOWZJAN                        KUNDUZ              BADAKHSHAN
                                                              BALKH                      TAKHAR


                                                                   SAMANGAN
                                   FARYAB                                BAGHLAN
                                               SAR-E PUL                        PANJSHIR
                                                                                        NURISTAN
                         BADGHIS
                                                                        PARWAN KAPISA        KUNAR
                                                             BAMYAN                  LAGHMAN
                                                                             KABUL
            HERAT                                                   WARDAK
                                                                                       NANGARHAR
                                   GHOR                                    LOGAR
                                                DAYKUNDI                      PAKTIYA
                                                                     GHAZNI                  KHOWST

                                             URUZGAN
             FARAH
                                                                               PAKTIKA
                                                           ZABUL
                                                                                                               Poppy-Free Provinces
                                                                                                               Less than 1,000 ha
                                                                                                               1,001-10,000 ha
             NIMROZ
                         HELMAND                                                                               10,001-30,000 ha
                                          KANDAHAR
                                                                                                               More than 30,000 ha




Note: A hectare (ha) is about 2.5 acres.
Source: UNODC, Afghanistan Opium Survey 2013, 12/2013, p. 13.



   Opium cultivation has significant social, political, and economic reper-
cussions for the country and the region. The drug trade undermines the
Afghan government because it funds the insurgency, fuels corruption, and
distorts the economy. Moreover, the number of domestic addicts is growing.
Earlier this year the executive director of UNODC pointed out that “more
must be done to confront [the] drug trade, [and the] rise in domestic addic-
tion.”261 Domestic addiction poses a serious threat to public health, good
governance, and sustainable development.

Drug Use in Afghanistan
The most recent Afghanistan National Urban Drug Use Survey, conducted
by State’s Bureau of International Narcotics and Law Enforcement Affairs
(INL), in 2012 estimated the number of adult drug users (aged 15 years and
older) above 1.3 million, or more than 7.5% of the population.262 An earlier
2009 UNODC survey shows how the problem has been increasing. The 2009
survey estimated that one million Afghans were dependent on drugs.263
UNODC surveys have shown a climb in regular opium usage from 150,000




  110                              Special inspector general                             I   Afghanistan reconstruction
                                                                                      Security




users in 2005 to approximately 230,000 in 2009 (a 53% increase). Meanwhile,
regular heroin users had grown from 50,000 in 2005 to approximately
120,000 in 2009 or 140% increase. The 2009 UNODC survey also revealed a
high number of parents—as high as 50% in the north and south of the coun-
try—providing opium to their children.264
   INL funds a number of drug prevention and treatment initiatives as well
as eradication, interdiction, and other law enforcement efforts.265 However,
according to State, U.S. and Afghan efforts have contributed to the concen-
tration of poppy cultivation in limited, remote, and largely insecure areas of
the country.266

Governor Led Eradication Program
INL funds the Afghan government’s Governor Led Eradication (GLE)
Program. The MCN, in partnership with UNODC, is responsible for verifying
poppy cultivation and eradication.267 According to INL, the Afghan govern-
ment’s eradication target for 2014 is 22,500 hectares. In 2013, governors
eradicated 7,348 hectares, a decline from the 9,672 hectares eradicated in
2012, but still above the 2010 level of 2,316 hectares and the 2011 level of
3,810 hectares.268 Although poppy cultivation expanded in 2013, INL told
SIGAR that the MCN has placed increased focus on eradication in provinces
close to poppy-free status in order to further increase the number of poppy-
free provinces.269 Since 2008, eradication efforts have affected on average
less than 4% of the annual national poppy crop, as shown in Figure 3.28.

Figure 3.28


HECTARES OF POPPY CULTIVATED AND ERADICATED, 2008–2013 (THOUSANDS)

  250


  200                                                                                              209


  150      157                                                                       154
                                                                     131
                                119                   123
  100


   50

                     5                    5                                 4                10            7
                                                            2
     0
              2008                  2009               2010             2011            2012         2013
                         Hectares Under Cultivation                        Hectares Eradicated


Note: A hectare is 10,000 square meters, or almost 2.5 acres.
Sources: UNODC, World Drug Report 2012, 6/2012, pp.27-28; UNDOC, Afghanistan Opium Survey 2012: Summary Findings,
11/2012, p.3; UNODC, Afghanistan Opium Survey 2013, 12/2013, pp. 17-18, 32, 35.




Report to the united states congress                        I   April 30, 2014                           111
Security




   GLE occurs at different times of the year depending on the climate of the
province, according to INL. Results are tracked on a cumulative basis by the
MCN, and are subjected to UNODC satellite verification on a rolling basis.270
   In preparation for the 2014 eradication season, the MCN hosted a
December conference for governors at which provincial leaders deter-
mined eradication targets. Another conference was held in January for the
Afghan line ministries to coordinate efforts to support the GLE campaign.
On January 26, 2014, a new Memorandum of Understanding (MOU) was
signed between INL and the MCN to renew the GLE program for another
year. The MOU also modified a few aspects of the program, including new
advance payment regulations and the creation of a new joint INL-MCN
bank account.271
   The 2014 eradication season began on March 3, 2014, in Helmand.
Kandahar, Farah, and Nimroz are scheduled to begin eradication campaigns
in mid-April.272 The fact that this year’s poppy-growing cycle and eradica-
tion efforts coincided with Afghan elections is likely to negatively impact
eradication levels in 2014, as security forces were less available to support
eradication activities.273

Good Performer’s Initiative
INL also supports the MCN’s efforts to achieve and sustain poppy-free
provinces through the Good Performer’s Initiative (GPI). Under the cur-
rent terms of the GPI program, a province is eligible for $1 million in GPI
development projects for each year that it achieves poppy-free status,
according to INL. INL told SIGAR that the completion of GPI projects in a
given province incentivizes continued counternarcotics performance in the
year ahead, shows provincial leadership and citizens that there are tangible
benefits to countering poppy cultivation, and reinforces the writ of the gov-
ernment in the province, district, and community.274 Since the start of the
GPI program in 2007, more than 200 development projects either have been
completed or are in process in all 34 of Afghanistan’s provinces, including:
school construction, road and bridge projects, irrigation structures, farm
machinery projects, and hospital and clinic construction.275
   As of February 28, 2014, a total of 209 GPI projects with a value of
$106.7 million had been approved. Of those, 108 were completed, 95 were
ongoing, and six were nearing completion.276 INL is collaborating with the
MCN to redesign the GPI program to incentivize action on counternarcotics
issues and focus on support for rural alternative livelihoods.277

Demand Reduction
With INL support, the Afghan government has established drug treatment
centers to help address domestic drug dependency throughout the country.
Nevertheless, as described in the Afghan government’s latest Drug Demand
Reduction Policy, 99% of Afghanistan’s drug addicts are not receiving




 112                 Special inspector general   I   Afghanistan reconstruction
                                                            Security




treatment at the 50 drug treatment centers currently providing services.278
During this quarter, INL continued work with UNODC and the Colombo                  Colombo Plan: The Colombo Plan
Plan to support treatment centers and rehabilitation services for men,              for Cooperative Economic and Social
women, and children in Afghanistan. INL supports 76 treatment programs              Development in Asia and the Pacific was
of the 113 programs in the country.279 This quarter it provided support for         instituted as a regional intergovernmental
the training of clinical staff, treatment services, and outpatient and village-     organization for the furtherance of
based demand reduction, while continuing to implement a transition plan             economic and social development of
to transfer 13 treatment programs to Afghan authorities. The transition             the region’s nations. It was conceived
plan includes building staff capacity and promoting continued cooperation           at a conference held in Colombo, Sri
between the MCN and MOPH. INL’s transition plan will continue through               Lanka, in 1950 with seven founding
                                                                                    member countries and has expanded
2017, with additional programs transitioning to Afghan control each year.280
                                                                                    to 26 member countries. INL continues
INL said it seeks to create uniformity among the treatment centers nation-
                                                                                    to support the Colombo Plan’s Asian
wide and help incorporate existing Afghan treatment professionals into the          Centre for Certification and Education of
Afghan government civil service structure. Under the plan, treatment pro-           Addiction Professionals, a training unit of
grams will transition to the Afghan government as INL support to individual         treatment experts to assist governments in
programs slowly decreases over the coming years.281                                 the process of developing a professional
                                                                                    certification process for addiction
Counter Narcotics Community Engagement                                              professionals in Asia and Africa.
INL also funds the Counter Narcotics Community Engagement (CNCE)
program which aims to promote poppy-free status for provinces. CNCE,
implemented through Sayara Media Communications, targets farmers                  Sources: The Colombo Plan Secretariat website, History, www.
through national and local public awareness and media campaigns in opium          colombo-plan.org; INL, International Narcotics Control Strategy
                                                                                  Report: Volume I Drug and Chemical Control, 3/2013, p. 20.
poppy-growing areas. According to INL, CNCE is implemented in close
coordination with the MCN, ensuring that messages are distributed through
the media, provincial conferences, shuras, scholarly events, and youth out-
reach events. CNCE includes a capacity-building component to ensure the
MCN develops the capability to take direct responsibility for CN media rela-
tions, public awareness, and behavioral change activities, with the goal of
ensuring lasting success beyond conclusion of the program.282

Aga Khan Foundation Grant
INL administers a grant to the Aga Khan Foundation to help sustain the
shift away from poppy cultivation in six key provinces: Bamyan, Takhar,
Badakhshan, Daykundi, Samangan, and Baghlan. The grant allows the foun-
dation to work with district- and cluster-level development councils, local
NGOs, and provincial line departments to increase licit livelihood oppor-
tunities as a platform for sustaining transitions away from a dependence
on poppy cultivation. The grant aims to strengthen community-level link-
ages between the Afghan National Drug Control Strategy and the Afghan
National Development Strategy.283

International Cooperation
The United States was among the 127 countries that attended the
Commission on Narcotic Drugs (CND) meeting in Vienna, Austria, on




Report to the united states congress   I   April 30, 2014               113
Security




March 13–21, 2014.284 The CND, a United Nations body responsible for
drug control matters, has two functions. It oversees the application of
international drug control treaties and acts as the governing body for
the UNODC, including approving the UN International Drug Control
Programme’s budget.285 As part of those responsibilities, the CND moni-
tors the world drug situation, develops strategies on international drug
control, and recommends measures to combat the world drug problem,
including through reducing demand for drugs, promoting alternative
development initiatives, and adopting supply reduction measures. The
CND provides a forum for the United States to work with multilateral
partners to coordinate and discuss global drug issues, including illicit
narcotics in Afghanistan.286
   The 2014 CND meeting addressed a number of issues relevant to the
growing narcotics problem in Afghanistan, including: supply and demand
reduction, international cooperation, and UNODC activities. In addition, spe-
cial side events included discussions on Afghan and Pakistani customs and the
trafficking of Afghan opiates. The CND members have begun planning for the
UN General Assembly Special Session on Drugs to take place in 2016.287

Ministry of Counter Narcotics Capacity Building Program
This quarter, the MCN and INL signed the MCN Capacity Building Program/
Advisor Support MOU. The program, which was renewed for 18 months,
provides funding for 24 local and national advisors and helps build the
MCN’s capacity. INL tracks and evaluates the program’s effectiveness using
a performance measuring plan being implemented to track and evaluate
the advisors’ effectiveness.288 According to INL, this process not only helps
stakeholders monitor the success of the Advisor Support program, but also
improves the MCN human resources department’s employee evaluation
practices. In addition, this quarter INL assisted in the installation of infor-
mation technology equipment for the MCN’s headquarters.289

Effect of the Coalition Drawdown on
Counternarcotics Operations
According to DOD, the drawdown of Coalition forces has hurt the CNPA
and other Afghan counternarcotics agencies. The impact has been most
pronounced in Helmand and Kandahar—the focus of the Coalition
surge and subsequent withdrawal. Vetted counternarcotics units like the
Intelligence and Investigation Unit, the Sensitive Investigative Unit (SIU),
Technical Investigative Unit, and the National Interdiction Unit (NIU) have
also suffered from the drawdown, most significantly by losing access to
ISAF-provided enablers.290
   These factors have, in part, resulted in a decrease in operations and
seizures. According to the Consolidated Counterdrug Database, these
decreases included the following:291




 114                 Special inspector general   I   Afghanistan reconstruction
                                                            Security




•	 Counternarcotic operations decreased 17% (624 in FY 2011 at the height
   of the ISAF surge to 518 in FY 2013)
•	 Heroin seizures decreased 77% (10,982 kg in FY 2011 to 2,489 kg in
   FY 2013)
•	 Opium seizures decreased 57% (98,327 kg in FY 2011 to 41,350 kg in
   FY 2013)

   The decrease in overall counternarcotic missions was likely the result
of reduced partnering of ISAF with Afghan forces conducting counter-
narcotic operations. According to DOD, the majority of Afghan seizures
are a result of routine police operations near population centers or
transportation corridors, such as at checkpoints or border crossings.
Drug labs, storage sites, and major trafficking networks are concentrated
in rural areas that are increasingly off limits to Afghan forces due to
the ISAF drawdown and declining security in these areas. Despite the
marked decreases in drug seizures, DOD told SIGAR that the Afghan
counternarcotics units have shown increased ability over the past year to
successfully conduct complex counter-network drug investigations and
operations without Coalition assistance.292
   INL maintains helicopters at Kandahar Airfield to support U.S. Drug
Enforcement Administration (DEA) missions in southern Afghanistan. The
CNPA operates at both the national and provincial levels; CNPA detach-
ments exist in both Kandahar and Helmand.293

Interdiction Operations
From January 1, 2014, to March 14, 2014, Afghan security and law enforce-
ment forces conducted 66 drug interdiction operations resulting in the
detention of 71 individuals. These operations included routine patrols, cor-       Precursor chemical: substance that may
don and search operations, vehicle interdictions, and detention operations.        be used in the production, manufacture
Afghan operations during this period also resulted in the seizures of the fol-     and/or preparation of narcotic drugs and
lowing narcotics contraband:294                                                    psychotropic substances.
 •	 7,701 kg of hashish/marijuana
 •	 2,873 kg of opium
 •	 269 kg of heroin
                                                                                 Source: UNODC, “Multilingual Dictionary of Precursors and
 •	 4,654 kg of precursor chemicals                                              Chemicals,” 2009, p. viii.



   The U.S. military provided general logistics and intelligence support,
while the DEA provided mentorship and support to specialized Afghan
investigative units. The U.S. intelligence community provided supplemental
targeting and analytical support to Coalition mentors.295
   According to DOD, most interdiction activities occurred in eastern
Afghanistan and in Kabul Province. Previously, interdictions were concen-
trated in southern and southwestern Afghanistan, where the majority of
opiates are grown, processed, and smuggled out of the country. This shift is




Report to the united states congress   I   April 30, 2014               115
Security




likely a result of the Coalition drawdown as the threat to interdiction forces
in eastern Afghanistan and Kabul Province are generally less than the threat
in the south and southwest. The U.S. forces conducted only one unilateral
drug operation during this reporting period, detaining one individual and
seizing 200 kg of marijuana. All other U.S. interdiction efforts were part-
nered with Afghan forces as ISAF continued its drawdown.296
   Interagency groups, including the Combined Joint Interagency Task
Force-Nexus (CJIATF-N) and the Interagency Operations Coordination
Center (IOCC), continued to support combined Afghan and ISAF interdic-
tion efforts. Both CJIATF-N and IOCC integrated data from military and law
enforcement sources to enable operations against corrupt-narco-insurgent
elements. All operations were coordinated with and received support from
U.S. and Coalition military commanders on the ground.297
   INL and DOD share in developing Afghanistan’s counternarcotics police
vetted units. For example, DOD and INL both provide funding for the
CNPA’s NIU. DOD funding helped build three Regional Law Enforcement
Centers (RLECs), while INL funding helped pay sustainment costs for the
Kunduz RLEC, handed over to the Afghans in 2013, and the Herat RLEC,
which is still funded by INL. DOD also funded training for the provincial
CNPA and funds mentors who are based at the CNPA headquarters. At the
operational level, DEA and specialized CNPA units such as the NIU typically
use a mix of INL/Airwing and Afghan SMW aircraft during operations.298

Interdiction Results
Since 2008, a total of 2,649 Afghan and Coalition interdiction operations
have resulted in 2,712 detentions and seizure of the following narcotics
contraband:299
•	 736,810 kg of hashish
•	 368,398 kg of opium
•	 47,214 kg of morphine
•	 27,359 kg of heroin
•	 416,591 kg of precursor chemicals

  However, as shown in Figure 3.29, seizures have affected on average only
1% of the total opium produced annually.

Aviation Support
During this reporting period, Department of State aircraft provided a
total of 223.7 flight hours, conducted 123 sorties, moved 642 passengers,
and transported 35,437 pounds of cargo.300 According to INL, State’s
“Embassy Air” will support INL poppy reconnaissance flights in late March.
Counternarcotics support to the DEA consisted of 10.3 flight hours sup-
porting intelligence, surveillance, and reconnaissance mission profiles; 34.4
flight hours supporting interdiction efforts; and 146 flight hours supporting




 116                 Special inspector general   I   Afghanistan reconstruction
                                                                                   Security




Figure 3.29


AFGHAN OPIUM PRODUCED AND SEIZED (2008–2013) (THOUSANDS OF KILOGRAMS)

8,000
          7,700
                           6,900
6,000
                                                                 5,800
                                                                                                  5,500

4,000
                                             3,600                               3,700


2,000


                  15               79                   50               98              71               41
     0
              2008             2009              2010               2011            2012              2013

                        Opium Produced: 33,200,000 kg                      Opium Seized: 354,712 kg


Sources: UNODC, World Drug Report 2012, 6/2012, p.28; UNODC, Afghanistan Opium Survey 2012: Summary Findings,
11/2012, p.3; UNODC, Afghanistan Opium Survey 2013, 12/2013, p. 12; DOD, response to SIGAR data call, 3/28/2014.



Afghan NIU and DEA passenger movements. Additionally, DEA support
included 17.9 flight hours during training. During the month of February,
a task force consisting of DEA, DOD Special Operations Forces, and host-
nation personnel supported a mission originating from Kandahar Airfield
that resulted in the confiscation and destruction of 1,120 kg of marijuana
and hashish in addition to the collection of two persons under confine-
ment. Embassy Air also supported the SIGAR delegation from March 9 to
March 12.301




Report to the united states congress                    I    April 30, 2014                             117
Governance




Governance Contents
Contents

Key Events	                                         119
Elections	120
National Governance	                                127
Subnational Governance	                             132
Reconciliation and Reintegration	                   140
Rule of Law and Anticorruption	                     143
Human Rights	                                       151
Data Quality Assessment of the Survey
of the Afghan People	                               154




 118            Special inspector general   I   Afghanistan reconstruction
                                                   Governance




Governance
As of March 31, 2014, the United States had provided nearly $26 billion to
support governance and economic development in Afghanistan. Most of
this funding, more than $17.5 billion, was appropriated to the Economic
Support Fund (ESF) administered by the State Department and the United
States Agency for International Development (USAID).302


Key Events
Afghanistan held presidential and provincial council elections on April 5.
Approximately seven million Afghans (of whom 35% were females) voted.303
Eight presidential candidates and 2,595 provincial candidates (including 299
females) participated in the election.304 Of the provincial council candidates,
70% were reported to be between the ages of 25 and 35.305 The election faced
fewer violent attacks than in 2009, and attacks were mostly concentrated in the
north, east, and west, rather than the south as in previous elections.306         Table 3.17
   On April 7, the chief of the Electoral Complaints Commission (ECC) told
                                                                                  Partial Results of the April 5
journalists that the April 2014 election appeared to be less fraudulent than      Presidential Elections as of
the 2009 presidential election, but he noted that it was too early to deter-      April 20, 2014
mine the seriousness of the complaints.307 On April 13, however, the ECC                                              Number of
                                                                                   Name of Candidate                    Votes   Percent
announced that there were more reports of serious instances of fraud than
                                                                                  Dr. Abdullah Abdullah                1,535,212 44.47
during the 2009 election.308
                                                                                  Dr. Ashraf Ghani Ahmadzai            1,145,400 33.18
   The Independent Election Commission (IEC) Chairman, Yousaf
                                                                                  Dr. Zalmai Rassoul                     354,921 10.28
Nuristani, announced on April 20 that partial results representing 49.67% of
                                                                                  Abdul Rab Rassoul Sayyaf               240,963       6.98
votes (3,451,982 votes from 34 provinces) showed presidential candidate
                                                                                  Qutbuddin Hilal                         94,488       2.74
Abdullah Abdullah with 44.47% and Mohammad Ashraf Ghani Ahmadzai
                                                                                  Gul Agha Shirzai                        55,744       1.61
with 33.18% of the vote.309 Full preliminary results are due on April 24.310 A
                                                                                  Mohammad Daoud Sultanzoy                16,890       0.49
summary of the partial results appears in Table 3.17.
                                                                                  Hedayat Amin Arsala                       8,364      0.24
   In other news, First Vice President Muhammad Qasim Fahim died
                                                                                  Total Votes                        3,451,982
from natural causes on March 9, 2014. Mr. Fahim was a former Northern
                                                                                  Notes: The partial results represent approximately 49.67%
Alliance commander and ethnic Tajik leader.311 President Karzai nominated         of the votes cast from 34 provinces. According to the
                                                                                  Independent Election Commission, the results were based on
Yunus Qanooni, another ethnic Tajik formerly with the Northern Alliance,          votes whose authenticity had been verified.
as Mr. Fahim’s replacement following consultations with politicians from
                                                                                  Sources: Independent Election Commission, “Presidential
northern Afghanistan and former anti-Soviet commanders.312 On March 25,           Elections Partial Results,” 4/20/2014; Tolo News, “Abdullah
                                                                                  Leads Second Round of Partial Results,” 4/20/2014.
parliament approved Mr. Qanooni.313




Report to the united states congress   I   April 30, 2014               119
Governance




Elections
Despite threats from insurgents, Afghanistan successfully held presiden-
tial and provincial council elections on April 5. According to the National
Democratic Institute (NDI), a nongovernmental organization funded by
USAID to support the Afghan election process, the turnout of an estimated
seven million voters was unexpectedly high, causing some polling stations
to run out of ballots and prompting extension of polling hours. According to
NDI, as of April 7 it was too early to evaluate the effects of anti-fraud mea-
sures and to make a final assessment of the electoral process.314
   The head of the IEC was quoted as saying a run-off election, if required,
may occur in either late May or early June.315
   Of the 11 presidential candidates approved by the ECC in November,
three withdrew prior to the election. Candidates Abdul Qayum Karzai
and Sardar Mohammad Nader Naim withdrew from the race and offered
their support to former foreign minister Zalmai Rassoul on March 6 and
March 26, respectively. Former defense minister Abdul Rahim Wardak
withdrew from the race on March 16, but made no announcement of sup-
port.316 The remaining candidates were Abdullah Abdullah, Daud Sultonzoy,
Mohammad Ashraf Ghani Ahmadzai, Zalmai Rassoul, Qutbudin Hilal,
Mohammed Sahfiq Gul Agha Sherzai, Abdul Rab Rassoul Sayaaf, and
Hedayat Amin Arsala.317
   On March 19, the ECC announced the disqualification of 116 out of 2,713
provincial council candidates for failing to meet either the education or age
requirements, or for failing to appear before the ECC to defend themselves
against complaints.318 This announcement concluded the ECC’s review of the
2,212 complaints leveled against provincial council candidates.319 According
to NDI, the ECC has disqualified 205 provincial council candidates since
November 2013.320 The ECC has also referred 200 complaints to the Afghan
Attorney General’s Office (AGO) for possible criminal prosecution.321
   During this reporting period, the ECC also warned, and in one case
fined, presidential candidates for violations of the election law. The viola-
tions included improper use of government assets. Presidential candidate
Ghani received a 50,000 afghani (AFN) fine—approximately U.S. $871—
for continuing to use armored vehicles provided to him when working
for the government. The ECC warned two other candidates against using
government resources, but indicated evidence was insufficient to war-
rant more than a letter. Presidential candidate Sultanzoy was accused
of threatening a reporter; the ECC referred his case to the AGO.322 On
April 1, the ECC fined candidate Rassoul 300,000 AFN—approximately
U.S. $5,198—and candidate Sherzai 100,000 AFN—approximately
U.S. $1,733—for improperly benefiting from government resources and
insulting another candidate respectively.323
   According to NDI, despite a widespread perception that candidates
exceeded their campaign spending limits, the IEC and ECC had almost no




 120                 Special inspector general   I   Afghanistan reconstruction
                                                   Governance




ability to monitor candidate compliance of these regulations. At one point
they called on civil society and the general public to report any overspend-
ing by candidates.324

U.S. Support for the Elections
The U.S. government funded programs providing technical support,
outreach, and polling, as well the deployment of both domestic and interna-
tional observers to help the Afghan government hold free and fair elections.
   USAID contributed $55 million to the United Nations Development
Programme’s (UNDP) Enhancing Legal and Electoral Capacity for
Tomorrow-Phase II (ELECT II) to help the Afghan government prepare for
and manage the elections. The United Kingdom, the European Union, Italy,
Germany, France, the Netherlands, Sweden, Denmark, Norway, and Japan
contributed the remainder of the $129 million that ELECT II estimated was
necessary to support the elections.325
   The U.S. Embassy Kabul announced in late January that it had cancelled
funding for a series of opinion polls following accusations that the polls
were an attempt to manipulate the outcome of the elections. A U.S. Embassy
Kabul spokesman told reporters such accusations of bias were baseless.326
   USAID provided assistance for electoral monitoring through its
Supporting Political Entities and Civil Society (SPECS) program. SPECS
awarded sub-grants to four Afghan civil society organizations to deploy
approximately 2,200 domestic elections observers (1,253 male and 947
female) to 34 provinces and 270 districts.327 According to NDI, more
than triple the number of domestic monitoring groups applied for IEC           In February, SPECS master trainers trained
accreditation this year compared to 2009. In the 2009 elections, the IEC       female provincial council candidate agents
                                                                               on election rules and regulations, rights and
accredited 21 observer groups and 9,228 domestic observers. In 2014, the
                                                                               obligations of polling staff, voting, and the
IEC accredited 67 domestic election monitoring groups and issued 11,357        vote counting processes. (SPECS photo)
accreditation cards.328
   USAID supported international election observation missions through
awards to three organizations: NDI, Democracy International (DI), and the
Organization for Security and Co-operation in Europe (OSCE). NDI and DI
received six-month awards, February 1–August 1, 2014, designed to cover a
potential run‐off campaign. The OSCE election support team planned to be
in Afghanistan for eight weeks beginning in early March 2014.329
   More than 417 foreign observers from 17 organizations registered as elec-
tion monitors for the April 2014 election. This was significantly fewer than
the 1,200 who observed the 2009 presidential poll. On March 20, the Serena
Hotel in Kabul was attacked and one of the NDI election monitoring party
was among those killed.330 Recent news reports indicated that several inter-
national observer missions have either withdrawn or significantly reduced
their presence following the Serena Hotel attack. The OSCE mission ini-
tially withdrew, but sent back half of their 15-person advisory team. NDI
withdrew its international observers after one of them died in the Serena




Report to the united states congress   I   April 30, 2014              121
                                                           Governance




Table 3.18


USAID Programs Intended to Support the 2014 Presidential and Provincial Council Elections
                                                                                                                        Cumulative Disbursements
 Project Title                                                    Start Date   End Date     Total Estimated Cost ($)      as of 3/31/2014 ($)
 Afghan Civic Engagement Program (ACEP)                           12/4/2013    12/3/2018         $70,000,000                   $1,341,817
 Enhancing Legal and Electoral Capacity for Tomorrow (ELECT) II   9/28/2013    9/27/2014          55,000,000                             -
 Electoral Reform and Civic Advocacy (AERCA)                      7/7/2009     12/31/2015         38,702,682                   29,122,253
 Supporting Political Entities and Civil Society (SPECS)          7/7/2013     7/6/2016           18,000,000                    5,478,876
 International Election Observation (NDI)                         2/1/2014     8/1/2014             4,000,000                     490,000
 International Election Observation (DI)                          2/1/2014     8/1/2014             3,999,925                     761,829
 Election Support Team to Afghanistan (OSCE)                      2/20/2014    7/15/2014            1,500,000                   1,500,000
Source: USAID, response to SIGAR data call, 4/7/2014.


                                                           attack; however, NDI reported that 101 NDI Afghan staff observed the elec-
                                                           tions at 327 polling stations in 26 provinces. DI chose not withdraw any of
                                                           its 18-person team, but refrained from sending an additional 10 observers.331
                                                               In February, the USAID Office of Inspector General issued an audit of
                                                           their June 2011 to June 2013 review of USAID’s election assistance pro-
                                                           grams in Afghanistan. The audit found that:332
                                                            •	 USAID assistance has strengthened Afghan institutions’ ability to
                                                               promote electoral credibility, inclusiveness, and transparency.
                                                            •	 USAID had not finalized support arrangements for electoral dispute
                                                               resolution, and its support for civic outreach and education, electoral
                                                               observation and monitoring, and women’s participation had limitations.
                                                            •	 USAID-supported debate and discussion culminated in the approval of
                                                               two laws that established a permanent electoral complaints commission
                                                               and set out a clear process for appointing commissioners to oversee the
                                                               bodies responsible for administering elections and resolving electoral
                                                               disputes.
                                                            •	 The sustainability of some USAID-supported activities including the
                                                               funding and staffing of the IEC and civil society organizations (CSO)
                                                               remains problematic.
                                                            •	 Monitoring and reporting weaknesses characterized some aspects of
                                                               electoral assistance.
                                                           SIGAR previously reported extensively on the election support programs.
                                                           Please see pages 110–119 of the October 2013 Quarterly Report for more
                                                           detail. A summary of USAID programs intended to support the 2014 presi-
                                                           dential and provincial elections appears in Table 3.18.

                                                           Preparations for the Election
                                                           According to the UN Secretary-General’s Special Representative for
                                                           Afghanistan, technical preparations for the April 2014 elections, which
                                                           included plans for fraud prevention and mitigation, were superior to previ-
                                                           ous election cycles.333 According to USAID, the Afghan government met the




                                                             122                 Special inspector general      I   Afghanistan reconstruction
                                                   Governance




four elections-related targets for Tokyo Mutual Accountability Framework
“hard deliverables” by (1) updating and maintaining an election timeline,
(2) appointing qualified elections commissioners, (3) swiftly implementing
the new elections law, and (4) coordinating security-related elections prepa-
rations and implementing voter registration drives.334
    Despite the improvements, ensuring female participation in the election
process remained a challenge. According to NDI, the voter-registration pro-
cess indicated that women in less secure regions were less likely to apply
for voter cards. Both the IEC and the ECC had difficulty meeting their tar-
gets for recruiting female personnel across the country. As of mid-March,
the IEC reported that women comprised 21% of its 3,200 district field coor-      The Afghan Air Force picking up election
dinators, slightly higher than previous elections but significantly short of     ballots to deliver to remote districts in
its 50% target. The IEC also sought to recruit women for its civic and voter     Paktika Province. (U.S. Army photo)
education program. Although it did not reach its 50% goal, about 33% of
its 1,428 educators were women. There were stark differences between
regions, with female representation ranging from 40% to 50% in northern
and western provinces to as little as 8% to 19% in southern and eastern
provinces. Although the ECC’s goal was to have women comprise 30% of its
staff, as of mid-March women accounted for only 10% of its staff. Only six of
the 102 provincial commissioners sworn in were women.335
    According to USAID, the IEC continued to register new voters at the 41
registration centers in 34 provincial capitals until two weeks before poll-
ing day. These included returnees, people who changed constituency, and
those whose old voter cards were lost or damaged. As of February, the IEC
had registered an additional 3,557,260 voters, of whom 1,228,578 (34.58%)
were female.336

Opportunities for Fraud
Early reports on the elections indicated that there was much less fraud
committed than in the 2009 elections. On April 7, the chief of the ECC
told journalists that despite a total of 122 fraud-related complaints lodged
against the presidential candidates, the April 2014 election appeared to be
less fraudulent than the 2009 presidential election. He noted that it was too
early to determine the seriousness of the complaints.337 The two front-run-
ners, Abdullah and Ghani, reportedly said the 2014 elections were “much
cleaner” and “the scale of the fraud is not massive.”338 On April 9, the Free
and Fair Election Forum of Afghanistan (FEFA) reported that initial obser-
vations from their 9,500 elections observers suggested election irregularities
and fraud occurred less often than in 2009. FEFA did, however, report
proxy voting (wherein a person casts a vote on behalf of someone else) at
507 polling stations and ballot stuffing at 141 stations.339
   On April 13, however, the ECC announced that there were more reports
of serious instances of fraud than during the 2009 election. The ECC has
recorded a total 870 incidents of fraud classed as “Priority A,” complaints




Report to the united states congress   I   April 30, 2014              123
Governance




considered serious enough to affect the outcome of the election, higher
than the 815 incidents recorded in 2009. The ECC stated that it may be
necessary to extend the complaint review period to further accommodate
complaints from the provinces.340
    On April 16, the FEFA and the Transparent Election Foundation of
Afghanistan stated that elections authorities have not allowed domestic
monitoring groups to observe vote counting and the complaints adjudica-
tion process. Both the IEC and ECC rejected this criticism. The IEC said
observers have been able to observe the vote counting. Although the ECC
is investigating roughly 1,400 cases of possible voting irregularities, the
ECC said it had not yet begun to review fraud cases and therefore has not
invited domestic observer groups to adjudication meetings.341
    Independent observers highlighted the potential for fraud in Afghanistan’s
chaotic voter registration system. NDI pointed out that Afghanistan has no
voter registry, voter list, or census, making it impossible to conduct accurate
checks on voter registration and determine accurate voter participation
figures.342 The Afghanistan Analysts Network (AAN) reported that a large dis-
crepancy between the estimated number of voters and the actual number of
voter cards might facilitate election manipulation. The total number of legal
voter-registration cards issued stands at approximately 21 million, something
the AAN previously said it found “unbelievable.”343
    No one knows how many Afghans are eligible to vote. Both the IEC and
NDI estimated that about 12 million Afghans are eligible to vote, while the
European Union has cited an estimated 13.5 million.344 The IEC spokesman
said the IEC does not know the true number of voters because multiple
registrations have produced twice as many registration cards as the esti-
mated number of eligible voters. Furthermore, the IEC spokesman said
voter-registration cards do not have an expiration date, were not tracked in
a database, and are valid for any election. Without a voter list, there was no
way to check eligibility on the election day.345
    According to NDI, female voters are not required to have their photo
taken during the registration process, which makes proxy registration and
registration of “ghost” voters possible. Figures indicating a higher number
of female registrants in some of the more conservative areas of the country
(for example 47% in Paktika compared to only 33% in Kabul) raise questions
about the potential for fraud and election irregularities. In addition, there
are no safeguards against multiple registrations and use of multiple cards
obtained in previous registration drives.346
    According to the AAN, the IEC is looking into the possibility that a
considerable proportion of the ballot shortages reported on election day
may have been caused by partial stuffing of ballot boxes before polling sta-
tions opened or hiding papers to be subsequently filled in after hours.347
According to NDI, the IEC provided 600 ballots per polling station with the
expectation that it would take at least 10 hours to go through 600 ballots at




 124                 Special inspector general   I   Afghanistan reconstruction
                                                   Governance




one minute per voter.348 However, several polling centers reported that they
ran out of ballots by noon.349
   The IEC has instituted several changes to mitigate fraud. These include:
•	 improving tracking of ballots through packing numbers displayed
   on individual ballots, incorporating results forms and results sheet
   envelopes
•	 adding security features on the ballot
•	 employing both an invisible ultraviolet ink and indelible ink to identify
   those who have voted
•	 using transparent tamper-resistant evidence bags350

   The IEC also announced plans to distribute election materials to poll-
ing centers much closer to the date of the election to prevent tampering.
Moreover, the IEC decided not to have polling centers in private homes, as
in past elections, but in government buildings such as schools or clinics.
Votes were to be counted on-site.351
   The Ministry of Interior (MOI) announced arrests and suspensions for
attempted election manipulation. In one case, the MOI suspended three
senior police officers, a lieutenant general, and two colonels for interfer-
ence—such as backing a particular candidate—in the election process.352
The day before the election, the MOI also announced the arrest of five peo-
ple, including an IEC employee who served as a district field coordinator,
for attempting to sell 4,000 voting cards in Kabul. Police in Kunar Province
also arrested a 10-year-old boy for carrying approximately 12,000 fake voter
cards in Kunar Province.353
   NDI pointed out that in past elections, the areas of the country most
affected by the insurgency and beyond the scrutiny of observers were also
the most plagued by fraud.354

Election Security
Afghan authorities began planning security for the 2014 elections much
earlier than in the past. NDI considered this a significant improvement over
the 2009 presidential election, when the list of polling stations was released
just days before the election.355 The MOI established a special commission
on electoral security to work in close coordination with the IEC.356 The plan
called for the Afghan National Police (ANP) to guard polling stations while
the Afghan National Army (ANA) provided a second perimeter of defense.357
The Afghan Local Police (ALP) were not asked to guard election sites due
to concern that they are affiliated with various provincial candidates, but
were deployed in the second or third security perimeters.358
   On March 30, the IEC announced an updated, final list of polling sites,
with 748 of 6,770 proposed polling sites to be closed, partially to mitigate
fraud.359 The most affected provinces included Ghazni (60 centers), Herat
(31 centers), Nangarhar (115 centers), and Zabul (32 centers).360 Zabul and




Report to the united states congress   I   April 30, 2014              125
                                            Governance




                                            Nuristan Provinces were particularly affected, with, respectively, 58.1%
                                            and 82.8% of the designated polling stations closed on election day.361
                                            On election day, 205 of the final estimate of 6,423 centers did not open,
                                            primarily due to insecurity, with the largest number of closures in Herat
                                            and Nangarhar. In total, approximately 13% of the polling centers initially
                                            planned for the 2014 elections were not open on April 5.362
                                               In a review of the 2009 presidential elections, DI found that bad actors
                                            exploited the reality that fewer observers, agents, and IEC officials were
                                            able to be present at polling locations in insecure areas. The DI report
                                            quotes the UNDP’s ELECT project:
On election day, Afghan National Security
                                                    The [Afghan] security forces indicated they could secure all
Forces discuss strategies in the Regional           locations and had to be pushed for a more realistic assess-
Operations Coordination Center in Paktia            ment—either they did not want to admit for political reasons,
Province. (U.S. Army photo)                         that they were not in control of significant parts of the coun-
                                                    try, or were directly complicit in lining up the process for
                                                    fraud. ... Security forces insisted on polling centres opening
                                                    that could not be secured and where fraud eventuated.363

                                               The report further quotes UNDP ELECT, stating that it had “powerfully
                                            advocated resistance to security ministries’ calls for polling centres almost
                                            certain to be for ‘ghost voters.’”364
                                               Last quarter, the leader of the Islamist party Hizb-e Islami, Golbuddin
                                            Hikmatyar, reversed his previous boycotts of Afghan elections and asked
                                            his supporters to participate in the April 2014 election.365 A Hizb-e Islami
                                            spokesman later qualified the support as being limited to presidential can-
                                            didate Qutbuddin Hilal, who is himself a former head of Hizb-e Islami’s
                                            political commission.366
                                               Insurgents conducted several high-profile attacks and attempted to intim-
                                            idate voters in the run-up to the election. Especially in the rural south and
                                            east, the Taliban planted statements warning voters to boycott the election
                                            or face violence.367 Three presumptive presidential front-runners (Abdullah,
                                            Ghani, and Rassoul) cancelled their appearances in televised debates sched-
                                            uled for early April due to security threats in Kabul.368 Some presidential
                                            candidates did hold large campaign gatherings across the country, but those
                                            were mostly confined to provincial capitals as many districts were deemed
                                            too insecure.369
                                               Insurgents attacked the IEC headquarters in Kabul hours before the
                                            election commission was due to announce details of how many polling sta-
                                            tions would be opened.370 There were also reports of a provincial council
                                            candidate being kidnapped and killed in Sar-e Pul Province; five IEC person-
                                            nel kidnapped in Nangahar Province; insurgents announcing the planting
                                            of mines along roads to dissuade voters in Ghazni Province; and an attack
                                            against a regional IEC office in eastern Kabul that killed a provincial council
                                            candidate.371 In addition, insurgents mounted attacks against several presi-
                                            dential campaigns, including candidates.372




                                             126                 Special inspector general   I   Afghanistan reconstruction
                                                   Governance




   Afghan election officials reported that from June 1, 2013, to April 3, 2014,
they recorded 160 security-related incidents against electoral bodies, with
the highest number reported from Herat Province. In the week preceding the
polls, there were 116 threats recorded against the polling centers and elec-
toral activities in 25 provinces.373 The IEC was quoted as saying that there
were no attacks on any polling centers in Kandahar Province in the south.374
In the east, however, the U.S. commander of Training, Advise, and Assist
Command Southeast was quoted saying, election day was “one of the most
violent days in Afghanistan.” He also acknowledged that it is easier to defend
against attacks that are expected, such as those during the election, but it is
much harder for the Afghan security forces to sustain that level of defense.375
   To improve security as well as increase female voter turnout, the MOI
launched the Female Searcher Program, which, according to the MOI,
recruited and trained up to 13,000 female volunteers to serve as subsidized
personnel to conduct body searches of women at each of Afghanistan’s more
than 6,400 designated polling centers. Deploying women to search female
voters is important because Afghan custom forbids men to touch unrelated
women. The goal of this project was prevent women with weapons—or men
disguised as women—from entering polling places to conduct attacks.376
   As it is customary for Afghan women to travel under the escort of male
relatives, the MOI allocated resources to support the travel of male relatives
to accompany its female searcher personnel, according to NDI.377 State con-
tributed $1.7 million to this $3.7 million project via UNDP’s Law and Order
Trust Fund for Afghanistan (LOTFA). State said the process was initially
impeded by significant logistical hurdles, but reports indicate that female
searchers were deployed and working in urban areas.378


National Governance
The United States provides assistance to Afghan governing institutions to
build capacity to perform critical services and thereby increase their legiti-
macy in the eyes of the Afghan population in two ways: through contracts,
grants, and cooperative agreements, and increasingly, through on-budget
assistance.379 In this final year of the security transition, the U.S. government
is particularly focused on increasing the financial and program-management
capabilities of Afghan government institutions. It is using a combination of
capacity building and on-budget programs to achieve this end.380
   According to the UN Secretary-General’s Special Representative for
Afghanistan, the Tokyo Mutual Accountability Framework (TMAF) serves
as the cornerstone of international engagement and is the agreed instru-
ment for deploying civilian development assistance in Afghanistan.381 The
international community and Afghan government agreed to the TMAF at
the Tokyo Conference of donors in July 2012. The TMAF set out 16 commit-
ments, called indicators under the agreement, for the Afghan government




Report to the united states congress   I   April 30, 2014                 127
                                                                Governance




Table 3.19


U.S. Assessment of Governance-related Tokyo Mutual Accountability Indicators and Hard Deliverables
                                                                                                                                                               Hard Deliverable
 Tokyo Mutual Accountability Framework Indicator                 Tokyo Mutual Accountability Framework "Hard Deliverable"                                      Met? (Yes/No)*
                                                       Representational Democracy and Equitable Elections
 Develop, by early 2013, a comprehensive election                Develop, by early 2013, a comprehensive election timeline through 2015 for electoral
 timeline through 2015 for electoral preparations and            preparations and polling dates.                                                                     Yes
 polling dates.
 Ensure that a robust electoral architecture is developed        The government engages in a consultative and transparent process for all upcoming
 in a secure, participatory, and transparent manner to           senior Independent Electoral Commission (IEC) appointments, which results in the selec-             Yes
 enable successful and timely elections.                         tion of qualified and well respected IEC senior appointees, so they have broad support.
                                                                 The government actively supports the implementation of a legislative framework to be
                                                                 passed by the National Assembly by June 2013. The framework is to meet international
                                                                                                                                                                     Yes
                                                                 standards and include an impartial, credible, and independent electoral complaint
                                                                 resolution mechanism.
                                                                 Government ministries coordinate and work closely with the IEC to help ensure timely and
                                                                 successful implementation of the IEC’s: (i) voter registration plan which complements
                                                                                                                                                                     Yes
                                                                 e-tazkera; (ii) operations plan which includes security planning, capacity building, fraud
                                                                 mitigation, and inclusive voter outreach.
                                                              Governance, Rule of Law and Human Rights
 Ensure respect for human rights for all citizens, in par-       AIHRC commissioners are appointed in accordance with Article 11 of the AIHRC Law and
 ticular for women and children, and allow the Afghanistan       Paris Principles, and drawing on consultation with cross-section of civil society organiza-
 Independent Human Rights Commission (AIHRC) and                 tions. The appointment process will enable AIHRC to retain its ‘A’ accreditation by the             No
 civil society organizations to perform their appropriate        International Coordination Committee of National Human Rights Institutions.
 functions.
 Demonstrated implementation, with civil society engage-         The Ministry of Women's Affairs (MOWA), Ministry of Interior (MOI) and Attorney General's
 ment, of both the Elimination of Violence Against Women         Office (AGO) coordinate to produce a detailed report on the application of the EVAW law
 Law (EVAW), including through services to victims as            in each province. The report should include: the number of EVAW cases brought to the
                                                                                                                                                                     No
 well as law enforcement, and the implementation of the          police, disposition of each case (whether prosecuted or not) and the outcome of the
 National Action Plan for Women (NAPWA) on an annual             prosecuted cases. The data collected should be made public and serve as a baseline for
 basis.                                                          future analyses of EVAW law implementation.
 Enact and enforce the legal framework for fighting corrup-      Collect the asset declarations forms from high-ranking government officials (per Article
 tion including, for example, annual asset declarations of       154 of the Constitution), and publish them on the High Office of Oversight (HOO) website
                                                                                                                                                                     No
 senior public officials including the                           to be available for the public and mass media. Declared assets will continue to be veri-
 executive, legislative, and judiciary.                          fied based on Afghan law and HOO capacity.
                                          Government Revenues, Budget Execution and Sub-National Governance
 Through more efficient, transparent, and accountable
 customs and tax systems, raise the ratio of revenue
                                                                                                             N/A                                                     N/A
 collection to GDP from 11% to 15% by
 2016, and to 19% by 2025.
 Improve budget execution to 75% by 2017.                                                                    N/A                                                     N/A
 Enact a legal framework to clarify roles, and responsi-
 bilities of government agencies at national, provincial,
                                                                                                             N/A                                                     N/A
 and district levels, in line with the 2010 Sub-National
 Governance Policy.
 Develop a provincial budgeting process that includes          Develop a provincial budgeting process for FY 1393 that includes provincial input into the
 provincial input into the relevant ministries’ formulation of relevant ministries’ formulation of budget requests, linked to a provincial planning process
                                                                                                                                                                     Yes
 budget requests, linked to a provincial planning process      in which provincial councils have their consultative roles.
 in which Provincial Councils have their consultative roles.

*These assessments of progress were used to inform the TMAF incentive funds disbursement decisions.

Source: USAID, ODG, response to SIGAR data call, 3/31/2014.




                                                                   128                           Special inspector general            I   Afghanistan reconstruction
                                                   Governance




and nine for the international community. Under the framework, follow-up
mechanisms were also put in place to monitor progress at Senior Officials
Meetings. In the run-up to the first meeting on July 3, 2013, the TMAF indica-
tors were augmented with intermediate targets called “hard deliverables” for
both the Afghan government and the international community.382
   A Special Joint Coordination and Monitoring Board (JCMB) meeting was
held on January 29, 2014, to assess TMAF progress and to formulate guid-
ance in anticipation of a new Afghan government following the elections.383
The progress of governance-related TMAF indicators and hard deliverables is
discussed throughout this quarterly report. Table 3.19 summarizes the TMAF
indicators and hard deliverables along with the latest assessment of progress.

On-Budget Assistance
To improve governance and align development efforts with Afghan priori-
ties, international donors at the 2010 London Conference committed to
increase the proportion of development aid delivered on-budget through
the Afghan government to at least 50%. The donors, including the United
States, reiterated this pledge at the July 2012 Tokyo Conference.384 However,
donors conditioned their support on the Afghan government’s fulfilling a set
of commitments outlined in the TMAF. These commitments include, among
other things, improved management of public funds.385
   The United States is providing on-budget assistance through bilateral
agreements with seven Afghan government entities and through contribu-
tions to two multi-donor trust funds: the Afghanistan Reconstruction Trust
Fund (ARTF) and the Afghanistan Infrastructure Trust Fund (AITF).386 The
ARTF, administered by the World Bank, provides funds to both the Afghan
government’s operating and development budgets in support of Afghan
government operations, policy reforms, and national priority programs.387
The AITF, a multi-donor trust fund administered by the Asian Development
Bank, coordinates donor assistance for infrastructure projects in
Afghanistan.388 According to USAID, the majority of on-budget funding has
been and will continue to be directed through the multi-donor trust funds,
particularly the ARTF.389
   As shown in Table 3.20 on the following page, USAID expected to spend
$986 million dollars on direct bilateral assistance. It also expects to con-
tribute almost $2.7 billion to the ARTF and more than $180 million to the
Afghanistan Infrastructure Trust Fund (AITF).390
   According to USAID, the actual disbursement of funds through bilateral
on-budget programs is slower than either side would like. USAID attributes
the low budget-execution rate to limited Afghan government capacity and
the risk-mitigation measures USAID applies to on-budget assistance.391
   The U.S. and Afghan governments have differing ways of measuring U.S.
progress toward fulfilling its commitments to provide more funding through
the Afghan government budget.392 USAID says the Afghan government only




Report to the united states congress   I   April 30, 2014              129
                                                               Governance




Table 3.20


USAID On-Budget Programs
                                                                                                                    Total Estimated   Cumulative Disbursements
 Project Title                                              On-Budget Partner            Start Date   End Date          Cost ($)        as of 3/31/2014 ($)
 Afghanistan Reconstruction Trust Fund (ARTF)*              Multiple (via World Bank)    6/20/2002    3/31/2017    $2,684,320,295          $1,961,820,295
 Power Transmission Expansion and Connectivity              Da Afghanistan Breshna
                                                                                         1/1/2013     12/31/2016      342,000,000               4,781,000
 (PTEC)                                                     Sherkat (DABS)
 Partnership Contracts for Health (PCH) Program             Ministry of Public Health    7/20/2008    1/31/2015       236,455,840             164,648,037
 Contribution to Afghanistan Infrastructure Trust Fund      Multiple (via Asian
                                                                                         3/7/2013     3/6/2018        180,300,000             105,000,000
 (AITF)                                                     Development Bank)
                                                            Ministry of Mines and
 Sheberghan Gas Development Project                                                      5/15/2012    4/30/2015        90,000,000                        –
                                                            Petroleum
 Kajaki Dam Unit 2                                          DABS                         4/22/2013    12/31/2015       75,000,000               1,632,194
                                                            Ministry of Agriculture,
 ADF (Agriculture Development Fund)                                                      7/18/2010    12/31/2014       74,407,662              29,000,000
                                                            Irrigation, and Livestock
 Basic Education, Literacy, and Technical-Vocational
                                                            Ministry of Education        10/29/2013   10/28/2017       56,000,000                        –
 Education (BELT) Community Based Education
 Basic Education, Literacy, and Technical-Vocational
                                                            Ministry of Education        11/16/2011   12/31/2014       26,996,813              21,955,403
 Education Textbooks
 Cash Transfer Assistance to Support the Civilian
                                                            Ministry of Finance          9/30/2009    9/30/2014        36,256,560              28,810,610
 Technical Assistance Plan (CTAP)
 Afghanistan Workforce Development Program
                                                            Ministry of Education        9/18/2013    4/3/2016         30,000,000                        –
 (AWDP)
                                                            Independent Administrative
 Cash Transfer Assistance for Civil Service Reform          Reform and Civil Service     10/31/2011   2/28/2014        15,000,000              13,000,000
                                                            Commission
                                                            Ministry of Communications
 E-Government Resource Center                                                            8/28/2013    6/1/2016           3,900,000                       –
                                                            and IT
Note: *This includes all USAID contributions to the ARTF.

Source: USAID, response to SIGAR data call, 4/7/2014.



                                                               considers funds “on budget” when they are disbursed (when money has
                                                               actually been spent), while USAID counts commitments and obligations
                                                               (when the donor reserves the funds for a specific purpose but money has
                                                               not been spent) as on-budget support.393

                                                               Capacity-Building Programs
                                                               USAID capacity-building programs seek to improve ministries’ performance
                                                               to prepare, manage, and account for on-budget assistance. As shown in
                                                               Table 3.21, programs include USAID’s $31 million Leadership, Management,
                                                               and Governance Project that aims to strengthen Afghanistan’s financial-
                                                               management systems, and the capacity of the Ministry of Public Health
                                                               and the Ministry of Education to meet requirements set at the 2010 Kabul
                                                               International Conference for increased on-budget aid.394 USAID is also fund-
                                                               ing the $5 million Ministry of Women’s Affairs Organizational Restructuring
                                                               and Empowerment (MORE) project, which among other things assists the




                                                                   130                    Special inspector general     I   Afghanistan reconstruction
                                                                     Governance




Table 3.21


USAID Capacity-Building Programs at the National Level
                                                                                                                       Total Estimated   Cumulative Disbursements
 Project Title                                               Afghan Government Partner     Start Date     End Date         Cost ($)        as of 3/31/2014 ($)
                                                             Ministry of Public Health
 Leadership, Management, and Governance Project                                            9/25/2011      9/24/2016    $32,000,000            $15,657,888
                                                             Ministry of Education
 Assistance to Legislative Bodies of Afghanistan (ALBA) Parliament                         3/28/2013      3/27/2018     23,455,326              3,007,595
 Ministry of Women's Affairs Organizational
                                                             Ministry of Women's Affairs   12/20/2012     12/19/2015     5,000,000              2,202,306
 Restructuring and Empowerment (MORE)
Source: USAID, response to SIGAR data call, 4/7/2014.



ministry to improve its financial management, as required for future on-
budget assistance.395

National Assembly
USAID has noted that the Afghan parliament has very little power because
it does not have authority to determine its own budget and rarely initiates
legislation.396 Most bills originate in the executive branch.397 According to
USAID, both houses of parliament require subject-matter expertise to ana-
lyze and draft legislation.398
    During the quarter, elections and the parliamentary recess limited the
parliament’s work. The parliament passed the national budget in early
January before going on recess from January 21 to March 6, 2014.399
According to State, parliament’s return was delayed a few days following
the unexpected death of First Vice President Marshall Fahim. On March 25,
the Wolesi Jirga (the lower house) confirmed Yunus Qanooni as First Vice
President to replace Fahim.400
    In March, neither house of parliament could conduct business because a
majority of representatives were absent. For example, on March 18, only 24
of the 102 members of the Meshrano Jirga (the upper house) were present,
less than half the 52 members required for a quorum. Fifty sitting senators
were contesting the provincial council elections and many others were cam-
paigning for presidential candidates.401 On March 31, the Wolesi Jirga had
only 12 of 246 members present; a quorum requires 125.402
    USAID funds the $23.5 million Assistance to Legislative Bodies of
Afghanistan project (ALBA) to help Afghanistan’s parliament operate as an
independent and effective legislative, representative, and oversight body.403
In the last quarter, ALBA focused on initiatives to help members of parlia-
ment and their staff to improve their capacity. According to USAID, one of
the most important initiatives this quarter was courses held for secretariat
staff during the parliamentary recess. ALBA has also continued supporting
development of the Parliamentary Anti‐Corruption Caucus, establish-
ing relations between the group and the Independent Anti‐Corruption
Monitoring and Evaluation Committee (MEC). In addition, ALBA continued




Report to the united states congress                    I   April 30, 2014                              131
                                             Governance




                                             to help the caucus develop its internal organization, formal charter, and
                                             other foundation documents. Finally, throughout January 2014, ALBA
                                             closely monitored the consideration and passage of the revised 1393 bud-
                                             get, which the parliament had rejected in December 2013.404


                                             Subnational Governance
                                             The United States government supports initiatives at the subnational level
                                             to give Afghans a greater stake in their own government. The goal is to
                                             make local government more visible, accountable, and responsive to the
                                             Afghan people, particularly in the south and east, where the insurgency has
                                             been tenacious.405 These programs target rural areas, including districts and
                                             villages, as well as provincial centers and municipalities.
                                                 USAID said the Afghan government faces a number of challenges to fill-
                                             ing civil service positions at the provincial and local levels. It noted that
                                             insecurity presents a significant obstacle in some areas of Afghanistan,
                                             although quantifying recruitment impact is very difficult. In addition, many
                                             positions have specific education requirements that limit the pool of can-
                                             didates. Verifying educational background for candidates with degrees
                                             obtained outside of Afghanistan poses additional difficulties.
                                                 The Independent Appointment Board of the Civil Service Commission
                                             (IARCSC) plans to review its appointment procedures to address gaps in the
Special IG Sopko and SIGAR staff meet
                                             current system and adopt a competency-based appointment system. However,
with Kandahar’s provincial governor during
Sopko’s March 2014 trip to Afghanistan.      USAID noted these efforts will take a couple of years to complete.406
(SIGAR photo by Steven Mocsary)                  This quarter, USAID was able to provide data on the status of civil
                                             service staffing and vacancies of 14 provinces plus Kabul. Figure 3.30 sum-
                                             marizes the civil servant staffing and vacancies for five Ministries in 14
                                             provinces outside Kabul, based on IARCSC figures. Kabul was not included
                                             because USAID did not provide information about the number of employed
                                             civil servants in several ministries.407
                                                 In a yearly report released in February on protection of civilians in
                                             armed conflict, the United Nations Mission in Afghanistan (UNAMA) found
                                             that insurgents continued to target and kill Afghan government employees,
                                             civilians accused by insurgents of spying for the government, community
                                             leaders, and off-duty police officers or ANP performing solely civilian law-
                                             enforcement functions. In many cases, the Taliban claimed responsibility
                                             for the killings on their public website. Targeted killings were most preva-
                                             lent in the eastern region, with 184 incidents, followed by the southern (129
                                             incidents), southeast (96), northern (92), western (58), central (49), and
                                             northeast (35) regions. Nangarhar Province had the highest number of tar-
                                             geted killing incidents documented by UNAMA, followed by Kandahar with
                                             77 incidents and Kunar with 67.408
                                                 This quarter, DOD reported that the Village Stability Operations (VSO), a
                                             bottom-up counterinsurgency strategy aimed at connecting local governance




                                              132                 Special inspector general   I   Afghanistan reconstruction
                                                                        Governance




Figure 3.30


CIVIL SERVANT STAFFING FOR 14 PROVINCES OUTSIDE OF KABUL


Ministry of Public Health
                                                                                            Number employed
   Ministry of Agriculture                                                                  Vacancies


Independent Directorate
    of Local Governance
       Ministry of Justice

   Ministry of Education

                              0       5,000     10,000 15,000 20,000 25,000 30,000 35,000 40,000

Notes: This data was provided to USAID by the Afghan Independent Appointment Board of the Civil Service Commission
(IARCSC). The data is for 14 of Afghanistan’s 34 provinces (Daykundi, Farah, Ghazni, Helmand, Kandahar, Khowst, Logar,
Wardak, Nimroz, Nuristan, Uruzgan, Paktiya, Paktika, and Zabul). Kabul was not included because several of the cells show
zero for number of employed civil servants. The amounts for the Independent Directorate of Local Governance include
personnel who work for provincial municipalities.

Source: USAID, ODG, response to SIGAR data call, 3/31/2014.



to the Afghan district and national government, has largely ended with the
exception of the Afghan Local Police (ALP) component. According to DOD,
only two Village Stability Platforms and 16 District Stability Platforms (DSP)
hosting U.S. special operations forces remain active. The DSPs are sched-
uled to complete their mission by October 31, 2014.409
    According to DOD, the impact of VSO varies from village to village, dis-
trict to district, and province to province, making it difficult to make broad
assessments of this theater-wide program.410 DOD used a combination of
team assessments and surveys to assess VSO progress and impact. U.S.
special operations forces used a number of governance-related indicators to
inform their VSO assessments. These included:411
 •	 the presence or absence of a district governor, district attorney, or
    chief of police
 •	 the number of villagers attending district bazaars or councils
 •	 the presence of medical facilities
 •	 school attendance

   DOD’s latest district assessment report, completed in February 2014,
found that the VSO has had a positive impact on local governance, enabling
district governors and other Afghan ministry representatives to spend
more time at their district centers.412 According to the report, of the 47
districts where the Coalition provided oversight and support to VSO, 53%
had “adequate” or “effective” governance. The remaining 47% had “poor” or




Report to the united states congress                       I   April 30, 2014                                   133
                                                                   Governance




                                                                   “ineffective” governance. All districts in the report showed the same status
                                                                   for governance over the past year, except for one that improved from “ade-
                                                                   quate” to “effective.”413
                                                                      At the same time, DOD noted that it found much of the quarterly VSO
                                                                   survey data to be untrustworthy because of fraudulent or fabricated data
                                                                   included in some surveys conducted by local Afghan polling contractors.414
                                                                   Surveys from November 2010 to February 2012 showed local views of
                                                                   district governance as extremely positive, with community council per-
                                                                   formance, district government performance, and local dispute-resolution
                                                                   mechanisms all registering over 80% satisfaction.415

                                                                   Rural Stabilization Programs
                                                                   USAID has several stabilization programs aimed at helping the Afghan gov-
                                                                   ernment extend its reach into unstable areas and build local governance
                                                                   capacity. These programs include USAID’s four Stability in Key Areas
                                                                   (SIKA) projects, the two Community Cohesion Initiative (CCI) programs,
                                                                   and $2.67 billion in U.S. support to the ARTF which funds the Afghan gov-
                                                                   ernment’s National Solidarity Program (NSP) (of which $865 million had an
                                                                   explicit earmark for NSP).416 Table 3.22 summarizes total program costs and
                                                                   disbursements to date.
                                                                      USAID intended the four SIKA programs to “be seen as an extension of
                                                                   the [Afghan government], not as increased foreign presence,” and stipulated
                                                                   that SIKA “must work within Afghan structures” in order to partner with the
                                                                   Afghan Ministry of Rural Rehabilitation and Development (MRRD).417 The four
                                                                   SIKA contracts require the MRRD, the primary partner for the SIKA programs,
                                                                   to have representation in the district in order to operate in that district. The
                                                                   degree of required MRRD presence ranges from an individual MRRD repre-
                                                                   sentative who comes to work on “a semi-regular basis” (SIKA South) to MRRD
                                                                   representation that is able to effectively operate and monitor SIKA activities in
                                                                   the district as well as provide support and leadership (SIKA West).418
Table 3.22


USAID Subnational (Rural) Programs
                                                                                                                                                             Cumulative Disbursements
 Project Title                                                               Start Date           End Date              Total Estimated Cost ($)               as of 3/31/2014 ($)
 Afghanistan Reconstruction Trust Fund (ARTF)*                               6/20/2002            3/31/2017                 $2,684,320,295                       $1,961,820,295
 Stabilization in Key Areas (SIKA) East                                      12/7/2011            9/6/2015                     177,054,663                            53,868,540
 Community Cohesion Initiative (East, South, Southwest)**                    3/1/2012             2/28/2015                    161,499,422                             7,373,529
 SIKA South***                                                               4/10/2012            4/9/2015                     117,324,445                            31,969,249
 SIKA West                                                                   1/29/2012            8/31/2015                      62,998,824                           25,658,723
 SIKA North                                                                  3/15/2012            6/14/2015                      45,633,274                           16,390,620
 Community Cohesion Initiative (North, West)**                               9/10/2013            9/9/2015                       36,221,640                               45,185
Notes:
*This includes all USAID contributions to the ARTF. According to the agreement with the World Bank, donors can only express a preference on how their donations are used up to 50% of their total
contribution. USAID has explicitly preferenced $865 million of its ARTF contributions for the National Solidarity Program.
** Disbursement data is for activities only and does not reflect operational expenditures.
***The disbursement data includes the totals for both SIKA South awards.

Source: USAID, response to SIGAR data call, 4/7/2014.




                                                                      134                             Special inspector general                  I   Afghanistan reconstruction
                                                     Governance




                                                                                        Three of the 18 men who received training
                                                                                        in grant management from SIKA East
                                                                                        in Baraki Barak District, Logar Province.
                                                                                        (SIKA East photo)




In Baraki Barak District, Logar Province, a Community Development Council used a SIKA
East grant to clear a deep underground canal. (SIKA East photo)


   The amount of Afghan government participation in physically monitoring
projects varies among regions. For example, this quarter USAID reported
that 82% of the monitoring of SIKA East projects was conducted exclu-
sively by SIKA East personnel without Afghan government participation.419
Approximately 64.5% of SIKA South monitoring visits to the project site
during the quarter were conducted exclusively by SIKA South personnel.420
In the north, USAID reports that all grant monitoring visits were conducted
either in partnership with the Afghan government or by the Afghan govern-
ment alone.421 For SIKA West, USAID reports that in the month of February,
70% of grant monitoring visits to the community project site were con-
ducted either in partnership with the Afghan government or by the Afghan
government alone.422
   According to USAID, the MRRD and the Independent Directorate for
Local Governance (IDLG) increasingly provide leadership and guidance for
SIKA through developing materials for trainings and aiding in grant imple-
mentation. A SIKA sustainability conference was previously planned for late
January/February 2014 to lay out the parameters for graduating SIKA dis-
tricts in order to transfer program responsibilities to the Afghan government.
According to USAID, planning for the sustainability conference and hando-
ver strategy continues, with the date and agenda to be determined.423




Report to the united states congress     I   April 30, 2014                  135
                                             Governance




                                                USAID’s Community Cohesion Initiative (CCI) programs, split between
                                             one program covering the east, south, and southwest, and another cov-
                                             ering the north and west, aim to build what USAID calls “resilience” in
                                             areas that are vulnerable to violence and insurgent exploitation.424 CCI
                                             implements initiatives, such as local community-development projects
                                             that engage community leaders and government officials in their identifi-
                                             cation and oversight. The CCI also supports peace-advocacy campaigns
                                             at sporting events.425
                                                In contrast to SIKA, USAID has not explicitly defined the Afghan govern-
                                             ment’s role in implementing the CCI. Although the CCI does not require the
The Khani Baba street network repair         presence of the Afghan government to go forward with activities, Afghan
project aims to rehabilitate 800 meters of   civil servants are supposed to play an important role in grant monitoring
village streets and drainage trenches to     and oversight of the vast majority of CCI activities. According to USAID,
build confidence in the local government.
                                             this serves both to improve oversight and to strengthen ties by bringing gov-
(CCI photo)
                                             ernment officials to local communities.426
                                                USAID reports that the CCI contractor conducted 32% of all grant
                                             monitoring on its own, while Afghan government personnel conducted
                                             approximately 38% of the grant monitoring visits.427 CCI also scheduled
                                             2,373 visits by Afghan government officials to 508 activity sites in 12 prov-
                                             inces. Of these visits, 17% are at provincial centers, 36% are at district
                                             centers, and 47% are in villages at the project sites.428
                                                The ARTF supports both Afghanistan’s operating and development bud-
                                             get. As part of the development budget it funds the Afghan government’s
                                             National Solidarity Program (NSP), which was designed to strengthen com-
                                             munity level governance and to improve the access of rural communities
                                             to essential services by channeling resources to democratically elected
                                             Community Development Councils (CDCs).429
                                                Although NSP was described in a 2011 Senate Foreign Relations
                                             Committee majority staff report as the best example of a national program
                                             that reinforces the social compact between the Afghan state and citizens,430
                                             SIGAR has raised questions regarding the ability of the Afghan government
                                             to effectively oversee the program, particularly in insecure areas.431
                                                USAID previously “preferenced” (earmarked) funds to the NSP, via
                                             the ARTF, to advance counterinsurgency objectives in areas newly under
                                             Afghan government control. To its credit, USAID stopped preferencing
                                             funds to NSP after reviewing documents, including a 2011 SIGAR audit, that
                                             found that NSP is implemented in very insecure areas but does not mitigate
                                             violence or improve attitudes toward the government in those areas.432
                                             USAID acknowledged a lack of evidence that NSP increases stability in
                                             insecure parts of Afghanistan and adjusted its funding accordingly.433 USAID
                                             had preferenced a total of $865 million directly for NSP.434
                                                According to USAID, NSP does achieve some positive results, including
                                             community-level engagement in decision-making. However, USAID does
                                             not rely on the program to achieve specific development objectives. While




                                              136                 Special inspector general   I   Afghanistan reconstruction
                                                   Governance




USAID continues to engage with the World Bank to seek improvements
in programs like NSP as a part of the broader effectiveness of the ARTF
portfolio, USAID does not consider NSP to be a significant element of its
assistance strategy in Afghanistan.435
    During the quarter, the USAID Measuring Impacts of Stabilization
Initiatives (MISTI) project, a third-party monitoring and evaluation pro-
gram that evaluates the impact of USAID stabilization programs, issued
a final performance evaluation of the Community Development Program
(CDP).436 CDP ran from March 2009 through August 2013, cost $264 mil-
lion in disbursements, implemented 337 infrastructure projects across 19
provinces of Afghanistan, and employed 373,859 laborers on a short-term
basis. CDP adopted stabilization objectives beginning in September 2010
and implemented labor-intensive projects primarily in rural areas. The
evaluation focused its findings on CDP’s fourth and fifth program phases,
in which CDP implemented 73 projects in seven provinces of eastern and
southern Afghanistan from April 2012 through August 2013.437 CDP featured
direct implementation, wherein the prime USAID implementer managed all
aspects of project implementation, including security, with the result that
they were much faster and more flexible than many other USAID contrac-
tors working in similar areas.438
    The MISTI evaluation found theories of change associated with CDP that
differed between the implementer, which emphasized keeping combat-age
men in key areas busy to reduce the numbers available to join the insur-
gency or participate in criminal activities, and USAID staff, who emphasized
the importance of linking communities to the Afghan government.439
    USAID and the CDP implementer requested that the MISTI evaluation
team avoid sending interviewers to villages while CDP projects were ongo-
ing in a district as a security measure. Because the evaluation team was not
allowed to visit project sites during implementation, it was sometimes hard
to locate enough laborers or stakeholders from each of the sample proj-
ects.440 The report noted the consequences of this approach:
        [CDP]’s request that evaluation team members visit project
        areas only after all CDP projects in the district had been
        finished meant that the evaluation team could not verify
        numbers of laborers reported. When the evaluation team
        presented its preliminary results to [CDP], one [CDP] staff
        member said, “There is no way your staff went to that site,”
        implying that the area was too dangerous. This raises at least
        two questions: If project sites are too dangerous for third-
        party evaluators, how was [CDP] able to implement projects
        and independently monitor them? How was USAID able to
        verify the project’s reports? Where it is not secure enough to
        monitor or verify projects, it should be assumed that the risk
        for corruption is extremely high. Implementing projects with-
        out proper monitoring should be done when the benefits—in
        this case, contributing to the military strategy—clearly out-
        weigh the sizeable risks.441




Report to the united states congress   I   April 30, 2014                137
Governance




   The evaluation found that one of the most challenging aspects of CDP
procurement was the bidding process. The practice of accepting the low-
est bid for materials works well in a competitive environment, but CDP’s
environment was not always conducive to fair and effective competition.
Several respondents from the communities noted that prices for materi-
als were high. Having so few suppliers in the local area may have led to
collusion for higher-than-normal quotes, even if the bidding process was
technically followed. The evaluation noted that procurement was one
of the few avenues for local powerbrokers to attempt exploitation. In
Kandahar, respondents noted that influential community members and
even district governors received contracts.442
   The evaluation also found that CDP projects faced very high risk for
corruption and fraud, particularly in the most dangerous areas, where
fewer people had access and it was easier to evade the CDP checks and
balances.443 USAID had limited ability to detect problems because its
on-site monitors lived on military bases and could visit projects only
on military-supported trips. CDP used systems to attempt to dissuade
and identify corruption. Still, many problems were found during CDP
implementation, and local interviewers recorded numerous additional
allegations of corruption, notably the problem of “ghost workers,” absent
or imaginary employees who may appear on payrolls.444 CDP reportedly
implemented more robust monitoring procedures following an incident
in the latter half of 2012 in which CDP local staff colluded in fabricating
payroll sheets that were approved by the CDP provincial manager without
sufficient review.445
   The MISTI evaluation left its findings related to project outcomes unre-
solved. The evaluation interviewers asked community respondents who
was responsible for bringing the project. The most common responses
included an NGO (some named the implementer by name), USAID, the pro-
vincial reconstruction team, the Afghan government, and community elders.
The MISTI report did not provide a breakdown of the attribution results,
making it hard to determine which institutions were most frequently per-
ceived to have been responsible for the CDP projects. The report also
noted it had to rely upon a few positive anecdotes to determine whether
CDP reduced the supply of labor available for anti-government elements or
criminal activities.446

Urban and Provincial Centers
USAID’s four Regional Afghan Municipalities Program for Urban
Populations (RAMP UP) programs concluded this quarter. The programs,
which were extended to March 2014, aimed to improve the capacity of the
provincial and urban levels of government to improve budgeting and, in
the case of municipalities, increase revenue collection.447 Table 3.23 details
USAID’s RAMP UP programs.




 138                 Special inspector general   I   Afghanistan reconstruction
                                                                          Governance




Table 3.23

 USAID Regional Afghan Municipalities Program for Urban
 Populations (Ramp up)
                                                        Total Estimated         Cumulative Disbursements
 Region       Start Date        End Date                    Cost ($)              as of 3/31/2014 ($)
 South        6/10/2010         3/31/2014               $101,046,401                 $95,590,637
 East         6/10/2010         3/31/2014                  95,000,000                  90,936,407
 North        2/8/2011          3/31/2014                  40,000,000                  37,715,295
 West         11/14/2010        3/31/2014                  34,177,405                  31,033,010
Source: USAID, response to SIGAR data call, 4/7/2014.




Provincial Budgeting
International donors continue to track the provincial budgeting progress as
a key deliverable of the TMAF.448 According to USAID, provincial input into
budget formulation and expenditure, including submissions of provincial
directorates (central-ministry representatives at the provincial level), is
critical to the Afghan government’s ability to meet the essential needs of the
population.449 USAID reported to SIGAR that the Afghan government met
the one TMAF hard deliverable for provincial budgeting by developing a
draft provincial budget policy.450
   According to USAID, the current provincial budgeting policy differs from
previously unsuccessful 1386 (2007) and 1391 (2012) provincial budgeting
pilots because it focuses simultaneously on central line ministries and pro-
vincial line directorates. The earlier pilots of 1386 and 1391 concentrated
their reform efforts on provincial governors and provincial ministry repre-
sentatives with little attention given to central line ministries. The 1386 pilot
targeted only the three provinces of Balkh, Panjshir, and Kandahar; the 1391
pilot extended to all 34 provinces. Both pilots provided fixed allocations to
a handful of major line ministries to fund development project proposals
submitted by their respective provincial directors. In both earlier pilots,
emphasis was put on training provincial officials, but the effort ultimately
fell short.451
   The 1391 pilot incorporated lessons learned from the 1386 pilot and used
professional trainers to provide capacity-building training to provincial
line directorates. In addition to fixing an allocation for key line ministries’
provincial directorates, the 1391 pilot provided training in budget formu-
lation to provincial staff, but did not include central ministry personnel.
Ultimately, disagreements between the Afghan government and donors over
the source of funding for the proposed projects resulted in the cancellation
of the pilot project’s.452
   It is USAID’s assessment that the new policy stresses collaboration
between the ministries, provincial directorates, and provincial governor’s
offices with consultation and input from provincial councils. The policy
reportedly encourages improved allocation of budgetary resources across




Report to the united states congress                       I   April 30, 2014                        139
Governance




all 34 provinces; provincial consultation, planning and monitoring; and the
role of provinces in budget execution. The policy also provides for increas-
ing the capacity of both ministries and directorates to plan, budget, and
finance operations as well as maintain assets.453
    In the 1393 budget, $3 million has been allotted to each of the 11 least
developed provinces and $1 million has been allotted to each of the remain-
ing 23 provinces as a discretionary, contingency fund.454 Project proposals
are expected to be submitted to a Public Financial Management (PFM)
Committee headed by the provincial finance director, and including the
provincial governor’s office, the director of economy, and the director of
women’s affairs. The PFM Committee, in consultation with the Provincial
Council, will assess the project proposals for submission to the Ministry of
Finance. Once the projects are approved, the provinces will be responsible
for all procurements, disbursements, and oversight associated with the
approved projects.455 According to the UN Secretary-General, the outcome
of this third pilot will be used to evaluate prospects for the implementation
of a more general, decentralized fiscal policy.456


Reconciliation and Reintegration
The current U.S. Civil-Military Framework states that political reconcili-
ation between the Afghan government and insurgency is “the solution to
ending the war in Afghanistan.”457 However, the UN Secretary-General
recently described progress toward the establishment of a formal peace
process as limited.458

Reconciliation
According to State, there has been no noticeable progress in the ability of the
Afghan High Peace Council (HPC) to garner support for reintegration and rec-
onciliation efforts during the quarter.459 State reported that the HPC continues
to conduct regular meetings, but State has no visibility on the results.460
   During the quarter, both the Afghan national security advisor and the
HPC chairman were quoted saying that constitutional protections for
women would not be sacrificed to further peace negotiations with insur-
gent groups.461
   High-level reconciliation efforts remained opaque during the quarter.
News reports underscored some of the challenges the Afghan govern-
ment faces in trying to negotiate with the Taliban. For example, there were
reports in February of a meeting in Dubai of former Taliban officials who
expressed the desire for a peaceful settlement to the Afghanistan conflict.
The Afghanistan National Security Council praised this as progress.462 A few
days later, one of the Taliban officials who reportedly attended the meet-
ing was killed in Peshawar, Pakistan. An Afghan presidential spokesman
condemned the killing. The body of the murdered Taliban official was later




 140                 Special inspector general   I   Afghanistan reconstruction
                                                      Governance




transferred to his home province via a military helicopter. The presidential
spokesman was quoted as saying, “Whenever Taliban leaders show willing-
ness to talk to the Afghan side, they are targeted and killed.”463 However,
in a statement attributed to the Taliban, the group indicated that it did not
participate in the Dubai meeting and that it remains opposed to direct talks
with the Afghan government.464
   Reacting to news reports last quarter of secret meetings between
President Karzai’s office and the Taliban, an HPC spokesman disavowed any
knowledge of such meetings.465 Later in February, the HPC issued a state-
ment that the HPC had met with a faction of the Taliban and that both sides
agreed to continue dialogue.466
   On April 10, the HPC announced that talks with the Taliban would
resume in the United Arab Emirates “soon,” without disclosing a specific
date. The HPC expected to meet with Agha Jan Mutasim, a former Taliban
leader who had previously held talks with the HPC in Dubai. The next day,
however, Agha Jan Mutasim was reported to be missing in a news report
that was later confirmed by the Afghan Ministry of Foreign Affairs.467
   Since SIGAR’s last quarterly report to Congress, an HPC spokesman was
suspended after he made controversial remarks such as calling Osama bin
Laden a martyr and blaming the conflict in Afghanistan on foreign interfer-
ence due to the U.S. presence.468

Afghanistan Peace and Reintegration Program
The Afghanistan Peace and Reintegration Program (APRP), an Afghan-led
reintegration program targeted towards low-level foot soldiers and their com-
manders, is financed through $182.3 million in contributions from 12 donor
nations. Operational funding for the program is provided by seven donor




In January 2014, 19 reintegree candidates join the Herat Afghan Peace and
Reintegration Program (APRP). The Provincial Peace Council (PPC) collected 18 different
kinds of weapons. (ISAF photo)




Report to the united states congress      I   April 30, 2014                     141
                                                                   Governance




                                                                   nations (primarily Japan and Germany). The United States provides funding
                                                                   towards community-recovery efforts administered by the World Bank.469
                                                                      According to the Force Reintegration Cell (FRIC), an International
                                                                   Security Assistance Force (ISAF) element supporting the APRP, the APRP
                                                                   Joint Secretariat and Provincial Joint Secretariat Teams continue to make
                                                                   outreach a priority. For example, the APRP recently mounted a coun-
                                                                   trywide women’s campaign that gathered more than 250,000 women’s
                                                                   signatures in a petition for peace.470
                                                                      The FRIC also reports 96 small grant projects and 1,228 Afghan govern-
                                                                   ment projects are under way in 31 provinces and 136 districts.471
                                                                      During this quarter, 426 new reintegrees joined the program, increasing
                                                                   the total to 8,025 reintegrees, as shown in Figure 3.31. According to FRIC,
                                                                   there is a current backlog of approximately 500 reintegration candidates
                                                                   who have been fully vetted at the provincial and national level, and who
                                                                   will complete the enrollment process as soon as 2014 funds are available.472
                                                                   According to State and the FRIC, the APRP has a robust vetting process
                                                                   to confirm that individuals who want to join the program are actually
                                                                   insurgents. Afghan civil government and ANSF officials at the provincial
                                                                   and national levels are responsible for processing reintegrees. The interna-
                                                                   tional role is limited to being able to access the Reintegration Tracking and
                                                                   Monitoring Database.473
Figure 3.31


CUMULATIVE REINTEGREES BY REGIONAL COMMAND

9,000

8,000

7,000                                                                                                                                           RC-NORTH

6,000
                                                                                                                                                        RC-CAPITAL
5,000
                                                                                                                 RC-WEST
                                                                                                                                                     RC-EAST
4,000

3,000                                                                                                                               RC-SOUTH


2,000                                                                                                         RC-SOUTHWEST

1,000

      0
            Mar      Jun       Sep       Jan      Mar      June       Sep      Dec        Mar
           2012     2012      2012      2013     2013      2013      2013     2013       2014


Note: Sources did not explain why the cumulative number decreased in RC-West and RC-South this quarter; the current number of confirmed recidivists is 16 individuals.
Sources: State, responses to SIGAR data call, 10/4/2013, 7/1/2013, 4/2/2013, 1/2/2013, 10/2/2012, 7/5/2012, 3/30/2012. DOD, responses to SIGAR data call, 3/31/2014,
12/31/2013.




                                                                       142                            Special inspector general                  I   Afghanistan reconstruction
                                                   Governance




Rule of Law and Anticorruption
The geographic coverage and effectiveness of Afghanistan’s formal justice
sector is unclear. In his Presidential Decree 45, President Karzai requested
that the Supreme Court activate all inactive courts in the provinces and dis-
tricts, and staff them with professional personnel by March 21, 2013.474 The
Supreme Court of Afghanistan and the AGO reported that all districts have
assigned prosecutors and all districts have functioning courts.475 However,
insecure districts with no prosecutors or judges physically present are still
labeled “functioning” so long as cases are processed in provincial capitals.476
A news report quoted the chief of the appellate court in Ghazni Province
saying 14 of its 18 districts have no judges present due to growing insecu-
rity. Residents therefore must either travel to the provincial capital or use
informal dispute resolution.477
    USAID says it is unclear what proportion of trials in insecure provinces
take place in the districts as opposed to the provincial capital. Judges
assigned to insecure provinces appear to hold court in the provincial capi-
tals, with cases primarily filed in the provincial center and not the districts
because of insecurity and the lack of facilities. In Kandahar, rule-of-law offi-
cials do not reside in their districts and have limited effectiveness in most
of the province. The fact that prosecutors are absent in several Kandahar
districts has led to police releasing detainees following informal discussions
with local elders, rather than adhering to formal procedures.478
    According to USAID, Afghan legal professionals cite the lack of suit-
able work facilities and financial hardships associated with living in their
assigned districts as reasons for not taking up residence. For example, the
judge assigned to Zharey District provides judicial services from Kandahar
City and visits the district infrequently because it lacks a courthouse and
adequate office space. USAID cited one positive example of two judges
and a prosecutor who were consistently present in Arghandab District,
partially due to the presence of a courthouse with housing facilities for
the officials.479
    SIGAR announced this quarter that it is initiating an audit of U.S. govern-
ment efforts to assist and improve the rule of law in Afghanistan. SIGAR
plans to (1) identify U.S. government programs or initiatives to develop rule
of law in Afghanistan; (2) assess the progress that these programs or initia-
tives have made achieving the objectives of the U.S. Government rule of law
Strategy; and (3) identify challenges, if any, that the U.S. government has
encountered in achieving its rule of law objectives and the extent to which
it has addressed these challenges.

Project Summary
The United States has provided assistance to the formal and informal jus-
tice sectors through several mechanisms. These include the USAID Rule of
Law Stabilization Formal and Informal Components (RLS-F and RLS-I), the




Report to the united states congress   I   April 30, 2014                143
                                                        Governance




Table 3.24


USAID Rule of Law and AntiCorruption Programs
                                                                                                                     Cumulative Disbursements
 Project Title                                               Start Date   End Date      Total Estimated Cost ($)       as of 3/31/2014 ($)
 Rule of Law Stabilization-Formal Component                  7/16/2012    7/14/2014          $22,581,128                   $15,967,182
 Rule of Law Stabilization-Informal Component                7/16/2012    3/13/2014           15,651,679                    14,520,833
 Fight Corruption Tooth and Nail                             7/4/2012     7/3/2014                997,000                      528,783
 GAPS Anti-Corruption Grant                                  6/7/2012     6/6/2014              1,292,379                      664,707
Source: USAID, response to SIGAR data call, 4/7/2014.




                                                        USAID Assistance to Afghanistan Anti-Corruption Authority Program (4As),
                                                        and the State Department Justice Training Transition Program (JTTP). These
                                                        and other rule-of-law and anticorruption programs are detailed in Table 3.24.
                                                           RLS‐F provides assistance to the formal justice sector to increase access
                                                        to justice, strengthen the capacity of the legal education system, and
                                                        promote transparency and accountability at the district, provincial, and
                                                        national levels. USAID reports that RLS-F improves the capacity of sitting
                                                        judges and court staff by providing comprehensive legal training. RLS-F
                                                        includes the Supreme Court formal training program for new judges. USAID
                                                        previously reported that 81% of Afghan judges have completed this course.
                                                        RLS‐F has also implemented public outreach efforts to strengthen civic
                                                        awareness of Afghan legal rights and the country’s judicial processes.480
                                                           RLS‐I provides assistance to the traditional justice sector to increase
                                                        the quality of justice services provided and facilitate linkages of formal and
                                                        traditional justice sectors. According to USAID, RLS‐I has enhanced the
                                                        dispute-resolution skills of community leaders in 48 districts in southern,
                                                        eastern, and northern Afghanistan. With USAID assistance, 5,192 elders
                                                        have pledged to cease some traditional practices such as baad, the practice
                                                        of exchanging women to settle a dispute. USAID reports that 67 women’s
                                                        elders groups have been established.481
                                                           USAID says it is finalizing an impact evaluation of RLS-I, but initial find-
                                                        ings include: (1) disputants who seek the mediation services of RLS‐I elders
                                                        showed improved perceptions of procedural fairness and overall justice;
                                                        (2) the more knowledge the elder has, the more satisfied people are with
                                                        the dispute resolution; and (3) RLS‐I participants gain and retain knowl-
                                                        edge, with higher gains for relevant, practical knowledge, such as family or
                                                        inheritance law.482
                                                           The State Department’s JTTP provides regional training to justice-sector
                                                        officials, including police, prosecutors, judges, and defense attorneys, on a
                                                        wide range of criminal justice topics, including anticorruption. JTTP also
                                                        provides mentoring on specific cases and legal issues to justice sector offi-
                                                        cials, including prosecutors and judges. According to State, beneficiaries
                                                        of JTTP training have demonstrated increased capacity and knowledge,




                                                         144                 Special inspector general      I   Afghanistan reconstruction
                                                   Governance




leading to improved effectiveness. However, State did not provide an
assessment of the state of Afghan court administration.483

The Supreme Court and the Formal Justice Sector
According to State, there were no notable rulings by the Supreme Court
during the quarter.484

Afghan Correctional System
The inmate population of Afghanistan’s prisons managed by the General
Directorate of Prisons and Detention Centers (GDPDC) has continued to
increase at a rate of 16.4% annually over the past five years, leading to over-
crowding, according to State.485 The UN Secretary-General reported that
Afghanistan’s general prison population grew from 12,000 in 2008 to 29,000
in January 2014, with a growing number of hunger strikes over conditions
of detention as well as inconsistent application of prisoner releases.486
   The Ministry of Justice’s Juvenile Rehabilitation Directorate (JRD) incar-
cerated 1,233 juveniles. This total does not include detainees held by any
other Afghan governmental organization as State’s Bureau of International
Narcotics and Law Enforcement Affairs (INL) does not have access to data
for other organizations.487
   Overcrowding is a persistent, substantial, and widespread problem within
GDPDC facilities. As of January 20, 2014, the total male provincial prison
population was at 296% of capacity, as defined by International Committee
of the Red Cross’s (ICRC) minimum 3.4 square meters per inmate. The total
female provincial prison population was at 135% of the ICRC recommended
capacity. Information on the capacity of GDPDC-operated district deten-
tion centers and the JRD’s juvenile rehabilitation centers is not available.
However, anecdotal reporting by INL advisors visiting facilities indicates that
overcrowding is a substantial problem in many provinces.488
   In April, SIGAR issued an alert letter regarding an $11.3 million prison
built by an INL contractor in Baghlan Province. Although security concerns
prevented SIGAR from physically inspecting the prison, the agency’s review
of contract files found evidence of serious structural damage that resulted
in at least one housing unit being demolished.489 According to INL, the
construction design specifications required compliance with International
Building Code (IBC) standards, as well as seismic reinforcement, and, in
accordance with these requirements, the facilities were built using rein-
forced brick.490 The designs indicate that this unit and other buildings at
the site were built using unreinforced brick walls between concrete col-
umns. SIGAR recommended that INL reconsider its plan and direct that the
structures be rebuilt using reinforced masonry between concrete columns,
which SIGAR believes is called for in the IBC.491 INL stated that it will con-
tinue to comply with IBC standards in any future reconstruction contracts
in Afghanistan.492




Report to the united states congress   I   April 30, 2014               145
Governance




Anticorruption
Afghan anticorruption efforts demonstrated no significant progress during
the quarter. State is aware of one new case this quarter involving a high-
level official, but has not yet reviewed the case file and cannot comment
on the quality of the evidence. The chief prosecutor in Balkh Province was
charged with embezzlement and abuse of power for diverting flour ship-
ments at the Uzbek border. The Afghan government continues to prosecute
lower-level government officials for corruption, but prosecutions are gener-
ally not pursued for those beyond the lowest-level supervisors.493
   Special Inspector General John F. Sopko spoke at the Atlantic Council
on March 20, 2014, to point out that that allowing corruption to continue
unabated in Afghanistan will likely jeopardize all the United States has
accomplished in 12 years of reconstruction. For more information, see
Section 2, page 55.
   The Department of Defense’s Joint Staff issued a report on corruption
in February. The study, initiated by ISAF Commander General Joseph F.
Dunford, quoted former ISAF Commander General John Allen as say-
ing that “Corruption is the existential, strategic threat to Afghanistan.”494
The report found that: (1) U.S. initial support of warlords, reliance on
contracting for military logistical support, and the deluge of military and
aid spending overwhelmed the absorptive capacity of the Afghan govern-
ment and created an environment that fostered corruption and impeded
later counter/anticorruption (CAC) efforts; (2) the necessary precondi-
tions for combating corruption do not exist due to an initial delayed U.S.
understanding of the nature of Afghan corruption, decreasing levels of
physical security, lack of political will on the part of both the international
community and the Afghan government, and lack of effective popular pres-
sure against corruption resulting in a large-scale culture of impunity that
frustrated CAC efforts; and (3) there was an improvement in understanding
of the corruption issues and supported intelligence-driven CAC planning
and operations but lack of unity of effort reduced the effectiveness of CAC
operations and the persistent lack of political will on the part of the Afghan
government rendered almost all countercorruption efforts moot.495
   According to the report, there are two lines of effort to combat cor-
ruption: anticorruption and countercorruption. Anticorruption measures
are those aimed at limiting the opportunities for corruption. They include
transparency and accountability control measures, inspections, audits,
and actions to influence individual behavior. The report pointed out
that anticorruption measures inconvenienced corrupt actors but did not
sanction them for their actions, which possibly helped further a culture
of impunity in Afghanistan. In contrast, countercorruption measures
are corrective in nature, focus on sanctioning corrupt individuals, and
provide a deterrent against corruption. However, Afghanistan lacks the
effective legal system, and particularly an independent judiciary which




 146                 Special inspector general   I   Afghanistan reconstruction
                                                   Governance




the countercorruption measures require. According to the report, without
this, the international coalition’s countercorruption actions are usually a
step behind the corrupt actors.496
   The report offered several criticisms of the U.S. approach to Afghanistan
reconstruction including weak oversight of subcontractors, the inability
to account for spending, and the emergence of a perverse incentive to
demonstrate progress through increased spending at the tactical level
that undercut oversight.497 The report also questioned the value of interna-
tional CAC initiatives, noting that the use of classified intelligence created
legal dilemmas when the information could not be shared with the Afghan
court system. In addition, improved understanding of prime contractors
was not replicated at the subcontractor level. Moreover, the report found
that on the whole ISAF’s CAC effort remained Kabul-centric and lacked
visibility outside of headquarters. Finally, the report concluded that the
Afghan government impeded international CAC efforts by conducting illu-
sory corruption reform and slow-rolling domestic reform, such as delaying
appointments to the Independent Joint Anti-Corruption Monitoring and
Evaluation Committee (MEC).498
   This quarter, there were reports of subnational Afghan government
officials being accused of corruption related to wheat distribution. The
governor of Nuristan Province, along with the directors of disaster manage-
ment and rural reconstruction and development, were removed from office
for the theft of hundreds of tons of government wheat.499 Similarly, a district
governor in Ghazni Province has reportedly been suspended after being
accused of selling 90 tons of improved wheat seed meant for distribution to
local farmers.500

Afghan Attorney General’s Office
There were no significant changes in the technical capacity or effectiveness
of the AGO. The AGO declined offers from State to train AGO prosecutors
in investigative methods, and cancelled numerous scheduled meetings with
State. According to State, the election made the pursuit of high-level corrup-
tion cases less likely.501
   The Major Crimes Task Force (MCTF) is the investigatory arm for the
AGO internal control and monitoring unit.502 According to State, the MCTF
continues to be an increasingly capable investigatory force but is stymied
by the AGO’s refusal to pursue corruption cases.503

Independent Joint Anti-Corruption Monitoring and Evaluation
Committee (MEC)
According to USAID, the MEC has sufficient technical capacity to carry out
its mandate to develop anticorruption recommendations and benchmarks;
monitor and evaluate the government and international community efforts
to fight corruption; and report to the Afghan president, parliament, people,




Report to the united states congress   I   April 30, 2014               147
Governance




and international community. The MEC remains one of the only effective
organizations engaged in the fight against corruption in Afghanistan. The
MEC’s two main donors, Denmark and the United Kingdom (UK), have been
working with the MEC to improve some of the administrative deficiencies
found by UK auditors several months ago. According to USAID, donors and
the U.S. government are impressed with the MEC’s ability to confront the
Afghan government on serious corruption issues.504
   In April, the MEC issued its fifth six-month-report that covers their
work and recommendations from July 1 to December 31, 2013.505 SIGAR
has previously reported on these recommendations (for example, please
see pages 137–138 in the January 30, 2014, and October 30, 2013, quarterly
reports). The MEC reported that it is monitoring more than 40 Afghan
government institutions and international organizations. In the report, the
MEC introduced a rating system for 23 institutions (or type of institutions
such as the international community/donor) for the amount of coopera-
tion and effort in responding to MEC recommendations. According to
the MEC, the best performing institutions are the IEC, Da Afghanistan
Bank, the Ministry of Mines and Petroleum, and the Supreme Court. The
worst-performing institutions are ISAF, the Ministry of Refugees and
Repatriations, the Kabul Bank Special Tribunal, and the Afghanistan
Investment Support Agency.506
   The MEC recently stated that the Afghan government has not effectively
implemented asset registration and verification procedures for high-ranking
Afghan officials, opening the door for embezzlement. According to the
MEC, a properly implemented asset registration and verification system is
an effective tool in fighting corruption. The MEC found that the High Office
of Oversight and Anticorruption (HOO) has been able to register the assets
of officials to some extent, but not annually as required; that the HOO
has failed to verify the assets they have registered and did not refer illicit
enrichment cases to the Attorney General’s Office; and that the HOO’s Asset
Registration and Declaration Department suffers from low staff capacity.507

High Office of Oversight and Anticorruption
State and USAID have reported previously that the HOO is dysfunctional,
ineffective, and politicized.508 USAID reports that the HOO has adequate
administrative and technical capacity to carry out its programs and
mandate.509 However, the HOO suffers from a lack of political will and
seriousness of purpose at the upper echelons of government in fighting cor-
ruption, especially when it involves the powerful and political elite. The new
HOO director has not increased productivity and continues to request donor
assistance to build capacity in HOO staff. According to USAID, the donor
community is reluctant to invest more at this time because it has not seen
sufficient results from the funding it has already invested in the HOO.510




 148                 Special inspector general   I   Afghanistan reconstruction
                                                                        Governance




   According to the UN Secretary-General, the HOO registered the assets of
2,975 government officials. The HOO has published information on the asset
registration of 44 senior government officials, and asset verification has
been completed for 33 high-level government officials, including the presi-
dent, vice presidents, ministers and governors. The verification of the asset
declarations of an additional 32 senior officials is under way.511
   According to USAID, 1,150 Afghan officials are confirmed to have
completed an asset-declaration form, although HOO claims the number
is between 2,500 and 5,000. The HOO maintains that 7,000 officials are
required to file asset-declaration forms. USAID admits that there is no way
to independently verify the HOO’s figures and notes that while most officials
are required to disclose annually, most of those who have declared have
done it only once since 2010. 512 Because of this, the Afghan government
failed to meet its TMAF hard deliverable regarding the collection and pub-
lishing of the assets of high-ranking officials.513

CSTC-A Oversight of MOD and MOI Direct Contributions
According to DOD, the Combined Security Transition Command-
Afghanistan (CSTC-A) has for the first time introduced a “financial levers
strategy” that is meant to use direct financial contributions to the MOD and
MOI as a lever to change Afghan government behaviors. See Figure 3.32.
Once audit or assessment findings are communicated to the relevant min-
istry, CSTC-A will begin the process. On Day 30, the commanding general

Figure 3.32


COMBINED SECURITY TRANSITION COMMAND–AFGHANISTAN (CSTC-A) FINANCIAL LEVERS STRATEGY



    DAY X                                        DAY 1                                         DAY 15                                   DAY 30
    Audit or assessment related to Ministry of   CSTC-A ministerial advisor receives           Auditor follows up with MOD/MOI to      CSTC-A commander or deputy sends
    Defense (MOD) or Ministry of Interior        briefing of audit/assessment results. Audit   determine status of audit recommenda-   letter of audit recommendations to
    (MOI) uncovers an issue.                     recommendations letter goes to audited        tions and any progress in rectifying    MOD or MOI showing all “open” and
                                                 organization.                                 problems identified.                    “closed” recommendations. Intent is to
                                                                                                                                       elevate issues and address open
                                                                                                                                       recommendations.



    DAY 45                                       DAY 46                                        DAY 60                                   DAY 61
    Review board confirms consensus at           First lever pulled: 50% disbursement          Another CSTC-A follow-up determines     Second lever pulled: Commitment letter
    CSTC-A that findings are not being           delay to affected budget code, or more        status of audit recommendations.        funding decreased, or disbursement
    addressed and recommendations are not        serious follow-on actions occur if MOD or                                             delayed to affected budget codes by
    being followed in a timely fashion.          MOI ignore audit recommendations and                                                  100%. Higher-level budget code has
                                                 do not respond.                                                                       broader implications for MOD or MOI.




Source: DOD, CSTC-A, response to SIGAR data call, 12/30/2013.




Report to the united states congress                     I   April 30, 2014                                  149
Governance




or deputy commanding general of CSTC-A will send a letter of audit recom-
mendations with all open and closed recommendations to the MOD or MOI.
If an issue is not resolved by a review board on Day 45, CSTC-A will delay
disbursement of 50% of the affected funds or take more serious action if
warranted. On Day 60, CSTC-A will conduct a follow-up to determine the
status of audit recommendations. Finally, on Day 61, CSTC-A will either
decrease funding on the commitment letter or delay disbursement of the
affected funds.514
    The levers strategy seeks to change behavior at the ministry level. The
first audit to go through the process reached the 45/46-day mark around
December 23, 2013.515 From August through October 2013, CSTC-A
audited the MOI payroll. CSTC-A issued an audit report to the MOI in early
November 2013. The audit contained findings related to pension deduc-
tions being erroneously calculated; payroll issues including late payments,
inadequate withholding of payroll taxes, and improper deduction of pension
contributions; and cooperative-stores funding that is unconstitutional, not
accessible to its contributors, and with fees that exceed estimated operat-
ing costs. The MOI has responded to the audit by issuing a decree to stop all
cooperative-store pay deductions.516
    According to CSTC-A, there are several mechanisms for monitoring U.S.
direct contributions to the Afghan budget for the Afghan security forces.
CSTC-A uses a bilateral commitment letter to ensure that the Afghan gov-
ernment understands the terms and conditions surrounding the proper
utilization of CSTC-A funds (including the purpose, time, and amount) and
the possible consequences of improper use of funds.517 Direct-contributions
funding is provided to the Ministry of Finance, and later allotted to MOD
and MOI, incrementally on an as-required basis.518
    It is CSTC-A’s assessment that once funds enter the Afghan govern-
ment’s bank account, oversight becomes significantly more challenging.
CSTC-A currently compares on a weekly basis the reported Afghanistan
Financial Management Information System (AFMIS) expenditures (by
five-digit expenditure code) to the approved amounts in the commitment
letter. CSTC-A notes, however, that AFMIS is a manual-entry system and
its reliability is only as good as the Afghan government official who is
entering the data. If CSTC-A observes that the spending of an expendi-
ture code exceeds the amount specified in the commitment letter by any
amount, then CSTC-A will investigate. Similarly, CSTC-A acts if it observes
execution of any amount on a budget code that is not specified in the com-
mitment letter.519
    CSTC-A says it can reconcile U.S. direct contributions to MOI and MOD
through an analysis of disbursements and expenses through AFMIS, but is
currently examining, in collaboration with USAID, an alternate approach
for providing direct contributions following a Department of Defense
Inspector General audit. CSTC-A is analyzing the method used by USAID




 150                Special inspector general   I   Afghanistan reconstruction
                                                   Governance




in which the Afghan government establishes a special bank account grant-
ing USAID full audit rights over the account. According to CSTC-A, this
arrangement could provide CSTC-A with another tool for strengthening
accountability over direct contributions. Currently, CSTC-A direct contribu-
tions are pooled with all sources of Afghan government revenues (including
other donor nations and domestic revenues) deposited in the single trea-
sury account of the central bank. According to CSTC-A, this approach has
the advantage of being more simple and provides the Afghan government
more flexibility, but requires additional effort from CSTC-A to reconcile the
reported use of funds.520
   CSTC-A also uses audits designed to detect and correct improper spend-
ing to monitor high-risk areas such as fuel and pay. CSTC-A has initiated 12
audits over the last several months to examine payroll accountability and
the purchases of clothing, fuel, and utilities in the Ministries of Defense
and Interior.521


Human Rights
Gender Equity
In January, the Afghan Ministry of Women’s Affairs (MOWA) released
their first report on the implementation of the Elimination of Violence
Against Women (EVAW) Law. According to UNAMA, this report reinforced
UNAMA’s findings from a December 2013 report and shows that too many
cases are resolved through mediation rather than the criminal justice
system.522 The report found a total of 4,505 reported cases of violence
against women—on average 35 cases per 100,000 women—in 32 of the 34
provinces. The five most reported types of cases were beating/battery and
laceration (40.5%), murder (7.3%), abuse (5.4%), denial of food (5.4%), and
forced marriage (5.1%).523 The current state of the reported cases include
resolution through mediation and other processes (41%), resolution through
the formal legal system (11.5%), and still in progress (47%).524
   According to USAID, the Afghan government failed to meet the
TMAF hard deliverable to produce a detailed report on the application
of the EVAW law in each province. The advanced draft of the report
that was supplied to donors prior to the January 28, 2014, Special Joint
Coordination Monitoring Board had a disparity between the reported
number of cases by the MOI, Afghanistan Independent Human Rights
Commission (AIHRC), or MOWA and the reported number of arrests,
prosecutions, and convictions; a lack of complete data in the provinces;
a lack of coordination between provincial justice institutions and provin-
cial MOWA offices; a lack of technical support in the provinces; and the
lack of an adequate and centralized data collection system for Kabul and
the provinces.525




Report to the united states congress   I   April 30, 2014             151
Governance




   The new European Union Ambassador to Afghanistan stated in March
that the Afghan government has not demonstrated a sufficient sense of
urgency with regard to women’s rights in Afghanistan and lacks a strong
policy on the matter.526
   There was controversy this quarter regarding a portion of the Criminal
Procedure Code (CPC). Following a six-year drafting process, Article 26 of
the CPC, which dealt with those who cannot be questioned as witnesses in
criminal proceedings, was approved by parliament and signed into law, but
was later amended through a decree by President Karzai.527 There was con-
cern that Article 26 would impact the prosecution of domestic violence and
child abuse by restricting relatives of abusers from appearing as witnesses.
The European Union, the U.S. Embassy Kabul, and other international
donors issued statements requesting an amendment of the article.528
   According to State, the final version of the CPC is a vast improvement
over the original version passed by parliament. However, civil society
groups have raised concerns over how the CPC will be effectively imple-
mented.529 According to USAID, the positive amendments were due to the
strong advocacy and pressure of civil society, which is reflective of how
much more active and organized Afghan civil society has become through-
out the past decade.530According to Human Rights Watch, the revised Article
26 language still exempts too many family members from being called to
court as witnesses and therefore poses a serious challenge for successful
prosecution of violence against women and witness protection.531

Refugees and Internal Displacement
According to State, the UN High Commission for Refugees (UNHCR)
recorded no new refugee outflows in the region in this quarter. In the first
two months of 2014, returns totaled 965 individuals, which is 57% lower
than the 2,265 returns during the same period in 2013. The decrease in
the rate of returns can be attributed to the uncertain security situation in
Afghanistan, the unknown outcome of the April 2014 Afghan presidential
and provincial council elections, and the extension of proof-of-registration
cards for Afghan refugees in Pakistan. Return trends also decline during the
winter season with February being the lowest month historically. Afghans
remain among the largest group of asylum seekers worldwide with 38,653
claims in 2013.532
   As of February 28, UNHCR recorded a total number of 654,664 registered
conflict-affected Internally Displaced Persons (IDPs) compared to 647,779
registered IDPs since January 31. According to State, the actual number of
internally displaced could be much higher, but is difficult to verify.533
   In February, the Afghan government launched a new national policy
on internal displacement. It set forth the roles and responsibilities of vari-
ous Afghan government ministries and agencies and their development
and humanitarian partners. According to the UN Secretary General, an




 152                 Special inspector general   I   Afghanistan reconstruction
                                                   Governance




implementation strategy is currently being developed.534 Under the new
policy, the Afghan government bears the primary responsibility to provide
emergency assistance, longer term support, and protection to displaced
persons in Afghanistan. According to UNHCR, the responsibility exists
regardless of the cause of displacement. It also applies whether displaced
persons are living in settlements, with host families, in rural or in urban set-
tings, and inside or outside their province of origin. The policy ensures that
Afghans will have the right to integrate in the place where they are living,
return to their place of origin, or to relocate to a new place. Displaced peo-
ple cannot be encouraged or compelled to return or relocate to areas where
their lives will be at risk.535
   The Government of Pakistan began issuing new refugee cards that will
be valid until the end of 2015 to more than 1.6 million registered Afghan
refugees. Pakistan’s Cabinet decided in July of 2013 to further extend the
temporary stay of Afghan refugees. According to UNHCR, the refugee
card is important as it provides for Afghans to legally remain in Pakistan
and thereby protects against risks such as extortion, arbitrary arrest, and
detention as well as deportation under Pakistan’s Foreigners Act. The
process will be carried out in two phases. During February-June 2014 all
expired cards will be replaced. In the second phase, from July to the end of
the year, Pakistan will register and issue individual cards to some 150,000
children born during the past five years. An additional 330,000 Afghan
children below the age of 18 will receive birth certificates for the first time
under this initiative.536
   The Norwegian Refugee Council (NRC) issued a report that found
that rapid urban growth has been fuelled by the repatriation of refugees,
internally displaced persons fleeing conflict and disasters, and economic
migration. According to NRC, the arrival of IDPs and refugee returnees in
Afghanistan’s cities has created precarious living conditions, including a
constant risk of forced evictions. Afghan domestic law does not have clear
legal standards for eviction. Evictions are planned and carried out with no
genuine consultation, inadequate notice, no due process, and without com-
pensation. NRC found that in the vast majority of cases, evicted IDP and
returnee families have no prospect of being relocated to adequate alterna-
tive housing by either the government or private land-owners.537

Afghanistan Independent Human Rights Commission
According to State, the Afghanistan Independent Human Rights
Commission (AIHRC) continues to make significant progress in increas-
ing awareness about human rights issues, documenting the current human
rights situation, speaking out about abuses, and monitoring the ongoing
elections. However, the Afghan government’s process for appointing AIHRC
commissioners created concern over the AIHRC’s independence that could
threaten its reaccreditation ranking.538




Report to the united states congress   I   April 30, 2014                153
Governance




   On January 28, the International Coordinating Committee (ICC) pub-
lished the findings of its review of the AIHRC. The ICC currently rates
the AIHRC as having “A” status, signifying compliance with the Paris
Principles and reflecting institutional legitimacy and credibility.539 The
review, conducted every five years, concluded with a decision to defer
the question of AIHRC’s status for one year. The ICC, while expressing
great respect for AIHRC’s work and effectiveness, noted with concern
the Afghan government’s process of appointing new commissioners, the
lack of sufficient female staff, and the dependence on donor funding. The
ICC stressed the need for the AIHRC to address those concerns with the
Afghan government by November 2014, failing which it would be recom-
mended for a downgrading to a lower “B” status.540 Because of this, the
Afghan government failed to meet the TMAF hard deliverable regarding the
appointment of AIHRC commissioners.541 State reported that the current
donors remain committed to supporting the AIHRC despite the uncertainty
of it international rating.542


Data Quality Assessment of the Survey
of the Afghan People
SIGAR reported last quarter on the annual A Survey of the Afghan People
issued by the Asia Foundation. USAID currently funds approximately 26%
of the survey’s cost through a $750,000 grant.543
   At the conclusion of last quarter, USAID finalized a data-quality assess-
ment of the survey. USAID’s report noted that the Asia Foundation survey,
the only publicly available study of nationwide perceptions in Afghanistan
since 2006, has become controversial due to a wide discrepancy between
the survey’s reported optimism and opinions captured in other surveys.544
According to the report, analysts and organizations working on the ground
in Afghanistan often dismiss the survey, while policy makers and key deci-
sion makers tout it as evidence of the progress the international community
has made in Afghanistan545
   According to the USAID assessment, the Asia Foundation made a
number of changes to improve the quality of the survey in 2013 includ-
ing changes to the survey plan, instrument, method, and analysis.546 Some
of these changes sought to better capture the opinions of Afghans living
in insecure areas. The 2013 survey introduced what the Asia Foundation
describes as “intercept interviews” to capture perceptions of Afghans liv-
ing in inaccessible areas. The Foundation ‘intercepted’ respondents from
insecure areas in a secure or accessible location, such as a bazaar, hospital,
or travel point. The assessment notes that this is not an ideal method for
capturing opinions from insecure areas.547
   Another change included the hiring of a third-party monitoring company
to observe the survey implementation process. The third-party monitor,




 154                 Special inspector general   I   Afghanistan reconstruction
                                                   Governance




however, was not able to conduct truly independent monitoring of the sur-
vey process because the survey implementer did not define ahead of time
their survey schedule so that the monitor was not able to plan monitoring
site visits in advance using a random selection of survey sampling points.
Instead, the monitor had to rely on guidance from the survey implementers
in order to observe the survey process. Consequently, there was no assur-
ance that survey implementers did not guide the third party to monitor the
best enumerators performing the surveys rather than conduct a random
sampling of enumerators.548 Despite these changes, the assessment team
found continuing areas of concern, including the process of replacing sam-
pling points, misunderstanding by some enumerators of the randomized
respondent selection process, and weak survey questions. According to the
report, these findings illustrate continuing weaknesses in the survey.549




Report to the united states congress   I   April 30, 2014           155
Economic and Social Development




Economic Contents
Contents

Key Events	                                         157
Economic Profile	                                   158
Extended Credit Facility Arrangement	               162
Banking and Finance 	                               164
U.S. Economic Support Strategy	                     169
Development of Natural Resources	                   171
Agriculture	177
Essential Services/Development	                     180
Private-Sector Development	                         188
Transportation	189
Education	190
Health	193
Communications	197




 156            Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  Economic and Social Development
  As of March 31, 2014, the U.S. government has provided nearly $26 billion
  to support governance and economic development in Afghanistan. Most of
  the appropriated funds flowed into four major programs and accounts, as
  shown in Table 3.25.
  Table 3.25

   CUMULATIVE APPROPRIATIONS FOR AFGHANISTAN DEVELOPMENT, AS OF MARCH 31, 2014
   ($ BILLIONS)

   Fund                               Managing Agency                            Appropriated
   ESF                                USAID                                          $17.5
   CERP                               DOD                                              3.7
   TFBSO                              DOD                                              0.8
   AIF                                STATE/DOD                                        1.2
   Total                                                                           $23.2
  Notes: ESF = Economic Support Fund; CERP = Commander’s Emergency Response Program; TFBSO = Task Force for
  Business and Stability Operations; AIF = Afghanistan Infrastructure Fund.

  Source: See Appendix B of this report.



     Of the $23.2 billion appropriated for these funds, approximately $18.6 bil-
  lion had been obligated and $14.7 billion disbursed, as of March 31, 2014.


  Key Events
  This quarter saw a number of developments that could have a profound
  impact on the Afghan economy during the coming year. Afghanistan was
  downgraded to a “dark-gray” list by the Financial Action Task Force (FATF)
  for insufficient progress made on improving its anti-money laundering regu-
  lations. Afghanistan could be blacklisted to the high-risk, non-cooperative
  jurisdiction category in June if satisfactory improvement is not made,
  affecting its banking relationships around the world and further weakening
  its banking sector.550
      The Joint Coordination and Monitoring Board (JCMB)—a high-level
  decision-making body responsible for strategic coordination between
  Afghanistan and the international community—met in January to measure




  Report to the united states congress                  I   April 30, 2014                            157
Economic and Social Development




Afghan and donor progress on fulfilling Tokyo Mutual Accountability
Framework requirements and to provide guidance for the new government.
In a statement, the board concluded that both sides made “sound progress”
while acknowledging that challenges remain ahead.551
   Afghanistan’s domestic revenues in Afghan fiscal year (FY) 1392
(December 21, 2012–December 20, 2013) missed Ministry of Finance (MOF)
budget targets by 11.9%.552 Domestic revenues paid for only 37% ($2 billion)
of Afghanistan’s total budget expenditures ($5.4 billion) in FY 1392; donor
grants covered the remainder.553
   At the same time, the Afghan government approved its FY 1393 national
budget (December 21, 2013–December 20, 2014), totaling $7.65 billion, a
23% increase over FY 1392.554
   During this reporting period, the International Monetary Fund’s
Extended Credit Facility arrangement review and disbursement remain
delayed due in part to insufficient Afghan progress toward meeting domes-
tic-revenue collection and legislative requirements.555
   Finally, the Afghan government has not held any more people account-
able for the Kabul Bank scandal, nor has it made significant cash recoveries
this quarter.556 Moreover, the government continues to delay passing the new
mining law, hindering significant private investment in the mining sector.557


Economic Profile
Afghanistan’s GDP growth has slowed significantly over the last year.
The International Monetary Fund (IMF), the World Bank, and the Asian
Development Bank (ADB) all projected that Afghanistan’s GDP growth
(excluding opium production) will fall from about a high of 14% in 2012 (due
to a near-record-breaking wheat and cereal harvest) to an estimated 3–4%
for 2013. They attribute the decline in GDP growth to increasing uncertainty
about the volatile political and security environment. The World Bank, IMF
and ADB project GDP growth in 2014 to remain at around 3.5%.558 With an
expected reduction in international aid and spending after 2014, the Bank
projects average real GDP growth at about 5% annually through 2018 under
its baseline scenario. More uncertainty, fueled by insecurity and instability,
could further dampen growth.559 By contrast, Afghanistan’s economy grew
by an annual average of 9.4% during the years it was boosted by international
military spending and development assistance from 2003 to 2012.560
    The services and agriculture sectors have been the most important
components of GDP. Increased public spending buoyed demand in 2013
for services, the leading contributor to GDP, from 2005–2012, although it
slowed considerably in 2013, according to the World Bank.561 However,
in 2013 the ADB found weakened demand in industry and services due
to business and consumer uncertainty about insecurity, lower spending
by international security forces, and the winding down of a large number




 158                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  of development projects in advance of the 2014 drawdown.562 Non-poppy            Opium production is not calculated in
  agriculture remains the second leading contributor to real GDP, typically        official GDP figures (GDP was more than
  accounting for between a quarter and a third of GDP, but output and income       $21 billion in 2013), although it figures
  fluctuate with the weather.563                                                   prominently in the economy. Farm-gate price
                                                                                   of the opium economy is estimated at 4% of
                                                                                   GDP by the United Nations Office on Drugs
  Fiscal Sustainability                                                            and Crime (UNODC), which also calculated
  The Afghan government’s revenues declined as a percentage of GDP in 2013
                                                                                   exports of opium and its derivatives, such
  (9.6%)—compared to 10.3% in 2012 and 11% in 2011—as public spending              as heroin and morphine, at 14% of GDP
  increased, according to the World Bank.564 Afghan government expendi-            (almost $3 billion) in 2013.
  tures are expected to continue rising, largely due to spending on security,
                                                                                   Source: UNODC, Afghanistan Opium Survey 2013, 12/2013,
  service delivery, building essential infrastructure, and operations and          pp. 10, 12.

  maintenance.565
     The World Bank describes Afghanistan’s fiscal outlook as subpar and
  likely to delay progress to self-reliance.566 Afghanistan’s fiscal gap between
  government revenue and expenditures is growing. The Bank estimates a
  large financing gap of 25% of GDP ($7 billion) in 2018 and a similar gap of
  20% of GDP in 2025. This will limit Afghanistan’s ability to pay for discre-
  tionary services without significant donor support and is likely to delay its
  progress to self-reliance.567

  Budget
  On January 15, 2014, Afghanistan’s parliament approved the country’s             Donor grants are expected to finance
  FY 1393 national budget (December 21, 2013–December 20, 2014), total-            approximately $4.8 billion of Afghanistan’s
  ing approximately $7.55 billion—$4.94 billion for the operating budget and       $7.55 billion FY 1393 national budget. Of the
  $2.61 billion for the development budget.568 Budget expenditures will focus      donor grants, $2.76 billion will go toward the
  on security (44% of the total budget), infrastructure (14%), education (13%),    operating budget and $2.07 billion will go
  agriculture (8%), and health (4%).569                                            toward the development budget.


  Revenue Generation                                                               Source: MOF, “1393 National Budget Approved by WJ,”
                                                                                   1/18/2014; GIROA, 1393 National Budget, pp.8–9.
  Last year, the Afghan MOF projected domestic revenue for FY 1392
  (December 21, 2012, to December 20, 2013) at $2.4 billion (at the January
  2013 currency-exchange rate of 51.6 afghanis (AFN) to the U.S. dollar),
  an increase of 40% over FY 1391 (March 2012 to December 2012), noting
  a 12 month to nine month comparison.570 However, in FY 1392, the MOF
  reported total domestic revenues missed MOF budget targets by 11.9%.571
  Figure 3.33 on the following page depicts the disparity between the gov-
  ernment’s domestic revenues—derived primarily from taxes and customs
  duties—and budget operating expenditures from FY 1388 to FY 1392.
     The World Bank noted that domestic revenues paid for only 37% or $2 bil-
  lion of Afghanistan’s total budget expenditures of $5.4 billion in FY 1392;
  donor grants covered the rest.572 The World Bank and the ADB attributed
  Afghanistan’s weak revenue performance to a slowdown in economic
  activity, changes in the structure of imports, and corruption, particularly in
  customs collections.573




  Report to the united states congress   I   April 30, 2014              159
Economic and Social Development




Figure 3.33


AFGHANISTAN'S DOMESTIC REVENUES COMPARED TO OPERATING BUDGET ($ MILLIONS)


$3,500


$3,000


$2,500


$2,000


$1,500


$1,000


  $500


     $0
               Fiscal Year             Fiscal Year            Fiscal Year            Fiscal Year            Fiscal Year
                  1388                    1389                   1390                   1391                   1392
                                        Domestic Revenues                        Operating Budget

Notes: Until recently, Afghan fiscal years ran approximately March 20 to March 20 of Gregorian calendar years. FY 1388
corresponds to March 20, 2009, to March 20, 2010, and so on. Nine-month data for fiscal year 1391 reflect a change in the
timing of the Afghan fiscal year. Starting in FY 1392, the Afghan fiscal year runs from December 21 to December 20.
Sources: MOF, Annual Fiscal Report 1391, accessed 6/20/2013; MOF, 1393 National Budget, accessed 4/14/2014; MOF, FY
1392 Monthly Fiscal Bulletin, Month 12, 2/14/2014, accessed 4/14/2014; Da Afghanistan Bank, Daily Exchange Rates of
Selected Currencies to Afghani, 2/14/2014, accessed 4/14/2014.




   The Afghan economy continues to grow, albeit at a reduced rate of
growth, 3–4% in 2013 and 2014 versus approximately 14% in 2012.574 The U.S.
Central Intelligence Agency (CIA) estimates the Afghan population is grow-
ing by 2.29% a year, so real growth of at least that rate is required to prevent
per capita GDP, a key measure of economic wellbeing, from declining.575
   As noted earlier, domestic revenues declined to 9.6% of GDP in 2013,
one of the lowest in the world.576 Afghanistan’s commitments under the
Tokyo Mutual Accountability Framework call for it to increase revenues to
15% of GDP by 2016 and to 19% by 2025. The Bank warned that the current
decline in revenue poses risks to long-term sustainability and to achieving
Tokyo Mutual Accountability Framework targets, upon which donor assis-
tance is predicated.577




  160                            Special inspector general                  I   Afghanistan reconstruction
Economic and Social Development




     U.S. officials told SIGAR that corruption is the biggest issue affecting
  Afghan customs processes and revenues.578 USAID added that political
  will and inefficient systems also affect Afghan customs processes and
  revenues;579 customs revenue is a major component of Afghanistan’s
  national budget.580
     Afghanistan’s 2008 National Development Strategy proposed streamlin-
  ing and automating customs processing procedures in order to reduce
  corruption. However, as the U.S. Agency for International Development’s
  (USAID) Afghanistan Trade and Revenue (ATAR) program contract docu-
  ments noted, “a major predictor of sustainability is [Afghanistan’s] political
  will to implement reforms and combat corruption.”581
     In one example of the impact of political will on stemming corrup-
  tion, USAID reported that following the resignation of Nangahar Province
  Governor Sherzai to run for president, there was a noticeable difference in
  approach at the Torkham border crossing point (BCP) regarding revenue
  collection. Illegal taxes, which had been designated as regional construction
  fees imposed by the “Governor’s House” administration, ended. The new
  governor closed all weigh bridges between Torkham BCP and Jalalabad to
  stem corruption, and there are no reported instances of threats against any
  customs staff, according to USAID’s ATAR.582

  Trade
  As a land-locked nation, Afghanistan is highly dependent on other countries
  for its trade, transit, security, and stability. Pakistan is Afghanistan’s largest
  trading partner, followed by the United States, the European Union, and
  regional neighbors.583
     In its latest analysis, the World Bank found that Afghanistan’s trade defi-
  cit widened in 2012 to the equivalent of 41.9% of GDP. Total exports in 2012           Total Exports: include official exports, esti-
  increased approximately 3% to $2.76 billion, while total imports rose about            mated smuggling, re-exports, and sales to
  11% to $11.4 billion. This gap was largely offset by foreign aid. International        non-residents.
  assistance allowed for an overall surplus in Afghanistan’s balance of pay-
  ments and a record $7.1 billion in international reserves at the end of 2012.
  Reserves declined to $6.9 billion in June 2013.584                                   Source: World Bank, Afghanistan Economic Update, 10/2013.



  World Trade Organization Accession
  One milestone that Afghanistan is supposed to achieve under the Tokyo
  Mutual Accountability Framework is membership in the World Trade
  Organization (WTO) by the end of 2014.585 USAID reported that from a tech-
  nical standpoint, Afghanistan is positioned to accede to the WTO in time to
  meet the deadline.586 However, a SIGAR audit of Afghanistan’s customs rev-
  enue collection showed that Afghanistan still requires external assistance to
  negotiate international trade agreements, as evidenced by USAID support
  of Afghan accession to the WTO.587




  Report to the united states congress   I   April 30, 2014                  161
                                                               Economic and Social Development




                                                                  This quarter, USAID reported that Afghanistan completed all bilateral
                                                               market access negotiations as well as circulated draft concessions and
                                                               commitments schedules on goods and services to its WTO Working Party.
                                                               The Afghan government postponed a Working Party meeting scheduled for
                                                               March 31 because of its regulation banning travel by Afghan officials until
                                                               after the elections. Afghanistan must still pass a series of 24 WTO-compliant
                                                               laws and seven regulations. The U.S. government is providing technical
                                                               assistance in these efforts.588

                                                               Afghanistan Trade and Revenue Project
                                                                                                                            Total Estimated   Cumulative Disbursement,
                                                                Project Title                  Start Date       End Date        Cost ($)         as of 3/31/2014
                                                                Afghanistan Trade and
                                                                                               11/7/2013        11/6/2017    $77,754,267            $1,920,915
                                                                Revenue
                                                               Source: USAID, response to SIGAR data call, 4/7/2014.



                                                                  The ATAR Project is USAID’s most recent effort designed to (1) support
                                                               Afghanistan’s accession to the WTO, (2) facilitate support bilateral and
    SIGAR Audit                                                multilateral regional trade agreements, and (3) improve and streamline
    A SIGAR audit of Afghanistan’s customs                     the government’s ability to generate revenue. Expected outcomes include
    revenue collection found that although                     Afghanistan’s 2014 accession to the WTO and implementation of its associ-
    a risk management and electronic                           ated legal and regulatory requirements; increased exports to neighboring
    payment system are highlighted in the                      countries along with expedited cross-border transit; more government
    TAFA and ATAR contract documents,                          revenue from increased customs collections and implementation of a value-
    the ATAR contract does not require the                     added tax; and greater public awareness of trade opportunities.589
    implementing partner to meet annual                           This quarter, ATAR reviewed the streamlined procedures of its predeces-
    targets for the implementation of the                      sor program,Trade Accession and Facilitation for Afghanistan (TAFA). It
    systems. For more information, see                         found that a number of extraneous customs clearing processes had worked
    Section 2, page 25.                                        their way back into the system, negating some of savings to Afghan busi-
                                                               nesses and the government. ATAR is working to reintroduce best practices
                                                               and focus on capacity building. It is planning an awareness campaign for
                                                               traders that will explain the official customs process and promote a hotline
                                                               to report corruption.590
  The Extended Credit Facility (ECF): a
  three-year program that provides financial
  assistance to Afghanistan, as well as other
  countries, and is the primary IMF tool for
                                                               Extended Credit Facility Arrangement
  providing medium-term assistance to low-                     The three-year, $129 million ECF loan agreement signed in November 2011
  income countries. ECF financial support is                   makes disbursements contingent upon completion of program reviews, as
  generally provided through loans at zero                     determined by IMF Management and the Executive Board. So far, the IMF
  percent interest rates.                                      has released two disbursements of $18.2 million—one at the initial ECF
                                                               approval, and the second after the first Board review in June 2012. Neither
                                                               the second IMF review, originally planned for December 2012, nor the third,
                                                               originally planned for March 2013, has been completed.591
Source: SIGAR Audit 14-16, Afghanistan’s Banking Sector: The
Central Bank’s Capacity to Regulate Commercial Banks Remains
Weak, 1/2014.




                                                                 162                           Special inspector general         I   Afghanistan reconstruction
Economic and Social Development




     This quarter, the Afghan government again made insufficient progress on
  the specific banking and financial structural reforms required by the IMF to
  qualify for another ECF Board review and accompanying disbursement of
  loans. The IMF has not provided a complete or formal accounting of all ECF
  benchmarks and performance targets. However, the Afghan government
  has neither submitted an internationally acceptable revised Anti-Money
  Laundering/Combating the Financing of Terrorism (AML/CFT) law to parlia-
  ment, nor met domestic revenue collection targets set forth under the ECF
  Arrangement, according to Treasury.592 Insufficient progress this quarter
  led the United States to withhold $15 million in bilateral incentive funding
  linked to Afghan progress toward its ECF commitments.593                        Donor assistance through an incentive
     The existence of an ECF agreement is important to the international          fund is not new. In 2008, Afghanistan
  community because it demonstrates the Afghan government’s political will        Reconstruction Trust Fund (ARTF) donors
                                                                                  agreed to establish an incentive program
  to enact necessary reforms. Adherence to the IMF benchmarks and fulfill-
                                                                                  (IP) to help offset the annual automatic
  ing macroeconomic requirements also has a direct effect on the levels of
                                                                                  decline in the baseline financing within
  foreign aid the international community contributes to the Afghanistan          the ARTF Recurrent Cost Window. A new IP
  Reconstruction Trust Fund (ARTF). In solar year 1390 (March 2011–               was agreed to in 2012, which allows for a
  March 2012), the donor community withheld 85% of the total $933 million         more programmatic, multi-year approach
  in donations to the ARTF until the IMF approved a new ECF agreement for         and more frequent technical reviews and
  Afghanistan in November 2011.594                                                disbursements.598
     In November 2013, the World Bank and donors discussed whether to dis-
  burse some or any ARTF Incentive Program (IP) funds. While Afghanistan
  achieved several ARTF IP benchmarks, its long delay in sufficiently
  completing required ECF benchmarks prompted the recommendation to
  withhold some funds. However, if the donor community determined that
  this ECF delay constituted a ‘lapse’ in the program, ARTF IP funds would
  have to be withheld entirely. Some $44.8 million was eventually released
  based on achievement of four ARTF IP benchmarks and IMF guidance that
  the ECF program is still active.595
     The current ECF expires in November 2014. The new Afghan govern-
  ment will determine its level of engagement with the IMF, including whether
  to negotiate a new ECF. In the interim, Treasury said that IMF staff and
  Afghan authorities have agreed on the continued monitoring of structural
  reforms and quantitative performance.596

  Tokyo Mutual Accountability Framework
  The Tokyo Mutual Accountability Framework (TMAF), established by the
  Afghan government and international community at the donors’ conference
  in 2012, was created to structure international development assistance to
  Afghanistan through 2017. The donors made their assistance conditional on the
  Afghan government fulfilling its commitments described in the Framework.
     At the Senior Officials Meeting in July 2013, the United States announced
  the establishment of a $175 million bilateral incentive program to support
  Afghan reforms with the stipulation that “funds will only be available if




  Report to the united states congress   I   April 30, 2014             163
Economic and Social Development




specific progress is made.” The program is to provide these funds in two
tranches—$75 million and $100 million—with disbursements dependent on
Afghan progress.597
   Tranche I ($75 million) is linked to five areas:599
    1.	 Elections
    2.	 Governance, Rule of Law & Human Rights
    3.	 Integrity of Public Finance and Commercial Banking
    4.	 Government Revenues, Budget Execution, and Subnational Governance
    5.	 Inclusive and Sustained Growth and Development

   On January 29, 2014, the Special Joint Coordination and Monitoring
Board (JCMB), comprising the Afghan government, donors, and the United
Nations, met to assess progress on fulfilling TMAF requirements and to
agree upon required next steps for continuing progress toward unmet com-
mitments.600 On March 6, 2014, USAID announced it released $30 million
in Tranche I bilateral incentive funding after determining that the Afghan
government made sufficient progress in two of five areas—Elections and
Government Revenues, Budget Execution, and Subnational Governance.601
Fifteen million dollars was disbursed to the World Bank’s ARTF Recurrent
Cost Window for progress in Elections—creating election timelines,
appointing election committee commissioners, implementing election laws,
and cooperating on election security. The United States will also disburse
an additional $15 million for progress in Government Revenues, Budget
Execution, and Subnational Governance for developing a draft provincial
budgeting policy.602
   The United States told Afghanistan that the $15 million linked to
Governance, Rule of Law & Human Rights and the $15 million linked to
Integrity of Public Finance and Commercial Banking will not be disbursed
because of insufficient progress in those areas. A significant factor in
withholding funds linked to Integrity of Public Finance and Commercial
Banking was the lack of progress the Afghan government has made in
meeting conditions required for the IMF to conduct its ECF reviews. The
remaining $15 million for Inclusive and Sustained Growth and Development
requires Afghanistan to make what the United States deems sufficient
progress in passing a new minerals law. The United States will make a final
determination on April 16, 2014.
   Tranche II funding will be developed with Afghanistan’s new government.603


Banking and Finance
The World Bank reported that Afghanistan’s banking and financial sec-
tor, which has not recovered from the 2010 Kabul Bank crisis, suffers
from inadequate regulation and oversight, undercapitalization, and a loss
of consumer confidence.604 In State’s view, the banking sector faces both




 164                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  political and economic risks, which could be mitigated if a draft banking
  law that enhances oversight and the Anti-Money Laundering/Combating the
  Financing of Terrorism Law were enacted and implemented.605
      In 2011, the United States offered conditional assistance to the central
  bank—Da Afghanistan Bank (DAB)—which was declined. Conditions
  included:
   •	 Afghanistan staying on track to meet its obligations under the IMF ECF
      program;
   •	 Kabul Bank shareholders not being involved in the banking sector
      (formally or informally);
   •	 Clear communication from President Karzai that Treasury advisors
      would be welcomed;
   •	 Clear roles, objectives, progress benchmarks, and obligations, in
      writing, for Treasury’s technical advisors;
   •	 The cessation of public statements by Afghan officials that the United
      States was responsible for the Kabul Bank crisis;
   •	 That Afghanistan’s financial sector plan would need to instill confidence
      in Treasury in return for its support.606

     A SIGAR audit released last quarter concluded that without U.S. assis-
  tance, and only limited World Bank and IMF involvement, the banking
  sector remains unstable and at risk of further instability, threatening sus-
  tainable economic and financial growth.607
     Treasury has previously said many Afghan banks are undercapitalized and
  that lending is concentrated in a small number of sectors with loans largely
  going to related parties—outside businesses that are controlled by the
  same individuals or groups that own the bank. This can create a conflict of
  interest and increases the risk that the bank may incur losses to benefit the
  businesses. Treasury has also characterized the banking sector as highly dol-
  larized, which may expose Afghan financial institutions to currency risks.608
     According to Treasury, these are symptoms of the underlying underdevel-
  oped economy as well as the weak quality of Afghan banks and regulatory
  institutions. Treasury said most banking systems reflect their host econo-
  mies to some degree and progress addressing those underlying factors is
  naturally slow in an impoverished environment such as Afghanistan.609
     Few Afghan banks operate in accordance with international standards.
  Audits of major banks in Afghanistan conducted in the wake of the Kabul
  Bank scandal have revealed “systemic fragility and vulnerability in all areas
  of banking governance and operations,” according to a 2013 World Bank
  report.610 State said Afghanistan’s banks also suffer from political interfer-
  ence and lack of oversight.611 In addition, Afghanistan’s controls against
  money laundering and terrorist financing are widely viewed as deficient.612
     The general Afghan population distrusts banks, preferring to borrow and
  save with family and friends, and transfer money through informal, trust- or




  Report to the united states congress   I   April 30, 2014              165
                                                               Economic and Social Development




                                                               honor-based hawala networks.613 Indicating a declining banking sector in
                                                               the wake of the Kabul Bank crisis, commercial loans plummeted, according
                                                               to the World Bank, and the banking sector’s loan-to-deposit ratio dropped
  Loan-to-Deposit Ratio: is used to assess                     from 56.8% in 2010 to 23% in 2012.614 Afghans also prefer to use foreign
  a bank’s liquidity (short-term viability) by                 currency rather than their national currency, the afghani (AFN), which is
  dividing its total loans by its total deposits,              depreciating against the dollar.615 In early January 2012, a U.S. dollar cost
  expressed as a percentage. It is used to                     about 49 AFN; on March 31, 2014, it cost about 58 AFN, according to the
  calculate the financial institution’s ability to             Afghan central bank.616
  cover customer demands to withdraw funds.
  If the ratio is too high, the bank may have                  Banking Law
  insufficient liquidity to cover unforeseen                   The Council of Ministers approved a new banking law on January 28, 2013,
  requirements. If it is too low, banks may not
                                                               but more than a year later it remains pending before parliament. Treasury
  be earning as much as they could.
                                                               maintains that the legislation strengthens corporate governance provi-
                                                               sions, regulates capital requirements and large exposures, enhances bank
                                                               supervision, and facilitates bank resolution. If enacted, the law will help
Sources: Investopedia, “Loan-To-Deposit Ratio,” http://www.
investopedia.com/terms/l/loan-to-deposit-ratio.asp, accessed
                                                               prevent, mitigate, and respond to the problems in the financial sector.
9/30/2013; Finance Formulas, “Loan to Deposit Ratio,”          According to Treasury, failure to enact it will likely lead to weaker finan-
http://www.financeformulas.net/Loan-to-Deposit-Ratio.html,
accessed 9/30/2013.                                            cial-sector governance and supervision. DAB will have less authority to
                                                               enforce banking regulations, key existing vulnerabilities will remain in the
                                                               banking sector, and bank supervisors will have less protection and author-
                                                               ity in the conduct of their duties. In the event of another bank collapse,
                                                               there would still not be a clear legal framework in place for the resolution
                                                               process for the troubled bank.617

                                                               Money Laundering
                                                               On February 14, 2014, the Financial Action Task Force (FATF) noted that
  Financial Action Task Force (FATF): an                       Afghanistan had failed to address deficiencies and make necessary prog-
  intergovernmental policy-making body that                    ress in improving its Anti-Money Laundering/Combating the Financing of
  sets standards and promotes effective                        Terrorism (AML/CFT) regime. FATF specifically recommends Afghanistan—
  implementation of legal, regulatory, and                     which has developed a AML/CFT action plan, but is categorized as a
  operational measures for combating                           jurisdiction not making sufficient progress—address its deficiencies by tak-
  money laundering, terrorist financing, and                   ing the following steps:
  other related threats to the integrity of the                 •	 adequately criminalizing money laundering and terrorist financing;
  international financial system.                               •	 establishing and implementing a legal framework to identify, trace, and
                                                                   freeze terrorist assets;
                                                                •	 implementing an adequate oversight program for all financial sectors;
Source: Financial Action Task Force, “Who We Are,” accessed     •	 establishing and implementing adequate procedures for confiscating
4/2/2014.
                                                                   money-laundering assets;
                                                                •	 establishing a fully functional and operational financial-intelligence unit; and
                                                                •	 establishing effective controls for cross-border cash transactions.618

                                                                 These recommendations are identical to those the FATF issued in
                                                               June 2013.619 As such, the FATF plenary in February 2014 downgraded
                                                               Afghanistan to the “dark-gray list” for failure to address its AML/CFT




                                                                 166                 Special inspector general    I   Afghanistan reconstruction
Economic and Social Development




  deficiencies and pass AML/CFT legislation that would address those defi-
  ciencies. If Afghanistan fails to pass AML/CFT legislation that addresses
  these deficiencies, it faces further downgrading to the FATF Public
  Statement, known as the “black list,” at the next plenary in June 2014.620
  Afghanistan could join nine other countries currently on that list—Algeria,
                                                                                      Correspondent Accounts: Accounts
  Ecuador, Ethiopia, Indonesia, Myanmar, Pakistan, Syria, Turkey, and Yemen.          maintained by foreign financial institutions
  Iran and North Korea are on a more severe black list and have “counter-             at U.S. banks in order to gain access to the
  measures” in place against them. A FATF downgrade would further weaken              U.S. financial system and take advantage
  Afghanistan’s banking sector. In extreme cases where the international              of services and products that may not
  financial system is deemed threatened, FATF members may be asked to                 be available in the foreign financial
  apply financial countermeasures, such as rejecting correspondent account            institution’s jurisdiction.
  relationship requests from high-risk countries to open branches and subsid-
  iaries in their jurisdictions.621 It may also affect whether aid and assistance     Money-Center Banks: institutions that
  can be moved through Afghan banks.622                                               lend and borrow with governments, large
     On November 30, 2013, several of Afghanistan’s banks lost U.S. dollar            corporations and regular banks.
  correspondent banking relationships with German-based Commerzbank.
  This major money-center bank ended its dealings with Afghan banks to
  reduce risk and exposure to heightened regulatory scrutiny in the wake of         Sources: Federal Financial Institutions Examination Council
                                                                                    Bank Secrecy Act/Anti-Money Laundering InfoBase,
  huge fines several British banks agreed to pay to settle U.S. accusations that    “Correspondent Accounts (Foreign)—Overview,” accessed
                                                                                    10/1/2013; Source: Investopedia, “Definition of ‘Money
  they laundered money. According to Treasury, it is possible that other banks      Center Banks,” accessed 1/10/2014.
  will also sever their correspondent relationships with Afghan banks.623

  The Kabul Bank
  Afghanistan’s Attorney General’s Office (AGO) filed no new charges,
  launched no new prosecutions, and indicted no additional beneficiaries in
  connection with the near collapse of Kabul Bank this quarter, despite both
  primary and appellate court orders to do so or explain why it did not.
      State’s Bureau of International Narcotics and Law Enforcement Affairs
  (INL) noted the beneficiaries of the fraud have millions of dollars worth of
  assets that could be subject to forfeiture.624 The U.S. Department of Justice
  (DOJ) again raised the issue of pursuing additional prosecutions with
  the AGO this quarter, to no avail. The Attorney General said that “inves-
  tigations were ongoing,” a claim DOJ told SIGAR was not credible. The
  evidence needed to prosecute additional shareholders and beneficiaries
  is the same that has already been used to prosecute the two main perpe-
  trators of the fraud—bank ex-chairman Sherkhan Farnood and ex-CEO
  Khalillullah Ferozi.625 In January 2014, the AGO convened an appellate
  court-ordered meeting in which uncharged shareholders—together with
  ex-chairman Farnood and ex-CEO Ferozi—were to meet with the defen-
  dants, the prosecutors, and the Kabul Bank receiver to resolve disputes
  over defendants’ monetary liabilities. Only two shareholders appeared. A
  second meeting is planned, but is not yet scheduled. According to DOJ, the
  Financial Dispute Resolution Commission, which was set up to help settle
  civil cases that cannot be resolved by the Kabul Bank Receivership, insists




  Report to the united states congress   I   April 30, 2014               167
                                                             Economic and Social Development




                                                             it has resolved all accounting disputes and does not understand the need
                                                             for this meeting.626
                                                                 Before its near-collapse in 2010, the Kabul Bank had been Afghanistan’s
                                                             largest private bank, distributing most civil salaries on behalf of the
                                                             Afghan government. Over 92% of $935 million that was stolen from the
                                                             bank went to 19 individuals and companies associated with the bank.
                                                             Afghanistan’s central bank, DAB, covered these losses, equivalent to 5–6%
                                                             of Afghanistan’s GDP at that time.627
                                                                 On March 5, 2013, the Special Tribunal of the Supreme Court on Kabul
                                                             Bank issued its judgment of 21 individuals charged with fraud. The
                                                             two leaders of the fraud, ex-chairman Sherkhan Farnood and ex-CEO
                                                             Khalillullah Ferozi were given modest five-year prison sentences and
                                                             required only partial restitution. The AGO appealed the verdict on March 16,
                                                             2013.628 The appellate court’s decision is still pending.629

                                                             Limited Cash and Asset Recoveries
                                                             During this reporting period, no new information was available on
                                                             recoveries of money stolen from the Kabul Bank.630 The sole source of
                                                             that information, DAB—Afghanistan’s central bank—recorded $6.13 mil-
                                                             lion in cash recoveries from June 30–September 30, 2013, bringing total
                                                             recoveries to $174.5 million. This includes $16 million in Kabul Bank
                                                             transfers that were scheduled, but not made after Kabul Bank went into
                                                             conservatorship, as well as a $1.49 million court-ordered deposit and a
                                                             $0.45 million loan adjustment. Total recoveries so far represent less than
                                                             20% of the stolen funds.631
                                                                State INL said the Afghanistan’s pursuit of high-level corruption became
                                                             less likely in the lead up to the April election. The AGO canceled sched-
                                                             uled meetings this quarter.632 Similarly, DOJ observed little political will to
                                                             recover greater sums of stolen funds from Kabul Bank. For example, the
                                                             Gas Group, which is owned by ex-Kabul Bank CEO Khalillullah Ferozi and
                                                             received more than $100 million in improper loans, entered an agreement
                                                             with the government to repay those loans in $20,000 monthly increments.
                                                             The Kabul Bank Receivership reported to DOJ this quarter that Gas Group
                                                             stopped making payments months ago. Despite the Receivership’s requests
  New Kabul Bank (NKB): a temporary                          for intervention, the AGO has taken no punitive actions.633
  “bridge bank” containing the good assets
  and deposits from Kabul Bank. Privatizing                  New Kabul Bank
  NKB, which provides salary payment and                     The sale of New Kabul Bank (NKB) to private investors has been a long-
  direct deposit services to hundreds of                     standing objective of Afghanistan’s central bank and the international
  thousands of government employees, is an
                                                             community.634 The accounting firm Grant Thornton LLP’s calendar-year
  ECF benchmark.
                                                             2012 financial audit of NKB expressed concern regarding the bank’s ability
                                                             to continue business without successful privatization. NKB lost an average
                                                             of $1.85 million per month in 2012.635 According to Afghan officials, current
Source: IMF, “Islamic Republic of Afghanistan-First Review   monthly operational losses total $700,000 including depreciation.636
Under the Extended Credit Facility Arrangement, Request
for Waiver of Nonobservance of a performance Criterion,
Modification of Performance Criteria, and Rephasing of
Disbursements,” 6/19/2012, accessed 1/3/2014.



                                                              168                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




     According to the IMF and Treasury, NKB’s lack of a lending portfolio,
  restrictions on developing lending before being offered for sale, and the
  need to maintain a conservative asset-management strategy mean it will
  continue to suffer modest operating losses prior to sale.637 One revenue
  stream available to NKB is its distribution of government salaries—
  approximately 450,000 accounts for the Ministries of Interior, Defense, and
  Education. NKB receives approximately $550,000–$600,000 per month from
  the MOF for this service.638
     Afghanistan’s Council of Ministers has yet to endorse the MOF’s
  December 29, 2013, decisions on two bids to take over NKB.639 According to
  State, the Council of Ministers is concerned the bid offers were too low and
  that the government salary payment service was too important for a private
  bank to handle. They asked for a report detailing the costs to the govern-
  ment of maintaining ownership of NKB.640 Afghanistan’s central bank must
  also evaluate whether the winner satisfies “fit-and-proper” criteria. This pro-
  cess has reportedly begun, according to Treasury.641
     The IMF defines “a fit and proper bidder” as one who is subject to high
  standards of corporate governance, including risk management and internal
  controls; is in a sound financial and risk-management state; and controls
  adequate resources and has the necessary capital and capability to ensure
  ongoing salary-payment services.642 In contrast, Afghanistan’s draft Banking
  Law defines “a fit and proper bidder” as someone that has not been “con-
  victed by an authorized court of an offense for which he was sentenced
  to imprisonment unless such sentence was motivated by his religious or
  political views or activities.” According to Treasury, the FATF raised this as
  possibly presenting a subjective loophole in the criteria.643


  U.S. Economic Support Strategy
  The economic transition strategy in Afghanistan as called for in the 2013
  U.S. Civil-Military Strategic Framework seeks to mitigate the negative eco-
  nomic impact of the withdrawal of most international security forces in
  2014 and the expected accompanying reduction in donor assistance. It also
  seeks to help Afghanistan develop its resources for sustainable growth.644
  Most ESF support is used for USAID’s development programs. Figure 3.34
  on the following page shows USAID assistance by sector.
     This quarter, USAID announced three new development initiatives
  worth almost $300 million intended to help prevent Afghanistan’s econ-
  omy from reversing hard-won gains post-2014. The programs will focus on
  three areas:645
     1.	 The agricultural sector, including agribusiness development and
         getting crops to market ($125 million)




  Report to the united states congress   I   April 30, 2014               169
                                           Economic and Social Development




                                           Figure 3.34


                                           USAID DEVELOPMENT ASSISTANCE, CUMULATIVE AS OF MARCH 31, 2014 ($ MILLIONS)


                                                 Infrastructure                                                                                           3,677
                                            Program Supporta                                                         2,175
                                                    Agriculture                                            1,768
                                                   Democracy                                             1,659
                                                  Stabilization                                1,265
                                             Economic Growth                           921
                                                        Health                   695
                                                    Education                  546
                                                  Construction     95
                                                              $0         500         1,000       1,500       2,000          2,500     3,000       3,500       4,000


                                           Notes: Numbers rounded.
                                           a Program Support projects include staffing, salaries, performance metrics, results tracking, technical assistance to
                                           ministries, and funding to the ARTF.
                                           Source: USAID, response to SIGAR data call, 4/7/2014.




                                                2.	 Fiscal sustainability, including improved tax and revenue collection,
                                                    and opening up Afghanistan to greater international trade and
                                                    investment ($77 million)
                                                3.	 The education sector, including funding to 10 Afghan universities—
                                                    in partnership with three American universities—to train a young
                                                    workforce in the practical skills needed for jobs in the public and
                                                    private sectors (approximately $100 million)
SIGAR Audit
A SIGAR audit published last quarter       USAID On-Budget Assistance to the Afghan Government
reviewed assessments of Afghan             SIGAR continues to be concerned about U.S. implementing agencies’ abil-
ministries receiving direct bilateral      ity to ensure adequate oversight of the U.S.-funded reconstruction effort as
assistance from the U.S. government.       international combat forces withdraw from Afghanistan in 2014. In line with
These assessments reviewed the             donor commitments made at the 2012 Tokyo Conference and the follow-up
ministries’ ability to manage and          2013 Senior Officials Meeting, the United States has been gradually increas-
account for donor funds. USAID             ing the amount of on-budget development assistance it provides to the
subsequently completed its own risk        Afghan government.
reviews of seven of these 16 ministries.      Most U. S. government agencies include as on-budget assistance direct,
SIGAR’s audit found that none of these     government-to-government transfers and multilateral trust-fund contribu-
assessments and reviews identified a       tions to the Law and Order Trust Fund for Afghanistan (LOTFA), the Afghan
ministry capable of effectively managing   Reconstruction Trust Fund (ARTF), and the Afghanistan Infrastructure
and accounting for funds without           Trust Fund (AITF). These funds, which are managed by the United Nations
implementing risk-mitigation measures.     Development Programme (UNDP), the World Bank, and the ADB respectively,
                                           support the Afghan national budget. The Afghan government provides input,
                                           guidance and oversight, and some projects are run through the government,
                                           but the funds are not fully under the control of the Afghan government.646 See
                                           page 67 for details about all U.S. on-budget funding to Afghanistan.




                                              170                            Special inspector general                  I    Afghanistan reconstruction
Economic and Social Development




     This quarter, USAID obligated approximately $117 million and disbursed
  $24 million in on-budget assistance—including ARTF—from prior fiscal-year
  funds. Cumulatively, USAID obligated $3 billion and disbursed $2.14 billion
  in on-budget assistance, as of March 31, 2014, as shown in Figure 3.35.647

  Figure 3.35


  USAID ON-BUDGET ASSISTANCE SUBOBLIGATED AND DISBURSED, FY 2002-FY 2013, AS OF MARCH 31, 2014 ($ MILLIONS)

   $700
                                                                                                                                                   $654
                                                                                                                              $612
   $600                    Sub-Obligated Afghanistan Reconstruction Trust Fund Total
                           Sub-Obligated Bilateral Assistance
   $500                    Disbursed


   $400                                                                                                                                     $378


                                                                                                                 $290                       $359
   $300

                                                                                                                                                          $215
   $200
                                                                                                                                     $156
                                                                                                   $124                                            $189
                                                                                                                                                                 $109
                                                        $89
   $100                                  $72                                         $72
                                                                      $48                                               $56          $99
            $38            $40                                                                            $27
                                                $14                                         $4
                   $0             $0                            $2           $.1                                        $54                                $0    $5.1   TBD
      $0
              2002           2003           2004          2005          2006           2007           2008          2009        2010          2011         2012a        2013b

  Notes: Numbers have been rounded. Subobligation is funding for project-level agreements.
  a Most FY 2012 USAID funding for on-budget assistance had not been disbursed as of March 31, 2014.
  b Spending in 2013 was done from prior fiscal year funds. Subobligations and Disbursements for FY 2013 are not yet known.

  Source: USAID, response to SIGAR data call, 4/7/2014.




  Development of Natural Resources
  The United States, the Afghan government, and the international donor
  community count on the development of Afghanistan’s natural resources
  to underpin future economic growth in the face of declining external aid.
  Although mining has contributed less than 2% to the country’s GDP to date,
  the Afghan government expects to eventually receive significant revenues
  from large-scale investments in the Aynak (copper) and Hajigak (iron-ore)
  mines, and from oil and gas fields in the Afghan-Tajik basin.648
     DOD maintains that Afghanistan’s mineral resources could generate
  significant revenue and create large numbers of jobs.649 However, SIGAR
  has long cautioned that the Afghan government may not be able to earn




  Report to the united states congress                      I   April 30, 2014                                  171
                                                            Economic and Social Development




                                                            substantial revenues from Afghanistan’s natural resources any time soon
                                                            because of the considerable infrastructure investment required to develop
                                                            them, especially given the difficult security environment.
                                                               This quarter, the Task Force for Business and Stability Operations (TFBSO)
                                                            repeated its warning that the global mining economy is limiting new invest-
                                                            ment, and many companies and financiers view Afghanistan as too risky.650

                                                            TFBSO Transition
“Working on behalf of the Department                        TFBSO, which will cease its activities in Afghanistan by the end of 2014,
of Defense and with concurrence of the                      will turn over all of its projects to an Afghan ministry, a private business,
Department of State, TFBSO identifies and                   or another U.S. government agency.651 In anticipation, Congress required in
develops strategic economic opportunities                   the FY 2014 National Defense Authorization Act that DOD develop a plan
in conflict and post-conflict environments                  for transitioning TFBSO programs to either State or USAID to be reviewed,
that enable the expansion of the private
                                                            revised, and signed by the Secretary of Defense every 180 days.652 While
sector, thus setting conditions for long-
                                                            no TFBSO programs have yet been proposed for transfer to USAID or any
term economic growth that is critical
to sustainable stability.” Cumulative
                                                            other U.S. government agency, transition reports are being prepared for
Appropriations total $804 million, as of                    many of its larger, non-mining programs.653
March 31, 2014.
Source: TFBSO, “Task Force for Business and Stability
                                                            New Minerals Law
Operations Fiscal Year 2013 Transition Plan and Report on   Last quarter, the long-delayed draft of the new minerals law passed through
Transition Implementation,” 8/19/2013, p. 1.
                                                            the Natural Resources Committee of the lower house but it still awaits
                                                            consideration by the full parliament. Parliament was on a 45-day recess
                                                            mid-January to end of February 2014. Although President Karzai said he
                                                            would implement the new minerals law by decree in January during the leg-
                                                            islative break, he failed to do so.654
                                                               Parliamentarians continue to seek clarification on components of the
                                                            law from Ministry of Mines and Petroleum (MOMP) officials. TFBSO’s advi-
                                                            sory team to the MOMP has helped answers questions, mostly dealing with
                                                            tenure of mining rights and royalty rates. It also held several information
                                                            sessions for interested members of parliament on geological and invest-
                                                            ment best practices.655

                                                            Impediments to Investment
                                                            Proposed revisions to the minerals law are meant to better protect Afghan
                                                            resources, encourage investors, and align regulations to international best
                                                            practices. Passing a new law is an important TMAF benchmark to improve
                                                            Afghanistan’s revenues and overall fiscal and external sustainability.656
                                                            TFBSO believes delayed passage is likely due to parliamentarians’ unwill-
                                                            ingness to take political risks, explaining that a lack of understanding of
                                                            geological and other tender structures like royalty rates causes some parlia-
                                                            mentarians to think the law is exploitative and weighted toward foreigners
                                                            at the expense of Afghanistan. A vote for any legislation that can be con-
                                                            strued as opening up the country to outside investment can be dangerous
                                                            and detrimental to their position in their districts.657




                                                             172                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




     DOD’s TFBSO previously warned that without legislative reform that
  includes linking investor exploration with extraction rights, and institutes
  a formal and fixed royalty rate, many companies will not bid on new ten-
  ders.658 It is unclear if the latest draft law includes that linkage.659 Submitting
  amendments to the law and to the Ministry of Justice in order to develop a
  transparent fiscal regime for natural resources is an outstanding IMF struc-
  tural benchmark.660
     TFBSO believes that the new minerals law must be comparable to those in
  other countries in order to attract Western investment. The law’s delayed pas-
  sage is causing investors to be more cautious, but is not the only impediment
  to investment in Afghanistan’s extractive industries. Private mining companies
  are obviously concerned about the country’s lack of security. There is also a
  lack of available capital in the mining industry. If more money was available,
  TFBSO said passing a new mining law would be less of an issue.661
     While the law remains unpassed, a number of contracts remain unsigned,
  including Hajigak (iron ore, awarded in November 2011);662 Shaida (copper,            SIGAR staff and Special IG Sopko visit a
  November 2012); Badakhshan (gold, November 2012); Balkhab (copper,                    carpet cleaning facility set up by TFBSO.
  November 2012); and Zarkashan (gold, December 2012).663                               (SIGAR photo by Smythe Anderson)


  Assistance to the Ministry of Mines and Petroleum,
  Afghanistan Petroleum Authority, and the Afghanistan
  Geological Survey
  The United States continued to provide technical assistance this quarter
  to the MOMP, the ministry’s Afghanistan Petroleum Authority (APA), and
  the Afghan Geological Survey (AGS), largely through TFBSO, the U.S.
  Geological Survey (USGS), and USAID. These organizations are supporting
  mineral and hydrocarbon tenders as well as oil-and-gas data management.
     The USGS is conducting ongoing on-the-job training at the AGS, includ-
  ing data compilation and data packages on mining areas of interest using
  mapping and illustrative software, geophysics, and hyperspectral imaging
  training. Older Russian reports and maps produced in the 1970s and 1980s
  provide AGS geologists with locations for potential mineral wealth. On
  March 10, 2014, the USGS and TFBSO released 60 sets of hyperspectral
  maps that reveal detailed imagery of Afghanistan’s topographic layout and
  mineral wealth. The MOMP can use these maps to attract future investment.
  TFBSO said Afghanistan is now one of the most geologically mapped coun-
  tries in the world.664
     TFBSO and USAID provide subject-matter-expert support to the APA.
  This includes technical (oil and gas engineering), legal (contract implemen-
  tation), and financial (accounting and analysis) to assist in the oversight of
  the Amu Darya Exploration and Production Sharing Contract.665
     TFBSO had obligated $8.6 million in FY 2014 for mining sector develop-
  ment, as of March 31, 2014. TFBSO’s authority is scheduled to expire at the
  end of 2014.666




  Report to the united states congress    I   April 30, 2014                  173
                                          Economic and Social Development




                                          Mining Investment and Development for
                                          Afghan Sustainability
                                          USAID’s only mining program—the Mining Investment and Development
                                          for Afghan Sustainability (MIDAS)—is an $86.6 million program with
SIGAR Audit                               on- and off-budget components. The $41.6 million off-budget Phase I
A SIGAR audit announced this quarter      is focusing on legal and regulatory reform, technical assistance to the
will focus on the extent to which TFBSO   MOMP, small- and medium-size enterprise development, and assistance
and USAID programs met their goals        in geo-science field investigation. It will provide other support as needed.
to develop Afghanistan’s extractives      The $45 million on-budget Phase II has not yet begun, but is designed to
industry and the challenges, if any, to   strengthen the MOMP so it can procure, implement, and monitor comple-
creating a stable and lasting source      tion of mining tender packages. As of March 31, 2014, USAID had obligated
of extractives revenue for Afghanistan.   $16 million and disbursed approximately $5.05 million to begin off-budget
For more information, see Section 2,      implementation.667
page 30.                                      This quarter, MIDAS held several workshops for MOMP officials, com-
                                          munities, civil society, and the private sector, on topics ranging from mining
                                          basics, mineral economics, business value chains, and legal and regula-
                                          tory reform. Exploration plans were completed for three areas and donor
                                          coordination meetings were held to reduce project overlap. The MOMP and
                                          MOF made limited progress on a memorandum of understanding for on-
                                          budget activities, and developing terms and conditions to be included in an
                                          Implementation Letter with USAID.668

                                          Capacity of the Ministry of Mines and Petroleum
                                          One part of TFBSO’s strategy for promoting economic growth in
                                          Afghanistan is developing Afghanistan’s natural resources. In its transition
                                          report to Congress, TFBSO claimed that, as a result of its strategy to part-
                                          ner with Afghans at every stage of project planning and execution, “Afghans
                                          will have the capability to handle on-going project requirements.”669 TFBSO
                                          reported that incremental progress is being made, saying the MOMP has
                                          either taken or is close to taking the lead in tender evaluation and award,
                                          and contract negotiation and award. As issues arise in these areas, TFBSO
                                          provides assistance and oversight, but not formal training.670
                                             TFBSO acknowledged weaknesses in the ministry, especially with
                                          monitoring, and oversight. It recommended that USAID focus its MIDAS
                                          program in these areas. TFBSO said the MOMP’s lack of capable employees
                                          leaves most of the work in the hands of a small group of knowledgeable and
                                          capable, yet overworked employees. It suggests putting in place a long-term
                                          hiring and capacity-building program.671

                                          Mine Security
                                          On February 17, 2014, President Karzai directed the Afghan Public
                                          Protection Force (APPF)—responsible for mine security—to be disbanded.
                                          The functions performed by the APPF will remain within the scope of the
                                          Afghan National Police under the Ministry of Interior (MOI). It is unclear




                                           174                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  who will actually provide security for not only extractives sector sites, but
  also U.S. and international development projects and associated personnel
  more broadly.672
     Currently, the MOI and APPF recruit and train security personnel after
  a contract is signed with the MOMP. As of this reporting period, the MOMP
  has only contracted APPF services for Mes Aynak, the northern Amu
  Darya Basin, and the Sheberghan gas fields.673 It is unclear how these APPF
  changes may affect extractives-sector site security.
     The United States has spent $51.3 million cumulatively on the APPF,
  which has 22,727 personnel, as of March 31, 2014. Some 1,557 APPF are
  assigned to protect mining sites and more than 1,400 of those were at
  Mes Aynak in 2013.674 Former MOMP Minister Sharani estimated approxi-
  mately 5,200 APPF would be needed for 11 major extractives sites across
  Afghanistan. However, since there are currently no major active mining
  sites in Afghanistan, TFBSO said heavy security is not needed at this time.675
  For more information about the APPF, see pages 87 and 96.

  Aynak Copper Mine
  The Afghan government awarded the contract for extraction rights at the
  Mes Aynak copper mine in Logar Province to Metallurgical Corporation
  of China (MCC) in 2008.676 The contract’s details have never been fully
  disclosed, but according to the MOMP’s published summary, MCC’s total
  investment is to be $2.9 billion. Afghanistan is to receive $808 million upon
  approval of a feasibility study, $565.6 million upon commencement of com-
  mercial production, and a 19.5% maximum royalty rate.677
     However, development of the Mes Aynak copper mine remains delayed
  by the discovery of cultural relics in the area and associated archeological
  work, difficulties in land acquisition, lack of primary infrastructure, and
  security concerns.678 TFBSO suspects other contributing factors include
  unwieldy contract terms, continuing volatility in the minerals market, and
  China’s penchant for arranging mineral projects, then “shelving” them for
  the future use.679 Media reports suggest that MCC intends to renegotiate the
  contract.680 Afghanistan’s FY 1393 national budget does not anticipate any
  revenue from Aynak, as opposed to the FY 1392 budget, which anticipated
  $50 million in revenues that never arrived.681

  Hajigak Iron-Ore Mine
  There is no reported change in contract negotiations for the Hajigak iron-
  ore concessions this quarter.682 The MOMP awarded three blocks to Afghan
  Iron and Steel Consortium (AFISCO), a seven-member consortium led by
  state-owned Steel Authority of India Ltd. in November 2011, and one block
  to Canadian Kilo Iron Ore, a subsidiary of Kilo Goldmines.683 New reports
  indicate that AFISCO is considering cutting its initial investment from
  $11 billion to $1.5 billion.684




  Report to the united states congress   I   April 30, 2014              175
Economic and Social Development




Hydrocarbons
Afghanistan’s efforts to develop its oil and gas reserves focus on the Amu
Darya Basin and Afghan-Tajik Basin, both in northern Afghanistan. Even
with two operational refineries, Afghanistan lacks adequate refining capac-
ity, and remains heavily import-dependent for fuels. The country imports
10,000 tons of oil products a day from Turkmenistan, Uzbekistan, Russia,
Pakistan, and Iran.685

Amu Darya Basin
The three blocks of the Amu Darya Basin awarded to the China National
Petroleum Corporation Watan Energy Afghanistan (CNPCI-W) in 2011 are
estimated to contain 87 million barrels of crude oil.686 Production is cur-
rently stalled, but one of the three blocks has infrastructure in place to
begin production of 5,000 barrels per day. CNPCI-W is in final negotiations
with an undisclosed international company for a multi-year sale of 230,000
tons minimum per annum of its crude oil.687 The Afghan government has so
far received less than $2 million in royalties from this award. Once full pro-
duction starts, the government expects about $60,000 per day.688
   At the same time, the government is working on Cross Border Transit
Agreements (CBTA) with neighboring countries. Negotiations with
Uzbekistan continue that would allow Afghan oil to be transported there
and be refined before coming back to Afghanistan to be sold. State reported
an agreement was sent to Uzbekistan in February 2014, but will likely not
be signed because of Uzbek concerns that the oil will be sold domestically
instead of being re-exported to Afghanistan.689
   TFBSO explained these hydrocarbon CBTAs serve as import/export
agreements that govern customs, import, and export fee rates when refined
products made from Afghan crude are exported and reimported into
Afghanistan. Their effect on revenue generation for the extractives sector
itself is minimal and does not necessarily make Afghanistan more attrac-
tive for international oil companies. The undisclosed company with which
CNPCI-W is negotiating its crude oil sale has not asked for a CBTA so
TFBSO no longer considers CBTAs a priority.690
   On January 7, 2014, the MOMP officially opened a new tender for explo-
ration, development, and production in the Totimaidan block, comprising
7,131 square kilometers in the Amu Darya Basin.691 The contract area con-
tains 28 billion cubic meters of reserves in two known gas fields and more
than 50 proven and prospective subsurface structures. Expressions of
interest are due February 8, 2014.692 TFBSO followed up on its tender prepa-
ration assistance to the MOMP, providing technical, legal, commercial, and
transparency advisory services, as it did with the Afghan-Tajik tender.693 A
bidder conference was held on March 20, 2014, which all five prequalified
bidders attended. Bids are due May 31, 2014.694




 176                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  Agriculture
  Agriculture continues to be the main source of employment and subsistence                                    On March 28, 2014, a suicide car bomber
  for the Afghan population. Only 12% of the land is arable and less than 6%                                   and four armed gunmen attacked Roots
  is cultivated, yet the sector accounts for 31% of GDP and, according to the                                  of Peace—an international humanitarian,
  latest World Bank report, provides employment to about 59% of the labor                                      nonpolitical organization—at its Kabul
  force.695 Given its importance, agriculture could be a catalyst for GDP growth,                              facility, killing a 16-year-old girl and a
                                                                                                               driver, along with the five attackers. Two
  improved food security, and more stable employment opportunities.696
                                                                                                               APPF guards and one expatriate were
      Between FY 2002 and FY 2012, USAID has provided approximately
                                                                                                               injured. Roots of Peace is currently
  $2.46 billion for agricultural and alternative development funding to                                        implementing two USAID agricultural
  improve production, increase access to markets, and provide alternatives                                     efforts: the Commercial Horticulture and
  to poppy cultivation.697 Of that, USAID has obligated $54 million and dis-                                   Agriculture Marketing Program (CHAMP)
  bursed $29 million in direct assistance to build capacity at the Ministry of                                 and the Afghan Agricultural Research and
  Agriculture, Irrigation, and Livestock (MAIL).698                                                            Extension Development (AGRED) program.
      USAID is currently providing on- and off-budget assistance to the agri-                                  Sources: Roots of Peace, “Official Release: Taliban Attacks
  culture sector through several programs. USAID’s three highest-priority                                      Roots of Peace Compound,” 3/28/2014; USAID, response to
                                                                                                               SIGAR data call, 4/7/2014.
  programs, worth more than $350 million total, are:699
   •	 Agricultural Development Fund (ADF) and Agricultural Credit
      Enhancement (ACE)
   •	 Incentives Driving Economic Alternatives-North, East, and West
      (IDEA-NEW)
   •	 Commercial Horticulture and Agricultural Marketing Program
      (CHAMP)

  Agricultural Credit Enhancement and Agricultural
  Development Fund
                                                                  Total Estimated   Cumulative Disbursement,       SIGAR Audit
   Project Title                  Start Date       End Date           Cost ($)         as of 3/31/2014
   Agricultural Credit                                                                                             A SIGAR audit issued this quarter
                                  7/15/2010        1/15/2015        $75,175,296           $63,908,185
   Enhancement                                                                                                     sought to determine the extent to which
   Agriculture Development                                                                                         USAID met key objectives of the 2010
                                  7/18/2010        12/31/2014       $74,407,662           $29,000,000
   Fund                                                                                                            U.S. Inter-Agency Water Strategy for
  Source: USAID, response to SIGAR data call, 4/7/2014.                                                            Afghanistan and the extent to which
                                                                                                                   four USAID water projects implemented
  The Agricultural Development Fund and Agricultural Credit Enhancement                                            since 2010 are meeting their project
  (ADF-ACE) has two complemen­tary activities that aim to support MAIL’s                                           goals and objectives. It found that a new
  efforts to provide loans and build ADF staff capacity to manage them. ADF                                        water sector strategy for Afghanistan
  was established to provide loans across the agricultural value chain through                                     is needed with goals and objectives
  banks, farm stores, leasing com­panies, and food processors, which in turn                                       that reflect USAID’s water priorities;
  provide agricultural credits to farmers. ACE is the technical assistance compo-                                  a performance measurement plan to
  nent that manages all ADF lending activities and helps build MAIL capacity.700                                   evaluate the strategy; and clear lines
     As of February 28, 2014, ADF’s loan portfolio was $85.7 million, loans                                        of responsibility and accountability
  disbursed were $43.5 million, with $21 million repaid. Another 24 loans are                                      for those implementing it. For more
  in the pipeline. USAID reports that a high retention rate of borrowers is                                        information, see Section 2, page 28.




  Report to the united states congress                    I   April 30, 2014                         177
                                             Economic and Social Development




                                             crucial to ADF operations, which has reached 68% due to returning clients.
                                             ADF has provided loans to 22,386 farmer households in 32 provinces.701

                                             Incentives Driving Economic Alternatives-North, East, and West
                                                                                                           Total Estimated   Cumulative Disbursement,
                                              Project Title                  Start Date       End Date         Cost ($)         as of 3/31/2014
                                              Incentives Driving
                                              Economic Alternatives-         3/2/2009         2/28/2015     $159,878,589          $141,080,906
                                              North, East, and West
                                             Source: USAID, response to SIGAR data call, 4/7/2014.



                                             Incentives Driving Economic Alternatives-North, East, and West (IDEA-
                                             NEW) is a cooperative-agreement project that provides agricultural
                                             assis­tance and economic alternatives to growing poppies in select prov-
                                             inces in eastern Afghanistan and in poppy regions in the northern and
Special IG Sopko visits a soybean plant      western parts of the country. This quarter, it was extended to a sixth year.
during his March 2014 trip to Afghanistan.   IDEA-NEW is supposed to help farmers shift from growing poppies to legal
(SIGAR photo by Smythe Anderson)
                                             agricultural production by increasing commercial opportunities, extending
                                             access to financial services, and promoting value-chain development for
                                             key regional industries and trade corridors. It also facilitates connections
                                             between producers, traders, and buyers through mar­ket-information activi-
                                             ties and sales promotion.702
                                                USAID reported that 14,027 hectares are under alternative crop culti-
                                             vation due to IDEA-NEW, compared to 209,000 hectares of opium under
                                             cultivation in 2013.703 While USAID said thousands of people have benefit-
                                             ted from agricultural productivity and business skills training, as well as
                                             program-supported agricultural inputs, it also acknowledged low crop
                                             production, limited food processing opportunities, and shifting security
                                             conditions as challenges in the Afghan agriculture sector that impede on the
                                             progress of IDEA-NEW.704

                                             Commercial Horticulture and Agricultural Marketing Program
                                                                                                           Total Estimated   Cumulative Disbursement,
                                              Project Title                  Start Date       End Date         Cost ($)         as of 3/31/2014
                                              Commercial Horticulture
                                              and Agricultural Marketing     2/1/2010         12/30/2014    $40,320,241           $34,722,834
                                              Program
                                             Source: USAID, response to SIGAR data call, 4/7/2014.



                                             The Commercial Horticulture and Agricultural Marketing Program
                                             (CHAMP) aims to help farmers plant and operate more profitable orchards
                                             and vineyards by enhancing crop quality and promoting export and trade
                                             corridors. The pro­gram also works with traders to improve harvesting,
                                             packing, cool storage, and shipping methods.705




                                               178                           Special inspector general          I   Afghanistan reconstruction
Economic and Social Development




     As CHAMP approaches the 2014 transition, USAID said it will shift focus
  to post-harvest commercialization of high-value crops. The program seeks
  to increase exports through marketing and to promote import substitution.
  However, USAID said insecurity con­tinues to challenge full implementation
  of CHAMP. Insurgent groups threaten both CHAMP staff and farmers, partic-
  ularly in Kandahar, Helmand, Zabul, Wardak, Logar, and Ghazni provinces.706

  Afghan Agriculture Research and Extension
  Development Program
                                                                  Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date       End Date           Cost ($)         as of 3/31/2014
   Afghan Agricultural
   Research and Extension         7/17/2012        7/16/2017         $23,638,611          $4,193,245
   Development (AGRED)
  Source: USAID, response to SIGAR data call, 4/7/2014.



  Afghan Agriculture Research and Extension Development (AGRED) is an
  on-budget program (with an off-budget mechanism) in partnership with
  MAIL designed to increase agricultural production and benefit rural liveli-
  hoods through the use of improved agricultural technologies. AGRED is
  rehabilitating research and extension centers for MAIL and the Directorate
  of Agriculture, Irrigation, and Livestock (DAIL) and across seven provinces
  and 50 districts. AGRED also provides training to MAIL and DAIL person-
  nel so that they can, in turn, provide technology and advisory services to
  Afghan farmers and herders.707

  Kandahar Food Zone
                                                                  Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date       End Date           Cost ($)         as of 3/31/2014
   Kandahar Food Zone             7/31/2013        7/30/2015         $19,695,804          $2,428,000
  Source: USAID, response to SIGAR data call, 4/7/2014.


  The Kandahar Food Zone (KFZ) program is designed to identify and
  address the drivers of poppy cultivation in seven targeted districts.708 It
  has two major components: capacity building at the Ministry of Counter
  Narcotics (MCN) and alternative livelihood projects. The capacity-building
  component seeks to build up the MCN’s ability to create, implement, and
  manage alternative livelihood projects. The alternative livelihood com-
  ponent aims to improve community infrastructure and increase legal
  economic opportunities.709 KFZ has completed its performance manage-
  ment plan, program design, staff training and orientation, district maps,
  and community outreach. As of December 31, 2013, KFZ had begun two
  community-level projects.710 The KFZ program objective is to engage with




  Report to the united states congress                    I   April 30, 2014                         179
                                                            Economic and Social Development




                                                            communities to identify the social, political, and economic drivers of poppy
                                                            cultivation, and then tailor appropriate projects to them.711
                                                               USAID reported that the KFZ office in Kandahar is closed because the
                                                            APPF has not fulfilled its contractual obligations to provide uniforms and
                                                            weapons to APPF guards. KFZ Kandahar staff are currently working out of
                                                            their homes until that situation is resolved. Despite this impediment, USAID
                                                            is pleased with KFZ collaboration across ministerial and provincial entities,
                                                            and told SIGAR that the project identification process has been smooth.712
Figure 3.36


CENTRAL ASIA-SOUTH ASIA POWER
                                                            Essential Services/Development
TRANSMISSION PROJECT, CASA-1000                             Since 2002, the United States has provided reconstruction funds to increase
                                                            electricity, build roads and bridges, and improve health and education. This
                                                            section addresses key developments in U.S. efforts to improve the govern-
                                                            ment’s ability to deliver essential services such as electricity, transportation,
  KAZAKHSTAN                           KYRGYZ REPUBLIC
                                                            health, and education.

                                                            Energy
                                                            The latest World Bank report noted that Afghanistan has one of the lowest
  UZBEKISTAN                                                rates of electricity in the world, with only 28% of its population connected
                                                            to the power grid. Of those who are connected, an estimated 77% live in
                                                            urban areas.713
                                 TAJIKISTAN                    Because electricity is critical to Afghanistan’s development, the United
                       H                                    States, in collaboration with the Afghan government and the international
                                                            community, has made developing an integrated energy sector one of its top
                                                            reconstruction priorities since 2002.714 From FY 2002 to FY 2012, the United
                                                            States spent more than $2 billion on Afghanistan’s power sector.715
                                                               On March 27, 2014, the World Bank approved $526.5 million in
                                                            transmission infrastructure grant and credit financing for the Central
                       AFGHANISTAN                          Asia-South Asia (CASA-1000) electricity transmission project. The Islamic
                                                            Development Bank and USAID will also provide funding.716 Late last quarter,
                             H
                                                            the United States committed $15 million. CASA-1000 will allow Tajikistan
                             H                PAKISTAN      and Kyrgyzstan to sell their excess summer generation electricity to
                                                            Afghanistan and Pakistan. As a consumer, Afghanistan would add 300 MW
                                                            to its energy supply. As a transit country, it would generate revenue as elec-
 H    Hydroelectric power generation
                                                            tricity passed through its territory to Pakistan.717 The total estimated cost
      Existing power
      Proposed CASA-1000 lines
                                                            for CASA-1000 is $1.17 billion.718
      Existing substations                                     CASA-1000’s proposed transmission line routes and infrastructure,
      Proposed substations                                  encompassing more than 746 miles, can be found in Figure 3.36.
                                                               In 2002–2011, USAID alone provided close to $2 billion from the ESF to
Source: CASA-1000.org, via World Bank, accessed 4/3/2014.
                                                            build generators, substations, and transmission lines, and provide technical
                                                            assistance to the sector. It plans to spend at least $500 million more over the
                                                            next few years.719 In addition, DOD has provided approximately $292 mil-
                                                            lion for electricity projects through the Commander’s Emergency Response




                                                             180                  Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  Program (CERP) and roughly $700 million through the Afghanistan
  Infrastructure Fund (AIF), which is jointly managed by DOD and State.720
     Afghanistan currently has nine separate power systems. The primary            NEPS: brings imported electricity from the
  two are the Northeast Power System (NEPS) and the Southeast Power                Central Asian Republics to provide power
                                                                                   to Kabul and the communities north of
  System (SEPS), as shown in Figure 3.37 on the following page. USAID
                                                                                   Kabul.
  has three projects to connect and increase the electricity supply in both
  systems—Sheberghan; the Kandahar-Helmand Power Project, which                    SEPS: draws most of its power from the
  includes Kajaki Dam hydropower; and the Power Transmission Expansion             Kajaki Dam and from diesel generators
  and Connectivity Program. DOD is contributing to both NEPS and SEPS              in Kandahar City. It provides power in the
  through AIF projects. The Afghan government, coordinating closely with           Helmand and Kandahar areas.
  USAID and DOD, prioritized these programs to increase the availability of
  affordable, grid-based power. Connecting the power grids is intended to
  promote the best use of lowest-cost generation, reduce the need for dupli-
                                                                                 Source: DOD, Report on Progress Toward Security and Stability
  cative generating reserves, and improve system reliability.721                 in Afghanistan, 11/2013, accessed 12/29/2013.



  Sheberghan Program
  Afghanistan currently imports more than 70% of its energy, according to
  USAID.722 Together with the ADB, USAID is supporting the Sheberghan
  project to help Afghanistan identify and manage gas resources to be used
  for power generation. The Overseas Private Investment Corporation,
  which was slated to participate, likely will not, according to USAID.723 Gas
  reserves in northern Afghanistan are estimated to be capable of generating
  up to 10,000 MW per year for 25 years, according to USAID. A study to con-
  firm that will be completed later this year.724
     USAID is implementing its part of the Sheberghan Program through two
  mechanisms: the $90 million, on-budget Sheberghan Gas Development
  Project (SGDP), and the $35 million, off-budget Sheberghan Gas Generation
  Activity (SGGA).725 USAID will pay $30 million on-budget through SGDP for
  the rehabilitation of two wells and the drilling of one well in the Juma and
  Bashikurd field in the Amu Darya Basin. An additional $7 million will come
  from Afghanistan’s national budget. The National Petroleum Company of
  Turkey signed a contract with the MOMP on December 14, 2013, to perform
  the work. If the wells have sufficient capacity to run a 200 MW gas-fired
  power plant, USAID will fund a gas gathering system and gas processing
  plant to fuel it with its remaining $60 million, on-budget through SGDP.726
  No disbursements have yet been made.727
     The off-budget SGGA component is being implemented under a contract
  task order with Advanced Engineering Associates International to provide
  technical assistance to the MOMP to drill three gas wells and to help the
  MOMP tender the Engineering/Procurement/Construction contract for
  the gas-gathering system and gas-processing plant. As of March 31, 2014,
  approximately $23 million has been obligated, of which more than $13 mil-
  lion was disbursed.728




  Report to the united states congress   I   April 30, 2014            181
Economic and Social Development




Figure 3.37


 OVERVIEW OF THE NORTHEAST POWER SYSTEM



                                                                                          Bazarak

                                                                  Charikar
                                                                         Mahmood Raqi           Nejrab
                                                                                Kabul

                                                             Arghandi

                                                       Sayad Abad        Chelozai       Pul-e-Alam
                                                       Substation
                                                                                             Gardez
                                                       Naw Abad     Ghazni                            Khost




 OVERVIEW OF THE SOUTHEAST POWER SYSTEM




                                                                    Musa Qalah
                                                                             Kajaki Dam



                                                        Gereshk           Durai Junction

                                                                                                      Kandahar
                                                           Lashkar Gah




 Note: Locations and routes are representational.
 Source: DOD, response to SIGAR data call, 4/3/2014.




  182                          Special inspector general             I   Afghanistan reconstruction
Economic and Social Development




  Kandahar-Helmand Power Project
  The Kandahar-Helmand Power Project (KHPP) is intended to increase               USAID’s last visit to Kajaki Dam was in the
  power supply and reliability in Kandahar and Helmand provinces. It was          fall of 2013. USAID and U.S. Embassy Chief
  designed to support interim diesel power for critical needs, increase long-     of Mission (COM) personnel are currently
  term sustainable hydropower, and reduce losses while strengthening the          not able to visit Kajaki due to Mission
  SEPS transmission and distribution system.729 USAID reported that the           policy that requires U.S. military, NATO,
  majority of KHPP components are closed or closing.730                           or Embassy Protective Detail forces be in
                                                                                  sufficient proximity during any COM travel
     On October 29, 2010, USAID signed a $266 million contract with Black
                                                                                  around Afghanistan. With the withdrawal
  & Veatch to rehabilitate and build power substations, upgrade the medium-
                                                                                  of U.S. Marines from Kajaki in 2013, these
  voltage distribution system in Kandahar City, install, test, and commission a   requirements cannot be met. SIGAR refers
  third turbine at the Kajaki Dam, and design and install new die­sel-powered     to these inaccessible reconstruction sites
  generators for interim power supply until lower cost, more sustainable          as areas outside of “oversight bubbles.”
  power becomes available from the Kajaki Dam and/or the NEPS-SEPS                In an October 2013 letter to Secretary of
  connector.731 The turbine parts, transported to the power station by a U.S.-    State Kerry, Secretary of Defense Hagel,
  British military mission that had to fight its way to the dam site in 2008,     and USAID Administrator Shah, SIGAR
  have remained unassembled in containers and under tarps ever since.732          expressed concern about the impact of
     On April 22, 2013, USAID signed a bilateral, on-budget implementation        the Coalition troop drawdown on security
  letter with the Afghan government, and sub-obligated $75 million for install-   and the related implications for ensuring
  ing, testing, and commissioning the third turbine at the Kajaki hydropower      adequate oversight of U.S. reconstruction
                                                                                  efforts in Afghanistan.
  station, which had not yet occurred as required under the Black & Veatch
  KHPP contract.733 The turbine installation requirement contained within the     Sources: USAID, response to SIGAR data call, 3/31/2014;
                                                                                  USAID, response to SIGAR vetting, 4/12/2014; SIGAR, 14-4-
  Black & Veatch KHPP contract has been descoped.734                              SP, Oversight Access Inquiry Letter to Department of Defense,
                                                                                  Department of State and U.S. Agency for International
     Afghanistan’s national utility, Da Afghanistan Breshna Sherkat (DABS),       Development.

  has assumed responsibility for carrying out the terms and conditions of the
  implementation letter.735 On December 9, 2013, DABS signed a $6 million
  contract with Dubai-based GFA Consulting for the up-front engineer-
  ing, procurement, and tendering services pertaining to the installation of
  Kajaki’s third turbine, in addition to security and site support services.736
  USAID negotiated a sole-source contract extension of KHPP with Black
  & Veatch for technical support services—ending in 2015—to DABS and
  USAID in support of the third turbine installation. Black & Veatch would
  provide project documentation and Kajaki hydropower plant design sup-
  port. USAID based its decision on Black & Veatch’s experience with the
  Kajaki hydropower plant.737
     DOD is using the AIF to fund fuel for the U.S. Army Corps of Engineers-
  installed generators in Kandahar City through 2014. DABS is providing
  fuel for other existing generators in the area. The U.S. fuel subsidy may be
  extended, but USAID expects it to decrease as DABS takes the required
  steps to secure revenue needed to sustain the fuel costs. One step is con-
  tracting to install Kajaki’s third turbine, which, when operational, should
  generate additional power and revenues.738
     Improving revenue collection, however, will be challenging. This quarter,
  USAID reported that it does not know about DABS’ financial status, its abil-
  ity to pay its bills without government subsidies or donor assistance after




  Report to the united states congress   I   April 30, 2014             183
                                           Economic and Social Development




                                           2014, or its plans to generate sufficient revenues.739 Additionally, USAID’s
                                           assistant to the administrator in the Office of Afghanistan and Pakistan
SIGAR Special Project                      Affairs stated in Congressional testimony that he cannot confirm that the
This quarter, SIGAR issued a letter        revenues DABS generates covers its costs for providing fuel.740 This con-
of inquiry to USAID requesting the         trasts with USAID’s April 3, 2014, statement for the (congressional) record,
agency address SIGAR’s concerns that       which touted USAID’s assistance as helping put DABS on the path of
the estimated cost of installing an        self-sustainability.741
additional power generating turbine           Additionally, a SIGAR audit found that despite USAID investments that
at the Kajaki Dam has increased            resulted in some commercialization successes for DABS-Kabul, including
significantly. SIGAR’s analysis            increasing cash collections by 60%, the Afghan utility is still operating at a
concluded that the costs of the KHPP       financial loss. Also, DABS may not be able to pay its bills without contin-
project to the United States now           ued government subsidies that are set to expire in 2014.742 As of March 1,
outweigh its benefits to Afghanistan.      2014, USAID had obligated $228 million for the KHPP, and of that, approxi-
USAID, in its response letter, disagreed   mately $217 million had been disbursed, an increase of $17.9 million from
with that conclusion. For more             last quarter.743
information, see Section 2, page 43.
                                           Power Transmission Expansion and Connectivity Program
                                           The U.S.-funded Power Transmission Expansion and Connectivity (PTEC)
                                           program was designed to strengthen and expand the power-generation,
                                           trans­mission, and distribution systems. This program directly supports the
                                           National Energy Supply Program of the Afghanistan National Development
                                           Strategy, which calls for improving the collection rate against energy bill-
                                           ings and increasing the supply of power.744 The $814 million PTEC programs
                                           includes $357.4 million for on-budget support to DABS—which is respon-
                                           sible for DABS PTEC contracts—and $37 million for off-budget support to
                                           the Ministry of Energy and Water, and educational institutions.745
                                               In addition to strengthening and expanding NEPS, a key component of
                                           PTEC is funding 304 miles of the 329 mile transmission line between Kabul
                                           and Kandahar to connect NEPS with SEPS. Connecting NEPS to SEPS is
                                           a multi-donor effort. The NEPS-SEPS connector will include eight substa-
                                           tions located at major population centers along the way. This con­nection,
                                           together with the rehabilitation of the Kajaki Hydropower Plant, was iden-
                                           tified in 2010 as the only viable, long-term solution to displace costly and
                                           unsustainable diesel-power generation in Kandahar.746
                                               As of March 31, 2014, USAID has obligated $180.3 million to AITF and
                                           disbursed $105 million of which $45 million was disbursed concurrently with
                                           the signing of the Program Contribution Agreement in March 2013 while
                                           $60 million was disbursed in December 2013 pursuant to an ADB request.747
                                               The ADB is responsible for the first 25-mile section from Kabul to
                                           Arghandi. USAID will fund construction of the next 75-mile section from
                                           Arghandi to Ghazni, which includes $101 million of DOD’s AIF that was
                                           transferred to USAID. USAID has also obligated $263.3 million in on-budget
                                           assistance to the MOF and DABS for PTEC and formalized the bilateral
                                           agreement for this segment in February 2013. This on-budget assistance




                                            184                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  culminated in a $56.7 million contract award to construct the Arghandi to
  Ghazni transmission line. A public awareness campaign was also launched
  to help prevent attacks against the transmission line.748
     Other DABS contracts signed this quarter using USAID’s on-budget assis-
  tance include:
  •	 Two Corporate Management Support projects to help DABS
     manage contracts and improve its financial and corporate
     management—$17.9 million and $18.8 million749
  •	 Construction of substations at Sayadabad (Wardak Province) and
     Ghazni—$48.1 million750
  •	 Procurement and Billing Implementation Program “mPower,” billing,
     collections, revenue, connection, service, meter data, maintenance, and
     workforce management—$10 million751

     USAID also plans to contribute $417.6 million from its $814 million PTEC
  project to ADB’s AITF with a portion used to construct the remaining 230
  mile section of transmission line from Ghazni to Kandahar connecting
  NEPS with SEPS. Completion of the NEPS-SEPS connector will be delayed
  by two years to 2017/2018. Of USAID’s contribution to AITF, approximately
  $290 million will be used to construct the remaining transmission line from
  Ghazni to Kandahar to complete the NEPS to SEPS connection.752
     The ADB established the AITF in December 2010, to allow bilateral,
  mul­tilateral, and individual contributors to partner with the ADB in financ-
  ing infrastructure investments. AITF will fund projects on-budget through
  DABS or other Afghan government ministries. Current contributors to AITF
  also include the UK’s Department for International Development and the
  Japanese Embassy.753

  DOD-Funded Programs
  DOD has viewed establishment of reliable and sustainable power genera-
  tion, transmission, and distribution as the linchpins to security, stability, and
  economic growth in Afghanistan. This quarter, DOD continued implement-
  ing several priority energy-sector projects using FY 2012 and FY 2013 AIF
  money. These included:754
   •	 Kandahar Power Bridging Solution
   •	 Kandahar–Durai Junction transmission lines
   •	 Charikar–Bazirak and Charikar–Mahmood Raqi transmission lines and
      power substations
   •	 Kajaki Dam to Musa Qalah transmission lines

  Kandahar Power Bridging Solution
  This project is providing fuel for the diesel generators in Kandahar City
  until affordable, sustainable power becomes available through the joint
  DOD-USAID effort to expand and connect NEPS and SEPS systems.755




  Report to the united states congress   I   April 30, 2014                 185
                                          Economic and Social Development




                                             The generators at Shorandam Industrial Park and Bagh-e-Pol have a
                                          combined average output of 8–13 MW. Funding levels have not changed
                                          from last quarter. FY 2012 funding remains at $79.8 million for fuel and
                                          operations and maintenance (O&M). The FY 2013 cost is $100 million,
                                          which includes $90 million for fuel and $10 million for O&M.756 DOD’s
                                          fuel contract is scheduled to taper off in the coming months and end on
                                          December 31, 2014. If DABS cannot secure funding for alternative power
                                          supplies, it may disconnect residential users until the third turbine at
                                          Kajaki Dam is installed.757
                                             Congress cut the President’s FY 2014 budget request of $279 million
                                          for AIF to complete DOD’s portion of the NEPS and SEPS to $199 million.
                                          Congress also set the following restrictions:758
                                          •	 No more than 50% of AIF funds can be used until 15 days after the
                                             Secretary of Defense certifies to Congress that the United States signed
Diesel generators are used to provide
electricity until NEPS and SEPS can be
                                             a Bilateral Security Agreement with Afghanistan that is in the national
expanded and connected. (SIGAR photo by      security interest of the United States.759
Steven Mocsary)                           •	 AIF funds in the FY 2014 Consolidated Appropriations Act cannot be
                                             used to plan, develop, or construct any project for which construction
                                             did not start before the legislation’s enactment (January 17, 2014).760

                                              DOD proposed to spend $100 million for the diesel power generators and
                                          to integrate prior DOD and USAID power projects. DOD will reevaluate this
                                          plan based on the final FY 2014 appropriation.761 This will improve over-
                                          all power management in Kandahar by consolidating Kandahar’s “power
                                          islands” into an integrated grid. DOD plans to continue purchasing fuel and
                                          providing O&M support into FY 2015, but intended to transfer the genera-
                                          tors to DABS in December 2013, along with six months of spare parts. DOD
                                          said it will provide technical support for one year following the transition.762
                                          It sees this electricity as critical to the counterinsurgency strategy to help
                                          stabilize Kandahar by supporting economic development and improving
                                          citizens’ quality of life. DOD said the Kandahar Bridging Solution is central
                                          to the Afghanistan Electrification Plan and the State Department’s develop-
                                          ment plan for Afghanistan.763

                                          Kandahar to Durai Junction Transmission Lines
                                          Part of the effort to expand SEPS, this project continues earlier efforts to
                                          install or repair transmission lines from Kandahar City to Durai Junction
                                          and to construct or repair substations at Maiwand and Pashmul. The cost
                                          for this project, awarded in 2012, remains $40 million in FY 2012 funds.
                                          This transmission line constitutes a key element for the larger PTEC proj-
                                          ect linking SEPS and NEPS and addresses the need for reliable electricity
                                          in Afghanistan’s south and southeast. DOD’s goal is to promote economic
                                          growth, security, stability, and capacity-building efforts within DABS to help
                                          it generate sufficient revenues to fund capital improvements to the grid.




                                           186                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  Completion of this project is essential to distribute power generated by the
  third turbine awaiting installation at Kajaki Dam, according to DOD.764

  Charikar–Bazirak and Charikar–Mahmood Raqi Transmission
  Lines and Power Substations
  This project will install 52 miles of transmission lines from Charikar to
  Bazirak and from Charikar to Mahmood Raqi. It will also build three power
  substa­tions to expand NEPS. DOD has allocated $38 million in FY 2012
  funds and $33 million in FY 2013 funds for the project, for a total estimated
  cost of $71 million, according to a DOD notification to Congress last quar-
  ter. Annual estimated O&M costs for the transmission lines and substations
  are $580,000.765
     DOD told Congress the project will bring reliable electricity to 1.15 mil-
  lion Afghans across three provinces and help fuel pri­vate-sector growth,
  especially in the agriculture, processing, manufacturing, and mining sectors.
  Consistent with all AIF-funded projects, and by formal agreement, this proj-
  ect will be transferred to the Afghan government upon completion. DABS
  will assume responsibility for O&M. Increased revenue from an expanded
  customer base and improved collection capabilities will help DABS provide
  long-term sustainment, according to DOD.766 However, SIGAR has raised
  questions about DABS’ capac­ity, and other audits have said Afghanistan
  lacks the resources necessary to pay for O&M.767

  Kajaki Dam to Musa Qalah Transmission Lines
  This project is building new transmission lines from the Kajaki Dam
  hydropower plant to Musa Qalah in Helmand Province. The $12 million in
  FY 2013 funds allocated for Phase I of the project will construct approxi-
  mately nine miles of new 110kV transmission line from Kajaki to a new
  substation that will join with the existing 20kV transmission line. Phase
  II plans to use $49 million in FY 2014 funds to build 23 miles of 110kV
  transmission line from the substation to Musa Qalah, build a new 110kV
  substation, and rehabilitate the existing 20kV substation at Musa Qalah.
  The project aims to benefit the approximately 60,000 residents of Musa
  Qalah, according to DOD.768
      Other components of the project are designed to help integrate SEPS
  projects into a single, interconnected system. Consistent with all AIF-
  funded projects, and by formal agreement, this project will be transferred
  to the Afghan government upon completion. DABS will assume responsi-
  bility for O&M. Increased revenue from an expanded customer base and
  improved collection capabilities will help DABS provide long-term sus-
  tainment, according to DOD.769 As noted above, SIGAR audits have raised
  concerns about DABS’ capacity and resources to undertake O&M.




  Report to the united states congress   I   April 30, 2014             187
Economic and Social Development




Private-Sector Development
The United States is supporting private-sector development through the
ESF, TFBSO, and CERP. From FY 2002 to FY 2012, USAID appropriated
$1.06 billion for economic growth in Afghanistan.770 USAID’s top ongoing
economic-growth project, funded through the ESF, is Assistance in Building
Afghanistan by Developing Enterprises (ABADE).

Assistance in Building Afghanistan by Developing Enterprises
                                                            Total Estimated   Cumulative Disbursement,
 Project Title                  Start Date       End Date       Cost ($)         as of 3/31/2014
 Assistance in Building
 Afghanistan by Developing      10/16/2012 10/16/2016        $104,997,656           $16,839,439
 Enterprises
Source: USAID, response to SIGAR data call, 4/7/2014.



USAID’s $105 million Assistance in Building Afghanistan by Developing
Enterprises (ABADE) program focuses on helping produc­tive, Afghan-
registered, small-to-medium enterprises add jobs, increase investment, and
improve sales of domestic products and services through public-private alli-
ances. It does so through three components: implementing public-private
alliances once they are approved; identifying, selecting, and supporting the
alliances; and working with the Afghan government to improve the environ-
ment for business.771
    Since ABADE’s launch in February 2013, USAID reported that 30
public-private alliances were finalized—compared to five reported seven
months ago—and 10 applications are awaiting approval, as of March 31,
2014. Another 81 applications are in development and internal review.
Additionally, business-outreach and government capacity efforts continued
this quarter.772
    ABADE implementation continues to face restrictions from Presidential
Decree 62, which requires the use of APPF and Risk Management
Companies for security. The APPF has been unable to provide adequate
mobile escort units or vehicles, making it difficult for ABADE staff to travel
across the region, according to USAID.773 Since the Ministry of Interior
announced the disbandment of the APPF this quarter, it is unclear who
will provide security to international development projects and staff.774 For
more information about the APPF, see pages 87 and 96.




  188                           Special inspector general        I   Afghanistan reconstruction
Economic and Social Development




  Transportation
  Afghanistan’s lack of transportation infrastructure hinders internal com-           The U.S. Department of Transportation’s
  merce, foreign trade, and economic growth. The World Bank said restoring            (DOT) primary function in Afghanistan is to
  the transportation sector is imperative for economic development.775                provide strategic technical advice to Afghan
  Afghanistan’s infrastructure shortcomings particularly constrain the ser-           transport ministries, U.S. government
  vice and agriculture sectors, which currently contribute most to GDP. They          agencies, the U.S. military, and non-
                                                                                      governmental organizations, as well as other
  also hold back the mining industry, whose future revenues the Afghan
                                                                                      international civil and military organizations
  government and international donor community are counting on to offset
                                                                                      in order to build sustainable Afghan-centric
  declining aid.776 This quarter, the United States continued its efforts to assist   transportation systems. DOT receives
  Afghanistan in developing ministry capacity, sustaining operations and              funding from the State Department.
  maintenance, and complying with inter­national standards.777
                                                                                      Sources: DOT, response to SIGAR data call 3/31/2014; DOT,
                                                                                      response to SIGAR vetting 4/6/2014.

  Roads
  While the United States has provided $2 billion cumulatively for road con-
  struction and O&M and currently spends about $5 million annually for
  O&M efforts, Afghanistan does not currently have sufficient funding and
  technical capacity to maintain its roads and highways, according to the U.S.
  Department of Transportation (DOT).778 Moreover, the lack of a function-
  ing Roads Authority has significantly affected road infrastructure across
  Afghanistan.779 Although the Cabinet and the President gave approval in
  August 2013 for the Ministry of Public Works (MOPW) to create a Road
  Authority and Road Fund, the authority has not yet been established.780
     DOT said the primary challenge for establishing a Road Authority is polit-
  ical—comprising an outdated transportation law, overlapping, unclear, and
  undefined institutional authorities, including roles and responsibilities of
  various ministries and local municipalities. Compounding these challenges
  are the uncertainties surrounding the April 2014 election, the resulting new
  government, funding, and coordination among donor countries.781
     DOT led an international donor coordination initiative to pursue an
  Afghan-led strategy and system approach to the construction, operation,
  and maintenance of Afghanistan’s roadways. This initiative was recently
  transferred to the MOPW to continue coordination among various donors.782
  However, DOT said that Afghanistan’s road network will significantly
  degrade if the challenges outlined above are not properly mitigated soon.783

  Road Sector Sustainability
  USAID approved its Road Sector Sustainability (RSS) project design on
  July 14, 2013. The project has four main activities:784
  •	 Activity 1-Emergency O&M ($5 million). A request for proposal was
     issued February 18, 2014, proposals were due March 18, and contracts
     are expected to be awarded in April.
  •	 Activity 2-Technical Assistance to the MOPW for the creation of a Road
     Authority and Road Fund ($25 million phase I; $10 million phase II).




  Report to the united states congress   I   April 30, 2014                 189
                                                       Economic and Social Development




                                                          Phase I proposals were received January 29, 2014, technical and cost
                                                          reviews are ongoing, and a contract is expected to be awarded in April.
                                                       •	 Activity 3-Capacity Building for the MOPW ($38 million). The Statement
                                                          of Work is being developed based on a needs assessment that is
                                                          underway. A contract is expected to be awarded by September 2014.
                                                       •	 Activity 4-Road O&M Activity. ($33 million) USAID funding—proposed
                                                          for September 2014—will go through the AITF once an operations and
                                                          maintenance incentive window is developed by the ADB.

                                                       Rail
                                                       Currently, Afghanistan has no meaningful railroad development, operational
                                                       experience, or capacity. Only one completed rail line exists—a 47-mile
                                                       line from Hairatan, on the border with Uzbekistan, to Mazar-e-Sharif.785
                                                       The country needs to expand the 47-mile line if it is to further the U.S.
                                                       government’s “New Silk Road” vision of regional and economic connec-
                                                       tivity. Development of an interlinking 249-mile line between Afghanistan,
                                                       Turkmenistan, and Tajikistan was inaugurated in June 2013.786


                                                       Education
                                                       According to the most recent data available from the Ministry of Education’s
  Enrolled: total number of new student                (MOE) Education Management Information System (EMIS), Afghanistan
  enrollees in a fiscal year                           had a total of 14,740 primary, lower-secondary, and upper-secondary schools
                                                       in FY 1391 (March 21, 2012–December 20, 2012). The same data showed
  Present: total number of prior year                  approximately 4.2 million students enrolled in primary, government lower-
  students attending in a fiscal year                  secondary, and government upper-secondary schools in FY 1391. There are
                                                       4.2 million enrolled students, 3.27 million categorized as present, and 931,347
  Absent: number of students who have                  students considered absent, according to EMIS records.787
  temporarily dropped out, but still included             According to USAID, the total number of students attending school is
  in enrollment figures.                               derived by adding enrolled and present figures, which totals 7.48 million
                                                       students in FY 1391. The MOE includes absent students in the enrollment
                                                       total because they are considered to have only temporarily dropped out and
Source: USAID, response to SIGAR vetting, 4/12/2014.   have the potential to return to school. Absent students are kept in this cat-
                                                       egory for three years before they are taken off the enrollment records. With
                                                       absent students included, the MOE considers the total number of students
                                                       in Afghanistan to be 8.4 million.788
                                                          USAID has previously said it was concerned about the reliability of the
                                                       MOE/EMIS, which is the only database tracking education metrics at the
                                                       MOE. USAID relies primarily on EMIS for its information, but told SIGAR
                                                       the data cannot be verified. With more USAID assistance now going on-
                                                       budget, USAID is working to support the MOE to improve the reliability
                                                       of EMIS data. USAID said it also uses internal reports from its officers, the
                                                       International Security Assistance Force (ISAF), other donors, and imple-
                                                       menting partners to help verify and check information.789




                                                        190                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




      Similarly, despite USAID efforts to strengthen the education-man-
  agement capacities of the MOE, it said the ministry does not have an
  established system to track the number of school monitoring visits made                                            SIGAR Audit
  by district education department officials, and when schools are visited,                                          The unreliability of MOE data and
  it is not reported to the MOE at the central level. Therefore, the number                                          SIGAR’s ongoing concern about MOE
  of schools visited, the percentage of students served by those schools,                                            capacity have prompted a SIGAR audit
  and percentage of teachers observed is unknown. Because of this, neither                                           to examine the U.S. government’s
  USAID nor the MOE have established targets against these indicators.                                               efforts to assist and improve the
  Security issues are a factor, according to MOE officials, especially in the                                        education sector in Afghanistan.
  south and southeast.790 SIGAR remains concerned that U.S. government
  agencies and international donors are unable to verify Afghanistan’s oft-
  cited gains in education.
      Since 2002, USAID has supported education through aid for building and
  refurbishing schools, developing curricula, and conducting teacher training.
  USAID’s ongoing priority programs in the education sector funded through
  the ESF this quarter include:
   •	 Basic Education, Literacy and Technical-Vocational Education and
      Training (BELT)
   •	 American University of Afghanistan (AUAF)

  Basic Education, Literacy, and Technical-Vocational
  Education and Training
                                                                    Total Estimated       Cumulative Disbursement,
   Project Title                  Start Date      End Date              Cost ($)             as of 3/31/2014
   Basic Education, Literacy,
   and Technical-Vocational       11/16/2011 12/31/2014                $26,996,813                $21,955,403
   Education-Textbooks
   Teacher Training               3/4/2012        11/6/2014             62,000,000                 62,000,000
   BELT-Community Based
                                  10/29/2013 10/28/2017                 56,000,000                         0
   Education
  Sources: USAID, response to SIGAR data call, 4/7/2014; USAID, response to SIGAR vetting 4/14/2014.
                                                                                                                     SIGAR Inspection
  Basic Education, Literacy, and Technical-Vocational Education and                                                  A SIGAR inspection of the Balkh
  Training (BELT)–Community-Base Education aims to improve access to                                                 Education Facility, published last
  quality basic education in communities typically beyond the reach of the                                           quarter, found that the facility has
  government. The program currently funds MOE textbooks for grades 1-6,                                              not been completed or constructed in
  provides teacher training, and community-based education programs.791                                              accordance with contract requirements
  Two other components under design are: capacity-building for the MOE                                               and technical specifications; five years
  and Technical Vocational Education and Training (TVET) to meet unmet                                               after construction began, it cannot
  labor-market needs.792                                                                                             be turned over to Afghan authorities;
     BELT Community-Based Education (CBE) provides accelerated and                                                   and Afghan faculty and students were
  remedial education, allowing students to attend schools in remote loca-                                            using the facility although it was not
  tions outside the reach of MOE schools.793 A BELT CBE implementation                                               approved for occupancy.794
  letter signed with the MOE and MOF spells out substantive matters such as




  Report to the united states congress                     I   April 30, 2014                              191
                                                Economic and Social Development




This quarter, USAID reported that it recently   student targets, performance milestones, means of verification, and funding
awarded a contract to complete the              levels.796 However, USAID reported delays in the creation of an adequate
remaining work and correct the deficiencies     work plan and implementation schedule for the CBE milestone by MOE.797
at Balkh University. Construction activities       Other ongoing challenges are MOE’s capacity to design, procure, and
were expected to begin on April 10,             implement on-budget activities in a timely fashion; and the MOF’s improper
2014, for 180 calendar days and end             deduction of taxes on U.S. government assistance, which significantly
on October 10, 2014. USAID informed
                                                delayed USAID payments for on-budget activities. USAID has since worked
the Ministry of Higher Education to have
                                                with the MOE and MOF to establish procedures for granting tax-exempt
students and faculty vacate the facilities
during the construction period.795              status for on-budget activities and returning withheld taxes to the MOE’s
                                                special account for BELT activities.798
                                                   The implementation letter USAID signed with the MOE in 2011 to print
                                                approximately 50 million textbooks through the BELT program obligates
                                                the MOE to make efforts to ensure that “approved texts address the needs
                                                of women and girls.” However, a USAID-funded gender assessment found
                                                that boys and men are mentioned more than twice as often as girls and
                                                women, and pictured almost three times as often. The report data indicates
                                                clear discrepancies in mentioning, naming, and picturing women and men,
                                                as well as in the contexts the pictures appear. It concludes that gender-
                                                equity efforts in textbooks have done little to promote girls’ and women’s
                                                active participation in society.799

                                                Higher Education Project
                                                                                                             Total Estimated   Cumulative Disbursement,
                                                 Project Title                  Start Date       End Date        Cost ($)         as of 3/31/2014
                                                 Higher Education Project       2/23/2011        2/28/2014    $21,216,813            $18,548,120
                                                Source: USAID, response to SIGAR data call, 4/7/2014.


                                                Since the Higher Education Project (HEP) project began in 2006, it has sup-
                                                ported the Ministry of Higher Education in executing its National Higher
                                                Education Strategic Plan. HEP’s latest phase, extended to February 28,
                                                2014, provides technical assistance to increase ministry capacity through
                                                professional training, quality assurance and accreditation, curriculum
                                                review, university partnerships, academic policies, and regulation.800 This
                                                quarter, the Wolesi Jirga still did not approve the Higher Education Law,
                                                which grants, in part, public universities the autonomy to generate and
                                                manage revenues and donations. However, an associate-degree program for
                                                Kabul Polytechnic University was finalized with HEP’s assistance and the
                                                first class convened in January 2014.801

                                                American University of Afghanistan
                                                                                                             Total Estimated   Cumulative Disbursement,
                                                 Project Title                  Start Date       End Date        Cost ($)         as of 3/31/2014
                                                 American University of
                                                                                8/1/2013         7/31/2018     $40,000,000            $4,395,826
                                                 Afghanistan
                                                Source: USAID, response to SIGAR data call, 4/7/2014.




                                                  192                           Special inspector general         I   Afghanistan reconstruction
Economic and Social Development




  USAID’s second, five-year cooperative agreement is designed to continue
  support for developing the American University of Afghanistan’s (AUAF)
  English-language undergraduate and continuing-education programs. The
  four components of this agreement aim to strengthen academic and profes-
  sional development programs, expand programs for women, and increase
  financial self-sufficiency.802
     AUAF met its cost-sharing goals, collecting $3,265,765 in tuition and
  donations from November 1, 2013, to January 31, 2014.803 USAID also
  reported that AUAF’s female undergraduate population is 31.9%, as of
  March 2014. However, security remains a concern, and attracting and
  retaining female students continues to be a challenge.804

  Other Active USAID Education Programs
                                                                  Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date       End Date           Cost ($)         as of 3/31/2014
   Global Partnership for
                                  10/11/2012 3/31/2015              $2,500,000              $438,683
   Education
   Afghanistan Reads              6/1/2013         5/31/2014            380,000              300,000
   Afghanistan Technical
                                  6/15/2013        6/14/2015          1,000,000              475,000
   Vocational Institute
   Strengthening Education
                                  8/8/2010         6/30/2014         10,225,847            9,949,051
   in Afghanistan
   Afghan Tuition Scholarship
                                  8/21/2011        7/31/2017         7,384,665             5,311,003
   Program
  Source: USAID, response to SIGAR data call, 4/7/2014.




  Health
  Afghanistan has experienced significant improvements in its health indica-
  tors since 2002, according to USAID. Although the country still has one of
  the highest maternal- and child-mortality rates in the world, the USAID-
  funded Afghanistan Mortality Survey 2010 found that life expectancy has
  increased by as much as 20 years to an average of 62–64 years since 2002.805
  However, other institutions have suggested that the gains are more modest.
  The CIA World Factbook gives the Afghan life expectancy from birth as 50
  years, while the World Bank, which calculates life expectancy in 2012 at
  60.5, starts from a base of 55.26 years in 2001—a 5.25-year gain. Moreover,
  in 1991, the World Bank determined life expectancy at 49.4 years, show-
  ing that they measure life expectancy in Afghanistan growing by about 5–6
  years every decade, regardless of U.S. intervention efforts.806
     From FY 2002 through FY 2012, U.S. on- and off-budget assistance to
  Afghanistan’s health sector totaled $1.06 billion.807 On-budget assistance to
  the MOPH includes salary payments to workers in U.S.-funded facilities,
  medical and non-medical sup­plies, in-service training, minor renovations of
  facilities, medical equipment, and monitoring and supervision. Off-budget




  Report to the united states congress                    I   April 30, 2014                        193
                                          Economic and Social Development




                                          assistance includes activities to strengthen health systems, engage the pri-
                                          vate sector, and procure pharma­ceuticals and contraceptives.808
SIGAR Investigation                          USAID’s highest-priority programs in the health sector this quarter include:
In an ongoing investigation of MOPH’s     •	 Partnership Contracts for Health (PCH) Services
Grants and Contracts Management           •	 Health Policy Project (HPP)
Unit, which provides oversight and        •	 Leadership, Management, Governance Project (LMG)
guidance to NGOs that operate health
facilities, SIGAR is reviewing NGO        Partnership Contracts for Health Services
invoices, funding for closed health
                                                                                                       Total Estimated   Cumulative Disbursement,
facilities, solicitation of bribes, and    Project Title                  Start Date       End Date        Cost ($)         as of 3/31/2014
falsified timesheets.                      Partnership Contracts for
                                                                          7/20/2008        1/31/2015   $236,455,840           $164,648,037
                                           Health Services
                                          Source: USAID, response to SIGAR data call, 4/7/2014.



                                          The host-country contract Partnership Contracts for Health (PCH) pro-
                                          gram supports the MOPH’s efforts to provide the Basic Package of Health
                                          Services (BPHS) and the Essential Package of Hospital Services (EPHS)
                                          in 13 provinces. The United States supports 641 of these health facilities,
                                          including:809
                                           •	 5 Provincial Hospitals
                                           •	 27 District Hospitals
                                           •	 14 Comprehensive Health Centers+ (“+” indicates expanded services)
                                           •	 163 Comprehensive Health Centers
                                           •	 278 Basic Health Centers
                                           •	 144 Health Sub-Centers
                                           •	 10 Prison Health Facilities

                                              USAID also supports 6,402 health posts throughout Afghanistan—48.5% of
                                          all health posts. On average, over 1.3 million patients are served each month.810
                                              PCH delivers health care ranging from primary care to essential hospital
                                          services. It also supports the Community Midwifery Education program,
                                          which helps to increase the number of female healthcare workers and con-
                                          tributes to reducing maternal and child mortality.811
                                              USAID reports the growing health demands of communities cannot be
                                          addressed through existing BPHS and EPHS. Furthermore, turnover of
                                          PCH staff within the Grants and Contracts Management Unit, as well as
                                          parliament’s late approval of the national budget and deteriorating security
                                          conditions, have temporarily closed health facilities, delayed management
                                          activities, staff deployment, monitoring, and supervision activities.812
                                              PCH reports semi-annually to USAID.813 Yet, SIGAR’s audit of the MOPH
                                          found that USAID provides advance, incremental funding to cover opera-
                                          tional expenses every 45 days. These and other MOPH internal-control
                                          deficiencies put U.S. funds provided under the PCH program at risk of
                                          fraud, waste, and abuse. The audit also noted that USAID officials said




                                            194                           Special inspector general         I   Afghanistan reconstruction
Economic and Social Development




  they have not verified what, if any, actions the MOPH has taken to address
  these deficiencies.814
                                                                                                                SIGAR Inspection
  USAID Oversight                                                                                               A SIGAR inspection published last
  USAID funds a team within MOPH’s Grants and Contracts Management                                              quarter found that CERP-funded Salang
  Unit (GCMU), which is responsible for monitoring USAID-funded facilities                                      Hospital was not built in accordance
  through regular site visits and monthly reports from implementing NGOs.                                       with contract requirements and
  USAID reported that the GCMU team conducted 55 field monitoring visits                                        suffered from significant safety issues;
  in FY 2013, visiting 242—44% of total—health facilities supported by the                                      the deficiencies identified earlier by
  PCH program. The NGOs are supposed to provide routine monitoring of                                           U.S. Forces-Afghanistan were not
  each health facility and their monthly reports are supposed to document the                                   corrected; and the hospital was not
  number of active health facilities, and the number of staff on hand.815 The                                   providing many of its intended services.
  numbers of patients present, the type, quality, or outcome of health services                                 U.S. Forces-Afghanistan’s comments
  were not included.                                                                                            were published this quarter. For more
     For now USAID relies on the MOPH’s Health Management Information                                           information, see Section 2, page 36.
  System (HMIS) for Afghan health data, as it does for the MOE’s EMIS.
  Unlike with EMIS, USAID, through its Leadership, Management, and
  Governance (LMG) project is assisting the MOPH implement a data-quality
  assessment tool to better ensure that HMIS data is more complete, timely,
  and accurate. USAID also helped the MOPH conduct a data quality assur-
  ance sampling survey last quarter. Data collection was completed in
  October 2013 and LMG has issued a report in Dari.816 For more information
  about the LMG program, see page 130.

  Health Policy Project
                                                                   Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date      End Date             Cost ($)         as of 3/31/2014
   Health Policy Project          6/2012          10/2014            $28,000,000          $13,700,000
  Source: USAID, response to SIGAR data call, 3/31/2013.


  The Health Policy Project (HPP) is building the Ministry of Public Health’s
  (MOPH) capacity to address basic health needs through design, negotia-
  tion, and management of hospital public-private partnerships (PPPs). The
  project also aims to strengthen health financing and management of health
  resources, strengthen gender roles in health sector activities, and build the
  capacity of local private-sector organizations to partner with the Afghan
  government in generating demand for and delivery of high-quality health
  services through social marketing—an approach used to change people’s
  behaviors for the benefit of individuals and society.817
     This quarter, USAID said continued insecurity, especially leading up to
  the elections, affected aspects of HPP’s work, while the uncertainty sur-
  rounding the election process had few international investors interested
  in PPPs with the MOPH. At the same time, limited availability of quali-
  fied international consultants willing to travel to Afghanistan to help train




  Report to the united states congress                     I   April 30, 2014                         195
Economic and Social Development




MOPH’s PPP unit is delaying PPP activities, as is getting Afghan government
approval (district, provincial, and national) and security clearance to con-
duct gender-based violence workshops outside of Kabul.818
   Despite these challenges, HPP worked with the MOPH to develop a pro-
motional video encouraging private sector investment in three hospitals in
Kabul with an accompanying investment promotion event, and developed
two radio advertisements that discourage early marriage and gender dis-
crimination in health service delivery. HPP-supported training programs
also continued this quarter, centered on efforts aimed at reducing maternal
and child mortality, and on understanding and improving the role of advo-
cacy in private sector health policy development.819

Leadership, Management, and Governance Project
                                                             Total Estimated   Cumulative Disbursement,
 Project Title                  Start Date       End Date        Cost ($)         as of 3/31/2014
 Leadership, Management,
                                9/25/2011        9/24/2016    $26,000,000           $15,657,888
 and Governance
Source: USAID, response to SIGAR data call, 4/7/2014.


The Leadership, Management, Governance (LMG) Project works with the
MOPH and the MOE at the provincial and central levels to build lead­ership,
management, and governance capacity within Afghanistan’s health and
education systems. It also aims to improve transparency and account­ability
within the MOPH and helps both ministries manage on-budget assistance.820
   This quarter, Afghanistan’s Civil Service Commission granted human-
resources autonomy—the right to hire and fire staff—to Kabul-based
national hospitals.821 These hospitals’ internal staffing decisions were suffer-
ing from social and political interference that USAID said was challenging
LMG efforts to provide technical assistance.822 USAID also reported that 14
of these hospitals as well as a blood bank and clinic closed out their most
recent fiscal year with an average budget expenditure rate of 89%.823
   USAID also noted several challenges, including heavy reliance on con-
sultants and advisors by senior MOPH officials, inadequate MOPH response
to provincial health development needs, coordination of MOPH health
information components housed under multiple directorates, and field mon-
itoring limitations due to logistics and security issues.824




  196                           Special inspector general         I   Afghanistan reconstruction
Economic and Social Development




  Other Active USAID Health Programs
                                                                  Total Estimated   Cumulative Disbursement,
   Project Title                  Start Date       End Date           Cost ($)         as of 3/31/2014
   Strengthening
                                  8/28/2011        8/27/2015        $24,499,936           $12,933,500
   Pharmaceutical System
   Polio Eradication Activities   9/30/1996        9/30/2022         10,750,000             9,415,102
   TB = Field Support             9/29/2010        9/28/2015          4,600,000             1,252,370
   University Research =
                                  9/30/2009        9/29/2014         13,950,000            12,950,000
   Field Support
   USAID Afghanistan
   University Support and
                                  1/1/2014         12/31/2018        91,927,769               335,229
   Workforce Development
   Program
  Source: USAID, response to SIGAR data call, 4/7/2014.




  Communications
  Building an adequate national telecommunications infrastructure has
  been a top priority for the Afghan government since 2002. Over the past
  few years, the Information and Communication Technology (ICT) sec-
                                                                                                               SIGAR Special Project
  tor has grown to become one of the largest revenue-generating sectors                                        This quarter, SIGAR’s Office of Special
  for the Afghan government, contributing roughly $167 million annually in                                     Projects sent an inquiry letter to
  revenue.825 In a forthcoming economic impact study, USAID found the ICT                                      Secretary of State Kerry, Secretary of
  sector generated $1.8 billion in gross revenue in 2013, while employing an                                   Defense Hagel, General Austin, and
  estimated 138,500 Afghans.826                                                                                General Dunford expressing concern
     The MCIT has set priorities to increase mobile service coverage to the                                    about six communications towers built
  remaining 20% of the population without access, extend the fiber optic                                       in Afghanistan but never used. SIGAR’s
  cable infrastructure, implement faster internet service, introduce electronic                                letter requests information about the
  governance, and convert to a digital television system.827                                                   decision to build the towers, the cost to
     Afghan Telecom—wholly owned by the MCIT and whose board of direc-                                         maintain them, and the plans to turn
  tors is chaired by MCIT Minister Amirzai Sangin and composed of MCIT,                                        over the towers to DOD or the Afghan
  MOF officers, and other Afghan corporate representatives—is executing an                                     government. For more information, see
  aggressive expansion into the 3G market that will entail the construction of                                 Section 2, page 42.
  an expansive mobile tower network, including many in remote and danger-
  ous areas where private operators do not engage. Many of these towers will
  replace those lost due to the closure of Coalition bases and provide around-
  the-clock service, unlike private operators who turn their towers off at night
  due to insurgent threats.828
     Afghan Telecom’s relationship with the MCIT could constitute a conflict
  of interest and its sole national unified license could give it an unfair advan-
  tage over other telecom operators.829 TFBSO said Afghan Telecom struggles
  to meet reliability, responsiveness, and availability demands, and cited
  Afghan Telecom’s fiber-optic network access monopoly as a challenge and
  risk to the ICT sector.830 The World Bank said Afghan Telecom’s manage-
  ment of the national backbone network that ties together interconnecting




  Report to the united states congress                    I   April 30, 2014                         197
                                                      Economic and Social Development




                                                      networks helped keep internet prices artificially high compared to other
                                                      countries in the region.831

                                                      Mobile Money
                                                      In an overall effort to help build a sustainable, diverse, and inclusive finan-
                                                      cial sector, USAID has sought to expand access to credit in Afghanistan
    SIGAR Special Project                             through mobile money and branchless banking through its Financial Access
    This quarter, SIGAR wrote a letter of             for Investing in the Development of Afghanistan (FAIDA) project. Mobile
    inquiry to U.S. military commanders               money is the use of cell phones to store currency, pay for goods, and
    in Afghanistan about the current                  receive and transfer funds. Other aspects of FAIDA include agribusiness
    status of a 2009 MOI pilot program                activities and capacity-building efforts at Afghanistan’s central bank.832
    using mobile money technology to                     A USAID audit issued this quarter found that mobile money has not
    pay salaries to the Afghan National               caught on in Afghanistan. Less than 1%—10,642 of almost 21 million people
    Police. SIGAR uncovered information               with mobile phones—were active mobile-money users (conducting at least
    that Afghan police commanders began               12 transactions per month). USAID said the commercial viability of mobile
    registering their own phone numbers in            money in Afghanistan is 20% of mobile phone users using this service within
    lieu of those of their subordinates, and          four years. It went on to say that FAIDA did not significantly enhance the
    resumed their past practice of claiming           capacity and reach of mobile money, and 19 months into the project there
    a portion of the salaries paid out to             was no improvement. Additionally, so little information exists on mobile
    individual police officers. For more              money in Afghanistan, USAID found it difficult to determine what FAIDA’s
    information, see Section 2, page 46.              results should have been in this area. USAID is planning a financial audit
                                                      of this program in FY 2014.833 As of March 31, 2014, USAID has disbursed
                                                      $73,462,780 for FAIDA, of which mobile money is one part.834

                                                      Assistance to the Ministry of Communications and
                                                      Information Technology
                                                      The U.S. Defense Information System Agency supports Afghanistan’s tele-
                                                      communications efforts through its support to DOD’s Afghanistan Telecom
                                                      Advisory Team (TAT).835 The TAT trains, advises, and assists the MCIT in
                                                      several areas; however it does not have or use quantifiable metrics to track
                                                      progress or results. The TAT helped develop a business case analysis and
                                                      strategy to broaden mobile service coverage to remote locations; contrib-
                                                      uted to the development of a national cyber security strategy for Afghan
                                                      ministries and security institutions, and provided cyber security training;
From January 1–March, 31, 2014, eight                 helped identify specific sources of interference affecting cellular network
personnel were assigned to the TAT—six                frequencies, although a resolution is still pending; and organized a joint
civilian expeditionary workforce personnel            MCIT, TAT, and Mobile Network Operator active monitoring program of
and two contractors. Cost: $468,000.                  specific interference points, which identified several commercially gener-
Funding organization: Defense Information             ated interference issues that are pending Afghan governmental resolution.836
Systems Agency.                                          The TAT also facilitated meetings between the Afghanistan National
Source: DOD, response to SIGAR data call, 4/3/2014.   Army (ANA) and Afghan Telecom to prioritize ANA network expansion and
                                                      secure connections to the fiber optic network; advanced ministerial meet-
                                                      ings to solicit Ministry of Defense and MOI security support to the MCIT
                                                      in high risk areas; promoted discussions between Afghan Telecom and the




                                                       198                 Special inspector general   I   Afghanistan reconstruction
Economic and Social Development




  international business unit of Turkish Telekom centered around reducing
  the price of IP transit services and Afghan internet services; and met with
  the U.S. Embassy Kabul and CSTC-A to discuss the option of using mobile
                                                                                SIGAR Audit
  money to pay the remaining 20% of ANSF (approximately 70,000 personnel)       Last quarter SIGAR initiated a sector-
  still paid in cash.837                                                        wide audit of U.S. government efforts
      USAID obligated $3.9 million for its on-budget E-Government Resource      to assist in the reconstruction and
  Center project with the MCIT. No funds have yet been disbursed as             commercialization of Afghanistan’s
  of March 31, 2014. The project is designed to build the MCIT’s capac-         information and communication
  ity to provide timely, high-quality advice, training, consulting, and other   technology (ICT) sector.
  electronic-governance (E-Gov) and cyber-security services to Afghan min-
  istries.838 DOD’s TAT reported the E-Gov department at the MCIT started
  construction planning for a E-Gov complex. The staff at the complex will
  provide full electronic and in-person government services such as issuing
  e-taskera (electronic identity) cards and government licenses, and process-
  ing tax payments.839
      Additionally, USAID commissioned a $150,000 ICT sector economic
  impact study (2001–2018) so MCIT can better understand past and antici-
  pated economic effects, and plan accordingly.840




  Report to the united states congress   I   April 30, 2014            199
4   Other Agency
    Oversight




        201
                                               Other Agency Oversight




                                               Contents
                                               Other Agency Oversight Contents

                                               Completed Oversight Activities	                             204
                                               Ongoing Oversight Activities	                               209




Photo on previous page
Afghanistan’s population is more than three-quarters rural, but many
Afghans live in densely developed neighborhoods like this one in the
eastern part of the country. (ISAF Regional Command East photo)




                                                 202                   Special inspector general   I   Afghanistan reconstruction
               Other Agency Oversight




Other Agency Oversight
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
    The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbreviations
in place of full names; standardized capitalization, hyphenation, punc-
tuation, and preferred spellings; and third-person instead of first-person
construction.
    These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
 •	 Department of Defense Office of Inspector General (DOD OIG)
 •	 Department of State Office of Inspector General (State OIG)
 •	 Government Accountability Office (GAO)
 •	 U.S. Army Audit Agency (USAAA)
 •	 U.S. Agency for International Development Office of Inspector General
    (USAID OIG)




Report to the united states congress   I   April 30, 2014             203
                                                                Other Agency Oversight




                                                                Completed Oversight Activities
                                                                Table 4.1 lists the nine oversight projects related to reconstruction that par-
                                                                ticipating agencies reported as completed this quarter.
Table 4.1	


recently completed oversight activities of other U.S. agencies, as of March 31, 2014
 Agency          Report Number          Date Issued      Project Title
                                                         Independent Auditor’s Report on the Examination of DOD Execution of North Atlantic Treaty Organization (NATO)–Contributing Countries’
 DOD OIG         DODIG-2014-046         3/24/2014
                                                         Donations to Afghan National Army Trust Fund
                                                         Improvements Are Needed in Contractor Oversight, Mission Security, and Personnel Safety for the Afghanistan Rotary Wing Program
 DOD OIG         DODIG-2014-044         3/11/2014
                                                         Contracts
 DOD OIG         DODIG-2014-045         3/10/2014        Shindand Pilot Training Contracts
 GAO             GAO-14-304             3/26/2014        Federal Contracting: Noncompetitive Contracts Based on Urgency Need Additional Oversight
 GAO             GAO-14-448T            3/13/2014        Afghanistan: Key Oversight Issues for USAID Development Efforts
 GAO             GAO-14-229             2/14/2014        Contingency Contracting: State and USAID Made Progress Assessing and Implementing Changes, but Further Actions Needed
 USAID OIG       F-306-14-002-P         3/29/2014        Audit of USAID/Afghanistan’s Financial Access for Investing in the Development of Afghanistan Project
 USAID OIG       F-306-14-001-P         3/23/2014        Audit of USAID/Afghanistan’s Management Controls Over Overtime Compensation
 USAID OIG       F-306-14-001-S         2/6/2014         Review of USAID/Afghanistan’s Electoral Assistance Program
Sources: DOD OIG, response to SIGAR data call, 3/20/2014; State OIG, response to SIGAR data call, 3/5/2014; GAO, response to SIGAR data call, 3/17/2014; USAAA, response to SIGAR data
call 3/13/2014; USAID OIG, response to SIGAR data call, 3/21/2014.


                                                                U.S. Department of Defense Office of Inspector General
                                                                During this quarter, DOD OIG issued three reports related to Afghanistan
                                                                reconstruction.

                                                                Independent Auditor’s Report on the Examination of DOD
                                                                Execution of North Atlantic Treaty Organization (NATO)–
                                                                Contributing Countries’ Donations to Afghan National Army
                                                                Trust Fund
                                                                (Report No. DODIG-2014-046, Issued March 24, 2014)
                                                                DOD OIG examined the Department’s March 31, 2013, financial schedule
                                                                of NATO contributions to the Afghan National Army Trust Fund to deter-
                                                                mine whether the receipts and expenditures were fairly stated (accurately
                                                                reported). The Department was not able to provide a financial schedule that
                                                                was auditable (reconciled to supporting schedules and accounting data).
                                                                Therefore, DOD OIG was unable to provide an audit opinion (issued a dis-
                                                                claimer of opinion) and was not able to determine if the financial schedule
                                                                was accurate. Without audited statements, future donations from donor
                                                                countries may be at risk. The lack of a timely completed audit may nega-
                                                                tively affect the participation of NATO countries making donations to the
                                                                trust fund. NATO countries have contributed over $600 million to the trust
                                                                fund to date. DOD OIG identified internal control weaknesses related to the
                                                                financial reporting processes and noncompliance with laws and regulations.
                                                                However, DOD OIG did not identify any instances where contributions were
                                                                applied to contracts that conflicted with donors’ intent.




                                                                   204                             Special inspector general                   I   Afghanistan reconstruction
                Other Agency Oversight




Improvements Are Needed in Contractor Oversight, Mission
Security, and Personnel Safety for the Afghanistan Rotary
Wing Program Contracts
(Report No. DODIG-2014-044, Issued March 11, 2014)
This report is For Official Use Only.

Shindand Pilot Training Contracts
(Report No. DODIG-2014-045, Issued March 10, 2014)
This report is For Official Use Only.

U.S. Department of State Office of Inspector General–Middle
East Regions Operations
During this quarter, State OIG did not issue any reports related to
Afghanistan reconstruction.

Government Accountability Office
During this quarter, GAO issued three reports related to Afghanistan
reconstruction.

Federal Contracting: Noncompetitive Contracts Based on
Urgency Need Additional Oversight
(Report No. GAO-14-304, Issued March 26, 2014)
The Departments of Defense (DOD) and State and the U.S. Agency for
International Development (USAID) used the urgency exception to a lim-
ited extent, but the reliability of some federal procurement data elements
is questionable. For fiscal years 2010 through 2012, obligations reported
under urgent noncompetitive contracts ranged from less than one percent
to about 12 percent of all noncompetitive contract obligations. During that
time, DOD obligated $12.5 billion noncompetitively to procure goods and
services using the urgency exception, while State and USAID obligated $582
million and about $20 million respectively, almost exclusively to procure
services. Among the items procured were personal armor, guard services,
and communications equipment to support missions in Afghanistan and
Iraq. GAO found coding errors that raise concerns about the reliability
of federal procurement data on the use of the urgency exception. Nearly
half—28 of the 62 contracts in GAO’s sample—were incorrectly coded as
having used the urgency exception when they did not. GAO found that 20
of the 28 miscoded contracts were awarded using procedures that are more
simple and separate from the requirements related to the use of the urgency
exception. Ensuring reliability of procurement data is critical as these data
are used to inform procurement policy decisions and facilitate oversight.
   For the 34 contracts in GAO’s sample that were properly coded as
having used the urgency exception, agencies cited a range of urgent cir-
cumstances, primarily to meet urgent needs for combat operations or




Report to the united states congress    I   April 30, 2014             205
Other Agency Oversight




to avoid unanticipated gaps in program support. The justifications and
approvals—which are required by the Federal Acquisition Regulation
(FAR) to contain certain facts and rationale to justify use of the urgency
exception to competition—generally contained the required elements;
however, some were ambiguous about the specific risks to the government
if the acquisition was delayed.
    Ten of the 34 contracts in GAO’s sample had a period of performance of
more than one year—eight of which were modified after award to extend
the period of performance beyond one year. The FAR limits contracts using
the urgency exception to one year in duration unless the head of the agency
or a designee determines that exceptional circumstances apply. Agencies
did not make this determination for the 10 contracts. The FAR is not clear
about what steps agencies should take when a contract is modified after
award to extend the period of performance over one year. Some contract-
ing officials noted that these modifications are treated as separate contract
actions and would not require the determination by the head of the agency
or designee. Others considered them cumulative actions requiring the
determination. Standards for internal controls in the federal government
calls for organizations to maintain proper controls that ensure transparency
and accountability for stewardship of government resources. The Office of
Federal Procurement Policy—which provides government-wide policy on
federal contracting procedures—is in a position to clarify when the deter-
mination of exceptional circumstances is needed to help achieve consistent
implementation of this requirement across the federal government. Further,
under the urgency exception, the FAR requires agencies to seek offers from
as many vendors as practicable given the circumstances. For some con-
tracts in GAO’s sample, lack of access to technical data rights and reliance
on contractor expertise prevented agencies from obtaining competition.

Afghanistan: Key Oversight Issues for USAID Development Efforts
(Report No. GAO-14-448T, Issued March 13, 2014)
In 2010, the United States pledged to provide at least 50 percent of its
development aid directly through the Afghan government budget within
two years. This direct assistance is intended to help develop the capacity
of Afghan government ministries to manage programs and funds. Using
bilateral agreements and multilateral trust funds, the United States more
than tripled its direct assistance awards to Afghanistan in the first year of
the pledge, going from over $470 million in fiscal year (FY) 2009 to over
$1.4 billion in FY 2010. USAID’s most current reporting shows that for FY
2012 the agency provided over $800 million in mission funds through direct
assistance. In 2013, GAO reported that while USAID had established and
generally complied with various financial and other controls in its direct
assistance agreements, it had not always assessed the risks in providing
direct assistance before awarding funds. USAID has taken steps in response




 206                 Special inspector general    I   Afghanistan reconstruction
                Other Agency Oversight




to GAO’s recommendations to help ensure the accountability of direct
assistance funds provided to the Afghan government. Recently, the Special
Inspector General for Afghanistan Reconstruction (SIGAR) reported that
USAID determined that seven ministries were unable to manage direct
assistance funds without a risk mitigation strategy in place. However,
SIGAR reported that USAID approved assistance for the ministries, but did
not mitigate for all identified risks.
   USAID’s ability to conduct its mission and the challenges it has faced
in providing oversight and monitoring of its development projects in
Afghanistan are likely to be exacerbated by the planned withdrawal of
U.S. and Coalition combat troops from Afghanistan at the end of 2014.
The United States is currently transitioning from counterinsurgency and
stability operations toward more traditional diplomatic and development
activities. As U.S. combat troops withdraw from Afghanistan, provincial
reconstruction teams will continue to decline in number, thus challeng-
ing USAID’s opportunities to directly monitor and evaluate programs in
certain parts of Afghanistan. To prepare for the possible lack of USAID
personnel in the field, USAID has undertaken various planning efforts to
mitigate potential challenges. For example, USAID is planning to implement
a remote monitoring program that will use contractors to verify activities
that implementing partners have completed. As the United States plans for
the withdrawal of its combat troops and the transition from an integrated
civilian and military effort to a civilian-led presence, GAO believes it is
important to have safeguards in place to help ensure sustainment of the
gains made by U.S. and Coalition investments.

Contingency Contracting: State and USAID Made Progress
Assessing and Implementing Changes, but Further Actions Needed
(Report No. GAO-14-229, Issued February 14, 2014)
The Department of State and USAID identified a number of changes
needed to improve contract support in overseas contingency operations,
but have not completed implementation efforts. As required by the Fiscal
Year 2013 National Defense Authorization Act, both agencies determined
that their organizational structures were effective, though State created
a new regional Contract Management Office to better support contract-
ing efforts in Iraq. In October 2013, State approved a number of actions
to improve policies and procedures, including specific initiatives in
acquisition planning and risk management, among others, and intends to
institutionalize these changes in its Foreign Affairs Manual in 2014. State
generally has not, however, developed plans to assess the impact of these
initiatives. Federal internal control standards highlight the importance of
managers comparing actual performance to expected results. Accordingly,
continued management attention is needed to ensure that these efforts
achieve their intended objectives. USAID focused its efforts on areas such




Report to the united states congress   I   April 30, 2014            207
Other Agency Oversight




as improving contractor performance evaluations and risk management.
GAO found that some USAID missions and offices that operate in contin-
gency environments have developed procedures and practices, but USAID
did not consider whether these should be institutionalized agency-wide
because USAID officials interpreted the legislative requirement to include
only a review of agency-wide policies. As a result, USAID may have missed
opportunities to leverage its institutional knowledge to better support
future contingencies. USAID established a new working group in October
2013 to develop lessons learned, toolkits, and training and is expected to
complete its efforts in late 2014. This working group could further assess
the policies and procedures developed by the missions and offices, thus
potentially affording USAID an opportunity to better leverage its insti-
tutional knowledge. State and USAID have increased their acquisition
workforce by 53 and 15 percent, respectively, from their 2011 levels and
are in various stages of assessing their workforce needs for overseas con-
tingency operations. Per Office of Management and Budget guidance, both
agencies identified competency and skill gaps for their acquisition work-
force in their 2013 acquisition human capital plans. State’s 2013 plan noted
that in response to growth in contracting activity in areas such as Iraq and
Afghanistan, additional acquisition personnel are needed. In October 2013,
State’s Under Secretary for Management approved the formation of a mul-
tibureau working group that plans to further explore workforce needs for
current and future contingency operations. USAID’s 2013 plan cited its
greatest challenge as providing training for its acquisition workforce, as
many personnel have five years or less of contracting experience. USAID
established a training division in 2013 for its acquisition workforce. State
noted in its Section 850 report that it will increase its focus on conducting
risk assessments on the reliance, use, and oversight of contractors through
the establishment of risk management staff. USAID’s Section 850 report did
not address reliance on contractors, but in October 2013, USAID drafted a
revision to its planning policy that will require a risk assessment and miti-
gation plan associated with contractor performance of critical functions in
overseas contingency operations.

U.S. Army Audit Agency
The USAAA did not complete any audits related to Afghanistan reconstruc-
tion this quarter.

U.S. Agency for International Development Office of
Inspector General
During this quarter, USAID OIG completed three reports related to
Afghanistan reconstruction.




 208                Special inspector general   I   Afghanistan reconstruction
                   Other Agency Oversight




Audit of USAID/Afghanistan’s Financial Access for Investing
in the Development of Afghanistan Project
(Report No. F-306-14-002-P, Issued March 29, 2014)
Audit Objective:
•	 Is the FAIDA project building a sustainable, diverse, and inclusive
   financial sector that can generate and sustain quality employment by
   meeting the needs of micro, small, and medium enterprises throughout
   the country?

Review of USAID/Afghanistan’s Management Controls Over
Overtime Compensation
(Report No. F-306-14-001-P, Issued March 23, 2014)
Review Objective:
•	 Is USAID/Afghanistan following adequate control procedures for
   overtime compensation?

Audit of USAID/Afghanistan’s Electoral Assistance Program
(Report No. F-306-14-001-S, Issued February 6, 2014)
Audit Objectives:
•	 Has USAID’s assistance strengthened the ability of Afghan institutions
   and organizations to enable credible, inclusive, and transparent
   presidential and provincial council elections in 2014?
•	 Has USAID’s assistance contributed to Afghan solutions in the longer-
   term issues identified in OIG’s previous audit of electoral assistance?


Ongoing Oversight Activities
As of March 31, 2014, the participating agencies reported 28 ongo-
ing oversight activities related to reconstruction in Afghanistan. The
activities reported are listed in Table 4.2 and described in the following
sections by agency.
Table 4.2


ongoing oversight activities of other U.S. agencies, as of March 31, 2014
 Agency     Project Number          Date Initiated Project Title
                                                   Assessment of U.S. and Coalition Efforts to Develop the Logistics and Maintenance Sustainment of the
 DOD OIG    D2014-D00SPO-0129.000   3/6/2014
                                                   Afghan National Police
 DOD OIG    D2014-D000AS-0111.000   2/12/2014      Continuation of Audit of Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                   Government of Islamic Republic of Afghanistan’s Internal Controls Related to Direct Assistance Funding
 DOD OIG    D2014-D000FS-0088.000   12/24/2013
                                                   Provided by the DOD
                                                   Assessment of U.S. Government Efforts to Transition Security Cooperation and Assistance Activities Supporting
 DOD OIG    D2013-D00SPO-0181.000   6/13/2013      the Government of the Islamic Republic of Afghanistan from Department of Defense Authority to Department
                                                   of State Authority
                                                   Assessment of the U.S. Military and Coalition Efforts to Develop Effective and Sustainable Healthcare
 DOD OIG    D2013-D00SPO-0154.000   4/26/2013
                                                   Capability for the Afghan National Police
                                                                                                                                         Continued on next page




Report to the united states congress        I   April 30, 2014                             209
                                                               Other Agency Oversight




Table 4.2


ongoing oversight activities of other U.S. agencies, as of March 31, 2014
 Agency       Project Number                    Date Initiated Project Title
 DOD OIG      D2013-D000AS-0097.000             2/8/2013       Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                               Audit of Department of State Selection, Positioning, Training, and Oversight Responsibilities of Grants Officer
 DOS OIG      14AUD034                          2/11/2014
                                                               Representatives
                                                               Audit of the Bureau of Diplomatic Security Worldwide Protective Services Contract Task Order 10-Kabul
 DOS OIG      14AUD018                          1/27/2014
                                                               Embassy Security Force
 DOS OIG      14AUD014                          1/17/2014      Audit of Contract Closeout Process for Contracts in Afghanistan
                                                               Audit of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics Assistance to
 DOS OIG      13AUD082                          6/20/2013
                                                               Afghanistan
                                                               Audit of Bureau of Diplomatic Security Worldwide Protective Services Contract Task Orders 2, 9, and 11 for
 DOS OIG      13AUD52                           2/15/2013
                                                               Movement and Static Security Services in Jerusalem and Afghanistan
 GAO          321014                            2/19/2014      U.S. Civil-Military Strategic Framework for Afghanistan Update
 GAO          100003                            2/4/2014       Threats to Locally Employed Staff
 GAO          320997                            10/22/2013 U.S. Civilian Presence in Afghanistan
 GAO          351851                            8/16/2013      Drawdown of DOD Contractors in Afghanistan
 GAO          351854                            8/15/2013      U.S. Forces Reductions Impact on DOD’s Advising Mission in Afghanistan
 GAO          320990                            7/27/2013      Construction Efforts at the U.S. Embassy in Kabul
 GAO          320985                            7/2/2013       Use of Foreign Labor Contractors Abroad
 GAO          320978                            5/29/2013      State Department’s Management of Grants and Cooperative Agreements
 GAO          351819                            5/9/2013       Costs of DOD’s Transition to the Afghan Public Protection Force
 GAO          351805                            3/1/2013       DOD Container Management
 GAO          351798                            1/22/2013      Afghanistan Equipment Reduction and Base Closures
 USAID
              FF100414                          3/10/2014         Review of USAID/Afghanistan’s Financial Management Controls for Government to Government Assistance
 OIG
 USAID
              FF100914                          12/18/2013        Review of USAID/Afghanistan’s Activities and Sustainability of Operations at Tarakhil Power Plant
 OIG
 USAID                                                            Review of USAID/Afghanistan’s Basic Education, Literacy, and Technical-Vocational Education and Training
              FF100314                          11/14/2013
 OIG                                                              (BELT) Project (suspended)
 USAID
              FF100114                          10/16/2013        Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program II
 OIG
 USAID
              FF100712                          11/29/2012        Audit of USAID/Afghanistan’s Transition Plans (suspended)
 OIG
 USAID                                                            Follow-up on a DOD Audit of Commander’s Emergency Response Program Funds Provided to USAID/
              FF101712                          10/25/2011
 OIG                                                              Afghanistan
Sources: DOD OIG, response to SIGAR data call, 3/20/2014; State OIG, response to SIGAR data call, 3/5/2014; GAO, response to SIGAR data call, 3/17/2014; USAAA, response to SIGAR data
call 3/13/2014; USAID OIG, response to SIGAR data call, 3/21/2014.



                                                               Department of Defense Office of Inspector General
                                                               The Department of Defense continues to face many challenges in executing
                                                               its Overseas Contingency Operations (OCO). The Department of Defense
                                                               Office of Inspector General (DOD OIG) has identified priorities based on
                                                               those challenges and high risks. In FY 2014, DOD OIG oversight focuses
                                                               on overseas contingency operations with a majority of agency resources
                                                               supporting operations in Afghanistan. The DOD OIG focus in Afghanistan
                                                               primarily continued in the areas of the management and execution of the
                                                               Afghanistan Security Forces Fund, military construction, safety of person-
                                                               nel, and the administration and oversight of contracts supporting coalition




                                                                  210                           Special inspector general                I   Afghanistan reconstruction
                Other Agency Oversight




forces. In addition, DOD OIG oversight in Afghanistan includes a focus on
matters pertaining to the drawdown of forces in Afghanistan and transition
of operations.
    A top priority continues to be the monitoring and oversight of acqui-
sition and contracting processes focused on training, equipping, and
sustaining Afghanistan Security Forces (ASF). The DOD OIG planned
oversight efforts address the administration and oversight of contracts
for equipping ASF, such as rotary wing aircraft. The DOD OIG will also
continue to review and assess the Department’s efforts to train and equip
Afghan National Security Forces.
    The DOD OIG led Southwest Asia Joint Planning Group assists in the
coordination and deconfliction of Federal and DOD OCO related oversight
activities. The DOD OIG continues to execute its portion of the FY 2014
Comprehensive Oversight Plan for Southwest Asia.
    DOD OIG’s ongoing OEF related oversight addresses accountability of
property; improper payments; contract administration and management
including construction projects; transition planning; logistical distribution
within Afghanistan; retrograde operations, health care; and acquisition plan-
ning and controls over funding for ASF.

Assessment of U.S. and Coalition Efforts to Develop the
Logistics and Maintenance Sustainment of the Afghan
National Police
(Project No. D2014-D00SPO-0129.000, Initiated March 6, 2014)
The DOD OIG is assessing the planning and execution of Afghan National
Police (ANP) logistics, supply, and maintenance systems developed and
implemented by U.S. and Coalition forces in Afghanistan. Specifically, DOD
OIG plans to evaluate:
 •	 whether U.S. and Coalition goals, objectives, plans, guidance, and
    resources are sufficient to effectively develop, manage, and transition
    logistics, supply, and maintenance systems to the ANP in 2014,
 •	 U.S. and Coalition plans to transition ANP logistics and maintenance
    processes to Afghan lead and to mitigate the impact of delays in supply
    transition, and
 •	 whether U.S. and Coalition plans and resources will effectively support
    ANP logistics, supply, and maintenance systems sustainment and
    continued development beyond 2014.

Continuation of Audit of Mi-17 Cockpit Modifications Under
Task Order W58RGZ-09-D-0130-0102
(Project No. D2014-D000AS-0111.000, Initiated February 12, 2014)
This is a continuation of Project No. D2013-D000AS-0097.000, “Follow-on
Audit of Mi-17 Cockpit Modifications Under Task Order W58RGZ-
09-D-0130-0102,” which began in February 2013. The DOD OIG is




Report to the united states congress   I   April 30, 2014             211
Other Agency Oversight




determining whether DOD officials properly awarded and administered
indefinite-delivery, indefinite-quantity contract W58RGZ-09-D-0130, Task
Order 0102, in accordance with federal and DOD regulations and policies.
The contract was for the modification of DOD-owned Mi-17 variant aircraft.
The prior project (D2013-D000AS-0097.000) primarily addressed the con-
tract administration of Mi-17 cockpit modifications under Task Order 0102.
This project will primarily address the award of Task Order 0102.

Government of Islamic Republic of Afghanistan’s Internal
Controls Related to Direct Assistance Funding Provided by
the DOD
(Project No. D2014-D000FS-0088.000, Initiated December 24, 2013)
The DOD OIG is determining whether the Government of Islamic Republic
of Afghanistan’s (GIROA) Ministries of Defense and Interior have controls
in place to ensure a transparent and accountable fiscal process for the
direct funding provided for the sustainment of the Afghan National Security
Force. The Combined Security Transition Command -Afghanistan (CSTC-A)
requested this audit.

Assessment of U.S. Government Efforts to Transition
Security Cooperation and Assistance Activities Supporting
the Government of the Islamic Republic of Afghanistan
from Department of Defense Authority to Department of
State Authority
(Project No. 2013-D00SPO-0181.000, Initiated June 13, 2013)
DOD OIG is assessing plans and activities that have been accomplished or
implemented thus far to transfer the security cooperation and assistance
activities in Afghanistan from DOD to State Department authority, and
to make recommendations to facilitate or improve the transition of these
functions to the State Department in accordance with existing security
cooperation guidance and security assistance regulations that may pertain.
Specific objectives are to determine whether:
 •	 U.S. government goals, objectives, plans, and guidance are sufficient,
    issued and operative for the transition of CSTC-A security assistance
    activities in Afghanistan from DOD authority to a security cooperation
    organization under Department of State authority.
 •	 Ongoing efforts by U.S. forces to provide security assistance to GIROA
    are adversely impacted by the implementation of drawdown plans for
    U.S. Forces-Afghanistan (USFOR-A) and the transition of International
    Security Assistance Force (ISAF) and ISAF Joint Command (IJC) to a
    command organization under NATO authority.




  212                 Special inspector general    I   Afghanistan reconstruction
                 Other Agency Oversight




Assessment of the U.S. Military and Coalition Efforts to
Develop Effective and Sustainable Healthcare Capability for
the Afghan National Police
(Project No. D2013-D00SPO-0154.000, Initiated April 26, 2013)
DOD OIG is assessing the progress of U.S. and Coalition efforts to develop
effective and sustainable healthcare capability in support of the ANP.
Specifically, the assessment will determine whether:
•	 plans to develop effective and sustainable healthcare services to the
   ANP are sufficiently comprehensive, coordinated with GIROA, and
   being implemented so as to meet the timeline for transition goals,
•	 advisory resources are sufficient and appropriate in order to develop
   the healthcare services necessary to support the medical needs of the
   ANP, and
•	 developmental efforts are on schedule and effective in ensuring there is
   adequate medical capability to provide proper medical support to ANP
   personnel from the point of injury to the next required level of care.

Mi-17 Cockpit Modifications under Task Order
W58RGZ-09D-0130-0102
(Project No. D2013-D000AS-0097.000, Initiated February 8, 2013)
DOD OIG is conducting a follow-on audit to the Audit of Task Orders
for Mi-17 Overhauls and Cockpit Modifications (Project No. D2012-
D000AS-0075.000). In this follow-on audit, DOD OIG is determining whether
DOD officials properly awarded and administered indefinite-delivery,
indefinite-quantity contract W58RGZ-09-D-0130, Task Order 0102, for the
modification of DOD-owned Mi-17 variant aircraft in accordance with fed-
eral and DOD regulations and policies. Under the prior project, DOD OIG
reviewed the procurement of overhaul services and parts for Pakistan-
owned Mi-17 variant aircraft, awarded by modification to Task Order 0102.

Department of State Office of Inspector General–Middle
East Regions Operations
State OIG has five ongoing projects this quarter related to Afghanistan
reconstruction.

Audit of Department of State Selection, Positioning,
Training, and Oversight Responsibilities of Grants Officer
Representatives
(Project No. 14AUD034, Initiated February 11, 2014)
Objective: To determine the extent to which the Department’s grant officer
representatives (GORs) are selected, positioned, and trained to successfully
perform their assigned grants administration and oversight responsibilities.




Report to the united states congress    I   April 30, 2014            213
Other Agency Oversight




Audit of the Bureau of Diplomatic Security Worldwide
Protective Services Contract Task Order 10-Kabul Embassy
Security Force
(Project No. 14AUD018, Initiated January 27, 2014)
Objective: Determine whether the Department of State’s administration and
oversight of the Worldwide Protective Services (WPS) task order for the
Kabul Embassy Security Force has been effective.

Audit of Contract Closeout Process for Contracts in Afghanistan
(Project No. 14AUD014, Initiated January 17, 2014)
Objective: To determine whether the Department of State was following
prescribed procedures when closing out local and regional contracts in
Afghanistan.

Audit of Bureau of International Narcotics and Law
Enforcement Affairs Counternarcotics Assistance to
Afghanistan
(Project No. 13AUD082, Initiated June 20, 2013)
The audit objective is to evaluate the management and oversight of the
Bureau of International Narcotics and Law Enforcement Affairs (INL)
counternarcotics program for Afghanistan, including whether INL has
achieved intended and sustainable outcomes and whether INL has applied
adequate internal controls over the administration of direct assistance for
the Afghanistan counternarcotics program.

Audit of Bureau of Diplomatic Security Worldwide Protective
Services Contract Task Orders 2, 9, and 11 for Movement and
Static Security Services in Jerusalem and Afghanistan
(Project No. 13AUD52, Initiated February 15, 2013)
The overall audit objective is to determine the effectiveness of the
Department’s management and oversight of the WPS Contract Task Orders
2, 9, and 11. Specifically, the audit team will determine whether the contrac-
tor is performing in accordance with contract terms and conditions, the
contractor’s work is adequately monitored, and invoice review and approval
procedures are in place to ensure accuracy and completeness of costs.

Government Accountability Office
GAO has 11 ongoing projects this quarter related to Afghanistan
reconstruction

U.S. Civil-Military Strategic Framework for Afghanistan Update
(Project No. 321014, Initiated February 19, 2014)
The U.S. Civil-Military Strategic Framework for Afghanistan is intended to
articulate the strategic vision guiding U.S. government efforts to achieve




  214                  Special inspector general     I   Afghanistan reconstruction
                 Other Agency Oversight




U.S. national goals and to facilitate U.S. civilian and military cooperation
and partnership in Afghanistan. The framework, originally known as the
Integrated Civilian-Military Campaign Plan, was first signed in August 2009.
Section 1220 of the National Defense Authorization Act for FY 2013 requires
GAO to report on any substantial updates to the campaign plan/frame-
work for Afghanistan. GAO will answer: How has the 2013 update to the
Afghanistan framework changed from the October 2012 version?

Threats to Locally Employed Staff
(Project No. 100003, Initiated February 4, 2014)
U.S. agencies employ more than 44,000 locally employed staff (LES)—
Foreign Service nationals and U.S. citizens—at over 270 posts worldwide.
LES are a key element of the U.S. presence at these posts, often perform-
ing a range of programmatic, security, monitoring, maintenance, and other
duties. However, due to their association with the United States, LES can be
subject to harassment, intimidation, and death threats. Threats to LES are
particularly acute at posts in countries with active terrorist networks and
violent extremist groups, such as Afghanistan, Iraq, Pakistan, and Yemen.
Such threats can potentially hamper U.S. efforts to recruit and retain LES.
GAO was asked to review U.S. government efforts to monitor, share infor-
mation about, and mitigate threats to LES serving at high-threat posts. Key
questions: (1) What is the nature and extent of the threat that terrorist net-
works and other violent extremist groups pose to LES, including the number
of threats and attacks; (2) To what extent have U.S. agencies established
mechanisms to collect and disseminate information about threats to LES
in an effective and timely manner; (3) What steps, if any, have U.S. agencies
taken to mitigate threats to LES at high-threat posts and what barriers, if any,
exist to mitigating such threats; and (4) How have these threats and attacks
affected the recruitment and retention of LES at high-threat posts?

U.S. Civilian Presence in Afghanistan
(Project No. 320997, Initiated October 22, 2013)
U.S. civilian agencies in Afghanistan are in the process of planning for the
transition by the end of 2014 from a predominantly military presence in
Afghanistan to a civilian presence led by the Department of State. GAO
will review: (1) How U.S. civilian agencies have planned for the transition,
including post-transition programs and the staffing, security, and logistics
needed to support them; (2) The estimated costs to maintain a civilian
presence in Afghanistan after the transition; and (3) The factors that could
affect these plans and any associated cost estimates.




Report to the united states congress     I   April 30, 2014              215
Other Agency Oversight




Drawdown of DOD Contractors in Afghanistan
(Project No. 351851, Initiated August 16, 2013)
DOD has spent billions of dollars on contract support in Afghanistan and
continues to employ many contractors to support its troops in Afghanistan.
As DOD begins its drawdown of forces, which is to be completed by
December 2014, it must also begin to drawdown contractors. GAO will
determine: (1) The extent to which DOD is applying lessons learned from
Iraq as it draws down contractors, and their equipment in Afghanistan; (2)
The processes established by DOD and U.S. Forces-Afghanistan (USFOR-A)
to drawdown its contractor workforce and associated equipment; (3) How
DOD is considering cost for operational contract support drawdown deci-
sions; and (4) What approach has USFOR-A taken to plan for the use of
contractors post-2014?

U.S. Forces Reductions Impact on DOD’s Advising Mission in
Afghanistan
(Project No. 351854, Initiated August 15, 2013)
As part of the U.S. plan to end the combat mission in Afghanistan by
December 2014, DOD is reducing U.S. force levels to 34,000 troops by
February 2014. Beyond 2014, remaining U.S. forces will advise Afghan
forces, conduct counterterrorism activities, and support other U.S. agen-
cies. Key questions: (1) To what extent has DOD identified the composition
and missions of U.S. forces as it makes force reductions over the next year;
(2) To what extent has DOD identified the support and security require-
ments for the remaining U.S. forces that will be engaged in the advising and
additional missions as reductions occur; (3) What challenges, if any, does
DOD face in providing support and security for the advising and other mis-
sions, and to what extent has it taken steps to mitigate any challenges?

Construction Efforts at the U.S. Embassy in Kabul
(Project No. 320990, Initiated July 24, 2013)
Since 2009 the State Department has awarded two contracts totaling about
$700 million to construct additional housing and office facilities at the U.S.
Embassy in Kabul, Afghanistan. State has since terminated the first contract
and expanded the scope, value, and timing of the second. Key questions: (1)
What progress has State made in constructing new U.S. embassy facilities
in Kabul since 2009, and what factors have contributed to any scope, cost,
or schedule changes; and (2) To what extent does the present expansion
match projected needs? 

Use of Foreign Labor Contractors Abroad
(Project No. 320985, Initiated July 2, 2013)
The United States relies on contractors to provide diverse services over-
seas. Despite prohibiting the use of trafficked labor for all U.S. government




  216                   Special inspector general   I   Afghanistan reconstruction
                 Other Agency Oversight




contracts, concerns remain about the protections afforded to foreign work-
ers recruited by U.S. contractors because prevailing practices in some host
countries diverge from U.S. standards. Key questions: (1) What are the
practices of U.S. government contractors in recruiting foreign workers for
work outside the United States? (2) What legal and other authorities do U.S.
agencies identify as providing protection to foreign workers employed by
U.S. government contractors outside the United States? (3) To what extent
do federal agencies provide oversight and enforcement of such authorities?

State Department’s Management of Grants and Cooperative
Agreements
(Project No. 320978, Initiated May 29, 2013)
Grants and cooperative agreements are key tools the Department of State
uses to advance foreign policy. In FY12, State awarded approximately $1.6
billion worldwide in grants and cooperative agreements to nongovernmen-
tal organizations and other implementing partners. Key questions: (1) What
policies and procedures does State have in place to administer and oversee
grant and cooperative agreement awards; and (2) To what extent do State’s
internal controls provide reasonable assurance that these funds are being
used as intended in select countries? 

Costs of DOD’s Transition to the Afghan Public Protection Force
(Project No. 351819, Initiated May 9, 2013)
The Afghan Public Protection Force (APPF) began assuming security
responsibilities in March 2012. Private security contractors (PSCs), used
to secure military bases, were to have been replaced by either the APPF or
military personnel by March 2013. Key questions: To what extent has: (1)
DOD implemented the transition of security services from private security
contractors to the APPF; (2) DOD developed cost estimates related to the
transition to the APPF and what actions are being taken to minimize these
costs; and (3) DOD assessed the current and potential security risks to U.S.
personnel and logistics as a result of the transition to the APPF and taken
measures to minimize these risks?

DOD Container Management
(Project No. 351805, Initiated March 1, 2013)
Shipping container management has been a longstanding challenge for
DOD. GAO estimates that DOD will pay over $1 billion in detention fees
from 2003 through 2013 for using commercial shipping containers beyond
the time frame allotted in its contract with commercial shippers during
operations in Iraq and Afghanistan. Key questions: (1) To what extent has
DOD implemented corrective actions to address container management
challenges affecting shipping containers used in the Afghan theater; and




Report to the united states congress     I    April 30, 2014          217
Other Agency Oversight




(2) To what extent has DOD assessed the effect of its corrective actions on
the accumulation of detention fees?

Afghanistan Equipment Reduction and Base Closures
(Project No. 351798, Initiated January 22, 2013)
DOD has stated that it will cost at least $5.7 billion to draw down an esti-
mated 90,000 containers of material and 50,000 vehicles from Afghanistan.
Given the large number of bases and difficult conditions in Afghanistan,
an efficient and cost-effective drawdown will likely depend on DOD know-
ing how much equipment it has in Afghanistan and making cost-effective
decisions about its disposition. Key Questions: (1) To what extent has
DOD implemented base-closure procedures, including the accountability
of equipment, to meet command-established objectives and timelines; (2)
To what extent are command-established objectives and timelines for the
Afghanistan equipment drawdown supported by DOD facilities and pro-
cesses; and (3) To what extent is DOD using cost and other information to
help ensure it is making cost-effective disposition decisions?

U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.

U.S. Agency for International Development Office of
Inspector General
This quarter, USAID OIG has six ongoing audits related to reconstruction
initiatives. Two projects included in the list below have been suspended.

Review of USAID/Afghanistan’s Financial Management
Controls for Government to Government Assistance
(Project No. FF100414, Initiated March 10, 2014)
Review Objective:
•	 Are financial management controls associated with USAID/
   Afghanistan’s government to government assistance designed and
   operating effectively?

Review of USAID/Afghanistan’s Activities and Sustainability
of Operations at Tarakhil Power Plant
(Project No. FF100914, Initiated December 18, 2013)
Review Objective:
•	 Is the Tarakhil Power Plant being operated and maintained in a
   sustainable manner that will protect USAID’s investment in this facility?




  218                  Special inspector general   I   Afghanistan reconstruction
                 Other Agency Oversight




Review of USAID/Afghanistan’s Basic Education, Literacy, and
Technical-Vocational Education and Training (BELT) Project
(Project No. FF100314, Initiated November 14, 2013)
Review Objective:
•	 Is USAID/Afghanistan improving access to quality basic education,
   literacy, technical-vocational education, and training for girls and other
   marginalized populations?
   (This review is currently suspended to de-conflict with SIGAR and GAO
oversight activities.)

Audit of USAID/Afghanistan’s Afghan Civilian Assistance
Program II
(Project No. FF100114, Initiated October 16, 2013)
Audit Objective:
•	 Is USAID/Afghanistan’s assistance through the Afghan Civilian
   Assistance Program II reaching its intended beneficiaries and having its
   intended impact?

Audit of USAID/Afghanistan’s Transition Plans
(Project No. FF100712, Initiated November 29, 2012)
Audit Objective:
•	 Does USAID/Afghanistan have plans to address contingencies related
   to the U.S. government’s transition in Afghanistan? (Note: this audit is
   currently suspended).

Follow-up on a DOD Audit of the Commander’s Emergency
Response Program Funds Provided to USAID/Afghanistan
(Project No. FF101712, Initiated October 25, 2011)
Audit Objective:
•	 To determine whether the CERP funds provided by DOD to USAID/
   Afghanistan were used for their intended purposes, and in compliance
   with applicable laws and regulations.




Report to the united states congress    I   April 30, 2014             219
                                     Appendices and Endnotes Contents

                                     Appendix A 	                                                  222
                                     Appendix B 	                                                  228
                                     Appendix C	                                                   230
                                     Appendix D	                                                   236
                                     Appendix E	                                                   242
                                     Endnotes	248




                                                                               The Official Seal of SIGAR
                                        The official seal of SIGAR represents the coordination of efforts
   between the United States and Afghanistan to provide accountability and oversight of reconstruction
activities. The phrase along the top side of the seal’s center is in Dari and means “SIGAR.” The phrase
                     along the bottom side of the seal’s center is in Pashtu and has the same meaning.




                                        220                  Special inspector general     I   Afghanistan reconstruction
appendices
and Endnotes




       221
                                   Appendices




                                   appendix a
                                   cross-reference of report to
                                   statutory requirements
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation,
                                   the National Defense Authorization Act for Fiscal Year 2008, Pub. L. No.
                                   110-181, § 1229 (Table A.1), and to the semiannual reporting requirements
                                   prescribed for inspectors general more generally under the Inspector
                                   General Act of 1978, as amended (5 U.S.C. App. 3) (Table A.2).

Table A.1


cross-reference to sigar quarterly reporting requirements under pub. l. no. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D




                                      222                          Special inspector general            I   Afghanistan reconstruction
                                                                     Appendices




Table A.1 (Continued)


cross-reference to sigar quarterly reporting requirements under pub. l. no. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(F)           The monitoring and review of the effectiveness of United States         Monitoring and review              Audits
                                coordination with the Governments of Afghanistan and other donor        as described
                                countries in the implementation of the Afghanistan Compact and
                                the Afghanistan National Development Strategy
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay
Reports




Report to the united states congress              I   aPRIL 30, 2014                                   223
                                    Appendices




Table A.1 (Continued)


cross-reference to sigar quarterly reporting requirements under pub. l. no. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                     Report Section
Section 1229(i)(1)      QUARTERLY REPORTS —                                                      Report – 30 days after the       Full report
                        Not later than 30 days after the end of each fiscal-year quarter,        end of each calendar quarter     Appendix B
                        the Inspector General shall submit to the appropriate commit-
                        tees of Congress a report summarizing, for the period of that            Summarize activities of the
                        quarter and, to the extent possible, the period from the end of          Inspector General
                        such quarter to the time of the submission of the report, the
                        activities during such period of the Inspector General and the           Detailed statement of all
                        activities under programs and operations funded with amounts             obligations, expenditures, and
                        appropriated or otherwise made available for the reconstruction of       revenues
                        Afghanistan. Each report shall include, for the period covered by
                        such report, a detailed statement of all obligations, expenditures,
                        and revenues associated with reconstruction and rehabilitation
                        activities in Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures     Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and           Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-      Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and       Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and       Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of            Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization     Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details        Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition




                                       224                          Special inspector general             I   Afghanistan reconstruction
                                                                                  Appendices




Table A.1 (Continued)


cross-reference to sigar quarterly reporting requirements under pub. l. no. 110-181, § 1229
Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
Section 1229(i)(3)                       PUBLIC AVAILABILITY —                                                      Publish report as directed at         Full report
                                         The Inspector General shall publish on a publicly available                www.sigar.mil
                                         Internet website each report under paragraph (1) of this subsec-
                                                                                                                    Dari and Pashtu translation
                                         tion in English and other languages that the Inspector General
                                                                                                                    in process
                                         determines are widely used and understood in Afghanistan
Section 1229(i)(4)                       FORM —                                                                     Publish report as directed            Full report
                                         Each report required under this subsection shall be submitted
                                         in unclassified form, but may include a classified annex if the
                                         Inspector General considers it necessary
Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                         subsection (i) to the Secretary of State and the Secretary of
                                         Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
or rebuild physical infrastructure of Afghanistan.

To establish or reestablish a political or societal institution of Afghanistan.

To provide products or services to the people of Afghanistan.”




Report to the united states congress                         I   aPRIL 30, 2014                                 225
                                          Appendices




Table A.2


cross-reference to semiannual reporting requirements under
section 5 of the ig act of 1978, as amended (5 u.s.c. app. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                            226                         Special inspector general              I   Afghanistan reconstruction
                                                                      Appendices




Table A.2 (Continued)


cross-reference to semiannual reporting requirements under
section 5 of the ig act of 1978, as amended (5 u.s.c. app. 3) (“IG ACT”)
IG Act Section        IG Act Language                                      SIGAR Action                                        Section
Section 5(a)(11)      A description and explanation of the reasons for     Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      any significant revised management decision          member reports                                      members

                                                                           Explain SIGAR audit reports in which significant    None
                                                                           revisions have been made to management
                                                                           decisions
Section 5(a)(12)      Information concerning any significant manage-       Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      ment decision with which the Inspector General is    member reports                                      members
                      in disagreement
                                                                           Explain SIGAR audit reports in which SIGAR          No disputed decisions
                                                                           disagreed with management decision                  during the reporting period
Section 5(a)(13)      Information described under [Section 804(b)] of      Extract pertinent information from SWA/JPG          See reports of SWA/JPG
                      the Federal Financial Management Improvement         member reports                                      members
                      Act of 1996 (instances and reasons when an
                      agency has not met target dates established in a     Provide information where management has not        No disputed
                      remediation plan)                                    met targets from a remediation plan                 decisions during the report-
                                                                                                                               ing period
Section 5(a)(14)(A)   An Appendix containing the results of any peer       SIGAR has posted in full the results of, and        Posted in full at
                      review conducted by another Office of Inspector      reports from, SIGAR’s most recent peer reviews      www.sigar.mil
                      General during the reporting period; or              (completed during July 2010, prior to the current
                                                                           reporting period), on its Web site
Section 5(a)(14)(B)   If no peer review was conducted within that report- 15 July 2010                                         Posted in full at
                      ing period, a statement identifying the date of the                                                      www.sigar.mil
                      last peer review conducted by another Office of
                      Inspector General
Section 5(a)(15)      A list of any outstanding recommendations from       None – all peer review recommendations              Recommendations and
                      any peer review conducted by another Office of       effectively addressed, and remedial measures        related materials posted in
                      Inspector General that have not been fully imple-    implemented, by 30 September 2010                   full at www.sigar.mil
                      ment, including a statement describing the status
                      of the implementation and why implementation is
                      not complete
Section 5(a)(16)      Any peer reviews conducted by SIGAR of another       Not applicable (SIGAR did not conduct, or           SIGAR Oversight
                      IG Office during the reporting period, including a   participate in the conduct, of a peer review of
                      list of any outstanding recommendations made         another Office of Inspector General during the
                      from any previous peer review . . . that remain      reporting period)
                      outstanding or have not been fully implemented




Report to the united states congress               I   aPRIL 30, 2014                               227
                                                                Appendices



                                                                appendix B
                                                                U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                                Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                                per year, as of March 31, 2014.

                                                                Table B.1


                                                                 U.S. Funding Sources                                            agency            Total     FY 2002
                                                                 SECURITY
                                                                   Afghanistan Security Forces Fund (ASFF)                       DOD             57,325.44       0.00
                                                                   Train & Equip (DOD)                                           DOD                440.00       0.00
                                                                   Foreign Military Financing (FMF)                              State            1,059.14      57.26
                                                                   International Military Education and Training (IMET)          State               14.82       0.18
                                                                 Total - Security                                                               58,839.40      57.44
                                                                 GOVERNANCE & DEVELOPMENT
                                                                   Commander's Emergency Response Program (CERP)                 DOD              3,669.00       0.00
                                                                   Afghanistan Infrastructure Fund (AIF)                         DOD              1,223.00       0.00
                                                                   Task Force for Business and Stability Operations (TFBSO)      DOD                804.39       0.00
                                                                   Economic Support Fund (ESF)                                   USAID           17,533.05     117.72
                                                                   Development Assistance (DA)                                   USAID              885.55      18.30
                                                                   Afghanistan Freedom Support Act (AFSA)                        DOD                550.00       0.00
                                                                   Child Survival & Health (CSH + GHAI)                          USAID              554.58       7.52
                                                                   Commodity Credit Corp (CCC)                                   USAID               31.65       7.48
                                                                   USAID (other)                                                 USAID               49.26       0.00
                                                                   Non-Proliferation, Antiterrorism, Demining & Related (NADR)   State              650.99      44.00
                                                                   Provincial Reconstruction Team Advisors                       USDA                 5.70       0.00
                                                                   Treasury Technical Assistance                                 Treasury             4.45       0.90
                                                                 Total - Governance & Development                                               25,961.63     195.92
                                                                 COUNTER-NARCOTICS
                                                                   International Narcotics Control & Law Enforcement (INCLE)     State            4,416.70      60.00
                                                                   Drug Interdiction & Counter-Drug Activities (DOD CN)          DOD              2,929.53       0.00
                                                                   Drug Enforcement Administration (DEA)                         DOJ                200.97       0.58
                                                                 Total - Counter-Narcotics                                                       7,547.20      60.58
                                                                 HUMANITARIAN
Notes: Numbers have been rounded. FY 2014 figures for              P.L. 480 Title I                                              USDA                 5.00       0.00
State and USAID accounts reflect draft allocation amounts          P.L. 480 Title II                                             USAID              949.89     159.50
and are subject to final Congressional approval. DOD repro-
grammed $1 billion from FY 2011 ASFF. DOD reprogrammed             Disaster Assistance (IDA)                                     USAID              522.46     197.09
$1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion
from FY 2012 ASFF. DOD reprogrammed $178 million from
                                                                   Transition Initiatives (TI)                                   USAID               36.85       8.07
FY 2013 ASFF. DOD transferred $101 million from FY 2011            Migration & Refugee Assistance (MRA)                          State              892.12     135.47
AIF to FY 2011 ESF to fund an infrastructure project to be
implemented by USAID.                                              Voluntary Peacekeeping (PKO)                                  State               69.33      23.93
                                                                   Emergency Refugee & Migration Assistance (ERMA)               State               25.20      25.00
Sources: DOD, responses to SIGAR data call, 4,17/2015,
4/16/2014, 4/15/2014, 4/2/2014, 1/22/2014,                         Food for Progress                                             USDA               109.49       0.00
10/22/2012, 10/14/2009, and 10/1/2009; State,                      416(b) Food Aid                                               USDA                95.18      46.46
responses to SIGAR data call, 4/15/2014, 4/11/2014,
4/9/2014, 6/27/2013, 10/5/2012 and 6/27/2012;                      Food for Education                                            USDA                50.49       0.00
Treasury, response to SIGAR data call, 4/3/2014; OMB,              Emerson Trust                                                 USDA                22.40       0.00
responses to SIGAR data call, 7/19/2013 and 1/4/2013;
USAID, responses to SIGAR data call, 4/7/2014,                   Total - Humanitarian                                                            2,778.41     595.52
10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response
to SIGAR data call, 7/7/2009; USDA, response to SIGAR            INTERNATIONAL AFFAIRS OPERATIONS
data call, 4/2009; CRS, response to SIGAR data call,             Oversight                                                                          281.77       0.00
1/8/2014; DFAS, “AR(M) 1002 Appropriation Status by
FY Program and Subaccounts March 2014,” 4/16/2014;               Other                                                                            7,764.07     155.60
P.L. 113-76, 1/17/2014; P.L. 113-6, 3/26/2013; P.L. 112-
74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212,
                                                                 Total - International Affairs Operations                                        8,045.84     155.60
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense            TOTAL FUNDING                                                                 103,172.49    1,065.06
Explanatory Statement.




                                                                  228                        Special inspector general             I     Afghanistan reconstruction
                                                              Appendices




 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008                            FY 2009 FY 2010          FY 2011      FY 2012 FY 2013 FY 2014

      0.00       0.00       995.00    1,908.13     7,406.40    2,750.00       5,606.94    9,166.77    10,619.28    9,200.00     4,946.20    4,726.72
      0.00     150.00       290.00        0.00         0.00        0.00           0.00        0.00         0.00        0.00         0.00        0.00
    191.00     414.08       396.80        0.00         0.00        0.00           0.00        0.00         0.00        0.00         0.00        0.00
      0.39       0.67         0.95        0.98         1.19        1.66           1.40        1.76         1.56        1.18         1.42        1.50
   191.39     564.75     1,682.75    1,909.11     7,407.59    2,751.66       5,608.34    9,168.53    10,620.84    9,201.18     4,947.62    4,728.22

      0.00       40.00      136.00     215.00        209.00      488.33         550.67    1,000.00       400.00       400.00      200.00       30.00
      0.00        0.00        0.00       0.00          0.00        0.00           0.00        0.00       299.00       400.00      325.00      199.00
      0.00        0.00        0.00       0.00          0.00        0.00          14.44       59.26       239.24       241.82      137.40      112.24
    223.79      906.97    1,283.00     473.39      1,224.75    1,399.51       2,077.50    3,346.00     2,168.51     1,836.76    1,623.15      852.00
     42.54      153.14      169.21     185.08        166.81      149.43           0.40        0.30         0.00         0.35        0.00        0.00
    300.00      150.00      100.00       0.00          0.00        0.00           0.00        0.00         0.00         0.00        0.00        0.00
     49.68       33.40       38.00      41.45        100.77       63.07          58.23       92.30        69.91         0.00        0.25        0.00
      1.33        0.00        0.00       0.00          0.00       10.77           4.22        4.22         3.09         0.55        0.00        0.00
      0.50        5.00        0.00       0.00          0.00       20.00           2.81        4.90         6.26         7.18        1.84        0.77
     34.70       66.90       40.65      35.72         36.72       29.72          59.92       70.74        69.30        65.32       52.60       44.70
      0.00        0.00        0.00       0.00          0.00        0.00           5.70        0.00         0.00         0.00        0.00        0.00
      1.00        0.06        0.95       0.19          0.13        0.75           0.47        0.00         0.00         0.00        0.00        0.00
   653.54    1,355.47    1,767.80     950.83      1,738.18    2,161.57       2,774.37    4,577.72     3,255.30     2,951.98    2,340.23    1,238.72

      0.00     220.00      709.28      232.65        251.74        307.57      493.90       589.00       400.00      358.75      568.81      225.00
     0.00       71.80      224.54      108.05        290.97        192.81      230.06       392.27       379.83      422.96      295.46      320.79
      2.87       3.72       16.77       23.66         20.38         40.59       18.80        19.20        18.70       18.70       17.00        0.00
     2.87     295.52      950.59      364.36        563.09        540.97      742.76     1,000.47       798.53      800.41      881.26      545.79

      5.00       0.00        0.00        0.00          0.00          0.00        0.00        0.00          0.00        0.00        0.00         0.00
     46.10      49.20       56.60       60.00         60.00        177.00       65.41       58.13        112.55       59.20       46.20         0.00
     85.53      11.39        4.23        0.04          0.03         16.90       27.13       29.73         66.39       56.33       21.51         6.18
     11.69      11.22        1.60        0.00          0.00          0.00        0.75        0.87          1.10        0.64        0.42         0.48
     61.50      63.30       47.10       41.80         53.80         44.25       76.79       80.93         64.65       99.56       76.07        46.90
      9.90      20.00       15.50        0.00          0.00          0.00        0.00        0.00          0.00        0.00        0.00         0.00
      0.00       0.00        0.00        0.00          0.00          0.00        0.20        0.00          0.00        0.00        0.00         0.00
      4.96       9.08       30.10       23.24          9.47         20.55       12.09        0.00          0.00        0.00        0.00         0.00
     14.14      34.58        0.00        0.00          0.00          0.00        0.00        0.00          0.00        0.00        0.00         0.00
      9.27       6.12       10.02       25.08          0.00          0.00        0.00        0.00          0.00        0.00        0.00         0.00
      0.00       0.00        0.00        0.00          0.00         22.40        0.00        0.00          0.00        0.00        0.00         0.00
   248.08     204.89      165.15      150.16        123.30        281.10      182.37      169.66        244.69      215.73      144.20        53.57

      0.00       0.00        0.00        0.00          2.50         14.30        25.20       34.40        37.20       59.00        58.70       50.47
     35.30     212.44      136.29      131.90        207.80        434.96     1,060.70    1,761.70       905.10    1,433.03     1,288.90        0.35
    35.30     212.44      136.29      131.90        210.30        449.26     1,085.90    1,796.10       942.30    1,492.03     1,347.60       50.82
  1,131.18   2,633.07    4,702.57    3,506.37 10,042.47       6,184.56      10,393.74 16,712.47      15,861.65    14,661.33    9,660.92    6,617.11




Report to the united states congress        I    April 30, 2014                          229
Appendices




Appendix C
SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Completed Performance Audits
SIGAR completed three performance audits during this reporting period.

completed SIGAR Performance Audits as of April 30, 2014
Report Identifier       Report Title                                                          Date Issued
                        Afghanistan’s Water Sector: USAID’s Strategy Needs to Be Updated
SIGAR Audit 14-52-AR                                                                          4/2014
                        to Ensure Appropriate Oversight and Accountability
                        Afghan Customs: U.S. Programs Have Had Some Successes, but
SIGAR Audit 14-47-AR    Challenges Will Limit Customs Revenue as a Sustainable Source of      4/2014
                        Income for Afghanistan
                        Afghan National Security Forces: Actions Needed To Improve Plans
SIGAR Audit 14-33-AR                                                                          2/2014
                        for Sustaining Capability Assessment Effort



New Performance Audits
SIGAR initiated six performance audits during this reporting period.

new SIGAR performance Audits as of April 30, 2014
Audit Identifier       Project Title                                                          Date Initiated
SIGAR 097A             U.S. Efforts to Develop Afghanistan’s Extractives Industry             2/2014
                       U.S. Efforts to Assist Afghan Refugees and Internally Displaced
SIGAR 096A                                                                                    2/2014
                       Persons
SIGAR 095A             U.S. Efforts to Develop Afghanistan’s Rule of Law                      2/2014
SIGAR 094A             Status of SIGAR’s Recommendations to USAID                             2/2014
SIGAR 093A             Status of SIGAR’s Recommendations to State                             2/2014
SIGAR 092A             Status of SIGAR’s Recommendations to DOD                               2/2014


Ongoing Performance Audits
SIGAR had 11 audits in progress during this reporting period.

ongoing SIGAR performance Audits as of April 30, 2014
Audit Identifier          Project Title                                                       Date Initiated
                          U.S. Government Efforts to Develop and Strengthen the Capacity
SIGAR 091A                of the Counternarcotics Police of Afghanistan’s (CNPA) Provincial   12/2013
                          Units
SIGAR 090A                Audit of ANA National Engineer Brigade’s Engineering Equipment      11/2013
SIGAR 089A                Audit of U.S. Support for Development of the Afghan Air Force       11/2013
                          U.S. Government Efforts to Assist in Reconstruction and
SIGAR 088A                Commercialization of Afghanistan’s Information and                  11/2013
                          Communication Technology Sector
SIGAR 087A                Women’s Initiatives                                                 8/2013




 230                       Special inspector general              I   Afghanistan reconstruction
                                                                       Appendices




ongoing SIGAR Performance Audits as of April 30, 2014                                        (Continued)

Audit Identifier           Project Title                                                           Date Initiated
SIGAR 086A                 Education Sector                                                        8/2013
SIGAR 085A                 Mobile Strike Force Vehicles for the Afghan National Army               7/2013
                           Accountability of Weapons and Equipment Provided to the Afghan
SIGAR 078A                                                                                         5/2013
                           National Security Forces (ANSF)
SIGAR 080A                 U.S. Government Reconstruction Transition Plan                          3/2013
SIGAR 082B                 Agency Safeguards for Direct Assistance                                 3/2013
SIGAR 079B                 Reliability of Afghan National Security Forces Data                     2/2013

Completed Financial Audits
SIGAR completed two financial audits during this reporting period.

Completed SIGAR financial AuditS as of April 30, 2014
Report Identifier       Report Title                                                               Date Issued
SIGAR Financial Audit   USAID’s Strategic Provincial Roads Program: Audit of Costs Incurred by
                                                                                                   2/2014
14-39-FA                International Relief and Development Inc.
SIGAR Financial Audit   USAID’s Health Service Support Project: Audit of Costs Incurred by
                                                                                                   2/2014
14-34-FA                Jhpiego Corporation

New Financial Audits
SIGAR initiated 27 financial audits during this reporting period.

New SIGAR FINANCIAL AUDITS AS OF April 30, 2014
Audit Identifier         Project Title                                                             Date Initiated
                         DOD Contract with New Century Consulting Limited for technical
F-067                                                                                              4/2014
                         support to Afghanistan Source Operation Management (ASOM)
                         DOD Contract with Raytheon Technical Services Company LLC for
F-066                                                                                              4/2014
                         ANA depot support
                         DOD Contract with Special Operations Technology for non-personal
F-065                    services to provide technical intercept unit early warning system         4/2014
                         support
                         DOD Contract with DRS Technical Services, Inc. for ANA
F-064                    Communications equipment service mentoring, systems engineer-             4/2014
                         ing, technical assistance, training, and maintenance
                         DOD Contract with L-3 Services, Inc for support services to the MOI
F-063                                                                                              4/2014
                         and ANP
                         DOD Contract with Dyncorp, International, LLC for mentoring and
F-062                                                                                              4/2014
                         training services in support of the ANSF
                         State contract with PAE Government Services Incorporated for tech-
F-061                                                                                              3/2014
                         nical support to the Justice Sector Support Program (JSSP)
                         State Grants with Global Rights for increasing access to justice for
F-060                    family law clients and strengthening the capacity of civil society/       3/2014
                         young lawyers to protect human rights in Afghanistan
                         State Grants with Women for Afghan Women for technical support
F-059                                                                                              3/2014
                         for the promotion and protection of Afghan women’s rights
                         State Grants with Clear Path International (CPI) for technical
F-058                    support to the Integrated Victim Assistance and Capacity Building         3/2014
                         Program




Report to the united states congress                 I   April 30, 2014                                231
Appendices




New SIGAR Financial Audits as of April 30, 2014 (Continued)
Audit Identifier   Project Title                                                          Date Initiated
                   State Grants with Organization for Mine Clearance and Afghan
F-057              Rehabilitation (OMAR) for mine and unexploded ordnance                 3/2014
                   clearance
                   USAID Task Order with Management Systems International, Inc
F-056              (MSI) for technical support to the Measuring Impact of Stabilization   3/2014
                   Initiative (MISTI)
                   USAID Task Order with University Research Co. LLC for technical
F-055                                                                                     3/2014
                   support to the Health Care Improvement (HCI) project
                   USAID Cooperative Agreement with University of Massachusetts
F-054              for technical support to the Higher Education Project (HEP) in         3/2014
                   Afghanistan
                   USAID Cooperative Agreement with Consortium For Elections and
                   Political Process (CEPPS) for support to subnational govern-
F-053                                                                                     3/2014
                   ment institutions in Regional Command-East and Regional
                   Command-South
                   USAID Contract with AECOM International Development Inc. for
F-052                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–West
                   USAID Contract with AECOM International Development Inc. for
F-051                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–East
                   USAID Contract with Tetra Tech for technical support to the Rule of
F-050                                                                                     3/2014
                   Law Stabilization–Formal Component
                   USAID Contract with International Relief and Development, Inc.
F-049              (IRD) for Engineering, Quality Assurance and Logistical Support        3/2014
                   (EQUALS)
                   USAID Cooperative Agreement with Wildlife Conservation Society
                   (WCS) for technical support to the Improving Livelihoods and
F-048                                                                                     3/2014
                   Governance through Natural Resource Management Project
                   (ILG-NRMP)
                   USAID Cooperative Agreement with Democracy International for
F-047                                                                                     3/2014
                   technical support for Electoral Reform and Civic Advocacy (AERCA)
                   USAID Contract with AECOM International Development Inc. for
F-046                                                                                     3/2014
                   technical support to Stabilization in Key Areas (SIKA)–South
                   USAID Cooperative Agreement with Consortium For Elections and
F-045              Political Process (CEPPS) to support increased electoral participa-    3/2014
                   tion in Afghanistan
                   USAID Cooperative Agreement with Internews Network for support to
F-044                                                                                3/2014
                   the Afghan Media Development and Empowerment Project (AMDEP)
                   USAID Contract with Tetra Tech to support Land Reform in
F-043                                                                                     3/2014
                   Afghanistan
                   USAID Cooperative Agreement with International Relief and
F-042              Development, Inc. for technical support to the Afghanistan Civilian    3/2014
                   Assistance Program (ACAP II)
                   USAID Cooperative Agreement with International Relief and
F-041              Development, Inc. for technical support to the Southern Regional       3/2014
                   Agriculture Development Program (SRADP)




 232                  Special inspector general              I   Afghanistan reconstruction
                                                                  Appendices




Ongoing Financial Audits
SIGAR had 18 financial audits in progress during this reporting period.

Ongoing SIGAR FINANCIAL AUDITS AS OF April 30, 2014
Audit Identifier   Project Title                                                            Date Initiated
                   DOD Contract with A-T Solutions for support to Freedom of Maneuver
F-040                                                                                       12/2013
                   program
                   DOD Contract with Jorge Scientific Corp for support to Legacy East
F-039                                                                                       12/2013
                   program
                   DOD Contract with CACI Technologies Inc. for technical engineering,
F-038                                                                                       12/2013
                   logistical engineering and fielding efforts
                   USAID Task Order with Tetra Tech ARD for technical support to the Rule
F-037                                                                                     9/2013
                   of Law Stabilization Program–Formal
                   State Grant with Sayed Majidi Architecture and Design (SMAD) for
F-036              project management services for architectural and engineering design 9/2013
                   of the new national museum in Kabul
                   State Cooperative Agreement and Grant with CETENA Group for
F-035              support to the Afghan TV Content Production Manager project and the 9/2013
                   Nationwide Adult Literacy project
                   State Grants with the Mine Clearance Planning Agency to provide
F-034                                                                                       9/2013
                   support for the removal of land mines and unexploded ordnance
                   State Task Order with PAE for technical support to the Civilian Police
F-033                                                                                       9/2013
                   Program
                   USAID Task Order with IRG (now part of Engility) for technical support
F-032                                                                                       9/2013
                   to the Afghan Clean Energy Program (ACEP)
                   USAID Cooperative Agreement with ICMA for technical support to the
F-031                                                                                       9/2013
                   Afghanistan Municipal Strengthening Program (AMSP)
                   USAID Task Order with Tetra Tech DPK for technical support to the Rule
F-030                                                                                     9/2013
                   of Law Stabilization Program–Formal
                   USAID Cooperative Agreement with CARE International for technical
F-029              support to the Partnership for Advancing Community-based Education 9/2013
                   in Afghanistan (PACE-A)
                   USAID Task Order with AECOM for technical support to the Afghanistan
F-028                                                                                   9/2013
                   Social Outreach Program (ASOP)
                   USAID Cooperative Agreement with PACT to strengthen the
F-027                                                                                       9/2013
                   independent media sector in Afghanistan
                   USAID Task Order with ARD (now part of Tetra Tech) to provide
F-026              technical support to the Sustainable Water Supply and Sanitation         9/2013
                   (SWSS) project
                   USAID Cooperative Agreement with IRD to implement the Afghanistan
F-025                                                                                       9/2013
                   Vouchers for Increased Production in Agriculture (AVIPA) program
                   USAID Contract with Chemonics for technical support to the
F-024              Afghanistan Stabilization Initiative (ASI) and Accelerated Sustainable   7/2013
                   Agriculture Program (ASAP)
                   USAID Contract with Development Alternatives Inc for technical
F-023              support to the Afghan Small and Medium Enterprise Development            7/2013
                   (ASMED) Project & Afghanistan Stabilization Initiative (ASI)




Report to the united states congress           I   April 30, 2014                               233
Appendices




SIGAR INSPECTIONS
Completed Inspections
SIGAR completed two inspections during this reporting period.

COMPLETED SIGAR INSPECTIONS AS OF April 30, 2014
Report Identifier       Report Title                                                         Date Issued
SIGAR Inspection        Camp Monitor: Most Construction Appears to Have Met Contract
                                                                                             3/2014
14-41-IP                Standards, but It Is Unclear If Facility is Being Used as Intended
SIGAR Inspection
                        Salang Hospital: Comments from USFOR-A                               2/2014
14-31a-IP


Inspection Alert Letters
SIGAR issued two inspection alert letters during this reporting period.

ISSUED SIGAR INSPECTION ALERT LETTERS AS OF APRIL 30, 2014
Letter Identifier       Letter Title                                                         Date Issued
SIGAR Alert Letter
                        Baghlan Prison Construction                                          4/2014
14-45-AL
SIGAR Alert Letter
                        FOB Sharana Incinerators                                             3/2014
14-42-AL


New Inspections
SIGAR initiated five new inspections during this reporting period.

NEW SIGAR INSPECTIONS AS OF APRIL 30, 2014
Project Identifier      Project Title                                                        Date Initiated
I-019                   Inspection of the Shorandam Industrial Park                          4/2014
I-018                   Inspection of the Gorimar Industrial Park                            4/2014
I-017                   Inspection of ANA Slaughterhouse Facility                            2/2014
I-016                   Inspection of ANA Camp Commando Complex                              2/2014
I-015                   Inspection of Ministry of Defense Headquarters                       2/2014


SIGAR SPECIAL PROJECTS
Completed Special Projects
SIGAR completed 10 Special Project products this reporting period.

COMPLETED SIGAR Special Projects AS OF April 30, 2014
Report Identifier       Report Title                                                         Date Issued
SIGAR Special Project
                        Inquiry Letter: USDA Soybean Program                                 4/2014
14-51-SP
SIGAR Special Project
                        Inquiry Letter: ANP Mobile Money Pilot Program                       4/2014
14-50-SP
SIGAR Special Project   Fact Sheet: Department of State Assistance to Afghanistan: $4
                                                                                             4/2014
14-49-SP                Billion Obligated between 2002 and 2013
SIGAR Special Project
                        Inquiry Letter: Cancelled USAID Contracts                            4/2014
14-44-SP




 234                       Special inspector general                I   Afghanistan reconstruction
                                                                     Appendices




COMPLETED SIGAR Special Projects AS OF April 30, 2014 (Continued)
Report Identifier       Report Title                                                        Date Issued
SIGAR Special Project
                        Inquiry Letter: DOD Contract Data Request                           4/2014
14-43-SP
SIGAR Special Project
                        Inquiry Letter: Kajaki Unit 2 Project                               3/2014
14-40-SP
SIGAR Special Project   Inquiry Letter: 64,000-Square-Foot Building Review Document
                                                                                            2/2014
14-38-SP                Preservation
SIGAR Special Project
                        Inquiry Letter: Communications Towers                               2/2014
14-37-SP
SIGAR Special Project   Inquiry Letter: Afghan National Police Ghost Worker and Law and
                                                                                            2/2014
14-36-SP                Order Trust Fund for Afghanistan Financial Management
SIGAR Special Project
                        Inquiry Letter: Mi-17 Crash and Demolition                          2/2014
14-35-SP



OTHER SIGAR WRITTEN PRODUCTS
The Special Inspector General for Afghanistan Reconstruction, John F.
Sopko, testified before the Congress once this reporting period.

NEW SIGAR TESTIMONY AS OF APRIL 30, 2014
Testimony Identifier    Testimony Title                                                    Testimony Date
SIGAR 14-46-TY          Lessons Learned from Oversight of USAID’s Efforts in Afghanistan   4/3/2014




Report to the united states congress                I   April 30, 2014                          235
                                                        Appendices




                                                        appendix D
                                                        sigar investigations and hotline
                                                        SIGAR Investigations
Figure D.1                                              This quarter, SIGAR opened 60 new investigations and closed 40, bringing
                                                        the total number of open investigations to 338. Of the new investiga-
NEW SIGAR INVESTIGATIONS,
                                                        tions, most involved money laundering and procurement fraud, as shown
JANUARY 1–MARCH 31, 2014
                                                        in Figure D.1. Of the closed investigations, most were closed due to
                                                        unfounded allegations, as shown in Figure D.2.
                        Total: 60
                                                        Figure D.2

                      Money                             SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, JANUARY 1–MARCH 31, 2014
                      Laundering
                      19
                                    Procurement/
             Corruption             Contract Fraud
             9                      14
                                                           Unfounded Allegations                                                                   19
                     Theft
                     9
                                                                     Administrative                               8
                                        Other/
                                        Miscellaneous
                                        9
                                                        Lack of Investigative Merit                           6


Source: SIGAR Investigations Directorate, 4/9/2014.           Criminal Declination                    4


                                                                        Conviction             2


                                                                       Exoneration         1

                                                                                      0                   5           10                15          20

                                                                                                                  Total: 40

                                                        Source: SIGAR Investigations Directorate, 4/9/2014.




                                                        SIGAR Hotline
                                                        Of the 99 Hotline complaints received this quarter, most were received elec-
                                                        tronically, as shown in Figure D.3. In addition to working on new complaints,
                                                        the Investigations directorate continued its work this quarter on complaints
                                                        received prior to January 1, 2014. This quarter, the directorate processed 148
                                                        complaints, most of which were closed, as shown in Figure D.4.




                                                          236                             Special inspector general           I   Afghanistan reconstruction
                                                                                 Appendices




Figure D.4                                                                                                                       Figure D.3


STATUS OF SIGAR HOTLINE COMPLAINTS: JANUARY 1–MARCH 31, 2014                                                                     SOURCE OF SIGAR HOTLINE COMPLAINTS,
                                                                                                                                 JANUARY 1–MARCH 31, 2014

      Under Review (Open)                            26
                                                                                                                                                         Total: 99
Under Investigation (Open)         3

       Referred Out (Open)         3

 Closed after Investigation            6                                                                                                             Electronic
                                                                                                                                                     (email, web, or fax)
     Referred Out (Closed)             7                                                                                                             96
    Closed Administratively                                                                                      103
                               0             20              40             60              80             100             120
                                                                         Total: 148                                                   Written
                                                                                                                                      (Other)                         Phone
Source: SIGAR Investigations Directorate, 4/9/2014.                                                                                         1                         2
Note: 99 complaints received during quarter; total of 148 includes complaints received in this quarter, as well as prior
quarters, that were processed this quarter.

                                                                                                                                 Source: SIGAR Investigations Directorate, 4/10/2014.


Suspensions and Debarments From SIGAR Referrals
SIGAR’s referrals for suspension and debarment as of March 31, 2014, are
shown in chronological order in Table D.1.

Table D.1


 SUSPENSIONS AND DEBARMENTS AS OF March 31, 2014
 Suspensions                                                      Debarments
 Al-Watan Construction Company                                    Farooqi, Hashmatullah
 Basirat Construction Firm                                        Hamid Lais Construction Company
 Brophy, Kenneth                                                  Hamid Lais Group
 Naqibullah, Nadeem                                               Lodin, Rohullah Farooqi
 Rahman, Obaidur                                                  Bennett & Fouch Associates, LLC
 Campbell, Neil Patrick                                           Brandon, Gary
 Borcata, Raul A.                                                 K5 Global
 Close, Jarred Lee                                                Ahmad, Noor
 Logistical Operations Worldwide                                  Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                                           Ayeni, Sheryl Adenike
 Taylor, Zachery Dustin                                           Cannon, Justin
 Aaria Group Construction Company                                 Constantino, April Anne
 Aaria Group                                                      Constantino, Dee
 Aaria Herai General Trading                                      Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                                   Crilly, Braam
 Aaria Middle East                                                Drotleff, Christopher
 Aaria Middle East Company LLC                                    Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd.–Herat                             Handa, Sidharth




Report to the united states congress                         I    April 30, 2014                                    237
Appendices




Table D.1 (Continued)


SUSPENSIONS AND DEBARMENTS AS OF MARCH 31, 2014
Suspensions                                    Debarments
Aaria Supplies Company LTD                     Jabak, Imad
Aaria Supply Services and Consultancy          Jamally, Rohullah
Aftech International                           Khalid, Mohammad
Aftech International Pvt., Ltd.                Khan, Daro
Alam, Ahmed Farzad                             Mariano, April Anne Perez
Albahar Logistics                              McCabe, Elton Maurice
American Aaria Company LLC                     Mihalczo, John
American Aaria LLC                             Qasimi, Mohammed Indress
Barakzai, Nangialai                            Radhi, Mohammad Khalid
Formid Supply and Services                     Safi, Fazal Ahmed
Greenlight General Trading                     Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
Kabul Hackle Logistics Company                 Espinoza-Loor, Pedro Alfredo
Sharpway Logistics                             Campbell, Neil Patrick*
United States California Logistics Company     Navarro, Wesley
Yousef, Najeebullah                            Hazrati, Arash
Rahimi, Mohammad Edris                         Midfield International
Wooten, Philip Steven                          Moore, Robert G.
Domineck, Lavette Kaye                         Noori, Noor Alam, a.k.a. “Noor Alam"
Markwith, James                                Northern Reconstruction Organization
All Points International Distributors, Inc.    Shamal Pamir Building and Road Construction
                                               Company
Cipolla, James                                 Wade, Desi D.
Hercules Global Logistics                      Blue Planet Logistics Services
Schroeder, Robert                              Mahmodi, Padres
AISC LLC                                       Mahmodi, Shikab
American International Security Corporation    Saber, Mohammed
Brothers, Richard S.                           Watson, Brian Erik
David A Young Construction & Renovation Inc.   Abbasi, Shahpoor*
Force Direct Solutions LLC                     Amiri, Waheedullah*
Harris, Christopher                            Atal, Waheed*
Hernando County Holdings LLC                   Daud, Abdulilah*
Hide-A-Wreck LLC                               Dehati, Abdul Majid*
Panthers LLC                                   Fazli, Qais*
Paper Mill Village, Inc                        Hamdard, Mohammad Yousuf*
Shrould Line LLC                               Kunari, Haji Pir Mohammad*
Spada, Carol                                   Mushfiq, Muhammad Jaffar*
Taylor, Michael                                Mutallib, Abdul*
Welventure LLC                                 Nasrat, Sami*
World Wide Trainers LLC                        Passerly, Ahmaad Saleem*
Young, David                                   Rabi, Fazal*
Espinoza, Mauricio                             Rahman, Atta*
Long, Tonya                                    Rahman, Fazal*
Peace Thru Business                            Roshandil, Mohammad Ajmal*
Pudenz, Adam Jeff Julias                       Safi, Azizur Rahman*




  238                        Special inspector general   I   Afghanistan reconstruction
                                                                   Appendices




Table D.1 (Continued)


SUSPENSIONS AND DEBARMENTS AS OF mARCH 31, 2014
Suspensions                                          Debarments
Elham, Yaser, a.k.a. “Najibullah Saadullah”          Safi, Matiullah*
Everest Faizy Logistics Services                     Sahak, Sher Khan*
Faizy Elham Brothers, Ltd.                           Shaheed, Murad*
Faizy, Rohullah                                      Shirzad, Daulet Khan*
Hekmat Shadman General Trading LLC                   Uddin, Mehrab*
Hekmat Shadman, Ltd., d.b.a. “Hikmat Shadman,        Alam, Ahmed Farzad*
Ltd.”
Hikmat Shadman Construction and Supply Company       Greenlight General Trading*
Hikmat Shadman Logistics Services Company,           Aaria Middle East Company LLC*
d.b.a. “Hikmat Shadman Commerce Construction
and Supply Company,” d.b.a. “Hikmat Shadman
Commerce Construction Services”
Saif Hikmat Construction Logistic Services and       Aaria Middle East Company Ltd. – Heart*
Supply Co.
Shadman, Hikmatullah, a.k.a. “Hikmat Shadman,”       Aaria M.E. General Trading LLC*
a.k.a. “Haji Hikmatullah Shadman,” a.k.a.
“Hikmatullah Saadulah”
Rivera-Medina, Franklin Delano                       Aaria Middle East*
                                                     Barakzai, Nangialai*
                                                     Formid Supply and Services*
                                                     Aaria Supply Services and Consultancy*
                                                     Kabul Hackle Logistics Company*
                                                     Yousef, Najeebullah*
                                                     Aaria Group*
                                                     Aaria Group Construction Company*
                                                     Aaria Supplies Company LTD*
                                                     Rahimi, Mohammad Edris*
                                                     All Points International Distributors, Inc.*
                                                     Hercules Global Logistics*
                                                     Schroeder, Robert*
                                                     Helmand Twincle Construction Company
                                                     Waziri, Heward Omar
                                                     Zadran, Mohammad
                                                     Afghan Mercury Construction Company, d.b.a. “Afghan
                                                     Mercury Construction & Logistics Company”
                                                     Mirzali Naseeb Construcion Company
                                                     Montes, Diyana
                                                     Naseeb, Mirzali
                                                     Robinson, Franz Martin*
                                                     Smith, Nancy
                                                     Sultani, Abdul Anas a.k.a. “Abdul Anas”
                                                     Faqiri, Shir
                                                     Hosmat, Haji
                                                     Jim Black Construction Company




Report to the united states congress             I   April 30, 2014                             239
Appendices




Table D.1 (Continued)


SUSPENSIONS AND DEBARMENTS AS OF mARCH 31, 2014
 Suspensions                              Debarments
                                          Arya Ariana Aryayee Logistics, d.b.a. “AAA Logistics,”
                                          d.b.a. “Somo Logistics”
                                          Garst, Donald
                                          Mukhtar, Abdul a.k.a. “Abdul Kubar”
                                          Noori Mahgir Construction Company
                                          Noori, Sherin Agha
                                          Long, Tonya*
                                          Isranuddin, Burhanuddin
                                          Matun, Navidullah, a.k.a. “Javid Ahmad”
                                          Matun, Wahidullah
                                          Navid Basir Construction Company
                                          Navid Basir JV Gagar Baba Construction Company
                                          NBCC & GBCC JV
                                          Noori, Navid
                                          Asmatullah, Mahmood, a.k.a. "Mahmood"
                                          Khan, Gul
                                          Khan, Solomon Sherdad, a.k.a. "Solomon"
                                          Mursalin, Ikramullah, a.k.a. "Ikramullah"
                                          Musafer, Naseem, a.k.a. "Naseem"
                                          Ali, Esrar
                                          Gul, Ghanzi
                                          Luqman Engineering Construction Company, d.b.a.
                                          “Luqman Engineering”
                                          Safiullah, a.k.a. "Mr. Safiullah"
                                          Sarfarez, a.k.a."Mr. Sarfarez"
                                          Wazir, Khan
                                          Akbar, Ali
                                          Crystal Construction Company, d.b.a. “Samitullah
                                          Road Construction Company”
                                          Samitullah (Individual uses only one name)
                                          Gurvinder, Singh
                                          Jahan, Shah
                                          Shahim, Zakirullah a.k.a. “Zakrullah Shahim”, a.k.a.
                                          “Zikrullah Shahim”
                                          Alyas, Maiwand Ansunullah a.k.a. “Alyas Maiwand,”
                                          a.k.a. “Maiwand Allias,” a.k.a. “Maiwand Aliass,” a.k.a.
                                          “Engineer Maiwand Alyas”
                                          BMCSC
                                          Maiwand Haqmal Construction and Supply Company
                                          New Riders Construction Company, d.b.a. “Riders
                                          Construction Company, ” d.b.a. “New Riders
                                          Construction and Services Company”
                                          Riders Constructions, Services, Logistics and
                                          Transportation Company
                                          Riders Group of Companies




  240                   Special inspector general     I   Afghanistan reconstruction
                                                                            Appendices




Table D.1 (Continued)


SUSPENSIONS AND DEBARMENTS AS OF mARCH 31, 2014
 Suspensions                                                 Debarments
                                                             Domineck, Lavette Kaye*
                                                             Markwith, James*
                                                             Martinez, Rene
                                                             Maroof, Abdul
                                                             Qara, Yousef
                                                             Royal Palace Construction Company
                                                             Bradshaw, Christopher Chase
                                                             Boulware, Candice a.k.a. “Candice Joy Dawkins"
                                                             Dawkins, John
                                                             Mesopotamia Group LLC
                                                             Nordloh, Geoffrey
                                                             Kieffer, Jerry
                                                             Johnson, Angela
                                                             CNH Development Company, LLC
                                                             Johnson, Keith
                                                             Military Logistic Support, LLC
                                                             Eisner, John
                                                             Taurus Holdings LLC
                                                             Brophy, Kenneth Michael*
Note: * Indicates previously in suspended status following criminal indictment. Final debarment imposed following
criminal conviction in U.S. federal district court.




Report to the united states congress                     I   April 30, 2014                                  241
Appendices




Appendix E
Abbreviations and Acronyms
Acronym or
Abbreviation   Definition
4A             Assistance to Afghanistan's Anti-Corruption Authority
AAN            Afghan Analysts Network
ABADE          Assistance in Building Afghanistan by Developing Enterprises
ABP            Afghan Border Police
ACD            Afghan Customs Department
ACE            Agricultural Credit Enhancement
ACU            Anticorruption Unit
ADB            Asian Development Bank
ADF            Agricultural Development Fund
AERCA          Afghanistan Electoral Reform and Civic Advocacy
AFN            afghanis (currency—Afghan nationals are Afghans)
AGO            Attorney General’s Office
AGS            Afghan Geological Survey
AIF            Afghanistan Infrastructure Fund
AIHRC          Afghanistan Independent Human Rights Commission
AITF           Afghanistan Infrastructure Trust Fund
ALBA           Assistance to Legislative Bodies of Afghanistan
ALP            Afghan Local Police
AMDEP          Afghanistan Media Development and Empowerment Project
ANA            Afghan National Army
ANCOP          Afghan National Civil Order of Police
ANP            Afghan National Police
ANSF           Afghan National Security Forces
APA            Afghanistan Petroleum Authority
APPF           Afghan Public Protection Force
APRP           Afghan Peace and Reintegration Plan
ARTF           Afghanistan Reconstruction Trust Fund
ANSF           Afghan National Security Forces
ASF            Afghan Security Forces
ASFF           Afghanistan Security Forces Fund
AUAF           American University of Afghanistan
AUP            Afghan Uniform Police
BAF            Bagram Airfield
                                                                        Continued on the next page




 242              Special inspector general              I   Afghanistan reconstruction
                                                                  Appendices




Acronym or
Abbreviation      Definition
BCP               border crossing point
BELT              Basic Education, Literacy, and Technical-Vocational Education and Training
BMTF              Border Management Task Force
BSA               Bilateral Security Agreement
CAC               counter/anticorruption
CBP               Customs and Border Protection, Department of Homeland Security (U.S.)
CDC               Community Development Center
CEK               Corps Engineer Kandak (Afghan)
CENTCOM           U.S. Central Command
CERP              Commander’s Emergency Response Program
CHAMP             Commercial Horticulture and Agricultural Marketing Program
CIA               Central Intelligence Agency (U.S.)
CIDNE             Combined Information Data Network Exchange
CIGIE             Council of the Inspectors General on Integrity and Efficiency
CJIATF            Combined Joint Interagency Task Force
CJTF              Counter Narcotics Tribunal and the Criminal Justice Task Force
C-JTSCC           U.S. Central Command's Joint Theater Support Contracting Command
CM                capability milestone
CNA               Center for Naval Analysis
CNCE              Counter Narcotics Community Engagement
CND               Commission on Narcotic Drugs
CNJC              Counternarcotics Justice Center
CNPA              Counternarcotics Police of Afghanistan
CNPCI-W           China National Petroleum Corporation Watan Energy Afghanistan, Ltd.
CO                contracting officer
COR               contracting officer's representative
CPC               Criminal Procedure Code
CSTC-A            Combined Security Transition Command-Afghanistan
CUAT              Commander’s Unit Assessment Tool
DAB               Da Afghanistan Bank
DABS              Da Afghanistan Breshna Sherkat
DCIS              Defense Criminal Investigative Service (U.S.)
DCMA              Defense Contract Management Agency (U.S.)
DEA               Drug Enforcement Administration (U.S.)
DI                Democracy International
DOD               Department of Defense (U.S.)
DOD CN            Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
                                                                             Continued on the next page




Report to the united states congress          I   April 30, 2014                               243
Appendices




Acronym or
Abbreviation   Definition
DOD OIG        Department of Defense Office of Inspector General
DOJ            Department of Justice (U.S.)
ECC            Electoral Complaints Commission
ECF            Extended Credit Facility
EMIS           Ministry of Education's Information Management System (Afghan)
ESF            Economic Support Fund
EVAW           Elimination of Violence Against Women law (Afghan)
FATF           Financial Action Task Force
FBI            Federal Bureau of Investigation (U.S.)
FEFA           Fair Election Forum of Afghanistan
FOB            forward operating base
FRIC           Force Reintegration Cell (ISAF)
FY             fiscal year
GAGAS          Generally Accepted Government Auditing Standards
GAO            Government Accountability Office (U.S.)
GDP            gross domestic product
GDPDC          General Directorate of Prisons and Detention Centers
GLE            Governor-Led Eradication
GPI            Good Performer's Initiative
GSCC           General Support Contracting Command
HEP            Higher Education Program
HMIS           Health Management Information System
HOO            High Office of Oversight for Anti-Corruption (aka "HOOAC") (Afghan)
HPP            Health Policy Project
IARCSC         Independent Appointment Board of the Civil Service Commission
ICC            International Coordinating Committee
IDEA-NEW       Incentives Driving Economic Alternatives-North, East, and West
IDLG           Independent Directorate of Local Governance (Afghan)
IDP            internally displaced person
IEC            Independent Election Commission (Afghan)
IED            improvised explosive device
IJC            International Security Assistance Force Joint Command
IMF            International Monetary Fund
INCLE          International Narcotics Control and Law Enforcement (U.S)
INL            Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IOCC           Interagency Operations Coordination Center
IPA            Independent Public Accountant
                                                                        Continued on the next page




 244               Special inspector general             I   Afghanistan reconstruction
                                                                   Appendices




Acronym or
Abbreviation      Definition
IRD               International Relief and Development (an NGO)
ISAF              International Security Assistance Force
JCMB              Joint Coordination and Monitoring Board
JTTP              Justice Training Transition Program
KAF               Kandahar Airfield
KCI               Kabul City Initiative
KFZ               Kandahar Food Zone
KHPP              Kandahar-Helmand Power Project
KIA               killed in action
LMG               Leadership, Management, Governance Project
LOTFA             Law and Order Trust Fund for Afghanistan
MAIL              Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCC               Metallurgical Corporation of China
MCN               Ministry of Counternarcotics (Afghan)
MCTF              Major Crimes Task Force
MEC               Monitoring and Evaluation Committee (Afghan)
MIDAS             Mining Investment and Development for Afghan Sustainability
MISTI             Measuring Impacts of Stabilization Initiatives
MOD               Ministry of Defense (Afghan)
MOF               Ministry of Finance (Afghan)
MOI               Ministry of Interior (Afghan)
MOMP              Ministry of Mines and Petroleum (Afghan)
MOPH              Ministry of Public Health (Afghan)
MORE              Ministry of Women's Affairs Organizational Restructuring and Empowerment Project
                  (Afghan)
MOWA              Ministry of Women's Affairs (Afghan)
MRRD              Ministry of Rural Rehabilitation and Development
NAT-C             NATO Air Training Command-Afghanistan
NATO              North Atlantic Treaty Organization
NCO               noncommissioned officer
NDAA              National Defense Authorization Act
NDI               National Democratic Institute
NEB               National Engineer Brigade (Afghan)
NEPS              Northeast Power System
NGO               nongovernmental organization
NKB               New Kabul Bank
NPP               National Priority Program
                                                                                Continued on the next page




Report to the united states congress           I   April 30, 2014                                245
Appendices




Acronym or
Abbreviation   Definition
NTM-A          NATO Training Mission-Afghanistan
O&M            operations and maintenance
OCO            overseas contingency operations
OECD           Organization for Economic Cooperation and Development
OHCHR          Office of the High Commissioner for Human Rights
OMB            Office of Management and Budget
OSD            Office of the Secretary of Defense
PAS            Political Affairs Section (U.S.)
PBGF           Performance Based Governance Fund
PCH            Partnership Contracts for Health Services
PFM            public financial management
PGO            Provincial governor's office
PJST           Provincial Joint Secretariat Teams
PM/WRA         Bureau of Political-Military Affairs-Office of Weapons Removal and Abatement (U.S.)
PPP            public-private partnership
PROMOTE        Promoting Gender Equality in the National Priority Program
PSC            private security contractor
PTEC           Power Transmission Expansion and Connectivity
RAMP-UP        Regional Afghan Municipalities Program for Urban Populations
RASR           Regional Command ANSF Assessment Report
RC             recurrent cost
RLS-F          Rule of Law Stabilization-Formal
RLS-I          Rule of Law Stabilization-Informal
SEPS           Southeast Power System
SGDP           Sheberghan Gas Development Program
SIGAR          Special Inspector General for Afghanistan Reconstruction
SIKA           Stability in Key Areas
SMW            Special Mission Wing (Afghan)
SPECS          Supporting Political Entities and Civil Society Program
State OIG      Department of State Office of the Inspector General
STEP-UP        Strengthening Tertiary Education Program-University Partnerships
STRATCOM       Office of Strategic Communications
SWSS           Sustainable Water Supply and Sanitation
SY             solar year
TAFA           Trade Accession and Facilitation for Afghanistan
TAT            Telecom Advisory Team
TFBSO          Task Force for Business and Stability Operations in Afghanistan
                                                                          Continued on the next page




 246               Special inspector general               I   Afghanistan reconstruction
                                                                 Appendices




Acronym or
Abbreviation      Definition
TMAF              Tokyo Mutual Accountability Framework
TMR               Transportation Movement Request
TVET              Technical Vocational Education and Training
UN                United Nations
UNAMA             United Nations Assistance Mission in Afghanistan
UNDP              United Nations Development Programme
UNODC             UN Office on Drugs and Crime
USAAA             U.S. Army Audit Agency
USACE             U.S. Army Corps of Engineers
USAID             U.S. Agency for International Development
USAID OIG         USAID Office of the Inspector General
USFOR-A           U.S. Forces-Afghanistan
USGS              U. S. Geological Survey
USIP              U.S. Institute for Peace
VSO               Village Stability Operations
WIA               wounded in action




Report to the united states congress             I   April 30, 2014     247
                                                      Endnotes




1	  DOD, Joint and Coalition Operational Analysis (JCOA), division    18	 Integrity Watch Afghanistan, media release, “Corruption remains
    of Joint Staff J-7 (Joint Force Development), Operationalizing        among the top-three biggest concerns of Afghans, despite a
    Counter/Anti-Corruption Study, 2/28/2014, p. 1.                       reduction in personal experiences of corruption,” 3/30/2013.
2	  DOD, Joint and Coalition Operational Analysis (JCOA), division    19	 UNODC, in cooperation with the Afghan High Office of
    of Joint Staff J-7 (Joint Force Development), Operationalizing        Oversight and Anti-Corruption, Corruption in Afghanistan:
    Counter/Anti-Corruption Study, 2/28/2014, pp. 1–2.                    Recent Patterns and Trends, December 2012, p. 5.
3	  Transparency International, “Corruption Perceptions Index         20	 High Office of Oversight and Anti-corruption, Afghanistan, “About
    2013,” summary brochure, http://cpi.transparency.org/cpi2013/         Corruption: Corruption in Afghanistan,” undated Web page, http://
    results/, 2013.                                                       anti-corruption.gov.af/en/page/1736, accessed 3/29/2014.
4	  Statements of, respectively, Rep. Jason Chaffetz of Arizona       21	 Sarah Chayes, “The Military Must Hunt Corruption, Not Just
    and Rep. John Tierney of Massachusetts, hearing of House              Terrorists,” DefenseOne, 4/6/2014, http://www.defenseone.com/
    Oversight and Government Reform Subcommittee on National              ideas/2014/04/military-must-hunt-corruption-not-just-terror-
    Security on U.S. Foreign Assistance to Afghanistan, CQ                ists/81973/, accessed 4/7/2014.
    Congressional Transcripts, 3/13/2014.                             22	 SIGAR Audit Report 14-47-AR, Afghan Customs: U.S. Programs
5	  Donald L. Sampler, director of USAID’s Office of Afghanistan          Have Had Some Successes, But Challenges Will Limit Customs
    and Pakistan Affairs, at a hearing of the House Subcommittee          Revenue as a Sustainable Source of Income for Afghanistan,
    on National Security on April 3, 2014, quoted in Government           April 2014, pp. i–ii.
    Executive, “USAID Calls Accusations of Afghanistan Cover-Up       23	 High Office of Oversight and Anti-corruption, Afghanistan,
    ‘Offensive,’” 4/3/2014, http://www.govexec.com/defense/2014/04/       “About Corruption: Corruption in Afghanistan,” undated Web
    usaid-calls-accusations-afghanistan-cover-offensive/81895/.           page, http://anti-corruption.gov.af/en/page/1736, accessed
6	  DOD, Joint and Coalition Operational Analysis (JCOA), division        3/29/2014.
    of Joint Staff J-7 (Joint Force Development), Operationalizing    24	 The World Bank and the International Finance Corporation,
    Counter/Anti-Corruption Study, 2/28/2014, p. 9.                       Economy Profile: Afghanistan: Doing Business 2013, 2013, p. 8.
7	  Sarah Chayes, “The Military Must Hunt Corruption, Not Just        25	 SIGAR Audit Report 14-16, Afghanistan’s Banking Sector:
    Terrorists,” DefenseOne, 4/6/2014, http://www.defenseone.com/         The Central Bank’s Capacity to Regulate Commercial Banks
    ideas/2014/04/military-must-hunt-corruption-not-just-terror-          Remains Weak, January 2014.
    ists/81973/, accessed 4/7/2014.                                   26	 DOD, Joint and Coalition Operational Analysis (JCOA), division
8	  DOD, Joint and Coalition Operational Analysis (JCOA), division        of Joint Staff J-7 (Joint Force Development), Operationalizing
    of Joint Staff J-7 (Joint Force Development), Operationalizing        Counter/Anti-Corruption Study, 2/28/2014, p. 3.
    Counter/Anti-Corruption Study, 2/28/2014, p. 12.                  27	 OECD, The State’s Legitimacy in Fragile Situations: Unpacking
9	  Radio Free Europe/Radio Liberty, “Karzai Blames Foreigners            Complexity, 2010, p. 10.
    for Corruption,” 4/3/2014.                                        28	 Radio Free Europe/Radio Liberty, “Karzai Blames Foreigners
10	 ISAF, transcript of anticorruption speech at American                 for Corruption,” 4/3/2014.
    University of Afghanistan by Brigadier General Herbert            29	 High Office of Oversight and Anti-corruption, Afghanistan,
    R. McMaster, U.S. Army, then commander, Combined                      “About Corruption: Corruption in Afghanistan,” undated Web
    Joint Interagency Task Force Shafafiyat (“Transparency”),             page, http://anti-corruption.gov.af/en/page/1736, accessed
    11/19/2011, http://www.isaf.nato.int/article/transcripts/             3/29/2014.
    brig.-gen.-h.r.-mcmaster-anti-corruption-speech-at-american-      30	 High Office of Oversight and Anti-corruption, Afghanistan,
    university-of-afghanistan.html, accessed 4/9/2014.                    “About Corruption: Corruption in Afghanistan,” undated Web
11	 John F. Sopko, SIGAR, “Remarks Prepared for Delivery,” Atlantic       page, http://anti-corruption.gov.af/en/page/1736, accessed
    Council, Washington, DC, 3/20/2014, http://www.sigar.mil.             3/29/2014.
12	 DOD, Joint and Coalition Operational Analysis (JCOA), division    31 	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 137.
    of Joint Staff J-7 (Joint Force Development), Operationalizing    32	 In its quarterly reports to Congress, SIGAR frequently reports
    Counter/Anti-Corruption Study, 2/28/2014, p. 9                        on the DOD and State assessments of the AGO.
13	ISAF, Counter- And Anticorruption: Theory And Practice From        33	 SIGAR Special Project 13-9, U.S. Anti-Corruption Efforts: A
    Nato Operations, non-classified extract of a report by NATO’s         Strategic Plan and Mechanisms To Track Progress Are Needed
    Joint Analysis and Lessons Learned Centre, 6/27/2013, p. 1.           In Fighting Corruption in Afghanistan, 9/2013.
14	ISAF, Counter- And Anticorruption: Theory And Practice From        34	 Quoted in DOD, Joint and Coalition Operational Analysis
    Nato Operations, non-classified extract of a report by NATO’s         (JCOA), division of Joint Staff J-7 (Joint Force Development),
    Joint Analysis and Lessons Learned Centre, 6/27/2013, p. 1.           Operationalizing Counter/Anti-Corruption Study, 2/28/2014,
15	 DOD, Joint and Coalition Operational Analysis (JCOA), division        p. 1. Emphasis in original.
    of Joint Staff J-7 (Joint Force Development), Operationalizing    35	 Chr. Michelsen Institute (Norway) U4 Report, Collective donor
    Counter/Anti-Corruption Study, 2/28/2014, p. 9                        responses: Examining donor responses to corruption cases in
16	UNODC, Corruption in Afghanistan: Recent Patterns and                  Afghanistan, Tanzania and Zambia, November 2013, pp. 5, xi–xii.
    Trends, December 2012, p. 5.                                      36	 Anna Persson et al., “The Failure of Anti-Corruption Policies:
17	 Integrity Watch Afghanistan, media release, “Corruption remains       A Theoretical Mischaracterization of the Problem,” work-
    among the top-three biggest concerns of Afghans, despite a            ing paper, The Quality of Government Institute, University of
    reduction in personal experiences of corruption,” 3/30/2013.          Gothenburg, June 2010, p. 2.




                                                248                   Special inspector general       I   Afghanistan reconstruction
                                                         Endnotes




37	   Anna Persson et al., “The Failure of Anti-Corruption Policies:    63	 TFBSO, “About TFBSO,” accessed 10/20/2011; DOD, response
      A Theoretical Mischaracterization of the Problem,” work-              to SIGAR data call, 7/22/2011.
      ing paper, The Quality of Government Institute, University of     64	 See Appendix B of this report.
      Gothenburg, June 2010, p. 3.                                      65	 DOD, response to SIGAR data call, 4/4/2014.
38	   Benjamin Olken (MIT) and Rohini Pande (Harvard), “Lifting         66	 DOD, “Drug Interdiction and Counter-Drug Activities,
      the curtain on corruption developing countries,” Vox eco-             Defense FY 2009 Supplemental Request Drug Interdiction and
      nomics website, 1/21/2012, http://www.voxeu.org/article/              Counterdrug Activities,” accessed 4/13/2010.
      lifting-curtain-corruption-developing-countries.                  67	 DOD OIG, Independent Auditor’s Report on the DOD FY 2011
39	   John F. Sopko, SIGAR, “Remarks Prepared for Delivery,” Atlantic       Detailed Accounting Report of the Funds Obligated for
      Council, Washington, DC, 3/20/2014, http://www.sigar.mil.             National Drug Control Program Activities, Report No. DODIG-
40	   MEC Backgrounder, “Illegal hiring of prosecutors and lack of          2012-04, 1/30/2012.
      comprehensive training contributes to impunity and risks of       68	 DOD, responses to SIGAR data call, 4/16/2014 and 1/22/2014.
      corruption,” http://www.mec.af/files/BackgrounderAGO.pdf,         69	 USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p. 6.
      accessed 3/24/2014.                                               70	 USAID, response to SIGAR data call 4/7/2014; State, response to
41	   MEC Backgrounder, “Summary of the VCA on                              SIGAR data call, 4/15/2014 and 6/27/2013.
      Pension Administration,” http://www.mec.af/files/                 71	 USAID, responses to SIGAR data call, 4/7/2014 and 1/7/2014.
      SummaryVCApensionprocess.pdf, accessed 4/7/2014.                  72	 State, response to SIGAR data call, 10/13/2009.
42	   John F. Sopko, SIGAR, “Remarks Prepared for Delivery,” Atlantic   73	 State, response to SIGAR data call, 4/15/2014, 4/11/2014, and
      Council, Washington, DC, 3/20/2014, http://www.sigar.mil.             6/27/2013.
43	   See Appendix B of this report.                                    74	 State, responses to SIGAR data call, 4/11/2014 and 1/13/2014.
44	   DOD Press Operations, Release No: NR-111-14, “DoD Releases        75	SIGAR, Quarterly Report to the U.S. Congress, 7/30/2010, p. 51.
      Fiscal 2015 Budget Proposal and 2014 QDR,” 3/4/2014.              76	 World Bank, “ARTF: Administrator’s Report on Financial Status
45	   P.L. 111-32, 6/24/2009.                                               as of March 20, 2014 (end of 3rd month of FY 1393),” p. 4.
46	   DOD, response to SIGAR vetting, 7/20/2009.                        77	 World Bank, “ARTF: Administrator’s Report on Financial Status
47	   P.L. 112-74, Section 9009, 12/23/2011; Deputy Secretary of            as of March 20, 2014 (end of 3rd month of FY 1393),” p. 1.
      Defense, “Afghanistan Resources Oversight Council (AROC)          78	 World Bank, “ARTF: Administrator’s Report on Financial Status
      memorandum,” 8/3/2011.                                                as of March 20, 2014 (end of 3rd month of FY 1393),” p. 4.
48	   See Appendix B of this report.                                    79	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
49	   DOD, response to SIGAR data call, 4/15/2014.                          p. 16.
50	   DOD, responses to SIGAR data call, 4/15/2014 and 1/23/2014.       80	 World Bank, “ARTF: Administrator’s Report on Financial Status
51	   DOD OIG, Distribution of Funds and the Validity of Obligations        as of March 20, 2014 (end of 3rd month of FY 1393),” p. 6.
      for the Management of the Afghanistan Security Forces Fund-       81	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
      Phase I, Report No. D-2008-012, 11/5/2007, p. 2.                      p. 16.
52	   P.L. 112-74, Section 9009, 12/23/2011; Deputy Secretary of        82	 World Bank, “ARTF: Administrator’s Report on Financial Status
      Defense, Afghanistan Resources Oversight Council (AROC)               as of March 20, 2014 (end of 3rd month of FY 1393),” p. 6.
      memorandum, 8/3/2011.                                             83	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
53	   DOD, response to SIGAR data call, 4/15/2014.                      84	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”
54	   DOD, response to SIGAR data call, 4/15/2014.                          12/31/2013, pp. 80–81; SIGAR analysis of UNDP’s quarterly and
55	   DOD, “Commanders’ Emergency Response Program (CERP),”                 annual LOTFA reports, 1/22/2014.
      DOD Financial Management Regulation Vol. 12, Ch. 27, 1/2009,      85	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”
      p. 27-3.                                                              12/31/2013, p. 82; SIGAR analysis of UNDP’s quarterly and
56	   USFOR-A, “Commander’s Emergency Response Program                      annual LOTFA reports, 1/22/2014.
      (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p.35; P.L. 112-            86	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q3/2013,”
      74, Section 9009, 12/23/2011; Deputy Secretary of Defense,            12/31/2013, pp. 80–81; SIGAR analysis of UNDP’s quarterly and
      “Afghanistan Resources Oversight Council (AROC) memoran-              annual LOTFA reports, 1/22/2014.
      dum,” 8/3/2011.                                                   87	 DOD, response to SIGAR data call, 4/15/2014.
57	   See Appendix B of this report.                                    88	 The Washington Post, “U.S. commander in Afghanistan warns
58	   DOD, response to SIGAR data call, 4/17/2014.                          that full withdrawal will allow al-Qaeda to regroup,” 3/12/2014.
59	   P.L. 112-74, Section 9009, 12/23/2011; Deputy Secretary of        89	 ISAF, “COMISAF: Work remains to ensure Afghan progress
      Defense, “Afghanistan Resources Oversight Council (AROC)              endures,” 3/13/2014.
      memorandum,” 8/3/2011.                                            90	 The Wall Street Journal, “Afghanistan Vote Signals Smoother
60	   U.S. Senate Committee on Armed Services, press release,               Relations With U.S.,” 4/7/2014.
      “Senate Passes Ike Skelton National Defense Authorization Act     91	 The Washington Post, “Karzai is unlikely to meet deadline on
      for Fiscal Year 2011,” 12/22/2010.                                    signing long-term security deal, U.S. envoy says,” 1/9/2014.
61	   See Appendix B of this report.                                    92	 Los Angeles Times, “Insurgents could quickly bounce back in
62	   DFAS, “AR(M) 1002 Appropriation Status by FY Program and              Afghanistan, analysis warns,” 12/29/2014.
      Subaccounts March 2014,” 1/16/2014; DOD, response to SIGAR        93	 Center for Naval Analysis, “Summary of Independent Assessment
      data call, 7/22/2013.                                                 of the Afghan National Security Forces,” 1/24/2014, p. i.




Report to the united states congress         I   April 30, 2014                      249
                                                          Endnotes




94	   Center for Naval Analysis, “Summary of Independent Assessment        129	 IJC, response to SIGAR data call, 9/30/2013; SIGAR Audit 10-11,
      of the Afghan National Security Forces,” 1/24/2014, p. 18.                Actions Needed to Improve the Reliability of Afghan Security
95	 Center for Naval Analysis, “Summary of Independent Assessment               Force Assessments, 6/29/2010, p. 2.
      of the Afghan National Security Forces,” 1/24/2014, p. 19.           130	 IJC, response to SIGAR data call, 9/30/2013.
96	 Center for Naval Analysis, “Summary of Independent Assessment          131	 IJC, response to SIGAR data call, 9/30/2013.
      of the Afghan National Security Forces,” 1/24/2014, p. 22.           132	 IJC, response to SIGAR data call, 9/30/2013.
97	 Center for Naval Analysis, “Summary of Independent Assessment          133	 SIGAR Audit 14-33, Afghan National Security Forces:
      of the Afghan National Security Forces,” 1/24/2014, p. 40.                Actions Needed to Improve Plans for Sustaining Capability
98	 Center for Naval Analysis, “Summary of Independent Assessment               Assessments Efforts, 2/5/2014.
      of the Afghan National Security Forces,” 1/24/2014, p. 26.           134	 IJC, response to SIGAR data call, 9/30/2013.
99	 Center for Naval Analysis, “Summary of Independent Assessment          135	 IJC, “December 2013 Regional ANSF Status Report, 12/30/2013;
      of the Afghan National Security Forces,” 1/24/2014, pp. 40–41.            IJC, March 2014 RASR Status Report, Executive Summary,
100	 Center for Naval Analysis, “Summary of Independent Assessment              4/9/2014.
      of the Afghan National Security Forces,” 1/24/2014, pp. 40–41.       136	 IJC, March 2014 RASR Status Report, Executive Summary,
101 	 DOD, response to SIGAR vetting, 4/18/2014.                                4/9/2014, page 2.
102	 APPF, Meeting, 3/8/2014.                                              137	 IJC, March 2014 RASR Status Report, Executive Summary,
103 	 DOD, response to SIGAR vetting, 4/18/2014.                                4/9/2014, page 2.
104 	 DOD, response to SIGAR vetting, 4/18/2014.                           138	 IJC, “December 2013 Regional ANSF Status Report, 12/30/2013;
105 	 DOD, response to SIGAR vetting, 4/18/2014.                                IJC, March 2014 RASR Status Report, Executive Summary,
106	 CSTC-A, response to SIGAR data call, 3/31/2014.                            4/9/2014.
107	 SOJTF-A, “Public Perceptions of the ALP, December 2013 Focus          139	 IJC, “December 2013 Regional ANSF Status Report, 12/30/2013;
      Group Findings,” 3/2014.                                                  IJC, March 2014 RASR Status Report, Executive Summary,
108	 SOJTF-A, “Public Perceptions of the ALP, December 2013 Focus               4/9/2014, p. 5.
      Group Findings,” 3/2014.                                             140	 IJC, response to SIGAR data call, 9/30/2013.
109	 UN Security Council, The Situation in Afghanistan and its             141	 IJC, “December 2013 Regional ANSF Status Report, 12/30/2013;
      implications for international peace and security, 3/7/2014, p. 4.        IJC, March 2014 RASR Status Report, Executive Summary,
110	 UN Security Council, The Situation in Afghanistan and its                  4/9/2014.
      implications for international peace and security, 3/7/2014, p. 5.   142	 IJC, “December 2013 Regional ANSF Status Report, 12/30/2013;
111 	 DOD, response to SIGAR vetting, 4/18/2014.                                IJC, March 2014 RASR Status Report, Executive Summary,
112	 DOD, Operation Enduring Freedom U.S. Casualty Status, 4/4/2014.            4/9/2014, p. 6.
113	 GAO, GAO-13-283, Report to Congressional Committees, High             143	 IJC, March 2014 RASR Status Report, Executive Summary,
      Risk Series, 2/2013, p. 213.                                              4/9/2014.
114	 DOD, “Cost Consciousness in Contingency Contracting,” Report          144	 NTM-A, “MOD/GS Assessment ACG-AD Jan–Mar 2012,” p. 3.
      to the Relevant Committees of Congress, Assistant Secretary of       145	 CSTC-A, responses to SIGAR data call, 12/30/2013 and 3/31/2014.
      Defense for Logistics and Materiel Readiness, 6/2012, pp. 13–14.     146	 CSTC-A, responses to SIGAR data call, 12/30/2013 and 3/31/2014.
115	 DOD OIG, Semiannual Report to the Congress: April 1, 2013             147	 CSTC-A, responses to SIGAR data call, 12/30/2013 and 3/31/2014.
      to September 30, 2013, 9/2013, p. 10.                                148	 NSOCC-A, response to SIGAR data call, 3/31/2014.
116	 CSTC-A, response to SIGAR data call, 3/31/2014.                       149	 NSOCC-A, response to SIGAR data call, 3/31/2014.
117	DOD, Progress Toward Security and Stability in Afghanistan,            150	 NSOCC-A, response to SIGAR data call, 3/31/2014.
      12/2012, p. 56.                                                      151	 Center for Naval Analysis, “Independent Assessment of the
118	 CSTC-A, response to SIGAR data call, 7/2/2012.                             Afghan National Security Forces,” 1/24/2014, p. 138.
119	 CSTC-A, response to SIGAR data call, 10/1/2012.                       152	 Center for Naval Analysis, “Independent Assessment of the
120	 CSTC-A, responses to SIGAR data call, 1/2/2013 and 4/1/2013.               Afghan National Security Forces,” 1/24/2014, p. 138.
121	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 10/1/2013.         153	SIGAR, Quarterly Report to the United States Congress,
122	 CSTC-A, response to SIGAR data call, 1/6/2014.                             4/30/2013, p. 90.
123	 CSTC-A, response to SIGAR data call, 3/31/2014.                       154	SIGAR, Quarterly Report to the United States Congress,
124	 CSTC-A, response to SIGAR vetting, 4/10/2014.                              10/30/2012, p. 87.
125	 DOD OIG, DODIG-2012-058, Distribution of Funds and                    155	 CSTC-A, response to SIGAR data call, 3/31/2014.
      Mentoring of Finance Officers for the Afghanistan National           156	 CSTC-A, response to SIGAR data call, 3/31/2014.
      Army Payroll Need Improvement, 2/2012, p. 8.                         157	 CSTC-A, response to SIGAR data call, 3/31/2014.
126	 Center for Naval Analysis, “Independent Assessment of the             158	 DOD, response to SIGAR data call, 4/15/2014.
      Afghan National Security Forces,” 1/24/2014, p. 29.                  159	 CSTC-A, response to SIGAR data call, 3/31/2014; CSTC-A,
127	 IJC, response to SIGAR data call, 9/30/2013; SIGAR Audit 10-11,            response to SIGAR vetting, 4/10/2014.
      Actions Needed to Improve the Reliability of Afghan Security         160	 CSTC-A, responses to SIGAR data call, 1/6/2014 and 3/31/2014.
      Force Assessments, 6/29/2010, p. 2.                                  161	 Center for Naval Analysis, “Independent Assessment of the
128	 SIGAR Audit 14-33, Afghan National Security Forces:                        Afghan National Security Forces,” 1/24/2014, p. 28.
      Actions Needed to Improve Plans for Sustaining Capability            162	 Center for Naval Analysis, “Independent Assessment of the
      Assessments Efforts, 2/5/2014.                                            Afghan National Security Forces,” 1/24/2014, p. 28.




                                                    250                    Special inspector general       I   Afghanistan reconstruction
                                                          Endnotes




163	   CSTC-A, response to SIGAR data call, 3/31/2014.                   204	   NATC-A, response to SIGAR data call, 3/31/2014.
164	   DOD, response to SIGAR data call, 4/15/2014.                      205	   NATC-A, response to SIGAR data call, 3/31/2014.
165	   CSTC-A, responses to SIGAR data call, 3/31/2014.                  206	   NATC-A, response to SIGAR data call, 3/31/2014.
166	   CSTC-A, responses to SIGAR data call, 12/30/2013.                 207	   Center for Naval Analysis, “Independent Assessment of the
167	   CSTC-A, responses to SIGAR data call, 12/30/2013.                        Afghan National Security Forces,” 1/24/2014, p. 28.
168	   CSTC-A, responses to SIGAR data call, 4/1/2013, 12/30/2013, and   208	   DOD, response to SIGAR data call, 4/15/2014.
       3/31/2014.                                                        209	   CSTC-A, response to SIGAR data call, 3/31/2014; DCOM MAG,
169	   CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/7/2013.             response to SIGAR vetting, 4/10/2014.
170	   CSTC-A, response to SIGAR data call, 10/1/2013.                   210	   CSTC-A, response to SIGAR data call, 3/31/2014.
171	   CSTC-A, response to SIGAR data call, 12/30/2013.                  211	   DOD, response to SIGAR data call, 4/15/2014.
172	   CSTC-A, response to SIGAR data call, 12/30/2013.                  212	   CSTC-A, response to SIGAR data call, 3/31/2014.
173	   CSTC-A, responses to SIGAR data call, 12/30/2013 and              213	   CSTC-A, response to SIGAR data call, 3/31/2014.
       3/31/2014.                                                        214	   CSTC-A, response to SIGAR data call, 3/31/2014.
174	   DOD, response to SIGAR data call, 4/15/2014.                      215	   DOD, response to SIGAR data call, 4/15/2014.
175	   CSTC-A, response to SIGAR data call, 3/31/2014.                   216	   CSTC-A, response to SIGAR data call, 3/31/2014.
176	   DOD, response to SIGAR data call, 4/15/2014.                      217	   CSTC-A, responses to SIGAR data call, 7/2/2013 and 10/1/2013.
177	   CSTC-A, response to SIGAR vetting, 4/10/2014.                     218	   CSTC-A, response to SIGAR data call, 10/1/2013.
178	   CSTC-A, response to SIGAR vetting, 4/10/2014.                     219	   CSTC-A, response to SIGAR data call, 12/30/2013.
179	   CSTC-A, response to SIGAR data call, 12/30/2013.                  220	   CSTC-A, response to SIGAR data call, 7/2/2013.
180	   CSTC-A, response to SIGAR data call, 4/3/2014.                    221	   CSTC-A, response to SIGAR data call, 10/1/2013.
181	   CSTC-A, response to SIGAR data call, 4/3/2014; CSTC-A,            222	   CSTC-A, response to SIGAR data call, 12/30/2013.
       response to SIGAR vetting, 4/10/2014.                             223	   CSTC-A, response to SIGAR data call, 3/31/2014.
182	   CSTC-A, response to SIGAR data call, 4/3/2014.                    224	   DOD, response to SIGAR data call, 4/15/2014.
183	   DOD, response to SIGAR data call, 4/15/2014.                      225	   CSTC-A, response to SIGAR data call, 4/3/2014; CSTC-A,
184	   NTM-A, response to SIGAR data call, 3/31/2014.                           response to SIGAR vetting, 4/10/2014.
185	   NTM-A, response to SIGAR data call, 12/30/2013; CSTC-A,           226	   CSTC-A, response to SIGAR data call, 4/3/2014.
       response to SIGAR data call, 10/1/2013.                           227	   CSTC-A, response to SIGAR data call, 4/3/2014; CSTC-A,
186	   CSTC-A, response to SIGAR data call, 3/31/2014.                          response to SIGAR vetting, 4/10/2014.
187	   NTM-A, response to SIGAR data call, 3/31/2014.                    228	   CSTC-A, response to SIGAR data call, 4/3/2014.
188	   NTM-A, response to SIGAR vetting, 4/11/2014.                      229	   DOD, response to SIGAR data call, 4/15/2014.
189	   NTM-A, response to SIGAR data call, 3/31/2014.                    230	   NTM-A, response to SIGAR data call, 3/31/2014.
190	   NTM-A, response to SIGAR data call, 3/31/2014.                    231	   NTM-A, response to SIGAR data call, 12/30/2013.
191	   LTG William B. Caldwell IV, “Security, Capacity, and Literacy,”   232	   CSTC-A, response to SIGAR data call, 10/12/2012.
       Military Review, January-February 2011, p. 23.                    233	   NTM-A, response to SIGAR data call, 3/31/2014.
192	   SIGAR Audit 14-30, Afghan National Security Forces: Despite       234	   NTM-A, response to SIGAR vetting, 4/11/2014.
       Reported Successes, Concerns Remain about Literacy                235	   NTM-A, response to SIGAR data call, 3/31/2014; NTM-A,
       Program Results, Contract Oversight, Transition, and                     response to SIGAR vetting, 4/11/2014.
       Sustainment, 1/28/2014.                                           236	   SIGAR Audit 14-30, Afghan National Security Forces: Despite
193	   NTM-A, response to SIGAR data call, 10/12/2012.                          Reported Successes, Concerns Remain about Literacy
194	   SIGAR Audit 14-30, Afghan National Security Forces: Despite              Program Results, Contract Oversight, Transition, and
       Reported Successes, Concerns Remain about Literacy                       Sustainment, 1/28/2014, p. 7.
       Program Results, Contract Oversight, Transition, and              237	   NTM-A, response to SIGAR data call, 3/31/2014.
       Sustainment, 1/28/2014, p. 7.                                     238	   CSTC-A, response to SIGAR data call, 3/31/2014.
195	   SIGAR Audit 14-30, Afghan National Security Forces: Despite       239	   CSTC-A, response to SIGAR data call, 10/1/2013.
       Reported Successes, Concerns Remain about Literacy                240	   CSTC-A, response to SIGAR data call, 3/31/2014.
       Program Results, Contract Oversight, Transition, and              241	   CSTC-A, response to SIGAR data call, 3/31/2014.
       Sustainment, 1/28/2014.                                           242	   CSTC-A, response to SIGAR data call, 3/31/2014.
196	   NTM-A, response to SIGAR data call, 3/31/2014; NTM-A,             243	   P.L. 113-66, National Defense Authorization Act for Fiscal Year
       response to SIGAR vetting, 4/11/2014.                                    2014, Legislative Text and Joint Explanatory Statement to
197	   CSTC-A, response to SIGAR data call, 7/2/2013.                           Accompany H.R. 3304, p. 273.
198	   NTM-A, response to SIGAR data call, 3/31/2014.                    244	   CSTC-A, response to SIGAR data call, 3/31/2014.
199	   NTM-A, response to SIGAR data call, 3/31/2014.                    245	   CSTC-A, response to SIGAR data call, 3/31/2014.
200	   CSTC-A, response to SIGAR data call, 3/31/2014.                   246	   State, PM/WRA, response to SIGAR data call, 3/31/2014.
201	   CSTC-A, response to SIGAR data call, 3/31/2014.                   247	   State, PM/WRA, response to SIGAR data call, 3/31/2014.
202	   CSTC-A, response to SIGAR data call, 3/31/2014.                   248	   State, PM/WRA, response to SIGAR data call, 3/31/2014.
203	   P.L. 113-66, National Defense Authorization Act for Fiscal Year   249	   State, PM/WRA, response to SIGAR data call, 3/31/2014.
       2014, Legislative Text and Joint Explanatory Statement to         250	   The Washington Post, “A Rising Number of Children are Dying
       Accompany H.R. 3304, p. 273.                                             from U.S. Explosives Littering Afghan Land,” 4/9/2014.




Report to the united states congress          I   April 30, 2014                       251
                                                         Endnotes




251	 The Washington Post, “A Rising Number of Children are Dying         294	   DOD, response to SIGAR data call, 3/28/2014.
      from U.S. Explosives Littering Afghan Land,” 4/9/2014.             295	   DOD, response to SIGAR data call, 3/28/2014.
252	 See Appendix B of this report.                                      296	   DOD, response to SIGAR data call, 3/28/2014.
253 	 CRS, International Drug Control Policy: Background and U.S.        297	   DOD, response to SIGAR data call, 3/28/2014.
      Responses, 8/13/2013, p.19.                                        298	   State, INL, response to SIGAR data call, 4/1/2014.
254 	 State, INL, International Narcotics Control Strategy Report,       299	   DOD, response to SIGAR data call, 3/28/2014.
      Volume I: Drug and Chemical Control, 3/2014, pp. 89–90, 92–93.     300	   State, INL, response to SIGAR vetting, 4/14/2014.
255 	 State, INL, International Narcotics Control Strategy Report,       301	   State, INL, response to SIGAR data call, 4/1/2014.
      Volume I: Drug and Chemical Control, 3/2014, pp. 90–91.            302	   See Appendix B.
256 	 DOD, response to SIGAR data call, 3/28/2014.                       303	   National Democratic Institute, “Preliminary Statement of
257	 UNODC, “Impacts of Drug Use on Users and Their Families in                 the National Democratic Institute’s Election Mission for
      Afghanistan,” 4/2014, p. 7.                                               Afghanistan’s 2014 Presidential and Provincial Council
258 	UNODC, Afghanistan Opium Survey 2013, 12/2013, p.10.                       Elections,” 4/7/2014, p. 5.
259	UNODC, Afghanistan Opium Survey 2013, 12/2013, p.10.                 304	   National Democratic Institute, “Preliminary Statement of
260	UNODC, Afghanistan Opium Survey 2013, 12/2013, pp. 10, 17.                  the National Democratic Institute’s Election Mission for
261	 UNODC, “More Must be Done to Confront Drug Trade, Rise in                  Afghanistan’s 2014 Presidential and Provincial Council
      Domestic Addiction,” 1/17/2014, accessed 3/5/2014.                        Elections,” 4/7/2014, p. 4.
262	 State, INL, INL Demand Reduction Porgram Research Brief,            305	   National Democratic Institute, “Preliminary Statement of
      12/2012, p. 4.                                                            the National Democratic Institute’s Election Mission for
263	UNODC, Drug Use in Afghanistan: 2009 Survey Executive                       Afghanistan’s 2014 Presidential and Provincial Council
      Summary, 2009, pp. 3, 5.                                                  Elections,” 4/7/2014, p. 5.
264	UNODC, Drug Use in Afghanistan: 2009 Survey Executive                306	   National Democratic Institute, “Preliminary Statement of
      Summary, 2009, p. 3.                                                      the National Democratic Institute’s Election Mission for
265	 State, INL, International Narcotics Control Strategy Report,               Afghanistan’s 2014 Presidential and Provincial Council
      Volume I: Drug and Chemical Control, 3/2013, p. 20.                       Elections,” 4/7/2014, pp. 2–3.
266	 State, INL, response to SIGAR data call, 4/1/2014.                  307	   Agence France-Presse, “Afghan election ‘less fraudulent’ than
267	 State, INL, response to SIGAR data call, 4/1/2014.                         2009,” 4/7/2014.
268	 State, INL, response to SIGAR data call, 4/1/2014.                  308	   Reuters, “Complaints of Serious Fraud in Afghan Election
269	 State, INL, response to SIGAR data call, 4/1/2014.                         Exceed Total in 2009,” 4/13/2014.
270	 State, INL, response to SIGAR data call, 4/1/2014; State, INL,      309	   Independent Election Commission, “Presidential Elections
      response to SIGAR vetting, 4/14/2014.                                     Partial Results,” 4/20/2014; Tolo News, “Abdullah Leads Second
271	 State, INL, response to SIGAR data call, 4/1/2014.                         Round of Partial Results,” 4/20/2014.
272	 State, INL, response to SIGAR vetting, 4/14/2014.                   310	   Pajhwok News, “Abdullah 42, Ahmadzai secures 38% of 10 per-
273	 State, INL, response to SIGAR data call, 4/1/2014.                         cent counted votes,” 4/13/2014; BBC News, “Abdullah ahead in
274	 State, INL, response to SIGAR data call, 4/1/2014.                         Afghan poll count,” 4/13/2014; Afghanistan Analysts Network,
275	 State, INL, response to SIGAR data call, 4/1/2014.                         “Elections 2014 (9): Making sense of the first ten per cent of the
276	 State, INL, response to SIGAR data call, 4/1/2014.                         results,” 4/13/2014.
277	 State, INL, response to SIGAR data call, 4/1/2014.                  311	   The New York Times, “Afghan Vice President, Ex-Northern
278	 GIROA, Ministry of Counter Narcotics, National Drug Demand                 Alliance Commander, Dies,” 3/9/2014.
      Reduction Policy 1391–1395, p. 5.                                  312	   The New York Times, “Afghan President Chooses Tajik Leaders
279	 State, INL, response to SIGAR vetting, 4/14/2014.                          as New Deputy,” 3/18/2014.
280	 State, INL, response to SIGAR vetting, 4/14/2014.                   313	   Tolo News, “Afghan MPs Approve Qanuni as First Vice
281	 State, INL, response to SIGAR data call, 4/1/2014.                         President,” 3/25/2014.
282	 State, INL, response to SIGAR data call, 4/1/2014.                  314	   National Democratic Institute, “Preliminary Statement of
283	 State, INL, response to SIGAR data call, 4/1/2014.                         the National Democratic Institute’s Election Mission for
284	 UNODC, “57th CND session ends with resolutions that sign-                  Afghanistan’s 2014 Presidential and Provincial Council
      post way forward in tackling illicit drugs,” 3/21/2014, accessed          Elections,” 4/7/2014, p. 2.
      4/9/2014.                                                          315	   The Wall Street Journal, “Taliban Threaten to Attack Voters in
285	 UNODC, “Commission on Narcotic Drugs Vienna,” accessed                     Afghan Election,” 3/10/2014.
      4/10/2014.                                                         316	   The Associated Press, “Afghan presidential candidate field
286	 State, INL, response to SIGAR data call, 4/1/2014.                         narrows to 8,” 3/26/2014; Pajhwok News, “Naeem withdraws
287	 State, INL, response to SIGAR data call, 4/1/2014.                         in Rassoul’s favor,” 3/26/2014; Pajhwok News, “Karzai says he
288	 State, INL, response to SIGAR vetting, 4/14/2014.                          encouraged elder brother to quit,” 3/7/2014; Associated Press,
289	 State, INL, response to SIGAR data call, 4/1/2014.                         “Ex-defense minister drops out of Afghan race,” 03/16/2014.
290	 DOD, response to SIGAR data call, 3/28/2014.                        317	   UN Secretary-General, The situation in Afghanistan and its
291	 DOD, response to SIGAR data call, 3/28/2014.                               implications for international peace and security, 12/6/2013, p. 2.
292	 DOD, response to SIGAR data call, 3/28/2014.                        318	   Pajhwok, “116 more provincial council runners disqualified,”
293	 State, INL, response to SIGAR data call, 4/1/2014.                         03/19/2014.




                                                   252                   Special inspector general          I   Afghanistan reconstruction
                                                         Endnotes




319	 Pajhwok, “116 more provincial council runners disqualified,”        342	 National Democratic Institute, “Statement of the NDI Pre-
     03/19/2014.                                                              Election Delegation to Afghanistan,” 12/9/2013, p. 7.
320	 National Democratic Institute, “Afghanistan 2014 Election           343	 Afghanistan Analysts Network, “What the Polls Tell Us About the
     Update,” 03/19/2014.                                                     Afghan Presidential Election,” 3/31/2014; Thomas Ruttig, “Some
321	 Pajhwok, “Over 200 elections complaints referred to AGO,”                Things Got Better - How Much Got Good? A Review of 12 Years
     3/30/2014.                                                               of International Intervention in Afghanistan,” 12/30/2013, p. 4.
322	 Pajhwok News, “Ghani fined for failing to return govt vehicles,”    344	 The Associated Press, “Officials: Days before deadline, only a
     2/15/2014.                                                               quarter of eligible Afghans registered for 2014 vote” 11/6/2013;
323	 Tolo News, “ECC Fines Candidates For Using Government                    National Democratic Institute, “Preliminary Statement of the
     Facilities,” 4/1/2014.                                                   National Democratic Institute’s Election Mission for Afghanistan’s
324	 National Democratic Institute, “Preliminary Statement of                 2014 Presidential and Provincial Council Elections,” 4/7/2014,
     the National Democratic Institute’s Election Mission for                 p. 10; European Union Election Assessment Team Afghanistan,
     Afghanistan’s 2014 Presidential and Provincial Council                   “Preliminary Statement: The Afghan people resolutely engaged with
     Elections,” 4/7/2014, p. 4.                                              the democratic process, despite security threats,” 4/7/2014, p. 4.
325	SIGAR, Quarterly Report to the United States Congress,               345	 The Associated Press, “Afghan election season off to a messy
     10/30/2013, pp. 111–112.                                                 start,” 11/20/2013.
326	 Reuters, “U.S. cancels funds for Afghan opinion polls ahead of      346	 National Democratic Institute, “Preliminary Statement of
     election,” 1/31/2014.                                                    the National Democratic Institute’s Election Mission for
327	 USAID, ODG, response to SIGAR data call, 12/30/2013; USAID,              Afghanistan’s 2014 Presidential and Provincial Council
     ODG, response to SIGAR data call, 3/31/2014.                             Elections,” 4/7/2014, pp. 5, 10.
328	 National Democratic Institute, “Preliminary Statement of            347	 Afghanistan Analysts Network, “Elections 2014 (7): An emerg-
     the National Democratic Institute’s Election Mission for                 ing mixed picture,” 4/9/2014.
     Afghanistan’s 2014 Presidential and Provincial Council              348	 National Democratic Institute, “Preliminary Statement of
     Elections,” 4/7/2014, p. 6.                                              the National Democratic Institute’s Election Mission for
329	 USAID, ODG, response to SIGAR data call, 3/31/2014.                      Afghanistan’s 2014 Presidential and Provincial Council
330	 Stars and Stripes, “Afghans largely left to monitor their own            Elections,” 4/7/2014, p. 11.
     election,” 4/3/2014; National Democratic Institute, “Preliminary    349	 Afghanistan Analysts Network, “Elections 2014 (7): An emerg-
     Statement of the National Democratic Institute’s Election                ing mixed picture,” 4/9/2014.
     Mission for Afghanistan’s 2014 Presidential and Provincial          350	UNDP, Enhancing Legal and Electoral Capacity for Tomorrow
     Council Elections,” 4/7/2014, p. 7.                                      - Phase II Update, 12/20/2013, pp. 3, 5.
331	 National Democratic Institute, “Preliminary Statement of            351	 Reuters, “Afghanistan says set to ensure elections avoid past
     the National Democratic Institute’s Election Mission for                 problems,” 2/9/2014.
     Afghanistan’s 2014 Presidential and Provincial Council              352	 Pajhwok News, “Police officers suspended for poll law viola-
     Elections,” 4/7/2014, p. 1; Associated Press, “Foreign Observers         tion,” 3/31/2014.
     Face Hurdles in Afghanistan,” 3/25/2014; The New York               353	 Tolo News, “Five Including IEC Employee Arrested for Selling
     Times, “Credibility of Afghan Vote in Doubt as Observers Flee            Votes: MoIA,” 4/4/2014.
     Violence,” 3/29/2014; Stars and Stripes, “Afghans largely left to   354	 National Democratic Institute, “Statement of the NDI Pre-
     monitor their own election,” 4/3/2014.                                   Election Delegation to Afghanistan,” 12/9/2013, p. 6; Democracy
332	USAID, Review of USAID /Afghanistan’s Electoral Assistance                International, A Review of Suspected Electoral Fraud, 4/2010,
     Program (Report No. F-3066-14-001-S), 2/6/2014, p. 34; USAID,            pp. 25, 28–29.
     Review of USAID /Afghanistan’s Electoral Assistance Program         355	 National Democratic Institute, “Statement of the NDI Pre-
     (Report No. F-3066-14-001-S), 2/6/2014, pp. 3–4.                         Election Delegation to Afghanistan,” 12/9/2013, p. 5.
333	 United Nations Secretary-General’s Special Representative for       356	 National Democratic Institute, “Statement of the NDI Pre-
     Afghanistan, “Briefing to Security Council,” 3/17/2014.                  Election Delegation to Afghanistan,” 12/9/2013, p. 7.
334	 USAID, OPPD, response to SIGAR data call, 3/31/2014.                357	 National Democratic Institute, “Statement of the NDI Pre-
335	 National Democratic Institute, “Afghanistan 2014 Election                Election Delegation to Afghanistan,” 12/9/2013, p. 7.
     Update,” 3/14/2014.                                                 358	 The Wall Street Journal, “Left Unmoored, Afghan Local Police
336	 USAID, ODG, response to SIGAR data call, 3/31/2014.                      Pose New Risk,” 3/25/2014.
337	 Agence France-Presse, “Afghan election ‘less fraudulent’ than       359	 Tolo News, “Final list of polling centers release, new closures to
     2009,” 4/7/2014.                                                         prevent fraud,” 3/30/2014.
338	 The New York Times, “After ‘09 Fraud, Afghanistan Reports a         360	 National Democratic Institute, “Preliminary Statement of
     Cleaner Election,” 4/8/2014.                                             the National Democratic Institute’s Election Mission for
339	 Free and Fair Election Forum of Afghanistan, “Election Day               Afghanistan’s 2014 Presidential and Provincial Council
     Observation Statement,” 4/9/2014, pp. 2, 5–6.                            Elections,” 4/7/2014, p. 10.
340	 Reuters, “Complaints of serious fraud in Afghan election exceed     361	 European Union Election Assessment Team Afghanistan,
     total in2009,” 4/13/2014.                                                “Preliminary Statement: The Afghan people resolutely engaged
341	 Stars and Stripes, “Afghan elections results sorted out behind           with the democratic process, despite security threats,” 4/7/2014,
     closed doors,” 4/16/2014.                                                p. 4.




Report to the united states congress         I   April 30, 2014                       253
                                                         Endnotes




362	 National Democratic Institute, “Preliminary Statement of             385	 USAID, OPPD, response to SIGAR data call, 12/30/2013.
     the National Democratic Institute’s Election Mission for             386	 USAID, “Afghanistan Reconstruction Trust Fund (ARTF),”
     Afghanistan’s 2014 Presidential and Provincial Council                    8/26/2013.
     Elections,” 4/7/2014, p. 10.                                         387	 USAID, “U.S. government contributed $105 million to Asian
363	 Democracy International, A Review of Suspected Electoral                  Development Bank Infrastructure Fund for Afghanistan,”
     Fraud, 4/2010, pp. 25, 28–29.                                             3/18/2014.
364	 Democracy International, A Review of Suspected Electoral             388	 USAID, OPPD, response to SIGAR data call, 12/30/2013.
     Fraud, 4/2010, pp. 25, 28–29.                                        389	 USAID, response to SIGAR data call, 4/7/2014 and 4/17/2014.
365	 ToloNews, “Hikmatyar Looks to Rally Supports for Votes,”             390	 USAID, OPPD, response to SIGAR data call, 12/30/2013.
     1/14/2014, accessed 1/16/2014.                                       391	 USAID, OPPD, response to SIGAR data call, 12/30/2013; USAID,
366	 Voice of America, “Afghan Insurgent Group to Join Presidential            U.S. Foreign Assistance for Afghanistan: Post Performance
     Election,” 2/16/2014.                                                     Management Plan 2011-2015, 10/2010, p. 7.
367	 The Wall Street Journal, “Taliban Threaten to Attack Voters in       392	 USAID, OPPD, response to SIGAR data call, 12/30/2013.
     Afghan Election,” 3/10/2014.                                         393	 Management Sciences for Health, “Leadership, Management,
368	 Radio Free Europe, “Afghan Presidential Candidates Cancel TV              and Governance Project in Afghanistan,” 7/15/2013; USAID,
     Debates,” 3/31/2014.                                                      OSSD, response to SIGAR vetting, 4/14/2014.
369	 National Democratic Institute, “Preliminary Statement of             394	USAID, Cooperative Agreement No. AID-306-A-13-00001,
     the National Democratic Institute’s Election Mission for                  Ministry of Women’s Affairs Organizational Restructuring
     Afghanistan’s 2014 Presidential and Provincial Council                    and Empowerment (MORE), 12/20/2012, pp. 29–30.
     Elections,” 4/7/2014, p. 4.                                          395	USAID, Contract No. AID-OAA-I-12-00003/AID-
370	 BBC News, “Afghanistan election HQ attack: Taliban militants              306-TO-13-00004, 3/28/2013, p. 11.
     killed,” 3/29/2014.                                                  396	 National Assembly, Legislative Manual, accessed 1/15/2014, p.
371	 The Associated Press, “Taliban abduct provincial candidate in             5.
     Afghanistan,” 3/31/2014; Pajhwok, “5 IEC personnel kidnapped         397	 USAID, ODG, response to SIGAR data call, 3/31/2014.
     in Nangarhar,” 3/30/2014; Ariana News, “Taliban Block Key            398	 USAID, ODG, response to SIGAR data call, 3/31/2014.
     Ghazni Routs to Disrupt Polls,” 3/26/2014; The New York Times,       399	 State, response to SIGAR data call, 4/4/2014.
     “5 Killed in Kabul as Taliban Target Election Offices,” 3/25/2014;   400	 Pajhwok News, “Senators lash out at absent colleagues,”
     Tolo News, “Insurgents Kill 9 Including Provincial Candidate in           3/18/2014.
     Sar-e-Pol,” 4/2/2014.                                                401	 Pajhwok News, “Absent MPs warned of disciplinary action,”
372	 Human Rights Watch, “Afghanistan: Taliban Violence Threatens              3/31/2014.
     Election,” 3/15/2014.                                                402	USAID, Contract No. AID-OAA-I-12-00003/AID-
373	 National Democratic Institute, “Preliminary Statement of                  306-TO-13-00004, 3/28/2013, p. 9.
     the National Democratic Institute’s Election Mission for             403	 USAID, ODG, response to SIGAR data call, 3/31/2014.
     Afghanistan’s 2014 Presidential and Provincial Council               404	USAID, U.S. Foreign Assistance for Afghanistan: Post
     Elections,” 4/7/2014, p. 3.                                               Performance Management Plan 2011-2015, 10/2010, pp. 4–5,
374	 Tolo News, “High Voter Turnout in Insurgent Heartland,” 4/6/2014.         25.
375	 Stars and Stripes, “Officials: Despite Afghan election success,      405	 USAID, ODG, response to SIGAR data call, 3/31/2014.
     insurgents remain active,” 4/9/2014.                                 406	 USAID, ODG, response to SIGAR data call, 3/31/2014.
376	 State, INL, response to SIGAR vetting, 4/14/2014; DOD, OSD,          407	UNAMA, Annual Report 2013: Protection of Civilians in
     response to SIGAR vetting, 4/18/2014.                                     Armed Conflict, 2/2014, p. 24.
377	 National Democratic Institute, “Statement of the NDI Pre-            408	 U.S. Special Operations Command, Fact Book, 2013, p. 29;
     Election Delegation to Afghanistan,” 12/9/2013, p. 7.                     DOD, NSOCC-A, response to SIGAR data call, 4/7/2014.
378	 State, INL, response to SIGAR vetting, 4/14/2014.                    409	 U.S. Special Operations Command, Fact Book, 2013, p. 29;
379	USAID, U.S. Foreign Assistance for Afghanistan: Post                       DOD, NSOCC-A, response to SIGAR data call, 4/7/2014.
     Performance Management Plan 2011-2015, 10/2010, p. 123.              410	 DOD, NSOCC-A, response to SIGAR data call, 4/7/2014.
380	 UN Secretary-General’s Special Representative for Afghanistan,       411	 DOD, NSOCC-A, response to SIGAR data call, 4/7/2014.
     “Briefing to Security Council,” 3/17/2014.                           412	 DOD, NSOCC-A, response to SIGAR data call, 4/7/2014.
381	 Special Joint Coordination and Monitoring Board, Joint Report,       413	 DOD, NSOCC-A, response to SIGAR data call, 4/7/2014.
     1/29/2014, p. 4.                                                     414	 DOD, NSOCC-A, response to SIGAR data call, 4/7/2014.
382	 Special Joint Coordination and Monitoring Board, Joint Report,       415	 USAID, “Stabilization,” 1/6/2014; USAID, OPPD, response to
     1/29/2014, p. 4.                                                          SIGAR data call, 3/31/2014.
383	 Government of Afghanistan, “Communiqué: Conference                   416	 SIGAR Audit 13-16, Stability in Key Areas (SIKA) Programs:
     Outcomes, Contributions and Participants,” 1/28/2010, p. 5; “The          After 16 Months and $47 Million Spent, USAID Had Not Met
     Tokyo Declaration: Partnership for Self-Reliance in Afghanistan           Essential Program Objectives, 7/2013, p. 7.
     from Transition to Transformation,” 7/8/2012.                        417	 SIGAR Audit 13-16, Stability in Key Areas (SIKA) Programs:
384	UN, Letter dated 9 July 2012 from the representatives of                   After 16 Months and $47 Million Spent, USAID Had Not Met
     Afghanistan and Japan to the United Nations addressed to the              Essential Program Objectives, 7/2013, p. 18; USAID, STAB-U,
     Secretary-General, 7/12/2012, pp. 5–6, 13.                                response to SIGAR data call, 12/30/2013.




                                                   254                    Special inspector general      I   Afghanistan reconstruction
                                                           Endnotes




418	   USAID, ODG, response to SIGAR data call, 3/31/2014.                449	  USAID, OPPD, response to SIGAR data call, 3/31/2014.
419	   USAID, ODG, response to SIGAR data call, 3/31/2014.                450	  USAID, OEGI, response to SIGAR data call, 3/31/2014.
420	   USAID, ODG, response to SIGAR data call, 3/31/2014.                451	  USAID, OEGI, response to SIGAR data call, 3/31/2014.
421	   USAID, ODG, response to SIGAR data call, 3/31/2014.                452	  USAID, OEGI, response to SIGAR data call, 3/31/2014.
422	   USAID, ODG, response to SIGAR vetting, 4/16/2014.                  453	  Islamic Republic of Afghanistan, 1393 National Budget,
423	   USAID, OTI, response to SIGAR data call, 3/31/2014; USAID,               1/15/2014, pp. 106–107.
       OTI, response to SIGAR data call, 12/30/2013.                      454	 Islamic Republic of Afghanistan, 1393 National Budget,
424	   USAID, OTI, response to SIGAR data call, 12/30/2013.                     1/15/2014, pp. 36–37, 107; USAID, OPPD, response to SIGAR
425	   USAID, OTI, response to SIGAR data call, 12/30/2013; USAID,              vetting, 4/14/2014.
       OTI, response to SIGAR data call, 3/31/2014.                       455	 UN Secretary-General, The situation in Afghanistan and its
426	   USAID, OTI, response to SIGAR data call, 3/31/2014.                      implications for international peace and security, 3/7/2014, p. 9.
427	   USAID, OTI, response to SIGAR data call, 3/31/2014.                456	DOD/State, U.S. Civil-Military Strategic Framework for
428	   Committee on Foreign Relations (Senate), Evaluating U.S.                 Afghanistan: Revision 2, 8/2013, p. 12.
       Foreign Assistance to Afghanistan, 6/8/2011, p. 26.                457	 UN Secretary-General, The situation in Afghanistan and its
429	   Committee on Foreign Relations (Senate), Evaluating U.S.                 implications for international peace and security, 3/7/2014, p. 3.
       Foreign Assistance to Afghanistan, 6/8/2011, p. 26.                458	 State, response to SIGAR data call, 4/1/2014.
430	   SIGAR Audit 11-08, Afghanistan’s National Solidarity               459	 State, response to SIGAR data call, 4/1/2014.
       Program Has Reached Thousands of Afghan Communities,               460	 Tolo News, “No Changes to Constitution for Peace Talks:
       but Faces Challenges that Could Limit Outcomes, 3/22/2011,               Spanta,” 3/1/2014.
       pp. 15–18, 21–23.                                                  461	 Pajhwok News, “NSC welcomes Taliban’s Dubai meeting dec-
431	   USAID, OPPD, response to SIGAR data call, 3/31/2014.                     laration,” 2/16/2014; Reuters, “Afghan peace team seeks Dubai
432	   USAID, OPPD, response to SIGAR vetting, 1/14/2014.                       meeting with Taliban figures,” 2/17/2014.
433	   USAID, OPPD, response to SIGAR data call, 3/31/2014.               462	 Tolo News, “Body of the Assassinated Taliban Minister trans-
434	   USAID, OPPD, response to SIGAR vetting, 1/14/2014.                       ferred to Takhar,” 2/18/2014; Reuters, “Afghan peace team seeks
435	   USAID, “Measuring Impacts of Stabilization Initiatives (MISTI),”         Dubai meeting with Taliban figures,” 2/17/2014.
       10/25/2013; Management Systems International, Community            463	 Reuters, “Afghan Taliban repudiates hoped-for olive branch to
       Development Program: Final Performance Evaluation,                       government,” 2/19/2014.
       2/12/2014, p. 4; USAID, response to SIGAR data call, 4/7/2014.     464	 Tolo News, “HPC Reacts to Karzai’s Secret Taliban Meetings,”
436	   Management Systems International, Community Development                  2/5/2014.
       Program: Final Performance Evaluation, 2/12/2014, p. 4;            465	 The Associated Press, “Afghan group confirms talks with
       USAID, response to SIGAR data call, 4/7/2014.                            Taliban faction,” 2/22/2014.
437	   Management Systems International, Community Development            466	 Khaama Press, “Afghan peace talks with Taliban leaders to
       Program: Final Performance Evaluation, 2/12/2014, p. 16.                 resume in UAE,” 4/10/2014; Pajhwok News, “Agha Jan Mustasim
438	   Management Systems International, Community Development                  goes missing in UAE,” 4/11/2014; Khaama Press, “Afghan offi-
       Program: Final Performance Evaluation, 2/12/2014, p. 4.                  cials confirms former Taliban leader missing in UAE,” 4/14/2014.
439	   Management Systems International, Community Development            467	 Pajhwok News, “Anti-US remarks: PHC spokesman suspended,”
       Program: Final Performance Evaluation, 2/12/2014, p. 12.                 2/25/2014.
440	   Management Systems International, Community Development            468	 State, response to SIGAR vetting, 1/14/2014.
       Program: Final Performance Evaluation, 2/12/2014, p. 23.           469	 Ronna, “Mission of the F-RIC,” accessed 1/7/2013; DOD, FRIC,
441	   Management Systems International, Community Development                  response to SIGAR data call, 3/31/2014.
       Program: Final Performance Evaluation, 2/12/2014, p. 18.           470	 DOD, FRIC, response to SIGAR data call, 3/31/2014.
442	   Management Systems International, Community Development            471	 DOD, FRIC, response to SIGAR data call, 3/31/2014.
       Program: Final Performance Evaluation, 2/12/2014, pp. 22, 24.      472 	 State, response to SIGAR vetting, 1/14/2014; DOD, FRIC,
443	   Management Systems International, Community Development                  response to SIGAR data call, 12/31/2013.
       Program: Final Performance Evaluation, 2/12/2014, p. 22.           473 	 Office of the President of the Islamic Republic of Afghanistan,
444	   Management Systems International, Community Development                  “Decree on the execution of content of the historical speech
       Program: Final Performance Evaluation, 2/12/2014, p. 22.                 of June 21, 2012 in the special session of National Assembly,”
445	   Management Systems International, Community Development                  6/21/2012.
       Program: Final Performance Evaluation, 2/12/2014, p. 20.           474	 State, response to SIGAR data call, 12/30/2013.
446	   International City/County Management Association,                  475	 DOD, response to SIGAR data call, 9/30/2013; State, response to
       “Afghanistan Municipal Strengthening Program,” accessed                  SIGAR data call, 12/30/2013.
       1/9/2014; International City/County Management Association,        476	 Pajhwok News, “14 Ghazni district courts without judges,”
       “Regional Afghan Municipalities Program for Urban                        2/6/2014.
       Populations,” accessed 1/9/2014; USAID, response to SIGAR          477	 USAID, ODG, response to SIGAR data call, 3/31/2014.
       data call, 1/7/2014.                                               478	 USAID, ODG, response to SIGAR data call, 3/31/2014.
447	   Ministry of Finance, Tokyo Mutual Accountability Framework         479	 USAID, ODG, response to SIGAR data call, 12/30/2013; USAID,
       Status Report on Annex I, 9/2013, p. 10.                                 ODG, response to SIGAR data call, 3/31/2014.
448	   USAID, OEGI, response to SIGAR data call, 3/31/2014.               480	 USAID, ODG, response to SIGAR data call, 3/31/2014.




Report to the united states congress           I   April 30, 2014                       255
                                                          Endnotes




481	 USAID, ODG, response to SIGAR data call, 3/31/2014.                   519	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.
482	 State, INL, response to SIGAR data call, 4/1/2014.                    520	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.
483	 State, response to SIGAR data call, 4/1/2014.                         521	 UNAMA, “UNAMA welcomes Afghan report on EVAW law, calls
484	 State, INL, response to SIGAR data call, 4/1/2014.                         for full implementation,” 3/3/2014.
485	 UN Secretary-General, The situation in Afghanistan and its            522	 Ministry of Women’s Affairs, First Report on the
     implications for international peace and security, 3/7/2014, p. 8.         Implementation of the Elimination of Violence against
486	 State, INL, response to SIGAR data call, 4/1/2014.                         Women (EVAW) Law in Afghanistan, 1/2014, pp. 8–9.
487	 State, INL, response to SIGAR data call, 4/1/2014.                    523	 Ministry of Women’s Affairs, First Report on the
488	 SIGAR, Alert Letter 15-45: Baghlan Prison Construction,                    Implementation of the Elimination of Violence against
     4/2/2014, pp. 1, 4–5.                                                      Women (EVAW) Law in Afghanistan, 1/2014, p. 32.
489	 State, INL, response to SIGAR vetting, 4/14/2014.                     524	 USAID, OPPD, response to SIGAR data call, 3/31/2014.
490	 SIGAR, Alert Letter 15-45: Baghlan Prison Construction,               525	 The Guardian, “Afghanistan still one of the worst places to be a
     4/2/2014, pp. 1, 4–5.                                                      woman, says EU ambassador,” 3/7/2014.
491	 State, INL, response to SIGAR vetting, 4/14/2014.                     526	 Human Rights Watch, “Women’s Rights in Afghanistan Must be
492	 State, INL, response to SIGAR data call, 4/1/2014.                         Steadfastly Respected,” 3/20/2014.
493	 Joint and Coalition Operational Analysis, Operationalizing            527	 U.S. Embassy Kabul, “U.S. Embassy Spokesperson Statement,”
     Counter/Anti-Corruption Study, 2/28/2014, p. 1.                            2/11/2014; European Union, “Statement by EU High
494	 Joint and Coalition Operational Analysis, Operationalizing                 Representative Catherine Ashton on the Criminal Procedure
     Counter/Anti-Corruption Study, 2/28/2014, pp. 1–2.                         Code in Afghanistan,” 2/10/2014; USAID, OPPD, response to
495	 Joint and Coalition Operational Analysis, Operationalizing                 SIGAR vetting, 4/14/2014.
     Counter/Anti-Corruption Study, 2/28/2014, p. 3.                       528	 State, response to SIGAR data call, 4/1/2014.
496	 Joint and Coalition Operational Analysis, Operationalizing            529	 USAID, OPPD, response to SIGAR vetting, 4/14/2014.
     Counter/Anti-Corruption Study, 2/28/2014, pp. 11–13.                  530	 Human Rights Watch, “Women’s Rights in Afghanistan Must be
497	 Joint and Coalition Operational Analysis, Operationalizing                 Steadfastly Respected,” 3/20/2014.
     Counter/Anti-Corruption Study, 2/28/2014, pp. 28, 31, 33–34.          531	 State, response to SIGAR data call, 3/31/2014.
498	 Pajhwok News, “Nuristani denies complicity in wheat theft,”           532	 State, response to SIGAR data call, 3/31/2014.
     2/4/2014.                                                             533	 UN Secretary-General, The situation in Afghanistan and its
499	 Institute for War and Peace Reporting, “Afghan District Head               implications for international peace and security, 3/7/2014, p. 10.
     Accused of Fraud,” 3/12/2014.                                         534	 UNHCR, “UNHCR welcomes Afghanistan’s new IDP policy,”
500	 State, INL, response to SIGAR data call, 1/9/2014.                         2/11/2014.
501	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 137.               535	 UNHCR, “Pakistan begins issuing new cards to 1.6 million
502	 State, INL, response to SIGAR data call, 1/9/2014.                         Afghan refugees,” 2/25/2014.
503	 USAID, ODG, response to SIGAR data call, 3/31/2014;                   536	 Norwegian Refugee Council, Still at risk: Security of tenure
     Independent Joint Anti-Corruption Monitoring & Evaluation                  and the forced eviction of IDPs and refugee returnees in
     Committee, “About us,” accessed 4/7/2014.                                  urban Afghanistan, 2/2014, pp. 5, 17.
504	 Independent Joint Anti-Corruption Monitoring & Evaluation             537	 State, response to SIGAR data call, 3/31/2014.
     Committee, Fifth Six-Month Report: July 1, 2013–December              538	 UNHCR, “Opening remarks by UN High Commissioner for
     31, 2013, 1/30/2014, p. 1.                                                 Human Rights Navi Pillay at a press conference during her visit
505	 Independent Joint Anti-Corruption Monitoring & Evaluation                  to Afghanistan,” 9/17/2013, accessed 9/17/2013; International
     Committee, Fifth Six-Month Report: July 1, 2013–December                   Coordinating Committee of National Institutions for the
     31, 2013, 1/30/2014, pp. 21–22.                                            Promotion and Protection of Human Rights, “Chart of the
506	 Independent Joint Anti-Corruption Monitoring & Evaluation                  Status of National Institutions,” 2/11/2013, accessed 10/7/2013.
     Committee, “Ineffective Asset Registration and Verification           539	 UN Secretary-General, The situation in Afghanistan and its
     Provides the Opportunity for Embezzlement of government                    implications for international peace and security, 3/7/2014, p. 8.
     resources,” 2/25/2014.                                                540	 USAID, OPPD, response to SIGAR data call, 3/31/2014.
507	SIGAR, Quarterly Report to Congress, 10/30/2013, p. 137.               541	 State, response to SIGAR data call, 3/31/2014.
508	 USAID, ODG, response to SIGAR data call, 3/31/2014.                   542	 Checchi and Company Consulting, Inc., Data Quality
509	 USAID, ODG, response to SIGAR data call, 3/31/2014.                        Assessment: The Asia Foundation’s (TAF) Institutionalizing
510	 UN Secretary-General, The situation in Afghanistan and its                 the Survey of the Afghan People’s (ISAP) Project, 1/25/2014, p. 4.
     implications for international peace and security, 3/7/2014, p. 22.   543	 Checchi and Company Consulting, Inc., Data Quality
511	 USAID, ODG, response to SIGAR data call, 12/30/2013.                       Assessment: The Asia Foundation’s (TAF) Institutionalizing the
512	 USAID, OPPD, response to SIGAR data call, 3/31/2014.                       Survey of the Afghan People’s (ISAP) Project, 1/25/2014, pp. 2, 4.
513	 DOD, CSTC-A, response to SIGAR data call, 12/30/2013.                 544	 Checchi and Company Consulting, Inc., Data Quality
514	 DOD, CSTC-A, response to SIGAR data call, 12/30/2013.                      Assessment: The Asia Foundation’s (TAF) Institutionalizing
515	 DOD, CSTC-A, response to SIGAR data call, 3/31/2014.                       the Survey of the Afghan People’s (ISAP) Project, 1/25/2014, p. 5.
516	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.                   545	 Checchi and Company Consulting, Inc., Data Quality
517	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.                        Assessment: The Asia Foundation’s (TAF) Institutionalizing
518	 DOD, CSTC-A, response to SIGAR data call, 4/4/2014.                        the Survey of the Afghan People’s (ISAP) Project, 1/25/2014, p. 2.




                                                    256                    Special inspector general         I   Afghanistan reconstruction
                                                           Endnotes




546	 Checchi and Company Consulting, Inc., Data Quality                    571	 MOF, “1392 Monthly Fiscal Bulletin, Month 12,” 2/2/2014.
      Assessment: The Asia Foundation’s (TAF) Institutionalizing           572	 World Bank, Transition to Transformation Update, JCMB
      the Survey of the Afghan People’s (ISAP) Project, 1/25/2014, p. 9.        Meeting, 1/29/2014.
547	 Checchi and Company Consulting, Inc., Data Quality                    573	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed
      Assessment: The Asia Foundation’s (TAF) Institutionalizing                10/10/2013; ADB, Outlook 2014, 3/31/2014, p. 157.
      the Survey of the Afghan People’s (ISAP) Project, 1/25/2014, p. 9.   574	ADB, Outlook 2014, 3/31/2014, p. 155; World Bank, Transition
548	 Checchi and Company Consulting, Inc., Data Quality                         to Transformation Update, JCMB Meeting, 1/29/2014; IMF,
      Assessment: The Asia Foundation’s (TAF) Institutionalizing                World Economic Outlook, 4/2014, p. 185.
      the Survey of the Afghan People’s (ISAP) Project, 1/25/2014, p. 2.   575	 CIA, “World Factbook: Afghanistan,” 4/14/2014.
549 	 Checchi and Company Consulting, Inc., Data Quality                   576	 World Bank, Transition to Transformation Update, JCMB
      Assessment: The Asia Foundation’s (TAF) Institutionalizing                Meeting, 1/29/2014; ADB, Outlook 2014, 3/31/2014, p. 157.
      the Survey of the Afghan People’s (ISAP) Project, 1/25/2014, p. 2.   577	 World Bank, “South Asia Economic Focus,” Fall 2013, accessed
550	 Treasury, response to SIGAR data call, 3/31/2014; FATF,                    10/10/2013.
      “High-Risk and Non-Cooperative Jurisdictions, FATF Public            578	 SIGAR Audit 14-47-AR, Afghan Customs: U.S. Programs Have
      Statement,” 2/14/2014.                                                    Had Some Successes, But Challenges Will Limit Customs
551	 Tokyo Mutual Accountability Framework, “Special Joint                      Revenue As a Sustainable Source of Income for Afghanistan,
      Coordination & Monitoring Board Meeting, Joint Report,”                   4/15/2014.
      1/29/2014; GIROA, “Kabul Process, Joint Coordination &               579	 USAID, response to SIGAR data call, 4/14/2014.
      Monitoring Board,” accessed 4/11/2014.                               580	 SIGAR Audit 14-47-AR, Afghan Customs: U.S. Programs Have
552	 MOF, “1392 Monthly Fiscal Bulletin, Month 12,” 2/2/2014.                   Had Some Successes, But Challenges Will Limit Customs
553	 World Bank, Transition to Transformation Update, JCMB                      Revenue As a Sustainable Source of Income for Afghanistan,
      Meeting, 1/29/2014.                                                       4/15/2014.
554	 MOF, “1393 National Budget,” accessed 4/2/2014.                       581	 SIGAR Audit 14-47-AR, Afghan Customs: U.S. Programs Have
555	 Treasury, response to SIGAR data call, 3/31/2014.                          Had Some Successes, But Challenges Will Limit Customs
556	 DOJ, response to SIGAR data call, 4/2/2014; Treasury, response             Revenue As a Sustainable Source of Income for Afghanistan,
      to SIGAR data call, 3/31/2014.                                            4/15/2014.
557	 TFBSO, response to SIGAR data call, 9/30/2013, 12/30/2013, and        582	 USAID, response to SIGAR data call, 3/31/2014.
      4/1/2014.                                                            583	 European Commission, Directorate-General for Trade,
558	ADB, Outlook 2014, 3/31/2014, p. 155; World Bank, Transition                “European Union, Trade in Goods with Afghanistan,” 7/11/2013,
      to Transformation Update, JCMB Meeting, 1/29/2014; IMF,                   accessed 1/10/2014.
      World Economic Outlook, 4/2014, p. 185.                              584	 World Bank, Afghanistan Economic Update, 10/2013.
559	 World Bank, Transition to Transformation Update, JCMB                 585	 Tokyo Conference on Afghanistan, Tokyo Mutual
      Meeting, 1/29/2014.                                                       Accountability Framework, 7/8/2012, accessed 12/31/2013.
560	 World Bank, South Asia Economic Focus, Fall 2013,                     586	 USAID, response to SIGAR data call, 3/31/2014.
      p. 39, accessed 10/10/2013; World Bank, Transition to                587	 SIGAR Audit 14-47-AR, Afghan Customs: U.S. Programs Have
      Transformation Update, JCMB Meeting, 1/29/2014.                           Had Some Successes, But Challenges Will Limit Customs
561	 World Bank, Afghanistan Economic Update, 4/2013, pp. 4,                    Revenue As a Sustainable Source of Income for Afghanistan,
      17; World Bank, Afghanistan: Country Program Snapshot,                    4/15/2014.
      2/28/2014.                                                           588	 State, response to SIGAR data call, 4/1/2014; USAID, response
562	ADB, Outlook 2014, 3/31/2014, p. 155.                                       to SIGAR data call, 3/31/2014.
563	 World Bank, Afghanistan Partnership: Country Program                  589	 USAID, “Afghanistan Trade and Revenue Project,” 12/30/2013,
      Snapshot, 8/29/2013.                                                      accessed 4/6/2014.
564	 World Bank, Transition to Transformation Update, JCMB                 590	 USAID, response to SIGAR data call, 3/31/2014.
      Meeting, 1/29/2014.                                                  591	 IMF, “IMF Executive Board Completes First Review
565	 World Bank, South Asia Economic Focus, Fall 2013, accessed                 Under the Extended Credit Facility Arrangement for the
      10/10/2013.                                                               Islamic Republic of Afghanistan, Approves US$18.2 Million
566	 World Bank, South Asia Economic Focus, Fall 2013, accessed                 Disbursement,” 6/29/2012, accessed 7/3/2013; IMF, Islamic
      10/10/2013.                                                               Republic of Afghanistan-First Review Under the Extended
567	 World Bank, Afghanistan, From Transition to Transformation                 Credit Facility Arrangement, Request for Waiver of
      II, Senior Officials Meeting, 7/2/2013; World Bank, Transition            Nonobservance of a Performance Criterion, Modification
      to Transformation Update, JCMB Meeting, 1/29/2014.                        of Performance Criteria, and Rephasing of Disbursements,
568	 MOF, “1393 National Budget Approved by WJ,” 1/18/2014;                     6/19/2012, accessed 7/3/2013; Treasury, response to SIGAR
      Da Afghanistan Bank, “Daily Exchange Rates of Selected                    vetting, 7/12/2013.
      Currencies to Afghani,” 1/15/2014, accessed 4/2/2014.                592	 Treasury, response to SIGAR data call, 3/31/2014.
569	 MOF, “1393 Citizen’s Budget,” accessed 4/12/2014.                     593	 State, response to SIGAR data call, 4/1/2014.
570	 MOF, “1392 National Budget,” accessed 10/17/2013; Da                  594	 SIGAR Audit 14-16, Afghanistan’s Banking Sector: The Central
      Afghanistan Bank, “Daily Exchange Rates of Selected                       Bank’s Capacity to Regulate Commercial Banks Remains
      Currencies to Afghani,” 1/8/2013, accessed 10/17/2013.                    Weak, 1/2014.




Report to the united states congress           I   April 30, 2014                      257
                                                       Endnotes




595	 USAID, response to SIGAR data call, 3/31/2014; State, response     625	 DOJ, response to SIGAR data call, 1/4/2014 and 4/2/2014; State,
     to SIGAR vetting, 4/15/2014; World Bank, ARTF Incentive                 INL, response to SIGAR data call, 4/1/2014.
     Program 1391-93, Annex 1: Framework for the Incentive              626	 DOJ, response to SIGAR data call, 1/4/2014; DOJ, response to
     Program Under the Recurrent Cost Window, accessed 4/6/2014.             SIGAR data call, 4/2/2014.
596	 Treasury, response to SIGAR data call, 3/31/2014.                  627	 Independent Joint Anti-Corruption Monitoring and Evaluation
597	 State, “U.S. General Statement for the July 3 Tokyo Mutual              Committee, Report of the Public Inquiry Into the Kabul Bank
     Accountability Framework Senior Officials Meeting,” accessed            Crisis, 11/15/2012, p. 2.
     1/5/2014.                                                          628	 State, response to SIGAR data call, 3/25/2013; DOJ, response to
598	 World Bank, “ARTF Incentive Program (MOU),” accessed                    SIGAR data call, 6/29/2013.
     4/11/2014.                                                         629	 State, response to SIGAR data call, 4/1/2014.
599	 USAID, response to SIGAR data call, 3/31/2014.                     630	 Treasury, response to SIGAR data call, 3/31/2014; DOJ, response
600	 Tokyo Mutual Accountability Framework, “Special Joint                   to SIGAR data call, 4/2/2014.
     Coordination & Monitoring Board Meeting, Joint Report,”            631	DAB, Report on Kabul Bank Asset Recovery, 9/30/2013 (pub-
     1/29/2014; USAID, response to SIGAR vetting, 4/14/2014.                 lished, after approval, on 11/1/2013).
601	 USAID, response to SIGAR data call, 3/31/2014; USAID,              632	 State, INL, response to SIGAR data call, 4/1/2014; State, INL,
     response to SIGAR vetting, 4/14/2014.                                   response to SIGAR vetting, 4/12/2014.
602	 USAID, response to SIGAR data call, 3/31/2014.                     633	 DOJ, response to SIGAR data call, 4/2/2014.
603	 USAID, response to SIGAR data call, 3/31/2014.                     634	 Treasury, response to SIGAR data call, 3/31/2014; DAB, Report
604	 World Bank, Afghanistan Economic Update, 4/2013, pp. 11–12.             on Kabul Bank Asset Recovery, 9/30/2013 (published, after
605	 State, response to SIGAR data call, 4/1/2014.                           approval, on 11/1/2013).
606	 SIGAR Audit 14-16, Afghanistan’s Banking Sector: Central           635	 Grant Thornton, New Kabul Bank Financial Statements and
     Bank’s Capacity to Regulate Commercial Banks Remains                    Auditor’s Report, For the Year Ended December 31, 2012,
     Weak, 1/8/2014.                                                         7/30/2013.
607	 SIGAR Audit 14-16, Afghanistan’s Banking Sector: Central           636	 Treasury, response to SIGAR data call, 3/31/2014.
     Bank’s Capacity to Regulate Commercial Banks Remains               637	 Treasury, response to SIGAR data call, 3/29/2012; IMF,
     Weak, 1/8/2014.                                                         Islamic Republic of Afghanistan-First Review Under the
608	 Treasury, response to SIGAR data call, 12/30/2013; Treasury,            Extended Credit Facility Arrangement, Request for Waiver
     response to SIGAR vetting, 1/14/2014 and 1/16/2014.                     of Nonobservance of a Performance Criterion, Modification
609	 Treasury, response to SIGAR data call, 3/31/2014.                       of Performance Criteria, and Rephasing of Disbursements,
610	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.                 6/19/2012, accessed 7/3/2013.
611	 State, response to SIGAR data call, 9/26/2013.                     638	 Treasury, response to SIGAR data call, 3/31/2014.
612	 Treasury, response to SIGAR data call, 12/30/2013; FATF,           639	 Treasury, response to SIGAR data call, 3/31/2014; MOF, “The
     “Improving Global AML/CFT Compliance: On-Going Process,”                Evaluation Committee of New Kabul Bank Privatization
     2/14/2014.                                                              Declared Technical Evaluation Results and Opened Price Bid,”
613	 State, response to SIGAR data call, 9/26/2013.                          12/29/2013.
614	 World Bank, Afghanistan Economic Update, 4/2013, p. 11.            640	 State, response to SIGAR data call, 4/1/2014.
615	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.            641	 Treasury, response to SIGAR data call, 3/31/2014.
616	 Da Afghanistan Bank, “Daily Exchange Rates of Selected             642	IMF, Islamic Republic of Afghanistan-First Review Under the
     Currencies to the Afghani,” 1/3/2012, http://www.central-               Extended Credit Facility Arrangement, Request for Waiver
     bank.gov.af/foreignexchange.php; Da Afghanistan Bank,                   of Nonobservance of a Performance Criterion, Modification
     “Daily Exchange Rates of Selected Currencies to the                     of Performance Criteria, and Rephasing of Disbursements,
     Afghani,” 3/31/2014, http://www.centralbank.gov.af/foreign-             6/19/2012, accessed 7/3/2013.
     exchange.php.                                                      643	 Treasury, response to SIGAR data call, 3/31/2014.
617	 Treasury, response to SIGAR data call, 3/31/2014.                  644	 State, “U.S. Civil-Military Strategic Framework for Afghanistan,”
618	 FATF, “Improving Global AML/CFT Compliance: On-Going                    8/2013.
     Process,” 2/14/2014.                                               645	 Reuters, “U.S. Aid Plan Seeks to Shield Afghanistan from End to
619	 FATF, “Improving Global AML/CFT Compliance: On-Going                    War Economy,” 2/9/2014.
     Process,” 6/21/2013.                                               646	 State, response to SIGAR vetting, 1/14/2014.
620	 Treasury, response to SIGAR data call, 3/31/2014.                  647	 USAID, response to SIGAR data call, 1/7/2014 and 4/7/2014.
621	 FATF, “High-Risk and Non-Cooperative Jurisdictions, FATF           648	 World Bank, Afghanistan Economic Update, 4/2013, p. 4;
     Public Statement,” 2/14/2014; Treasury, response to SIGAR vet-          World Bank, “Inclusive Growth for Sustainable Jobs,” 5/7/2013,
     ting, 4/13/2014.                                                        p. 20; MOF, “H.E. Finance Minister’s Speech for Misrano Jirga
622	 SIGAR, Internal Memorandum, 4/2/2014.                                   Regarding Submission of 1392 National Budget,” 11/6/2012,
623	 Treasury, response to SIGAR data call, 12/30/2013; The Wall             accessed 10/14/2013.
     Street Journal, “Afghan Banks Face New Dollar Troubles,” The       649	 TFBSO, “About, Minerals,” accessed 1/2/2014.
     Wall Street Journal, 6/13/2013.                                    650	 TFBSO, response to SIGAR data call, 12/30/2013 and 4/1/2014.
624	 DOJ, response to SIGAR data call, 6/29/2013 and 4/2/2014; State,   651	 TFBSO, response to SIGAR data call, 12/30/2013.
     INL, response to SIGAR vetting, 4/12/2014.                         652	 TFBSO, response to SIGAR vetting, 4/11/2014.




                                                 258                    Special inspector general        I   Afghanistan reconstruction
                                                           Endnotes




653	 TFBSO, response to SIGAR data call, 9/30/2013 and 12/30/2013.         680	 Tolo News, “Chinese Company Seeks Amendments to Aynak
654	 TFBSO, response to SIGAR data call, 4/1/2014; TFBSO,                        Copper Mine Contract,” 8/22/2013, accessed 9/11/2013; Foreign
      response to SIGAR data call, 4/1/2014.                                     Policy, “What’s to become of Afghanistan’s Mines?” 4/2/2014.
655	 TFBSO, response to SIGAR data call, 12/30/2013 and 4/1/2014;          681	 MOF, “1393 National Budget,” accessed 4/2/2014; MOF, “1392
      TFBSO, response to SIGAR vetting, 4/11/2014.                               National Budget,” accessed 4/2/2014.
656	 Tokyo Conference on Afghanistan, Tokyo Mutual                         682	 TFBSO, response to SIGAR data call, 4/1/2014.
      Accountability Framework, 7/8/2012, accessed 7/4/2013;               683	 MOMP, “Afghanistan Ministry of Mines Announces the Winning
657	 TFBSO, response to SIGAR data call, 4/1/2014; TFBSO,                        Bidders for the Hajigak Iron Ore Project Tender,” 6/23/2012.
      response to SIGAR vetting, 4/11/2014.                                684	 Bloomberg News, “SAIL-led Consortium to Cut Spend on
658	 TFBSO, response to SIGAR data call, 9/30/2013 and 12/30/2013.               Afghan Iron-Ore Mine,” 11/11/2013; TFBSO, response to SIGAR
659	 TFBSO, response to SIGAR vetting, 4/17/2014.                                data call, 4/1/2014; Foreign Policy, “What’s to become of
660	IMF, Islamic Republic of Afghanistan-First Review Under the                  Afghanistan’s Mines?” 4/2/2014.
      Extended Credit Facility Arrangement, Request for Waiver             685	 ACCI, “The First Afghanistan’s Refinery Opened,” 8/25/2013,
      of Nonobservance of a Performance Criterion, Modification                  accessed 9/12/2013; State, response to SIGAR vetting,
      of Performance Criteria, and Rephasing of Disbursements,                   10/11/2013.
      6/19/2012, accessed 7/3/2013; Treasury, response to SIGAR vetting.   686	 MOMP, “10 Reasons to Invest In Afghanistan’s Mining Sector,”
661	 TFBSO, response to SIGAR data call, 12/30/2013 and 4/1/2014.                accessed 4/2/2014; GIROA, “Contract on Amu Darya Oil Enjoys
662	 MOMP, “Afghanistan Ministry of Mines Announces the Winning                  Highest Degree of Transparency and Fairness: U.S. and UK
      Bidders for the Hajigak Iron Ore Project Tender,” 6/23/2012;               Ambassadors in Meeting with President Karzai,” 6/23/2012.
      TFBSO, response to SIGAR data call, 4/1/2014.                        687	 MOMP, “CNPCI Watan Oil and Gas Afghanistan Ltd.
663	 MOMP, “Preferred Bidder for Current Mineral Tenders,”                       Announcement of a Tender for the Sale of Crude Oil,”
      12/6/2012; MOMP, “Preferred Bidder for Zarkashan Project,”                 12/31/2013; TFBSO, response to SIGAR data call, 4/1/2014; State,
      12/16/2012.                                                                response to SIGAR data call, 4/1/2014.
664	 TFBSO, response to SIGAR data call, 4/1/2014; USGS,                   688	 TFBSO, response to SIGAR data call, 4/1/2014.
      “New Maps of Afghanistan Provide “Fingerprint” of Natural            689	 TFBSO, response to SIGAR data call, 4/1/2014; State, response
      Resources,” 3/10/2014.                                                     to SIGAR data call, 4/1/2014.
665	 TFBSO, response to SIGAR data call, 9/30/2013; TFBSO,                 690	 TFBSO, response to SIGAR data call, 4/1/2014.
      response to SIGAR data call, 4/1/2014.                               691	 MOMP, “Afghanistan Announces Third Oil and Gas Tender
666	 TFBSO, response to SIGAR data call, 4/1/2014.                               in Three Years,” 1/7/2014; MOMP, “Request for Expression
667 	 USAID, response to SIGAR data call, 3/31/2014; USAID,                      of Interest-Oil and Gas Exploration and production Tender,”
      “Contract No: AID-306-I-00-12-00544,” 3/31/2013; USAID,                    9/27/2013.
      response to SIGAR vetting, 4/14/2014.                                692	 MOMP, “Afghanistan Announces Third Oil and Gas Tender in
668	 USAID, “Mining Investment and Development for Afghan                        Three Years,” 1/7/2014; TFBSO, response to SIGAR data call,
      Sustainability, Monthly Progress Report–February 2014,”                    12/30/2013; MOMP, “Request for Expression of Interest-Oil and
      3/5/2014.                                                                  Gas Exploration and production Tender,” 9/27/2013.
669	TFBSO, Task Force for Business and Stability Operations                693	 TFBSO, response to SIGAR data call, 12/30/2013.
      Fiscal Year 2013 Transition Plan and Report on Transition            694	 TFBSO, response to SIGAR data call, 4/1/2014.
      Implementation, 8/19/2013, p. 1.                                     695	 World Bank, “Afghanistan: Country Program Snapshot,”
670	 TFBSO, response to SIGAR data call, 4/1/2014.                               2/28/2014; USDA, “Agriculture in Afghanistan Overview,”
671	 TFBSO, response to SIGAR data call, 4/1/2014.                               accessed 6/14/2013.
672	 State, response to SIGAR data call, 12/29/2013 and 4/1/2014;          696	NSC, Report in Response to Section 1535(c) of the Ike Skelton
      APPF, “Meeting Held Over Disbandment of APPF,” 3/8/2014; The               National Defense Authorization Act for Fiscal Year 2011 (P.L.
      Wall Street Journal, “Afghanistan to Disband Crucial Guard                 111-383), accessed 9/18/2012.
      Force,” 3/4/2014; DOD, response to SIGAR vetting, 4/19/2014;         697	 USAID, response to SIGAR data call, 3/31/2014.
      DOD, response to SIGAR vetting, 4/18/2014.                           698	 USAID, response to SIGAR data call, 4/7/2014.
673	 State, response to SIGAR data call, 12/29/2013; TFBSO,                699 	 USAID, response to SIGAR data call, 3/31/2014.
      response to SIGAR data call, 9/30/2013.                              700	 USAID, response to SIGAR data call, 9/30/2013.
674	 CSTC-A, response to SIGAR data call, 3/31/2014; TFBSO,                701	USAID, Agricultural Credit Enhancement (ACE) Program,
      response to SIGAR data call, 4/1/2014.                                     Monthly Report No. 42, February 1–28, 2014, 2/2014.
675	 State, response to SIGAR data call, 12/29/2013; TFBSO,                702	 USAID, response to SIGAR data call, 12/31/2013.
      response to SIGAR data call, 4/1/2014.                               703	 UNODC, Afghanistan Opium Survey 2013, 12/2013, p. 10;
676	 State, response to SIGAR data call, 9/26/2013.                              USAID, response to SIGAR data call, 12/31/2013; USAID,
677	 MOMP, “Comparative Table of Bidding Companies for Aynak                     response to SIGAR vetting, 4/14/2014.
      Copper Mine,” accessed 1/3/2014; MOMP, “Executive Summary            704	 USAID, response to SIGAR data call, 12/31/2013; USAID,
      Regarding Tender Process of Aynak Copper,” accessed 1/3/2014.              response to SIGAR vetting, 4/14/2014.
678	 State, response to SIGAR data call, 9/26/2013; TFBSO, response        705	 USAID, response to SIGAR data call, 9/30/2013; USAID,
      to SIGAR data call, 4/1/2014.                                              “Commercial Horticulture and Agriculture Marketing Program,
679	 TFBSO, response to SIGAR data call, 4/1/2014.                               Factsheet,” 1/2013; USAID response to SIGAR data call, 12/31/2013.




Report to the united states congress           I   April 30, 2014                        259
                                                         Endnotes




706	 USAID, response to SIGAR data call, 9/30/2013 and 12/30/2013.        734	 USAID, response to SIGAR vetting, 1/15/2014.
707	 USAID, response to SIGAR data call, 12/30/2013.                      735	 USAID, Implementation Letter No. IL-56 for the Installation of
708	USAID, Kandahar Food Zone Program, Quarterly Report                        Turbine Generator Unit 2 at Kajaki Dam Hydropower Plant,
     October–December 2013, 1/31/2014.                                         4/22/2013.
709	 USAID, response to SIGAR data call, 12/31/2013; USAID,               736	 USAID, “DABS Inks Contract to Install Final Turbine at Kajaki
     “Cooperative Agreement No. AID-306-A-13-00008, Kandahar                   Dam,” 12/9/2013, accessed 12/31/2013; USAID, response to
     Food Zone,” 7/31/2013; USAID, KFZ Quarterly Report July-                  SIGAR vetting, 1/15/2014.
     September 2013, 10/31/2013.                                          737	 USAID, Special Notice, “Kajaki Unit 2 Construction
710	 USAID, response to SIGAR data call, 12/31/2013; USAID,                    Technical Support Services, Solicitation Number: OAA-
     “Cooperative Agreement No. AID-306-A-13-00008, Kandahar                   BVSPC-2013-00094,” 12/17/2013, accessed 12/31/2013; USAID,
     Food Zone,” 7/31/2013; USAID, KFZ Quarterly Report October-               response to SIGAR vetting, 1/15/2014 and 4/14/2014.
     December 2013, 1/31/2014.                                            738	 USAID, response to SIGAR vetting, 4/15/2013; DOD, response to
711	 USAID, response to SIGAR data call, 12/31/2013.                           SIGAR vetting, 10/16/2013; USAID, response to SIGAR data call,
712	 USAID, response to SIGAR data call, 3/31/2014.                            12/31/2013.
713	 World Bank, “Afghanistan Partnership: Country Program                739	 USAID, response to SIGAR data call, 3/31/2014.
     Snapshot,” 8/29/2013.                                                740	 House Oversight and Government Reform Committee, 4/3/2014,
714	DOD, Report on Progress Toward Security and Stability                      https://www.youtube.com/watch?v=R0_352llDyQ#t=5661.
     in Afghanistan, 11/2013, p. 106; USAID, “Factsheet:                  741	 USAID, “Statement for the Record Before the House Oversight
     Infrastructure,” 2/2013, accessed 9/10/2013.                              and Government Reform Subcommittee on National Security,
715	 USAID, response to SIGAR data call, 3/31/2014.                            Afghanistan: Identifying and Addressing Wasteful U.S.
716	 World Bank, “World Bank Group Invests in Energy Trade                     Govenrment Spending,” 4/3/2014.
     Between Central Asia and South Asia,” 3/27/2014.                     742	 SIGAR Audit 13-7, Afghanistan’s National Utility:
717	 U.S. Embassy Kabul, “U.S. Announces $15 Million in Funding                Commercialization Efforts Challenged By Expiring
     for CASA-1000 Electricity Project,” 12/11/2013.                           Subsidy and Poor USFOR-A and USAID Project
718	 World Bank, “World Bank Group Invests in Energy Trade                     Management, 4/18/2013; SIGAR, Quarterly Report to
     Between Central Asia and South Asia,” 3/27/2014.                          Congress, 4/2013, p. 26.
719	 USAID, response to SIGAR vetting, 1/15/2014.                         743	 USAID, response to SIGAR data call, 4/7/2014 and 1/7/2014;
720	 USAID, response to SIGAR vetting, 1/15/2014; DOD, response to             USAID, response to SIGAR vetting, 4/14/2014.
     SIGAR vetting, 1/16/2014.                                            744	 USAID, response to SIGAR vetting, 1/15/2014.
721	 USAID, response to SIGAR data call, 7/1/2013; USAID, response        745	 USAID, response to SIGAR vetting, 4/14/2014.
     to SIGAR vetting, 1/15/2014; DOD, response to SIGAR vetting,         746	 USAID, response to SIGAR vetting, 1/15/2014.
     1/16/2014.                                                           747	 USAID, response to SIGAR vetting, 1/15/2014; USAID, response
722	 USAID, response to SIGAR data call, 7/1/2013.                             to SIGAR data call, 3/31/2014.
723	 USAID, response to SIGAR data call, 9/30/2013; USAID,                748	 USAID, response to SIGAR vetting, 1/15/2014; USAID, response
     response to SIGAR vetting, 4/14/2014.                                     to SIGAR data call, 3/31/2014.
724	 USAID, response to SIGAR data call, 9/30/2013;. USAID,               749	 USAID, response to SIGAR data call, 3/31/2014; MOF, “Three
     response to SIGAR vetting, 4/14/2014.                                     Contracts of $151 Million Have Been Signed With Companies
725	 USAID, response to SIGAR data call, 9/30/2013.                            for the Improvement of Electricity Network,” 3/26/2014.
726	 MOMP, “The Contract for the Rehabilitation and Drilling of Gas       750	 USAID, response to SIGAR data call, 3/31/2014.
     Wells in Juma and Bashikord Signed,” 12/14/2013; MOMP, “Request      751	 MOF, “Three Contracts of $151 Million Have Been Signed
     for Expression of Interest-Oil and Gas Exploration and Production         With Companies for the Improvement of Electricity Network,”
     Tender,” 9/1/2013; USAID, response to SIGAR data call, 12/31/2013.        3/26/2014; USAID, response to SIGAR vetting, 4/14/2014.
727	 USAID, response to SIGAR data call, 4/7/2014.                        752	 USAID, response to SIGAR vetting, 1/15/2014; USAID, response
728	 USAID, response to SIGAR data call, 12/31/2013; USAID,                    to SIGAR data call, 3/31/2014.
     response to SIGAR vetting, 4/14/2014.                                753	 USAID, response to SIGAR vetting, 1/15/2014.
729	 USAID, response to SIGAR data call, 7/1/2013; USAID, response        754	 DOD, response to SIGAR data call, 9/30/2013 and 1/13/2014.
     to SIGAR vetting, 1/15/2014.                                         755	 DOD, response to SIGAR vetting, 10/16/2013.
730	 USAID, response to SIGAR vetting, 4/14/2014.                         756	 DOD, responses to SIGAR data call, 9/30/2013, 1/13/2014 and
731	 USAID, response to SIGAR data call, 9/30/2013; USAID,                     4/1/2014; DOD, response to SIGAR vetting, 10/16/2013.
     Contract No. 306-C-00-11-00506-00, 10/29/2010, p. 18; USAID,         757	 SIGAR, Interview Record, Kandahar, Afghanistan, 3/12/2014.
     response to SIGAR vetting, 1/15/2014.                                758	 DOD, response to SIGAR data call, 4/3/2014.
732	 SIGAR, Record of Site Visit, Kajaki Dam, Helmand Province,           759	 National Defense Authorization Act for Fiscal Year 2014,
     Afghanistan, 5/23/2013; Afghanistan Analysts Network, Eagle’s             Sec.1224, pp. 253–254, accessed 4/3/2014.
     Summit Revisited,” 1/2013; USAID, response to SIGAR vetting,         760	 Consolidated Appropriations Act, 2014, Sec. 9016, p. 344,
     1/15/2014.                                                                accessed 4/3/2014; Library of Congress, Bill Summary &
733	 USAID, Implementation Letter No. IL-56 for the Installation of            Status, 113th Congress, H.R. 3547, Major Congressional
     Turbine Generator Unit 2 at Kajaki Dam Hydropower Plant,                  Actions.
     4/22/2013.                                                           761	 DOD, response to SIGAR vetting, 1/16/2014.




                                                   260                    Special inspector general      I   Afghanistan reconstruction
                                                        Endnotes




762	 DOD, response to SIGAR data call, 9/30/2013; SIGAR, Quarterly     791	 USAID, “Basic Education, Literacy and Technical-Vocational
     Report to Congress, 4/2013, p. 157; DOD, response to SIGAR              Education and Training,” 8/30/2013; USAID, response to SIGAR
     vetting, 10/16/2013.                                                    vetting, 4/14/2014.
763	 DOD, response to SIGAR data call, 9/30/2013.                      792	 USAID, response to SIGAR data call, 12/31/2013; USAID,
764	 DOD, response to SIGAR data call, 9/30/2013, 1/13/2014, and             response to SIGAR vetting, 1/14/2014 and 4/14/2014.
     4/3/2014; DOD, response to SIGAR vetting, 10/16/2013.             793	 USAID, Afghanistan, “Our Work, Education,” 3/24/2014,
765	 DOD, response to SIGAR vetting, 10/16/2013.                             accessed 4/10/2014.
766	 DOD, response to SIGAR data call, 6/27/2013; DOD, response        794	 SIGAR Inspection 14-24, Balkh Education Facility: Building
     to SIGAR data call, 9/30/2013; DOD, response to SIGAR vetting,          Remains Unfinished and Unsafe to Occupy After Nearly 5
     10/16/2013.                                                             Years,1/2014.
767	 SIGAR Audit 12-12, Fiscal Year 2011 Afghanistan                   795	 USAID, response to SIGAR vetting, 4/14/2014.
     Infrastructure Fund Projects Are Behind Schedule and Lack         796	 USAID, response to SIGAR vetting, 1/14/2014.
     Adequate Sustainment Plans, 7/2012.                               797	 USAID, response to SIGAR data call, 3/31/2014.
768	 DOD, response to SIGAR data call, 9/30/2013, 1/13/2014, and       798	 USAID, response to SIGAR data call, 3/31/2014.
     4/3/2014; DOD, response to SIGAR vetting, 10/16/2013.             799	 USAID, “Gender Assessment, Rapid Assessment of Ministry of
769	 DOD, response to SIGAR vetting, 10/16/2013.                             Education Textbooks,” 9/2013.
770	 USAID, response to SIGAR data call, 9/30/2013.                    800	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
771	 USAID, response to SIGAR data call, 3/31/2014.                          to SIGAR vetting, 10/13/2013.
772	 USAID, response to SIGAR data call, 3/31/2014; USAID,             801	 USAID, response to SIGAR data call, 3/31/2014.
     response to SIGAR vetting 1/15/2014 and 4/14/2014.                802	 USAID, response to SIGAR data call, 3/31/2014; USAID,
773	 USAID, response to SIGAR data call, 3/31/2014.                          response to SIGAR vetting, 4/14/2014.
774	 State, response to SIGAR data call, 4/1/2014; The Wall Street     803	 USAID, “Quarterly Report November 1, 2013 To January 31,
     Journal, “Afghanistan to Disband Crucial Guard Force,”                  2014, American University of Afghanistan,” 1/31/2014.
     3/4/2014.                                                         804	 USAID, response to SIGAR data call, 3/31/2014.
775	 World Bank, Afghanistan Transport Sector, accessed 7/8/2013.      805	 USAID, “Health Programs, Health Snapshot,” accessed
776	SIGAR, Quarterly Report to Congress, 10/2013, p. 169; Civil-             7/6/2013;USAID, Afghanistan Mortality Survey 2010, Key
     Military Fusion Centre, “The Rise of the Afghan Rails: Regional         Findings, 12/2011, accessed 7/6/2013.
     Railway Linkages and Economic Growth in Afghanistan,”             806	 CIA, “World Factbook: Afghanistan,” 4/9/2014; World Bank,
     3/2013, pp. 1, 5.                                                       World Development Indicators, accessed 4/10/2014.
777	 DOT, response to SIGAR data call, 3/31/2014.                      807 	 USAID, response to SIGAR data call, 3/31/2014.
778	 DOT, response to SIGAR data call, 3/31/2014; USAID, response      808	 USAID, response to SIGAR data call, 4/11/2013; USAID,
     to SIGAR data call, 3/31/2014.                                          response to SIGAR vetting, 10/13/2013.
779	 DOT, response to SIGAR data call, 3/31/2014.                      809	 USAID, “Partnership Contracts for Health: Fact Sheet,” 1/2013;
780	 USAID, response to SIGAR data call, 12/31/2013; DOT, response           USAID, response to SIGAR vetting, 10/13/2013 and 4/14/2014;
     to SIGAR data call, 3/31/2014.                                          USAID, response to SIGAR data call, 3/31/2014; MOPH, Annual
781	 DOT, response to SIGAR data call, 3/31/2014.                            HIS Report, Year 1391, 2013, accessed 1/7/2014;
782	 DOT, response to SIGAR data call, 3/31/2014.                      810	 USAID, response to SIGAR data call, 12/31/2013; MOPH, Annual
783	 DOT, response to SIGAR data call, 3/31/2014.                            HIS Report, Year 1391, 2013, accessed 1/7/2014.
784	 USAID, response to SIGAR data call, 12/31/2013 and 3/31/2014.     811	 USAID, “Partnership Contracts for Health: Fact Sheet,” 1/2013;
785	SIGAR, Quarterly Report to Congress, 7/2013, p. 164                      USAID, response to SIGAR data call, 9/30/2013; USAID,
786	 GIROA, “President Karzai Leaves for Turkmenistan to                     response to SIGAR vetting, 10/13/2013 and 4/14/2014.
     Inaugurate Railway Project between Afghanistan, Turkmenistan      812	 USAID, response to SIGAR data call, 3/31/2014.
     and Tajikistan,” 6/5/2013, accessed 1/5/2014; SIGAR, Quarterly    813	 USAID, response to SIGAR data call, 3/31/2014.
     Report to Congress, 7/2013, pp. 164–165.                          814	 SIGAR Audit 13-17, Health Services in Afghanistan: USAID
787	MOE, Education Management Information System (EMIS)                      Continues Providing Millions of Dollars to the Ministry of
     Generated Report, Summary of Students Attendance Year                   Public Health Despite the Risk of Misuse of Funds, 9/2013.
     1391, accessed 4/12/2014; MOE, Education Management               815	 USAID, response to SIGAR data call, 12/31/2013.
     Information System (EMIS) Generated Report, Summary               816	 USAID, response to SIGAR data call, 3/31/2014.
     of Schools By Different Education Type Year 1391, accessed        817	 USAID, response to SIGAR data call, 12/31/2013; USAID,
     4/12/2014.                                                              “Health Policy Project: Factsheet,” 1/2013; USAID, response to
788	MOE, Education Management Information System (EMIS)                      SIGAR vetting, 10/13/2013 and 4/14/2014.
     Generated Report, Summary of Students Attendance Year             818	 USAID, response to SIGAR data call, 3/31/2014.
     1391, accessed 4/12/2014; USAID, response to SIGAR vetting,       819	 USAID, response to SIGAR data call, 3/31/2014.
     4/12/2014.                                                        820	 USAID, “Leadership, Management, Governance: Fact Sheet,”
789	 USAID, response to SIGAR data call, 7/1/2013; USAID, response           1/2013.
     to SIGAR data call, 9/30/2013; USAID, response to SIGAR vet-      821	 USAID, response to SIGAR data call, 3/31/2014.
     ting, 1/14/2014.                                                  822	 USAID, response to SIGAR vetting, 10/13/2013.
790	 USAID, response to SIGAR data call, 3/31/2014.                    823	 USAID, response to SIGAR data call, 3/31/2014.




Report to the united states congress        I   April 30, 2014                      261
                                                      Endnotes




824	 USAID, response to SIGAR data call, 3/31/2014.                   832	 USAID OIG, Audit of USAID/Afghanistan’s Financial Access
825	USAID, The State of Telecommunications and Internet in                 for Investing in the Development of Afghanistan Project, Audit
     Afghanistan Six Years Later (2006-2012), 3/2012, accessed             Report No. F-306-14-002-P, 3/29/2014.
     1/16/2014; MCIT, Memorandum of Understanding between             833	 USAID OIG, Audit of USAID/Afghanistan’s Financial Access
     Ministry of Communication and IT, and Afghanistan Investment          for Investing in the Development of Afghanistan Project, Audit
     Support Agency, 11/27/2013; GIROA, Towards Self-Reliance,             Report No. F-306-14-002-P, 3/29/2014.
     Strategic Vision for the Transformation Decade,” 7/8/2012.       834	 USAID, response to SIGAR data call, 4/7/2014.
826	 DOD, response to SIGAR data call, 4/3/2014.                      835	 TFBSO, response to SIGAR data call, 12/30/2013.
827	 DOD, response to SIGAR data call, 4/3/2014.                      836	 DOD, response to SIGAR data call, 4/3/2014; DOD, response to
828	 DOD, response to SIGAR data call, 4/3/2014; State, response to        SIGAR vetting, 4/10/2014.
     SIGAR data call, 12/29/2013.                                     837	 DOD, response to SIGAR data call, 4/3/2014.
829	 World Bank, Afghanistan Diagnostics Trade Integration            838	 USAID, response to SIGAR data call, 3/31/2014; USAID,
     Study, 11/2012, accessed 1/5/2014.                                    response to SIGAR vetting, 4/14/2014.
830	 TFBSO, response to SIGAR data call, 12/30/2013;                  839	 DOD, response to SIGAR data call, 4/3/2014; DOD, response to
831	 World Bank, Afghanistan Diagnostics Trade Integration                 SIGAR vetting, 4/10/2014.
     Study, 11/2012, accessed 1/5/2014.                               840	 USAID, response to SIGAR data call, 3/31/2014.




                                                262                   Special inspector general      I   Afghanistan reconstruction
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).

                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,                                                     Afghan National Army officers at a base in Laghman Province hold up blue-inked fingers that
                             or other funding mechanism entered into by any department or agency of the                                                    show they voted in the April 5 presidential and provincial-council election. (U.S. Army photo)
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                                                                                                                                        Quarterly Report Staff

                                                                                                                                        Michael Bindell, Economic and Social Development Subject Matter Expert     Emmett Schneider, Senior Data Analyst/Senior Auditor
                                                                                                                                        Victoria Butler, Director of Research and Analysis Directorate/Editor      Deborah Scroggins, Senior Writer/Editor
                                                                                                                                        Clark Irwin, Deputy Director of Research and Analysis Directorate/Editor   Solange Toura Gaba, Research Assistant
                             Cover photo:                                                                                               Vong Lim, Visual Information Specialist                                    Daniel Weggeland, Governance Subject Matter Expert
                             Afghans check in at a Kabul polling place on April 5 to participate in nationwide voting to select a new
                                                                                                                                        Jennifer Manzullo, Program Manager                                         Genevieve Wilson, Senior Auditor
                             president and members of 34 provincial councils. (United Nations Assistance Mission in Afghanistan
                                                                                                                                        Olivia Paek, Visual Information Specialist                                 Joseph Windrem, Security Subject Matter Expert
                             photo by Fardin Waezi)




FINAL_Apr2014_Cover.indd 2                                                                                                                                                                                                                                                4/16/2014 11:41:17 AM
                                                                                                                                                                                               sigar
        SIGAR
        Special Inspector General                                                                                                                                                                               Special Inspector General for    Apr 30




                                                                                                                     SIGAR | Quarterly Report to the United States Congress | April 30, 2014
        for Afghanistan Reconstruction
                                                                                                                                                                                                                Afghanistan Reconstruction        2014
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                                                                Quarterly Report to the United States Congress
        By phone:
            Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone:
            phone: United States
        Toll-free:
        Toll       866-329-8893
             Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By fax:
           Fax: 703-601-4065
                703-601-4065
        By e-mail:
           E-mail: sigar.hotline@mail.mil
        By Web submission:
                 Submission: www.sigar.mil/investigations/hotline/report-fraud.aspx
                               www.sigar.mil/investigations/hotline/




                                                                                                                     2
                                                                                      sigar
                                                                                      Report Fraud, Waste or Abuse




FINAL_Apr2014_Cover.indd 1                                                                                                                                                                                                                          4/16/2014 11:41:16 AM
